Nos. 19-715, 19-760
In the

Supreme Court of the United States
DONALD J. TRUMP, et al.,
Petitioners,
v.
MAZARS USA, LLP, et al.,
Respondents.
DONALD J. TRUMP, et al.,
Petitioners,
v.
DEUTSCHE BANK AG, et al.,
Respondents.
On Writs of Certiorari to the United States Courts of
Appeals for the District of Columbia and Second Circuits

JOINT APPENDIX
Douglas Neal Letter
William S. Consovoy
Counsel of Record for
Counsel of Record
Respondents Committee on
for Petitioners
Thomas R. McCarthy
Oversight and Reform of the
A lexa R. Baltes
U.S. House of Representatives,
Committee on Financial Services Jordan M. Call
of the U.S. House Representatives; Consovoy McCarthy PLLC
Permanent Select Committee on 1600 Wilson Boulevard, Suite 700
Arlington, VA 22201
Intelligence of the U.S. House of
(703) 243-9423
Representatives
Office of General Counsel,
will@consovoymccarthy.com
U.S. House of Representatives
219 Cannon House Office
Building
Washington, DC 20515
(202) 225-9700
douglas.letter@mail.house.gov
(Additional Counsel Listed on Inside Cover)
PETITION FOR CERTIORARI IN NO. 19-715 FILED DECEMBER 4, 2019
PETITION FOR CERTIORARI IN NO. 19-760 FILED DECEMBER 13, 2019
CERTIORARI GRANTED DECEMBER 13, 2019

Jerry D. Bernstein
Counsel of Record
for Respondent Mazars
USA, LLP
Blank Rome LLP
1271 Avenue of the Americas
New York, New York 10020
(212) 885-5511
jbernstein@blankrome.com
Pratik A rvind Shah
Counsel of Record
for Respondent Deutsche
Bank AG
A kin Gump Strauss Hauer
& Feld, LLP
2001 K Street, NW
Washington, DC 20006
pshah@akingump.com
James A. Murphy
Counsel of Record
for Respondent Capital One
Financial Corporation
Murphy & McGonigle, P.C.
1185 Avenue of the Americas,
21st Floor
New York, New York 10036
(212) 880-3968
jmurphy@mmlawus.com

Patrick Strawbridge
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
Jay A lan Sekulow
Stuart J. Roth
Jordan Sekulow
Constitutional Litigation
and A dvocacy Group, P.C.
1701 Pennsylvania Avenue, NW,
Suite 200
Washington, DC 20006
(202) 546-8890
jsekulow@claglaw.com
Stefan C. Passantino
Michael Best & Friedrich LLP
1000 Maine Avenue SW,
Suite 400
Washington, DC 20024
(202) 747-9582
spassantino@michaelbest.com

i
TABLE OF APPENDICES
Page
a ppendi x a — RELEVANT DOCK ET
	ENTRIES, trump v. mazars  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
A ppendi x B — COMPLAINT of the
UNITED STATES DISTRICT COURT FOR
THE DISTRICT OF COLUMBIA, FILED
	APRIL 22, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30a
a ppendi x c — RELEVANT DOCK ET
	ENTRIES, trump v. deutsche bank  .  .  .  . 50a
A ppendix d — compla int of the
united states district court
for the southern district of
new york, filed april 29, 2019 .  .  .  .  .  .  .  .  . 109a
A p p e n d i x e — S DNY D O C . 5 1 - 2
(deutsche bank SUBPOENA), filed
	may 10, 2019  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 128a
Appendix F — sdny doc. 51-3 (capital
	one SUBPOENA), filed may 10, 2019 .  .  .  .  . 152a
A ppen di x G — Or der , U n i t ed
States District Court for the
Southern District of New York,
Dated May 22, 2019  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 185a

ii
Table of Appendices
Page
Appendix H — Oral Opinion, United
States District Court for the
Southern District of New York,
Excerpted from the May 22, 2019
	Hearing, Dated May 22, 2019  .  .  .  .  .  .  .  .  .  .  . 187a
Appendix I — Opinion, United States
Court of Appeals for the Second
Circuit, Dated December 3, 2019 .  .  .  .  .  . 223a
A ppen di x J — ju dgm en t of t he
united states court of appeals
for the second circuit, dated
december 3, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 376a
The following decision(s), opinion(s) and order(s) have
been omitted in printing this Joint Appendix because
they appear in the appendix of the Trump v. Mazars
19-715 Petition for a Writ of Certiorari on the following
pages:
A p p e n di x A — o p i n ion o f t h e
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLU M BIA
CIRCUIT, DATED October 11, 2019  .  .  .  .  .  .  .  .  . 1a
Appendix b — memorandum opinion
	of the united states district
court f or t h e d i str i ct o f
Columbia, dated may 20, 2019 .  .  .  .  .  .  .  .  .  . 158a

iii
Table of Appendices
Page
Appendix c — ORDER of the united
states court of appeals for the
district of Columbia CIRCUIT, dated
	November 13, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 213a

1a
Appendix ADOCKET ENTRIES,
appendix a — RELEVANT
trump v. mazars
Relevant Docket Entries from the
U.S. District Court
district of columbia
(washington, dc)
CIVIL DOCKET FOR
CASE #: 1:19-cv-01136-apm
Date Filed

#	Docket Text

04/22/2019

1 	

COMPLAINT against All Defendants
(Filing fee $ 400 receipt number
0090-6072689) filed by All Plaintiffs
(Attachments: # 1 Civil Cover Sheet,
# 2 Summons for Elijah E. Cummings,
# 3 Summons for Pet er Kenny)
(Consovoy, William) Modified to add
“All Plaintiffs” on 4/22/2019 (zef, ).
(Entered: 04/22/2019)

04/22/2019

2

REQUEST FOR SUMMONS TO
ISSUE to Mazars USA LLP filed by
DONALD J. TRUMP REVOCABLE
TRUST, TRUMP ORGANIZATION
LLC, TRUMP OLD POST OFFICE
LLC, TRUMP ORGANIZATION,
INC., DONALD J. TRUMP, TRUMP
CORPORATION, DJT HOLDINGS
LLC.(Consovoy, William) (Entered:
04/22/2019)

2a
Appendix A
04/22/2019		

Case Assigned to Judge Amit P. Mehta.
(zef, ) (Entered: 04/22/2019)

04/22/2019

3

LC vR 2 6 .1 CERT I FICAT E OF
DI S CL O SU R E of C or p or at e
Affiliations and Financial Interests
b y T RU M P OR G A N I Z A T ION,
INC. (Consovoy, William) (Entered:
04/22/2019)

04/22/2019

4

LC vR 2 6 .1 CERT I FICAT E OF
DI S CL O SU R E of C or p or at e
Affiliations and Financial Interests
b y T RU M P OR G A N I Z A T IO N
LLC (Consovoy, William) (Entered:
04/22/2019)

04/22/2019

5

LC vR 2 6 .1 CERT I FICAT E OF
DI S CL O SU R E of C or p or at e
Affiliations and Financial Interests by
TRUMP CORPORATION (Consovoy,
William) (Entered: 04/22/2019)

04/22/2019

6

SUMMONS (3) Issued Electronically
as to ELIJA H E. CU MMINGS ,
PETER KENNY, MAZARS USA
LLP. (Attachments: # 1 Notice and
Consent)(zef, ) (Entered: 04/22/2019)

04/22/2019

7

LC vR 2 6 .1 CERT I FICAT E OF
DI S CL O SU R E of C or p or at e
Affiliations and Financial Interests

3a
Appendix A
by DJT HOLDINGS LLC (Consovoy,
William) (Entered: 04/22/2019)
04/22/2019

8

LC vR 2 6 .1 CERT I FICAT E OF
DI S CL O SU R E of C or p or at e
Affiliations and Financial Interests
by TRUMP OLD POST OFFICE
LLC (Consovoy, William) (Entered:
04/22/2019)

04/22/2019

9

MOTION for Temporary Restraining
Order by DJT HOLDINGS LLC,
DONALD J. TRUMP REVOCABLE
T RUS T, D ONA L D J. T RU M P,
TRUMP CORPORATION, TRUMP
OLD POST OFFICE LLC, TRUMP
ORGA NIZATION LLC, TRUMP
ORGANIZATION, INC. (Attachments:
# 1 Memorandum in Support, # 2
Declaration of William S. Consovoy,
# 3 Text of Proposed Order, # 4
Local Rule 65.1(a) Certif icate of
Counsel)(Consovoy, William) (Entered:
04/22/2019)

04/22/2019

10

Emergency MO TION for O rder
Shor tening Defendants’ Time to
Respond to TRO Application by DJT
HOLDINGS LLC, DONALD J. TRUMP
REVOCABLE TRUST, DONALD J.
TRUMP, TRUMP CORPORATION,
TRUMP OLD POST OFFICE LLC,

4a
Appendix A
TRUMP ORGA NIZATION LLC,
TRUMP ORGA NIZATION, INC.
(Attachments: # 1 Text of Proposed
Order)(Consovoy, William) (Entered:
04/22/2019)
04/22/2019

11

04/23/2019		

MOTION for Preliminary Injunction
by DJT HOLDINGS LLC, DONALD
J. TRUMP REVOCABLE TRUST,
D ONA L D J. T RU M P, T RU M P
COR POR AT ION, T RU M P OLD
P O S T OF F IC E L L C , T RU M P
ORGA NIZATION LLC, TRUMP
ORGANIZATION, INC. (Attachments:
# 1 Memorandum in Support, # 2
Declaration of William S. Consovoy,
# 3 Text of Proposed Order)(Consovoy,
William) (Entered: 04/22/2019)
MINUTE ORDER. Consistent with the
parties’ joint scheduling submission,
the court sets the following schedule
for further proceedings in this matter.
Inter venor-Defendant Committee
on Oversight and Reform agrees
to postpone the return date on its
subpoena to Mazars USA, LLP until
seven days after the court rules on
Plaintiffs’ Motion for Preliminary
Injunction. Inter venor-Defendant
Committee on Oversight and Reform’s
and Mazars USA LLP’s Opposition(s),

5a
Appendix A
if any, shall be filed by Wednesday,
May 1, 2019. Plaintiffs’ Replies shall
be filed by May 8, 2019. Oral Argument
is scheduled for May 14, 2019, at 11:00
a.m. in Courtroom 10. In addition,
in light of the parties’ agreed-upon
schedule, Plaintiffs’ Emergency Motion
to Shorten Time, ECF No. 10, is denied
as moot. Plaintiffs’ Application for a
Temporary Restraining Order, ECF
No. 9, is likewise denied as moot.
Sig ned by Judge A mit P. Mehta
on 04/23/2019. (lcapm3) (Entered:
04/23/2019)
04/23/2019		

S et / R e set De a d l i ne s / He a r i ng s:
Oppositions due by 5/1/2019. Replies
due by 5/8/2019. Oral Argument for
5/14/2019 at 11:00 AM in Courtroom
10 before Judge Amit P. Mehta. (zjd)
(Entered: 04/25/2019)

04/26/2019

12

Consent MO TION t o Int er vene
a s Defen d ant by COM MIT T EE
ON OVERSIGHT AND REFORM
OF THE U. S . HOUSE OF
REPRESENTATIVES (Attachments:
# 1 Text of Proposed Order)(Letter,
Douglas) (Entered: 04/26/2019)

04/29/2019

13

ORDER granting 12 Consent Motion
to have Committee on Oversight

6a
Appendix A
and Reform of the U.S. House of
Represent at ives Int er vene a s
Defendant. See attached Order for
additional details. Signed by Judge
Amit P. Mehta on 04/29/2019. (lcapm3)
(Entered: 04/29/2019)
04/29/2019

14

WAIVER OF SERVICE by DONALD
J. TRUMP REVOCABLE TRUST,
TRUMP ORGA NIZATION LLC,
TRUMP OLD POST OFFICE LLC,
TRUMP ORGANIZATION, INC.,
D ONA L D J. T RU M P, T RU M P
CORPORATION, DJT HOLDINGS
LLC. MAZARS USA LLP waiver sent
on 4/29/2019, answer due 6/28/2019.
(C on s o voy, W i l l i a m) ( Ent e r e d :
04/29/2019)

04/29/2019

15

STIPULATION by DJT HOLDINGS
LL C , D ONA L D J. T RU M P
REVOCABLE TRUST, DONALD J.
TRUMP, TRUMP CORPORATION,
T RU M P OL D P O S T OF F IC E
LLC, TRUMP ORGA NIZATION
LLC, TRUMP ORGANIZATION,
INC.. (Consovoy, William) (Entered:
04/29/2019)
***

7a
Appendix A
05/01/2019

20

Memorandum in opposition to
re 11 MOTION for Preliminary
Injunction filed by COMMITTEE
ON OVERSIGHT AND
REFORM OF THE U.S. HOUSE
OF REPRESENTATIVES.
(Attachments: # 1 Declaration of
Greta G. Gao, # 2 Exhibit A to
Declaration of Greta G. Gao, # 3
Exhibit B to Declaration of Greta
G. Gao)(Letter, Douglas) (Entered:
05/01/2019)
***

05/01/2019

22

LCvR 26.1 CERTIFICATE OF
DISCLOSURE of Corporate
Affiliations and Financial Interests
by MAZARS USA LLP (Schuelke,
Henry) (Entered: 05/01/2019)

05/01/2019

23

RESPONSE re 11 MOTION for
Preliminary Injunction filed by
MAZARS USA LLP. (Schuelke,
Henry) (Entered: 05/01/2019)

05/08/2019

24

REPLY to opposition to motion re 11
MOTION for Preliminary Injunction
filed by DJT HOLDINGS LLC,
DONALD J. TRUMP REVOCABLE
TRUST, DONALD J. TRUMP,
TRUMP CORPORATION, TRUMP

8a
Appendix A
OLD POST OFFICE LLC, TRUMP
ORGANIZATION LLC, TRUMP
ORGANIZATION, INC.. (Consovoy,
William) (Entered: 05/08/2019)
05/09/2019

25

05/09/2019		

ORDER notifying the parties that
the court intends to advance 11
Plaintiffs’ Motion for Preliminary
Injunction to trial on the merits. See
attached Order for additional details.
Signed by Judge Amit P. Mehta
on 05/09/2019. (lcapm3) (Entered:
05/09/2019)
Set/Reset Deadlines: Objections and/
or Supplemental Memoranda due by
5/13/2019 at 5:00 pm. (zjd) (Entered:
05/09/2019)
***

05/10/2019

28

MOTION for Leave to File An
Amicus Brief by DUANE MORLEY
COX (Attachments: # 1 Text of
Proposed Order)(jf) (Entered:
05/13/2019)

05/13/2019

29

RESPONSE TO ORDER OF THE
COURT re 25 Order filed by DJT
HOLDINGS LLC, DONALD J.
TRUMP REVOCABLE TRUST,
DONALD J. TRUMP, TRUMP

9a
Appendix A
CORPORATION, TRUMP OLD
POST OFFICE LLC, TRUMP
ORGANIZATION LLC, TRUMP
ORGANIZATION, INC.. (Consovoy,
William) (Entered: 05/13/2019)
05/13/2019

30

AFFIDAVIT Supplemental
Declaration of William S. Consovoy
by DJT HOLDINGS LLC, DONALD
J. TRUMP REVOCABLE TRUST,
DONALD J. TRUMP, TRUMP
CORPORATION, TRUMP OLD
POST OFFICE LLC, TRUMP
ORGANIZATION LLC, TRUMP
ORGANIZATION, INC.. (Consovoy,
William) (Entered: 05/13/2019)

05/13/2019

31

RESPONSE TO ORDER OF
THE COURT re 25 Order filed by
COMMITTEE ON OVERSIGHT
AND REFORM OF THE U.S.
HOUSE OF REPRESENTATIVES.
(Letter, Douglas) (Entered:
05/13/2019)

05/13/2019		

MINUTE ORDER. The hearing
will proceed tomorrow as scheduled.
During the hearing, the court
will take up the objections to its
25 Consolidation Order made in
Plaintiffs’ 29 Response to Order of
the Court. Signed by Judge Amit

10a
Appendix A
P. Mehta on 05/13/2019. (lcapm3)
(Entered: 05/13/2019)
***
05/14/2019		

Minute Entry for proceedings held
before Judge Amit P. Mehta: Oral
Argument held on 5/14/2019 re 11
Motion for Preliminary Injunction.
Oral Motion by Intervenor
Defendant for summary judgment
on the pleadings. The record will
be open until 5/18/2019. Intervenor
Defendant’s In-Camera Submission
due by 5/16/2019. (Court Reporter:
William Zaremba) (zjd) (Entered:
05/14/2019)

05/14/2019

TRANSCRIPT OF ORAL
ARGUMENT PROCEEDINGS
before Judge Amit P. Mehta held
on May 14, 2019; Page Numbers:
1-93. Date of Issuance: May 14,
2019. Court Reporter/Transcriber:
William Zaremba; Telephone
number: (202) 354-3249. Transcripts
may be ordered by submitting the
Transcript Order Form

33

		

For the first 90 days after this filing
date, the transcript may be viewed at
the courthouse at a public terminal

11a
Appendix A
or purchased from the court re
porter referenced above. After 90
days, the transcript may be accessed
via PACER. Other transcript
formats, (multi-page, condensed,
PDF or ASCII) may be purchased
from the court reporter.
		

NOTICE RE REDACTION OF
TRANSCRIPTS: The parties have
twenty-one days to file with the court
and the court reporter any request
to redact personal identifiers from
this transcript. If no such requests
are filed, the transcript will be made
available to the public via PACER
without redaction after 90 days.
The policy, which includes the five
personal identifiers specifically
covered, is located on our website at
www.dcd.uscourts.gov.

		

Redaction Request due 6/4/2019.
Redacted Transcript Deadline set
for 6/14/2019. Release of Transcript
Restriction set for 8/12/2019.(wz)
(Entered: 05/14/2019)

05/17/2019

AFFIDAVIT Second Supplemental
Declaration of William S. Consovoy
by DJT HOLDINGS LLC, DONALD
J. TRUMP REVOCABLE TRUST,

34

12a
Appendix A
DONALD J. TRUMP, TRUMP
CORPORATION, TRUMP OLD
POST OFFICE LLC, TRUMP
ORGANIZATION LLC, TRUMP
ORGANIZATION, INC.. (Consovoy,
William) (Entered: 05/17/2019)
05/20/2019

35

MEMORANDUM OPINION
entering judgment in favor of the
House Oversight Committee and
against Plaintiffs. Please see the
attached Memorandum Opinion
for additional details. Signed by
Judge Amit P. Mehta on 05/20/2019.
(lcapm3) Modified document type on
5/21/2019 (zjd). (Entered: 05/20/2019)

05/20/2019

36

ORDER. For the reasons stated in
the 35 Memorandum Opinion, the
court enters judgment in favor of
the House Oversight Committee and
against Plaintiffs. Please see the
attached Order for further details.
Signed by Judge Amit P. Mehta
on 05/20/2019. (lcapm3) (Entered:
05/20/2019)

05/21/2019

37

NOTICE OF APPEAL TO DC
CIRCUIT COURT as to 35 Order,
36 Order on Motion for Preliminary
Injunction, by DJT HOLDINGS
LLC, DONALD J. TRUMP

13a
Appendix A
REVOCABLE TRUST, DONALD J.
TRUMP, TRUMP CORPORATION,
TRUMP OLD POST OFFICE LLC,
TRUMP ORGANIZATION LLC,
TRUMP ORGANIZATION, INC..
Filing fee $ 505, receipt number
0090-6135794. Fee Status: Fee Paid.
Parties have been notified. (Consovoy,
William) (Entered: 05/21/2019)
05/21/2019

38

Transmission of the Notice of Appeal,
Order Appealed (Memorandum
Opinion), and Docket Sheet to US
Court of Appeals. The Court of
Appeals fee was paid this date re
37 Notice of Appeal to DC Circuit
Court. (jf) (Entered: 05/21/2019)

05/21/2019		

USCA Case Number 19-5142 for
37 Notice of Appeal to DC Circuit
Court, filed by DONALD J. TRUMP
REVOCABLE TRUST, DONALD J.
TRUMP, TRUMP CORPORATION,
TRUMP ORGANIZATION LLC,
TRUMP OLD POST OFFICE
LLC, TRUMP ORGANIZATION,
INC., DJT HOLDINGS LLC. (zrdj)
(Entered: 05/22/2019)

05/21/2019

MOTION to Delay Decision by
DUANE MORLEY COX (jf)
(Entered: 05/30/2019)

40

14a
Appendix A
05/28/2019

39

MOTION to Consolidate Related
Cases For Trial by HOMER
DOUGLAS COBB, IV. “LET THIS
BE FILED” signed by Judge Amit
P. Mehta on 05/28/2019 (jf) (Entered:
05/30/2019)

05/30/2019		

MINUTE ORDER denying 39
Motion to Consolidate Related
Cases for Trial as moot. Signed by
Judge Amit P. Mehta on 05/30/2019.
(lcapm3) (Entered: 05/30/2019)

05/31/2019		

MINUTE ORDER denying 40
Motion to Delay Decision as moot.
Signed by Judge Amit P. Mehta
on 05/31/2019. (lcapm3) (Entered:
05/31/2019)

06/24/2019

LEAVE TO FILE DENIED- Notice
of Filing submitted by Christophe
De La Mar Chapman. This document
is unavailable as the Court denied
its filing. “Leave to file Denied. Case
Closed” Signed by Judge Amit P.
Mehta on 6/24/2019. (jf) (Entered:
06/26/2019)

41

15a
Appendix A
Relevant Docket Entries from the
United States Court of Appeals
for the DC Circuit,
No. 2019-5142
Date Filed	Docket Text
05/21/2019

US CIVIL CASE docketed. [19-5142]
[Entered: 05/21/2019 12:16 PM]

05/21/2019

NOTICE OF APPEAL [1788738] seeking
review of a decision by the U.S. District
Court in 1:19-cv-01136-APM filed by
DJT Holdings, LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Trump Corporation, Trump Old Post
Office LLC, Trump Organization, Inc.
and Trump Organization, LLC. Appeal
assigned USCA Case Number: 19-5142.
[19-5142] [Entered: 05/21/2019 12:18 PM]

05/22/2019

JOINT MOTION [1789081] to expedite
case filed by DJT Holdings, LLC, Donald
J. T r ump Revocable T r ust , T r ump
Corporation, Trump Old Post Office
LLC, Trump Organization, Inc., Trump
Organization, LLC and Donald J. Trump
(Service Date: 05/22/2019 by CM/ECF
NDA, Email) Length Certification: 281
Words. [19-5142] (Consovoy, William)
[Entered: 05/22/2019 06:15 PM]

16a
Appendix A
05/23/2019

PER CURIAM ORDER [1789247] filed
considering motion to expedite case
[1789081-2], setting briefing schedule:
A PPELLANT Brief due 06/10/2019.
APPENDIX due 06/10/2019. APPELLEE
Brief due on 07/01/2019. APPELLANT
Reply Brief due 07/09/2019, scheduling
oral argument on Friday, 07/12/2019.
Before Judges: Tatel, Millett and Rao.
[19-5142] [Entered: 05/23/2019 02:49 PM]

05/31/2019

MOTION [1791158] to participate as
amicus curiae [Disclosure Listing: Not
Applicable to this Party] filed by Duane
Morley Cox [Service Date: 05/24/2019 ]
[19-5142] [Entered: 06/05/2019 01:08 PM]

05/31/2019

AMICUS FOR APPELLANT BRIEF
[1791159] filed by Duane Morley Cox
[Service Date: 05/24/2019 ] Length of
Brief: 24 pages. [19-5142] [Entered:
06/05/2019 01:09 PM]

06/10/2019

PER CURIAM ORDER [1791939] filed
granting motion of Duane Morley Cox to
participate as amicus curiae [1791158-2];
The Clerk is directed to file the lodged
amicus brief [1791159-2] Before Judges:
Tatel, Millett and Rao. [19-5142] [Entered:
06/10/2019 04:18 PM]

17a
Appendix A
6/10/2019

PER ABOVE ORDER lodged Amicus brief
[1791159-2] is filed [19-5142] [Entered:
06/10/2019 04:27 PM]

6/10/2019

JOINT APPENDIX [1791951] filed by
DJT Holdings, LLC, Donald J. Trump
Revocable Trust, Trump Corporation,
Trump Old Post Office LLC, Trump
Organization, Inc., Trump Organization,
LLC and Donald J. Trump. [Volumes:
1] [Service Date: 05/22/2019 ] [19-5142]
(Consovoy, William) [Entered: 06/10/2019
04:52 PM]

6/10/2019

APPELLANT BRIEF [1791954] filed by
DJT Holdings, LLC, Donald J. Trump
Revocable Trust, Trump Corporation,
Trump Old Post Office LLC, Trump
Organization, Inc., Trump Organization,
LLC and Donald J. Trump [Ser vice
Date: 06/10/2019 ] Length of Brief: 12,799
Words. [19-5142] (Consovoy, William)
[Entered: 06/10/2019 04:58 PM]

6/20/2019

MOTION [1794178] for leave to amend
amicus brief filed by Duane Morley Cox
(Service Date: 06/17/2019 by US Mail)
Length Certification: 4 pages. [19-5142]
[Entered: 06/24/2019 02:35 PM]

6/20/2019

AMICUS FOR APPELLANT BRIEF
[1794179] lodged by Duane Morley Cox

18a
Appendix A
[Service Date: 06/17/2019 ] Length of
Brief: 5,410 words. [19-5142] [Entered:
06/24/2019 02:37 PM]
6/27/2019

PER CURIAM ORDER [1794825] filed
granting motion to amend amicus brief
[1794178-2]; The Clerk is directed to file
the lodged amended brief [1794179-2].
The court will not accept any further
amendments to the brief of amicus curiae
Cox. Before Judges: Tatel, Millett and
Rao. [19-5142] [Entered: 06/27/2019 01:24
PM]

6/27/2019

PER ABOVE ORDER lodged amended
Amicus brief [1794179-2] is filed. [19-5142]
[Entered: 06/27/2019 01:25 PM]

07/01/2019

NO TICE [179 5219] of i nt ent ion t o
participate as amicus curiae [Disclosure
Listing: Attached] filed by Constitutional
Accountability Center [Service Date:
07/01/2019 ] [19-5142] (Wydra, Elizabeth)
[Entered: 07/01/2019 11:03 AM]

07/01/2019

CONSENT AMICUS FOR APPELLEE
BRIEF [1795248] filed by Constitutional
Accountability Center [Service Date:
07/01/2019 ] Length of Brief: 6,486 words.
[19-5142] (Wydra, Elizabeth) [Entered:
07/01/2019 12:05 PM]

19a
Appendix A
07/01/2019

APPELLEE BRIEF [1795251] filed by
Committee on Oversight and Reform
of the U.S. House of Representatives
[Service Date: 07/01/2019 ] Length of
Brief: 10,920 Words. [19-5142] (Letter,
Douglas) [Entered: 07/01/2019 12:36 PM]

07/01/2019

NOTICE [1795361] advising that a brief
will not be filed filed by Mazars USA,
LLP [Service Date: 07/01/2019 ] [19-5142]
(Bernstein, Jerry) [Entered: 07/01/2019
06:39 PM]

07/03/2019

PER CU RI A M OR DER [179 5 6 6 8]
filed allocating oral argument time as
follows: Appellants - 30 Minutes, Appellee
Committee on Oversight and Reform of
the U.S. House of Representatives - 30
Minutes; directing party to file Form 72
notice of arguing attorney by 07/05/2019
[19-5142] [Entered: 07/03/2019 11:36 AM]
***

07/09/2019

APPELLANT REPLY BRIEF [1796503]
filed by DJT Holdings, LLC, Donald
J. T r ump Revocable T r ust , T r ump
Corporation, Trump Old Post Office
LLC, Trump Organization, Inc., Trump
Organization, LLC and Donald J. Trump
[Service Date: 07/09/2019 ] Length of
Brief: 6,468 Words. [19-5142] (Consovoy,
William) [Entered: 07/09/2019 08:16 PM]

20a
Appendix A
07/10/2019

NOTICE [1796602] sent regarding 7/12/19
public advisory. [19 - 5142] [Entered:
07/10/2019 12:41 PM]

07/12/2019

OR A L A RGUMENT HELD before
Judges Tatel, Millett and Rao. [19-5142]
[Entered: 07/12/2019 09:38 AM]

07/15/2019

PER CU RI A M OR DER [179 70 5 4]
ORDERED, on the court’s own motion,
that the United States Department of
Justice be invited to file a brief amicus
curiae, not to exceed 5,200 words, by
4:00 p.m. on Tuesday, August 6, 2019,
expressing the views of the United
States on this case. The parties may file
responses, not to exceed 3,000 words each,
by 4:00 p.m. on Tuesday, August 20, 2019.
Absent extraordinary circumstances,
because of the expedited nature of the
proceedings, no extensions of time will
be granted by the court. In addition
to electronic filing, paper copies of the
submissions must be delivered to the court
by the time and date due. Before Judges:
Tatel, Millett and Rao. [19-5142] [Entered:
07/15/2019 09:40 AM]

07/16/2019

LET TER [17975 4 2] rega rding oral
a rg ument matt er [Response to
Questions as Directed by the Court at
Oral Argument] filed by Committee on

21a
Appendix A
Oversight and Reform of the U.S. House of
Representatives [Service Date: 07/16/2019
] [19-5142] (Letter, Douglas) [Entered:
07/16/2019 06:04 PM]
07/19/2019

MOTION [1798189] for leave to file letter
filed by DJT Holdings, LLC, Donald
J. T r ump Revocable T r ust , T r ump
Corporation, Trump Old Post Office
LLC, Trump Organization, Inc., Trump
Organization, LLC and Donald J. Trump
(Service Date: 07/19/2019 by CM/ECF
NDA) Length Certification: 202 Words.
[19-5142] (Consovoy, William) [Entered:
07/19/2019 07:08 PM]

07/19/2019

LETTER [1798355] filed by Duane Morley
Cox [Service Date: 07/15/2019 ] [19-5142]
[Entered: 07/22/2019 03:14 PM]

07/22/2019

LET TER [17982 86] rega rding oral
argument matter filed by DJT Holdings,
LLC, Donald J. Trump Revocable Trust,
Trump Corporation, Trump Old Post
Office LLC, Trump Organization, Inc.,
Trump Organization, LLC and Donald
J. Trump [Service Date: 07/19/2019 ]
[19-5142] (Consovoy, William) [Entered:
07/22/2019 01:20 PM]

07/23/2019

PER CURIAM ORDER [1798596] filed
granting appellants’ motion for leave to file

22a
Appendix A
a responsive letter [1798189-2]; The Clerk
is directed to file the lodged responsive
letter [1798286-2]. Before Judges: Tatel,
Millett and Rao. [19-5142] [Entered:
07/23/2019 04:02 PM]
07/26/2019

LETTER [1799323] pursuant to FRAP
28j advising of additional authorities filed
by Committee on Oversight and Reform
of the U.S. House of Representatives
[Service Date: 07/26/2019 ] [19-5142]
(Letter, Douglas) [Entered: 07/26/2019
04:08 PM]

07/30/2019

PER CURIAM ORDER [1799846] filed
directing response to letter Rule 28j
authorities [1799323-2]. Response due by
4:00 p.m. on August 1, 2019. In addition
to electronic filing, paper copies of the
submission are to be delivered to the court
by the time and date due. Before Judges:
Tatel, Millett and Rao. [19-5142] [Entered:
07/30/2019 05:18 PM]

07/31/2019

RESPONSE [1799866] to letter Rule 28j
authorities [1799323-2], letter [17993233] filed by DJT Holdings, LLC, Donald
J. T r ump Revocable T r ust , T r ump
Corporation, Trump Old Post Office
LLC, Trump Organization, LLC, Donald
J. Trump and Trump Organization, Inc.
[Service Date: 07/31/2019 by CM/ECF

23a
Appendix A
NDA] Length Certification: 349 Words.
[19-5142] (Consovoy, William) [Entered:
07/31/2019 06:53 AM]
08/06/2019

AMICUS BRIEF [1800932] filed by USA
United States [Service Date: 08/06/2019
] Length of Brief: 5,196 Words. [19-5142]
(Sinzdak, Gerard) [Entered: 08/06/2019
03:02 PM]

08/14/2019

MOTION [1802081] to exceed response filed
by Committee on Oversight and Reform
of the U.S. House of Representatives
(Service Date: 08/14/2019 by CM/ECF
NDA) Length Certification: 505 words.
[19-5142] (Letter, Douglas) [Entered:
08/14/2019 12:50 PM]

08/16/2019

PER CURIAM ORDER [1802536] filed
granting motion to exceed word limits
[1802081-2]. The responses to the brief
amicus curiae of the United States
Department of Justice may not exceed
4,000 words each, and are due by 4:00
p.m. on Tuesday, August 20, 2019. Before
Judges: Tatel, Millett and Rao. [19-5142]
[Entered: 08/16/2019 12:50 PM]

08/20/2019

A P PEL L A N T S U P PL EM EN TA L
BRIEF [1802960] filed by DJT Holdings,
LLC, Donald J. Trump Revocable Trust,
Trump Corporation, Trump Old Post

24a
Appendix A
Office LLC, Trump Organization, Inc.,
Trump Organization, LLC and Donald J.
Trump [Service Date: 08/20/2019 ] Length
of Brief: 2,473 Words. [19-5142] (Consovoy,
William) [Entered: 08/20/2019 02:34 PM]
08/20/2019

A PPELLEE SU PPLEM EN TA L
BRIEF [1802970] filed by Committee on
Oversight and Reform of the U.S. House of
Representatives [Service Date: 08/20/2019
] Length of Brief: 3997 words. [19-5142]
(Letter, Douglas) [Entered: 08/20/2019
03:00 PM]

10/11/2019

PER CURIAM JUDGMENT [1810446]
filed that the judgment of the District Court
appealed from in this cause be affirmed for
the reasons in the accompanying opinion.
Before Judges: Tatel, Millett and Rao.
[19-5142] [Entered: 10/11/2019 09:59 AM]

10/11/2019

OPINION [1810450] filed (Pages: 66) for
the Court by Judge Tatel, DISSENTING
OPINION (Pages: 68) by Judge Rao. [195142] [Entered: 10/11/2019 10:06 AM]

10/11/2019

CLERK ’ S ORDER [1810 4 51] f i led
withholding issuance of the mandate. [195142] [Entered: 10/11/2019 10:08 AM]

10/16/2019

MOTION [1811186] to issue mandate filed
by Committee on Oversight and Reform

25a
Appendix A
of the U.S. House of Representatives
(Service Date: 10/16/2019 by CM/ECF
NDA) Length Certification: 2,173 Words.
[19-5142] (Letter, Douglas) [Entered:
10/16/2019 07:06 PM]
***
10/24/2019

PETITION [1812460] for rehearing, for
rehearing en banc filed by Appellants
Donald J. Trump, Trump Organization,
LLC, Trump Organization, Inc., Trump
Old Post Office LLC, Trump Corporation,
Donald J. Trump Revocable Trust and
DJ T Holdings, LLC [Ser vice Date:
10/24/2019 by CM/ECF NDA] Length
Certification: 3,881 Words. [19-5142]
(Consovoy, William) [Entered: 10/24/2019
08:50 PM]

10/24/2019

RESPONSE IN OPPOSITION [1812461]
to motion to issue mandate [18111862] combined with a MOTION to stay
mandate filed by DJT Holdings, LLC,
Donald J. Trump Revocable Trust, Trump
Corporation, Trump Old Post Office
LLC, Trump Organization, Inc., Trump
Organization, LLC and Donald J. Trump
[Service Date: 10/24/2019 by CM/ECF
NDA] Length Certification: 5,189 Words.
[19-5142] (Consovoy, William) [Entered:
10/24/2019 08:55 PM]

26a
Appendix A
10/25/2019

CLERK’S ORDER [1812640] filed, on
the court’s own motion, that by 4:00 p.m.
on Friday, November 1, 2019, appellee
Committee on Oversight and Reform of
the U.S. House of Representatives file
a response to appellants’ petition for
rehearing en banc. The response may not
exceed 3,900 words. Absent an order of
the court, a reply to the response will not
be accepted for filing. [19-5142] [Entered:
10/25/2019 03:18 PM]
***

10/30/2019

RESPONSE IN OPPOSITION [1813409]
to motion to stay mandate [1812461-2] filed
by Committee on Oversight and Reform
of the U.S. House of Representatives
[Service Date: 10/30/2019 by CM/ECF
NDA] Length Certification: 3385 words.
[19-5142] (Letter, Douglas) [Entered:
10/30/2019 06:03 PM]

11/01/2019

RESPONSE [1813 8 3 5 ] t o p et it ion
for rehearing [1812460-2], petition for
rehearing en banc [1812460-3] filed by
Committee on Oversight and Reform
of the U.S. House of Representatives
[Service Date: 11/01/2019 by CM/ECF
NDA] Length Certification: 3,881 Words.
[19-5142] (Letter, Douglas) [Entered:
11/01/2019 03:57 PM]

27a
Appendix A
11/04/2019

REPLY [1814258] filed by DJT Holdings,
LLC, Donald J. Trump Revocable Trust,
Trump Corporation, Trump Old Post
Office LLC, Trump Organization, Inc.,
Trump Organization, LLC and Donald J.
Trump to response [1813409-2] [Service
Date: 11/04/2019 by CM /ECF NDA]
Length Certification: 2,592 Words. [195142] (Consovoy, William) [Entered:
11/04/2019 07:24 PM]

11/07/2019

PER CU RI A M OR DER [1814 8 0 3]
f iled deny ing appellee’s motion for
immediate issuance of the mandate or,
in the alternative, to shorten the time
to petition for rehearing or rehearing
en banc [1811186-2]; denying appellant’s
motion to stay issuance of the mandate
[1812461-2]. On October 24, 2019, the
Trump appellants filed a petition for
rehearing and/or rehearing en banc,
making the Committee’s alternative
request moot. Should the October 24,
2019 petition be denied, the mandate will
issue 7 days from the date of denial. See
Fed. R. App. P. 41(b). This decision takes
into consideration the Trump appellants’
request for a period of at least 7 days to
seek relief in the Supreme Court. Before
Judges: Tatel, Millett and Rao. [19-5142]
[Entered: 11/07/2019 12:48 PM]

28a
Appendix A
11/13/2019

PER CURIAM ORDER [1815679] filed
denying appellants’ petition for rehearing
[1812460-2] Before Judges: Tatel, Millett
and Rao. [19-5142] [Entered: 11/13/2019
06:34 PM]

11/13/2019

PER CURI A M ORDER , En Ba nc,
[1815681] (in Slip Opinion format) filed
denying appellants’ petition for rehearing
en banc [1812460 - 3] Before Judges:
Garland, Henderson*, Rogers, Tatel,
Griffith, Srinivasan, Millett, Pillard,
Wilkins, Katsas* and Rao*. [19-5142]
(Circuit Judges Henderson, Katsas, and
Rao would grant the petition) (A statement
by Circuit Judge Katsas, with whom
Circuit Judge Henderson joins, dissenting
from the denial of rehearing en banc, is
attached) (A statement by Circuit Judge
Rao, with whom Circuit Judge Henderson
joins, dissenting in the denial of rehearing
en banc, is attached) [Entered: 11/13/2019
06:38 PM]

12/05/2019

LETTER [1819184] received from the
Clerk of the Supreme Court of the United
States notifying this court of the following
activity in the case before it: A petition for
writ of certiorari was filed and placed on
the docket on 11/05/2019 as No. 19-715.
[19-5142] [Entered: 12/06/2019 02:56 PM]

29a
Appendix A
12/13/2019

LETTER [1820329] received from the
Clerk of the Supreme Court of the United
States notifying this court of the following
activity in case No. 19-715: The petition
for writ of certiorari was granted on
12/13/2019. [19-5142] [Entered: 12/16/2019
02:59 PM]

30a
Appendix B of the UNITED
Appendix B — COMPLAINT
STATES DISTRICT COURT FOR THE DISTRICT
OF COLUMBIA, FILED APRIL 22, 2019
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. _______________
DONALD J. TRUMP, 1600 Pennsylvania
Avenue NW Washington, D.C. 20500,
THE TRUMP ORGANIZATION, INC.,
TRUMP ORGANIZATION LLC, THE TRUMP
CORPORATION, DJT HOLDINGS LLC, THE
DONALD J. TRUMP REVOCABLE TRUST, 725
Fifth Avenue New York, NY 10022,
TRUMP OLD POST OFFICE LLC, 1100
Pennsylvania Avenue NW
Washington, D.C. 20004,
Plaintiffs,
v.
ELIJAH E. CUMMINGS, in his official
capacity as Chairman of the House
Committee on Oversight and Reform,
PETER KENNY, in his official capacity
as Chief Investigative Counsel of
the House Committee on Oversight
and Reform, 2157 Rayburn House Office
Building Washington, D.C. 20515,
MAZARS USA LLP, 135 West 50th Street
New York, NY 10020,
Defendants.

31a
Appendix B
COMPLAINT
Plaintiffs bring this action against Defendants for
declaratory and injunctive relief and allege as follows:
INTRODUCTION
1. The Democrat Party, with its newfound control
of the U.S. House of Representatives, has declared allout political war against President Donald J. Trump.
Subpoenas are their weapon of choice.
2 . Democrats are using thei r new control of
congressional committees to investigate every aspect
of President Trump’s personal finances, businesses, and
even his family. Instead of working with the President
to pass bipartisan legislation that would actually benefit
Americans, House Democrats are singularly obsessed
with finding something they can use to damage the
President politically. They have issued more than 100
subpoenas and requests to anyone with even the most
tangential connection to the President.
3. This case involves one of those subpoenas. Last
week, Defendant Elijah E. Cummings invoked his
authority as Chairman of the House Oversight Committee
to subpoena Mazars USA LLP—the longtime accountant
for President Trump and several Trump entities (all
Plaintiffs here). Chairman Cummings asked Mazars
for financial statements, supporting documents, and
communications about Plaintiffs over an eight-year
period—mostly predating the President’s time in office.

32a
Appendix B
4. Chairman Cummings requested this information
because Michael Cohen—a felon who has pleaded guilty to
lying to Congress—told the House Oversight Committee
that the President had misrepresented his net worth while
he was a private citizen. The Committee, according to
Chairman Cummings, now needs to “investigate whether
the President may have engaged in illegal conduct.” The
Chairman claims he can do so because the Oversight
Committee can supposedly investigate “any matter at
any time.”
5. Chairman Cummings has ignored the constitutional
limits on Congress’ power to investigate. Article I of the
Constitution does not contain an “Investigations Clause”
or an “Oversight Clause.” It gives Congress the power to
enact certain legislation. Accordingly, investigations are
legitimate only insofar as they further some legitimate
legislative purpose. No investigation can be an end in
itself. And Congress cannot use investigations to exercise
powers that the Constitution assigns to the executive or
judicial branch.
6. Chairman Cummings’ subpoena of Mazars lacks
a legitimate legislative purpose. There is no possible
legislation at the end of this tunnel; indeed, the Chairman
does not claim otherwise. With this subpoena, the
Oversight Committee is instead assuming the powers
of the Department of Justice, investigating (dubious
and partisan) allegations of illegal conduct by private
individuals outside of government. Its goal is to expose
Plaintiffs’ private financial information for the sake of
exposure, with the hope that it will turn up something that

33a
Appendix B
Democrats can use as a political tool against the President
now and in the 2020 election.
7. Because Chairman Cummings’ subpoena to Mazars
threatens to expose Plaintiffs’ confidential information
and lacks “a legitimate legislative purpose,” this Court
has the power to declare it invalid and to enjoin its
enforcement. Eastland v. U.S. Servicemen’s Fund, 421
U.S. 491, 501 n.14 (1975) (endorsing U.S. Servicemen’s
Fund v. Eastland, 488 F.2d 1252, 1259-60 (D.C. Cir. 1973)).
Plaintiffs are entitled to that relief.
PARTIES
8. Plaintiff Donald J. Trump is the 45th President of
the United States. President Trump brings this suit solely
in his capacity as a private citizen.
9. Plaintiff The Trump Organization, Inc. is a New
York corporation with its principal place of business at
725 Fifth Avenue, New York, NY 10022.
10. Plaintiff Trump Organization LLC is a New
York limited liability company with its principal place of
business at 725 Fifth Avenue, New York, NY 10022.
11. Plaintiff The Trump Corporation is a New York
corporation with its principal place of business at 725 Fifth
Avenue, New York, NY 10022.

34a
Appendix B
12. Plaintiff DJT Holdings LLC is a Delaware limited
liability company with its principal place of business at
725 Fifth Avenue, New York, NY 10022.
13. Plaintiff The Donald J. Trump Revocable Trust is
a trust created and operating under the laws of New York.
14. Plaintiff Trump Old Post Office LLC is a Delaware
limited liability company with its principal place of
business at 1100 Pennsylvania Avenue NW, Washington,
D.C. 20004.
15. Defendant Elijah E. Cummings is the U.S.
Representative for Maryland’s 7th District and the
Chairman of the House Committee on Oversight and
Reform. He is a member of the Democrat party. Chairman
Cummings issued the subpoena in question and is sued in
his official capacity.
16. Defendant Peter Kenny is the Chief Investigative
Counsel for the House Committee on Oversight and
Reform. He signed and served the subpoena in question
and is sued in his official capacity.
17. Defendant Mazars USA LLP is a New York limited
liability partnership with its principal executive office at
135 West 50th Street, New York, NY 10020. Mazars is an
accounting firm and the recipient of Chairman Cummings’
subpoena. Mazars is a defendant to ensure that Plaintiffs
can obtain effective relief.

35a
Appendix B
JURISDICTION & VENUE
18. This Court has subject-matter jurisdiction because
this case arises under the Constitution and laws of the
United States. 28 U.S.C. §§1331, 2201.
19. Venue is proper because Chairman Cummings
officially resides in the District. 28 U.S.C. §1391.
BACKGROUND
I.

Challenges to Congressional Subpoenas

20. Not infrequently, federal courts adjudicate the
legality of congressional subpoenas. Most such cases follow
a familiar fact pattern: Congress issues a subpoena, the
target does not comply, Congress tries to force compliance
in federal court, and the target raises the illegality of the
subpoena as a defense.
21. But this defensive posture is not the only way
to challenge a congressional subpoena. When Congress
“seeks information directly from a party,” that party
“can resist and thereby test the subpoena.” Eastland,
421 U.S. at 501 n.14. But when Congress “seeks that
same information from a third person,” this option is not
available; the third party might not have an interest in
protecting the information or resisting the subpoena, and
its “compliance” with the subpoena “could frustrate any
judicial inquiry.” Id. For that reason, the law allows the
person whose information will be exposed to sue in federal
court for an “injunction or declaratory judgment” to block

36a
Appendix B
the subpoena’s “issuance, service on, or enforcement
against” the “third party.” Eastland, 488 F.2d at 1259.
The key question in such a case is “whether a legitimate
legislative purpose is present.” Eastland, 421 U.S. at 501.
22. The “legitimate legislative purpose” requirement
stems directly from the Constitution. “The powers of
Congress … are dependent solely on the Constitution,” and
“no express power in that instrument” allows Congress
to investigate individuals or to issue compulsory process.
Kilbourn v. Thompson, 103 U.S. 168, 182-89 (1880). The
Constitution instead permits Congress to enact certain
kinds of legislation. See, e.g., Art. I, §8. Thus, Congress’
power to investigate “is justified solely as an adjunct to the
legislative process.” Watkins, 354 U.S. at 197. “Congress is
not invested with a general power to inquire into private
affairs. The subject of any inquiry always must be one
on which legislation could be had.” Eastland, 421 U.S. at
504 n.15 (cleaned up); see also Quinn v. United States, 349
U.S. 155, 161 (1955) (“[T]he power to investigate” does
not “extend to an area in which Congress is forbidden to
legislate.”).
23. “Oversight” and “transparency,” in a vacuum,
are not legitimate legislative purposes that can justify
subpoenaing a private citizen. For more than a century, in
fact, the Supreme Court has been quite “sure” that neither
the House nor Senate “possesses the general power of
making inquiry into the private affairs of the citizen.”
Kilbourn, 103 U.S. at 190. “[T]here is no congressional
power to expose for the sake of exposure.” Watkins, 354
U.S. at 200. “No inquiry is an end in itself; it must be

37a
Appendix B
related to, and in furtherance of, a legitimate task of the
Congress.” Id. at 187.
24. Additionally, because Congress must have a
legitimate legislative purpose, it cannot use subpoenas to
exercise “any of the powers of law enforcement.” Quinn,
349 U.S. at 161. Those powers “are assigned under our
Constitution to the Executive and the Judiciary.” Id.
Put simply, Congress is not “a law enforcement or trial
agency,” and congressional investigations conducted “for
the personal aggrandizement of the investigators” or “to
‘punish’ those investigated” are “indefensible.” Watkins,
354 U.S. at 187. Our tripartite system of separated powers
requires that “any one of the[] branches shall not be
permitted to encroach upon the powers confided to the
others, but that each shall by the law of its creation be
limited to the exercise of the powers appropriate to its own
department and no other.” Kilbourn, 103 U.S. at 190-91.
25. Finally, when a subpoena is issued by a single
committee, any legislative purpose is not legitimate unless
it falls within that committee’s jurisdiction. “The theory
of a committee inquiry is that the committee members
are serving as the representatives of the parent assembly
in collecting information for a legislative purpose.”
Watkins, 354 U.S. at 200. Congress therefore must “spell
out that group’s jurisdiction and purpose with sufficient
particularity … in the authorizing resolution,” which
“is the committee’s charter.” Id. at 201. The committee
“must conform strictly to the resolution.” Exxon Corp.
v. FTC, 589 F.2d 582, 592 (D.C. Cir. 1978). And when
an investigation is “novel” or “expansive,” courts will

38a
Appendix B
construe the committee’s jurisdiction “narrowly.” Tobin
v. United States, 306 F.2d 270, 275 (D.C. Cir. 1962).
II. 	Hou s e D e mo c r at s’ Ca mp a ig n of A b u si ve
Investigations
26. After the 2018 midterm elections, the Democrat
party won a majority of seats in the House. Every House
committee in the current Congress is thus chaired by a
Democrat.
27. On the night of the election, soon-to-be Speaker
Nancy Pelosi announced that “tomorrow will be a new
day in America” because House Democrats will use their
new majority to enact “checks and balances to the Trump
administration.” And “subpoena power,” she explained a
few days later, is “a great arrow to have in your quiver.”
Chairman Cummings echoed the Speaker’s sentiments,
stating that “it’s a new day” and that “[President Trump]
has to be accountable.” He added that “we’ve got to address
this issue of exposing President Trump.” “Congress is
going to force transparency on this president,” another
Democrat congressional aide repeated. “Once there is
transparency, I am sure there are going to be a lot of
questions that flow from that.”
28. The Democrats’ statements about “checks and
balances” and “transparency” were not referring to
legislation. Instead, according to news outlets that
interviewed party leaders and aides shortly after the
election, House Democrats meant that they were going
to spend the next two years launching a “fusillade” of

39a
Appendix B
subpoenas in order to “drown Trump with investigations,”
“turn Trump’s life upside down,” and “make Trump’s life
a living hell.”
29. Prominent Democrats were quite candid about
their party’s mission. Representative John Yarmuth, now
chair of the House Budget Committee, stated that the new
House majority would be “brutal” for President Trump:
“We’re going to have to build an air traffic control tower
to keep track of all the subpoenas flying from here to the
White House.” Another senior Democrat official revealed
that, from November 2018 to January 2019, House
Democrats were busy preparing a “subpoena cannon” to
fire at President Trump based on a “wish-list” of nearly
100 investigatory topics. Representative Nita Lowey, now
chair of the House Appropriations Committee, confirmed
a long list of topics that House Democrats planned to
investigate and stated, “We have our boxing gloves on.
I’m ready. And so is Nancy.”
30. The Democrats’ “focus,” according to then–
Minority Whip Steny Hoyer, would be examining “the
President in terms of what [business] interests he has” from
his time as a private citizen. That focus would include the
President’s family. Future Oversight Committee member
Alexandria Ocasio-Cortez, for instance, responded to a
joke by the President’s son Donald Trump Jr. with an
explicit threat: “Please keep it coming Jr – it’s definitely
a ‘very, very large brain’ idea to troll a member of a body
that will have subpoena power in a month.” The Democrats
want this personal information in the hopes they will find
something they can use to score political points against
the President leading up to the 2020 election.

40a
Appendix B
31. House Democrats are executing their plan in
earnest. Recently, several House committees issued a
flurry of subpoenas and requests for information about the
President’s family, personal finances, and businesses. Just
one request by Chairman Nadler of the House Judiciary
Committee, for example, asked 81 different individuals
for information about President Trump.
32. A few days ago, House Republicans discovered that
Chairman Cummings had executed secret memoranda
of understanding with Chairman Adam Schiff of the
House Permanent Select Committee on Intelligence and
Chairwoman Maxine Waters of the House Financial
Services Committee. In the memoranda, the Chairs agreed
to coordinate their subpoenas in order to inflict maximum
political damage on President Trump. According to one
congressional official with knowledge of the memoranda,
they are “an agreement to conspire and coordinate their
efforts to attack and investigate POTUS” by targeting
his business and financial records.
33. Last Monday, Chairman Cummings sent one such
subpoena to Mazars—Plaintiffs’ longtime accountant.
That subpoena is the subject of this lawsuit.
III.

Chairman Cummings’ Subpoena to Mazars

34. The Mazars subpoena is based on one of the worst
examples of the House Democrats’ zeal to attack President
Trump under the guise of investigations: Michael Cohen’s
testimony to the House Oversight Committee on February
27, 2019.

41a
Appendix B
35. The Cohen hearing was a partisan stunt, not a
good-faith effort to obtain accurate testimony from a
reliable witness. Cohen is a convicted liar; before his
February hearing, he had pleaded guilty to several federal
crimes including making false statements to Congress.
Cohen’s testimony was orchestrated by his lawyer Lanny
Davis, a political operative for the Democrat party, and
Cohen met extensively with House Democrats about the
contents of his testimony before he gave it. The reason that
Cohen testified, moreover, is so Chairman Cummings and
other Democrats would support his request for leniency
during his federal sentencing. And according to Ranking
Member Jim Jordan, Cohen told several additional lies to
Congress in his February testimony.
36. Nevertheless, Chairman Cummings seized on
Cohen’s allegation that certain financial statements—
which Mazars had prepared for President Trump while
he was a private citizen—contained inaccuracies. Citing
Cohen’s testimony, Chairman Cummings wrote to Mazars
on March 20, 2019, asking it to produce the following
information about President Trump:
With respect to Donald J. Trump, Donald J. Trump
Revocable Trust, the Trump Organization Inc., the
Trump Organization LLC, the Trump Corporation,
DJT Holdings LLC, the Trump Old Post Office LLC,
the Trump Foundation, and any parent, subsidiary,
affiliate, joint venture, predecessor, or successor of
the foregoing:

42a
Appendix B
1.

All statements of financial condition, annual
statements, periodic financial reports and
independent auditors’ reports prepared, compiled,
reviewed, or audited by Mazars USA LLP or its
predecessor, WeiserMazars LLP;

2.

Without rega rd to ti me, a ll engagement
ag reement s or cont r a c t s relat ed t o t he
preparation, compilation, review, or auditing of
the items described in Request Number 1;

3.

All underlying, supporting, or source documents
and records used in the preparation, compilation,
review, or auditing of items described in Request
Number 1, or any summaries of such documents
and records relied upon, or any requests for such
documents and records; and

4.

All memoranda, notes, and communications
related to the preparation, compilation, review,
or auditing of the items described in Request
Number 1, including, but not limited to:
a. all communications between Donald
Bender and Donald J. Trump or
any employee or representative of
the Trump Organization; and
b. all communications related to
potential concerns that records,
documents, explanations, or other
information, including significant

43a
Appendix B
judgments, provided by Donald
J. Trump or other individuals
from the Trump Organization,
were incomplete, inaccurate, or
otherwise unsatisfactory.
Unless otherwise noted, the time period covered
by this request is from January 1, 2009, to the
present.
37. Chairman Cummings did not consult w ith
Committee Republicans before sending his request to
Mazars. When they discovered the request, Representatives
Jordan and Mark Meadows—the Ranking Member of
the Oversight Committee and the Subcommittee on
Government Operations, respectively—objected. They
wrote Mazars informing it that, because Chairman
Cummings’ request seeks “information and material about
President Trump’s personal finances … well before [he]
was even a candidate for federal office,” it “does not appear
to have a valid legislative purpose and instead seems to
seek information to embarrass a private individual.” The
Ranking Members repeated their concerns in a letter to
Chairman Cummings, explaining that the Chairman’s
request “seems to examine facts relating to a transaction
that never materialized” and other “information [from] …
well before the President was even a candidate.” This is
not an attempt at “legitimate oversight,” they added; its
only purpose is “to embarrass President Trump” and to
maintain House Democrats’ “repeated partisan attacks
on the President.”

44a
Appendix B
38. Mazars, through its outside counsel, wrote back
to Chairman Cummings on March 27. Mazars informed
Chairman Cummings that it “cannot voluntarily turn over
the documents.”
39. Mazars was correct. Under its contract with
Plaintiffs, Mazars must abide by the American Institute
of CPAs’ ethical rules, which prohibit accountants from
“disclos[ing] any confidential client information without
the specific consent of the client.” AICPA Code of Prof’l
Conduct §1.700.001.01. New York law imposes the same
duty. See 8 N.Y.C.R.R. §29.10(c) (“[U]nprofessional
conduct” by accountants includes the “revealing of
personally identifiable facts, data or information obtained
in a professional capacity without the prior consent of
the client.”). A congressional subpoena does not relieve
Mazars from these duties, unless the subpoena is “validly
issued and enforceable.” AICPA Code §1.700.001.02.
40. Chairman Cummings thus tried to craft a
subpoena that would hold up in court. Sensing this would
be a tall order, the Chairman waited until the House
left for its Easter break to circulate a memorandum
about the subpoena and then to issue it. This maneuver
allowed him to subpoena Mazars without first conferring
with Committee Republicans and having to defend his
reasoning at an open meeting of the Oversight Committee.
41. Chairman Cummings’ memorandum, dated April
12, 2019, again cited Cohen’s testimony as the basis for
subpoenaing Mazars. The Chairman also suggested that
“news reports have raised additional concerns regarding

45a
Appendix B
the President’s financial statements and representations.”
But the first “news report”—a blog post from MSNBC’s
Rachel Maddow Show—merely repeated Cohen’s
testimony. And the second “news report”—a March 2019
article from the Washington Post—quoted legal experts
who explained why the financial statements did not break
any laws. The Chairman’s memorandum nonetheless
stated that the Committee needed to investigate “whether
the President has been accurate in his financial reporting.”
42. Ranking Member Jordan again objected to
Chairman Cummings’ planned subpoena. In an April
15 letter and memorandum, the Ranking Member
explained that the subpoena “is an unpreceded abuse of
the Committee’s subpoena authority to target and expose
the private financial information of the President of the
United States” for “political gain.” The subpoena is an
impermissible attempt to “expose the private affairs of
individuals,” the Ranking Member explained, because
“Chairman Cummings has cited no specific law or
legislative proposal for which he requires eight years of
sensitive, personal financial information about President
Trump.” Ranking Member Jordan also noted his deep
concern that Chairman Cummings would selectively leak
whatever information he obtained from Mazars, citing
examples where the Chairman had strategically leaked
similar sensitive information in the past.
43. Despite the Ranking Members’ objections,
Chairman Cummings issued the subpoena to Mazars that
same day. The subpoena was identical to the Chairman’s
initial request for information, except that it asked for

46a
Appendix B
information from “2011 through 2018” instead of “2009
to the present.” The subpoena currently orders Mazars
to comply by noon on April 29, 2019.
44. Ranking Member Jordan responded to the
subpoena in a letter dated April 17. The subpoena, he
explained, “is an act of raw partisan politics meant only
to further your obsession with attacking the President
of the United States.” Chairman Cummings “did not
dispute the fact that [his] subpoena to Mazars is part of
a coordinated and carefully managed campaign to use
congressional oversight for political gain,” the Ranking
Member observed, and never “articulated how the
sensitive, personal financial information [he] seek[s] will
advance a legitimate legislative purpose.”
45. Plaintiffs bring this suit to challenge the validity
and enforceability of Chairman Cummings’ subpoena.
Now that the subpoena has issued, Mazars faces an
unfair choice: ignore the subpoena and risk contempt of
Congress, or comply with the subpoena and risk liability
to Plaintiffs if the subpoena is invalid or unenforceable. To
resolve these conflicting commands, the D.C. Circuit has
instructed third-party accountants like Mazars to hold
onto the subpoenaed materials until the dispute over the
subpoena’s validity is finally resolved in court: “[AICPA]
Rule 301 … explains that it ‘shall not be construed ... to
affect in any way the member’s obligation to comply with
a validly issued and enforceable subpoena or summons.’
But [the client] challenges the enforceability of a subpoena
…. Thus [the accountant] c[an] refuse to produce the
documents, thereby allowing [the client to litigate the

47a
Appendix B
subpoena], without violating its obligation to comply with
enforceable subpoenas.” United States v. Deloitte LLP,
610 F.3d 129, 142 (D.C. Cir. 2010). Congress thus cannot
take any action against Mazars until this litigation is
finally resolved.
CLAIM FOR RELIEF
46. Plaintiffs incorporate all their prior allegations.
47. Chairman Cummings’ subpoena is invalid and
unenforceable because it has no legitimate legislative
purpose.
48. The subpoena seeks to investigate events that
occurred while President Trump was a private citizen,
years before he was even a candidate for public office.
49. The subpoena seeks to investigate events that
could not possibly lead to legislation within the Oversight
Committee’s statutory jurisdiction and constitutional
authority.
50. The subpoena is an attempt to investigate and
adjudicate possible violations of federal law by private
individuals—law-enforcement powers that only the
executive and judicial branches can exercise.
WHEREFORE, Plaintiffs ask this Court to enter
judgment in their favor and to provide the following relief:

48a
Appendix B
a.

A decla rat or y judg ment t hat Cha i r ma n
Cummings’ subpoena is invalid and unenforceable;

b.

A permanent injunction quashing Chairman
Cummings’ subpoena;

c.

A permanent injunction prohibiting Chairman
Cummings and Mr. Kenny from taking any
actions to enforce the subpoena, from imposing
sanctions for noncompliance with the subpoena,
and from inspecting, using, maintaining, or
disclosing any information obtained as a result
of the subpoena;

d.

A temporary restraining order and preliminary
injunction prohibiting Mazars from producing
the requested information, and prohibiting
Chairman Cummings and Mr. Kenny from taking
any actions to enforce the subpoena, until the
subpoena’s validity has been finally adjudicated
on the merits;

e.

Plaintiffs’ reasonable costs and expenses,
including attorneys’ fees; and

f.

All other preliminary and permanent relief to
which Plaintiffs are entitled.

Dated: April 22, 2019

49a
Appendix B
Respectfully submitted,
s/ William S. Consovoy
William S. Consovoy (D.C. Bar #493423)
Cameron T. Norris
Consovoy McCarthy Park PLLC
3033 Wilson Blvd., Ste. 700
Arlington, VA 22201
(703) 243-9423
will@consovoymccarthy.com
cam@consovoymccarthy.com
Patrick Strawbridge
Consovoy McCarthy Park PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
Counsel for President Donald J. Trump
Stefan C. Passantino (D.C. Bar #480037)
Michael Best & Friedrich LLP
1000 Maine Ave. SW, Ste. 400
Washington, D.C. 20024
(202) 747-9582
spassantino@michaelbest.com
Counsel for The Trump Organization,
Inc., Trump Organization LLC, The
Trump Corporation, DJT Holdings LLC,
The Donald J. Trump Revocable Trust,
and Trump Old Post Office LLC

50a
Appendix CDOCKET ENTRIES,
APPENDIX C — RELEVANT
TRUMP V. DEUTSCHE BANK
RELEVANT DOCKET ENTRIES FROM THE
U.S. DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
(FOLEY SQUARE)
CIVIL DOCKET FOR
CASE #: 1:19-cv-03826-ER
Date Filed

#

Docket Text

04/29/2019

1

COMPLAINT against Deutsche Bank,
AG, Capital One Financial Corp..
(Filing Fee $ 400.00, Receipt Number
ANYSDC-16789203)Document filed by
The Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump, Trump
Organization LLC, DJT Holdings
Manag ing Member LLC, Donald
J. Trump, Jr, DJT Holdings LLC,
Donald J. Trump, Ivanka Trump,
Trump Acquisition LLC, The Donald J.
Trump Revocable Trust.(Strawbridge,
Patrick) (Entered: 04/29/2019)

04/29/2019

2

C I V I L C OV ER S H EE T f i l e d .
(Strawbridge, Patrick) (Entered:
04/29/2019)

04/29/2019

3

REQUEST FOR ISSUA NCE OF
SUMMONS as to Deutsche Bank
AG, re: 1 Complaint,. Document

51a
Appendix C
filed by DJT Holdings LLC, DJT
Holdings Managing Member LLC,
The Donald J. Trump Revocable
Trust, The Trump Organization, Inc.,
Donald J. Trump, Jr, Donald J. Trump,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC.
(Strawbridge, Patrick) (Entered:
04/29/2019)
04/29/2019

4

R EQU E S T FOR I S SUA NCE
OF SUMMONS as to Capital One
Financial Corp., re: 1 Complaint,.
Document filed by DJT Holdings LLC,
DJT Holdings Managing Member
LLC, The Donald J. Trump Revocable
Trust, The Trump Organization, Inc.,
Donald J. Trump, Jr, Donald J. Trump,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC.
(Strawbridge, Patrick) (Entered:
04/29/2019)

04/29/2019

5

RULE 7.1 CORPOR ATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed
by DJT Holdings LLC.(Strawbridge,
Patrick) (Entered: 04/29/2019)

52a
Appendix C
04/29/2019

6

RULE 7.1 CORPOR ATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed
by DJT Holdings Managing Member
LLC.(Strawbridge, Patrick) (Entered:
04/29/2019)

04/29/2019

7

RULE 7.1 CORPOR ATE
DI S C L O S U R E S T A T E M E N T.
No Corporate Parent. Document
filed by Trump Acquisition, Corp..
(Strawbridge, Patrick) (Entered:
04/29/2019)

04/29/2019

8

RULE 7.1 CORPOR ATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed by
Trump Acquisition LLC.(Strawbridge,
Patrick) (Entered: 04/29/2019)

04/29/2019

9

RULE 7.1 CORPOR ATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed
by The Trump Organization, Inc..
(Strawbridge, Patrick) (Entered:
04/29/2019)

04/29/2019

10

RULE 7.1 CORPOR ATE
DI S C L O S U R E S T A T E M E N T.
No Corporate Parent. Document
filed by Trump Organization LLC.
(Strawbridge, Patrick) (Entered:
04/29/2019)

53a
Appendix C
***
04/30/2019		 * * * N O T I C E T O A T T O R N E Y
REGA RDING CIVIL . CA SE
OPENING STATISTICAL ERROR
CORRECTION: Notice to attorney
Patrick Strawbridge. The following
case opening statistical information
was erroneously selected/entered:
Cause of Action code 12:3410. The
following correction(s) have been
made to your case entry: the Cause
of Action code has been modified to
28:2201. (dnh) (Entered: 04/30/2019)
***
04/30/2019		

CA SE OPENING INITI A L
ASSIGNMENT NOTICE: The aboveentitled action is assigned to Judge
Edgardo Ramos. Please download
and review the Individual Practices
of the assigned District Judge, located
at http://nysd.uscourts.gov/judges/
District. Attorneys are responsible for
providing courtesy copies to judges
where their Individual Practices
require such. Please download and
review the ECF Rules and Instructions,
located at http://nysd.uscourts.gov/ecf_
filing.php. (dnh) (Entered: 04/30/2019)

54a
Appendix C
04/30/2019		

M a g i s t r a t e J u d g e R o b e r t W.
Lehrburger is so designated. Pursuant
to 28 U.S.C. Section 636(c) and Fed. R.
Civ. P. 73(b)(1) parties are notified that
they may consent to proceed before
a United States Magistrate Judge.
Parties who wish to consent may access
the necessary form at the following
link: http://nysd.uscourts.gov/forms.
php. (dnh) (Entered: 04/30/2019)

04/30/2019		

Case Designated ECF. (dnh) (Entered:
04/30/2019)

04/30/2019

13

ELECTRONIC SUMMONS ISSUED
as to Deutsche Bank, AG. (dnh)
(Entered: 04/30/2019)

04/30/2019

14

ELECTRONIC SUMMONS ISSUED
as to Capital One Financial Corp..
(dnh) (Entered: 04/30/2019)

04/30/2019

15

ORDER g ranti ng 11 Motion for
Patrick Strawbridge to Appear Pro
Hac Vice. (HEREBY ORDERED by
Judge Edgardo Ramos)(Text Only
Order) (jar) Transmission to Attorney
S e r v ic e s / Help D e sk . ( Ent e r e d:
04/30/2019)

04/30/2019

16

ORDER g ranting 12 Motion for
William S. Consovoy to Appear Pro

55a
Appendix C
Hac Vice. (HEREBY ORDERED by
Judge Edgardo Ramos)(Text Only
Order) (jar) Transmission to Attorney
S e r v ic e s / Help D e sk . ( Ent e r e d:
04/30/2019)
***
05/01/2019

19

RULE 7.1 CORPOR ATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed by
Capital One Financial Corp..(Feldman,
Steven) (Entered: 05/01/2019)

05/01/2019

20

WAIVER OF SERVICE RETURNED
EXECUTED. Capital One Financial
Cor p. wa iver sent on 4 /30/2 019,
answer due 7/1/2019. Document filed
by Trump Organization, Inc.; Trump
Acquisition, Corp.; Eric Trump; Trump
Organization LLC; DJT Holdings
Manag ing Member LLC; Donald
J. Trump, Jr; DJT Holdings LLC;
Donald J. Trump; Ivanka Trump;
Trump Acquisition LLC; Donald J.
Trump Revocable Trust. (Strawbridge,
Patrick) (Entered: 05/01/2019)

05/01/2019

21

CONSENT MOTION to Set Briefing
Schedule for Preliminary-Injunction
Motion. Document f i led by DJ T
Holdings LLC, DJT Holdings Managing

56a
Appendix C
Member LLC, Donald J. T r ump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Tr ump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc.. (Attachments: # 1
Text of Proposed Order)(Strawbridge,
Patrick) (Entered: 05/01/2019)
05/01/2019

22

05/01/2019		

ORDER granting 21 motion SETTING
BR I EF I NG S CH EDU L E ON
MO TION FOR PRELIMINA RY
INJUNCTION So Ordered. (Signed
by Judge Edgardo Ramos on 5/1/2019)
(js) Modified on 5/2/2019 (js). (Entered:
05/02/2019)
S et / R e s et D e a d l i ne s: ( Mot ion s
due by 5/3/2019., Responses due by
5/10/2019, Replies due by 5/15/2019.),
Set/Reset Hearings:(Oral Argument
set for 5/22/2019 at 02:30 PM before
Judge Edgardo Ramos.) (js) (Entered:
05/02/2019)
***

05/02/2019

24

WAIVER OF SERVICE
RETURNED EXECUTED.
Deutsche Bank, AG waiver
sent on 4/30/2019, answer due

57a
Appendix C
7/1/2019. Document filed by
Trump Organization, Inc.; Trump
Acquisition, Corp.; Eric Trump;
Trump Organization LLC; DJT
Holdings Managing Member LLC;
Donald J. Trump, Jr; DJT Holdings
LLC; Donald J. Trump; Ivanka
Trump; Trump Acquisition LLC;
Donald J. Trump Revocable Trust.
(Strawbridge, Patrick) (Entered:
05/02/2019)
05/03/2019

25

CONSENT LETTER MOTION for
Leave to File intervention addressed
to Judge Edgardo Ramos from
Douglas N. Letter, General Counsel,
U.S. House of Representatives
dated 5/3/2019. Document filed by
Committee on Financial Services of
the U.S. House of Representatives,
Permanent Select Committee on
Intelligence of the U.S. House of
Representatives. (Attachments: # 1
Text of Proposed Order)(Letter,
Douglas) (Entered: 05/03/2019)

05/03/2019

26

MOTION for Preliminary Injunction.
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,

58a
Appendix C
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc..(Strawbridge,
Patrick) (Entered: 05/03/2019)
05/03/2019

27

MEMORANDUM OF LAW
in Support re: 26 MOTION
for Preliminary Injunction . .
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc.. (Strawbridge,
Patrick) (Entered: 05/03/2019)

05/03/2019

28

DECLARATION of Patrick
Strawbridge in Support re: 26
MOTION for Preliminary Injunction
.. Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc.. (Strawbridge,
Patrick) (Entered: 05/03/2019)

59a
Appendix C
05/03/2019

29

PROPOSED ORDER. Document
filed by DJT Holdings LLC, DJT
Holdings Managing Member
LLC, Donald J. Trump Revocable
Trust, Donald J. Trump, Jr,
Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC,
Trump Organization, Inc..
Related Document Number: 26 .
(Strawbridge, Patrick) Proposed
Order to be reviewed by Clerk’s
Office staff. (Entered: 05/03/2019)

05/03/2019

30

LETTER MOTION for Conference
regarding Limited Expedited
Discovery addressed to Judge
Edgardo Ramos from Patrick
Strawbridge dated 5/3/2019.
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc..(Strawbridge,
Patrick) (Entered: 05/03/2019)

60a
Appendix C
05/03/2019

31

ORDER GRANTING MOTION TO
INTERVENE OF COMMITTEE
ON FINANCIAL SERVICES
OF THE U.S. HOUSE OF
REPRESENTATIVES
AND PERMANENT
SELECT COMMITTEE ON
INTELLIGENCE OF THE U.S.
HOUSE OF REPRESENTATIVES
25 Letter Motion for Leave to File
Document. It is SO ORDERED
that the motion of the proposed
intervenor-defendants Committee on
Financial Services and Permanent
Select Committee on Intelligence of
the U.S. House of Representatives
(Committees) is GRANTED.IT IS
FURTHER ORDERED THAT the
intervenor-defendant Committees
shall comply with the deadlines set
forth in this Courts May 1, 2019
order setting a briefing schedule
(ECF No. 22). (Signed by Judge
Edgardo Ramos on 5/3/2019) (jca)
(Entered: 05/03/2019)

05/03/2019

32

ORDER granting 30 Letter Motion
for Conference. A pre-motion
conference will be held on Thursday,
May 9, 2019, at 2:30 p.m. Defendants
are directed to submit a response to
Plaintiffs’ letter by close of business

61a
Appendix C
Tuesday, May 7, 2019. It is SO
ORDERED. (Pre-Motion Conference
set for 5/9/2019 at 02:30 PM before
Judge Edgardo Ramos.) (Signed by
Judge Edgardo Ramos on 5/3/2019)
(jca) (Entered: 05/03/2019)
05/03/2019		

Set/Reset Deadlines: Responses
due by 5/7/2019 (jca) (Entered:
05/03/2019)
***

05/03/2019

34

RULE 7.1 CORPORATE
DISCLOSURE STATEMENT. No
Corporate Parent. Document filed by
Deutsche Bank, AG.(Moyne, Parvin)
(Entered: 05/03/2019)
***

05/06/2019		 ***NOTICE TO COURT
REGARDING PROPOSED
ORDER. Document No. 29
Proposed Order was reviewed and
approved as to form. (km) (Entered:
05/06/2019)
05/07/2019

38

LETTER addressed to Judge
Edgardo Ramos from Steven R. Ross
dated May 7, 2019 re: Statement of
Position. Document filed by Deutsche

62a
Appendix C
Bank, AG.(Ross, Steven) (Entered:
05/07/2019)
***
05/07/2019

40

LETTER addressed to Judge
Edgardo Ramos from James A.
Murphy dated May 7, 2019 re:
Statement of Position. Document
filed by Capital One Financial
Corp..(Murphy, James) (Entered:
05/07/2019)

05/07/2019

41

CONSENT LETTER MOTION for
Extension of Time to File Response/
Reply addressed to Judge Edgardo
Ramos from Douglas N. Letter,
General Counsel, U.S. House of
Representatives dated 05/07/2019.
Document filed by Committee on
Financial Services of the U.S. House
of Representatives, Permanent
Select Committee on Intelligence of
the U.S. House of Representatives.
(Attachments: # 1 Text of Proposed
Order)(Letter, Douglas) (Entered:
05/07/2019)

05/07/2019

42

ORDER GRANTING
INTERVENOR-DEFENDANTS’
CONSENT MOTION FOR
EXTENSION OF TIME granting 41

63a
Appendix C
Letter Motion for Extension of Time
to File Response/Reply. It is SO
ORDERED that the consent motion
of intervenor-defendants Committee
on Financial Services and Permanent
Select Committee on Intelligence of
the U.S. House of Representatives
for a 24-hour extension of time to
respond to plaintiffs’ May 3, 2019
letter is GRANTED. (Signed by
Judge Edgardo Ramos on 5/7/2019)
Copies Mailed By Chambers. (rro)
(Entered: 05/08/2019)
05/08/2019

43

LETTER addressed to Judge
Edgardo Ramos from Patrick
Strawbridge dated 05/08/2019 re:
Withdrawing Letter Motion for
Conference. Document filed by
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Donald
J. Trump, Jr, Donald J. Trump,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization
LLC, Trump Organization, Inc..
(Strawbridge, Patrick) (Entered:
05/08/2019)

05/08/2019

44

MEMO ENDORSEMENT on
re: 43 Letter, filed by Trump

64a
Appendix C
Acquisition LLC, DJT Holdings
Managing Member LLC, Ivanka
Trump, Donald J. Trump Revocable
Trust, Trump Organization,
Inc., Trump Acquisition, Corp.,
Eric Trump, Donald J. Trump,
Jr., DJT Holdings LLC, Trump
Organization LLC, Donald J. Trump.
ENDORSEMENT: The conference
previously scheduled for May 9,
2019, is hereby terminated. It is
SO ORDERED. (Signed by Judge
Edgardo Ramos on 5/8/2019) (kv)
(Entered: 05/08/2019)
05/10/2019

45

RESPONSE to Motion re: 26
MOTION for Preliminary Injunction.
Defendant Deutsche Bank AG’s
Statement of Position as to
Plaintiffs’ Motion for a Preliminary
Injunction. Document filed by
Deutsche Bank, AG. (Ross, Steven)
(Entered: 05/10/2019)

05/10/2019

46

RESPONSE to Motion re: 26
MOTION for Preliminary Injunction
. . Document filed by Capital One
Financial Corp.. (Murphy, James)
(Entered: 05/10/2019)
***

65a
Appendix C
05/10/2019

51

RESPONSE in Opposition to Motion
re: 26 MOTION for Preliminary
Injunction . . Document filed by
Committee on Financial Services of
the U.S. House of Representatives,
Permanent Select Committee on
Intelligence of the U.S. House of
Representatives. (Attachments:
# 1 Affidavit Declaration of Todd
B. Tatelman, # 2 Exhibit Ex. A to
Declaration of Todd B. Tatelman,
# 3 Exhibit Ex. B to Declaration of
Todd B. Tatelman)(Letter, Douglas)
(Entered: 05/10/2019)

05/13/2019

52

CONSENT LETTER MOTION
for Leave to File Excess Pages
addressed to Judge Edgardo Ramos
from Patrick Strawbridge dated
5/13/2019. Document filed by DJT
Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Donald
J. Trump, Jr, Donald J. Trump,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization
LLC, Trump Organization, Inc..
(Strawbridge, Patrick) (Entered:
05/13/2019)

66a
Appendix C
05/14/2019

53

ORDER granting 52 Letter Motion
for Leave to File Excess Pages.
Plaintiffs are granted leave to file
a 15-page reply brief. (HEREBY
ORDERED by Judge Edgardo
Ramos)(Text Only Order) (jar)
(Entered: 05/14/2019)

05/15/2019

54

REPLY MEMORANDUM OF
LAW in Support re: 26 MOTION
for Preliminary Injunction . .
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc.. (Strawbridge,
Patrick) (Entered: 05/15/2019)

05/20/2019

55

NOTICE of Supplemental Authority.
Document filed by Committee on
Financial Services of the U.S. House
of Representatives, Permanent
Select Committee on Intelligence of
the U.S. House of Representatives.
(Attachments: # 1 Exhibit Opinion,
# 2 Exhibit Order)(Letter, Douglas)
(Entered: 05/20/2019)

67a
Appendix C
05/21/2019

56

ORDER granting 35 Motion for
Steven R. Ross to Appear Pro
Hac Vice. (HEREBY ORDERED
by Judge Edgardo Ramos)(Text
Only Order) (jar) Transmission
to Attorney Services/Help Desk.
(Entered: 05/21/2019)

05/21/2109

57

ORDER granting 36 Motion for
Raphael A. Prober to Appear Pro
Hac Vice. (HEREBY ORDERED
by Judge Edgardo Ramos)(Text
Only Order) (jar) Transmission
to Attorney Services/Help Desk.
(Entered: 05/21/2019)

05/21/2019

58

ORDER granting 37 Motion for
Thomas C. Moyer to Appear Pro
Hac Vice. (HEREBY ORDERED
by Judge Edgardo Ramos)(Text
Only Order) (jar) Transmission
to Attorney Services/Help Desk.
(Entered: 05/21/2019)

05/22/2019

59

ORDER: denying 26 Motion for
Preliminary Injunction. For the
reasons set forth on the record in
today’s hearing, Plaintiffs’ motion
for a preliminary injunction is
DENIED, Plaintiffs’ motion for a
stay pending appeal is DENIED,
and the Committees’ application for

68a
Appendix C
consolidation is DENIED. The Clerk
of Court is respectfully directed to
terminate the motion, Doc. 26. It is
SO ORDERED. (Signed by Judge
Edgardo Ramos on 5/22/2019) (ama)
(Entered: 05/22/2019)
05/24/2019

60

05/24/2019		

NOTICE OF INTERLOCUTORY
APPEAL from 59 Order on Motion
for Preliminary Injunction,.
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC,
Trump Organization, Inc.. Filing
fee $ 505.00, receipt number
ANYSDC-16950902. Form C and
Form D are due within 14 days to the
Court of Appeals, Second Circuit.
(Strawbridge, Patrick) (Entered:
05/24/2019)
Transmission of Notice of Appeal and
Certified Copy of Docket Sheet to
US Court of Appeals re: 60 Notice of
Interlocutory Appeal. (tp) (Entered:
05/24/2019)

69a
Appendix C
05/24/2019		

Appeal Record Sent to USCA
(Electronic File). Certified Indexed
record on Appeal Electronic Files
for 60 Notice of Interlocutory
Appeal, filed by Trump Acquisition
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump were transmitted
to the U.S. Court of Appeals. (tp)
(Entered: 05/24/2019)

05/25/2019

JOINT MOTION to Stay .
Document filed by DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Jr, Donald J. Trump, Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc..(Strawbridge,
Patrick) (Entered: 05/25/2019)

61

05/28/2019		

USCA Case Number 19-1540 from
the U.S.C.A. - 2nd Circ. assigned
to 60 Notice of Interlocutory
Appeal,, filed by Trump Acquisition

70a
Appendix C
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump. (nd) (Entered:
05/28/2019)
05/28/2019

62

MEMO ENDORSEMENT
granting 61 Motion to Stay.
ENDORSEMENT: The application
is granted. SO ORDERED. (Signed
by Judge Edgardo Ramos on
5/28/2019) (kv) Modified on 8/30/2019
(kv). (Entered: 05/28/2019)

10/10/2019

63

OPINION of USCA (Certified Copy)
as to 60 Notice of Interlocutory
Appeal,, filed by Trump Acquisition
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump. USCA Case
Number 19-1540-cv. This opinion
considers motions by several news
organizations to intervene in a
pending appeal and to unseal an

71a
Appendix C
unredacted letter filed in this Court
on August 27, 2019, under seal in that
appeal. See Trump v. Deutsche Bank,
AG, No. 19. 1540 (2d Cir. argued
Aug. 23, 2019). The letter was filed
by Deutsche Bank AG in an appeal
from an Order denying a preliminary
injunction sought by President
Donald J. Trump, members of his
family, and several affiliated entities
(“Appellants”) to prevent compliance
with subpoenas issued to Deutsche
Bank and Capital One Financial
Corporation by two committees
of the United States House of
Representatives. The subpoenas seek
production of numerous documents,
including tax returns. The appeal is
still pending. Unsealing the letter
is sought to learn the redacted
names of taxpayers whose income
tax returns are in Deutsche Bank’s
possession. Appellants in the pending
appeal and Deutsche Bank oppose
the motion. The motions to intervene
are GRANTED; the motions for
unsealing are DENIED. Catherine
O’Hagan Wolfe, Clerk USCA for the
Second Circuit. Certified: 10/10/2019.
(nd) (Entered: 10/10/2019)

72a
Appendix C
12/03/2019

64

USCA OPINION (Certified) as
to 60 Notice of Interlocutory
Appeal,, filed by Trump Acquisition
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump. USCA Case
Number 19-1540-cv. Expedited
interlocutory appeal from the May
22, 2019, order of the District Court
for the Southern District of New
York (Edgardo Ramos, District
Judge) denying Plaintiffs-Appellants’
motion for a preliminary injunction
to prevent the Defendants-Appellees’
compliance with subpoenas issued to
them by the Intervenor DefendantsAppellees and denying PlaintiffsAppellants’ motion for a stay pending
appeal. Affirmed in substantial
part and remanded in part. Judge
Livingston concurs in part and
dissents in part with a separate
opinion. Catherine O’Hagan Wolfe,
Clerk USCA for the Second Circuit.
Certified: 12/03/2019. (Attachments:
# 1 Concurring opinion by Judge
Livingston)(nd) (Entered: 12/03/2019)

73a
Appendix C
12/03/2019		

Transmission of USCA Opinion to
the District Judge re: 64 USCA
Opinion. (nd) (Entered: 12/03/2019)

12/03/2019

MANDATE of USCA (Certified
Copy) as to 60 Notice of Interlocutory
Appeal,, filed by Trump Acquisition
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump. USCA Case
Number 19-1540-cv. IT IS HEREBY
ORDERED, ADJUDGED and
DECREED that the district court’s
order is AFFIRMED in substantial
part and REMANDED in part..
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Issued As Mandate: 12/03/2019.
(Attachments: # 1 Opinion, # 2
Concurring Opinon)(nd) (Entered:
12/03/2019)

65

12/03/2019		

Transmission of USCA Mandate
to the District Judge re: 65 USCA
Mandate. (nd) (Entered: 12/03/2019)

74a
Appendix C
12/13/2019

66

ORDER of USCA (Certified Copy)
as to 60 Notice of Interlocutory
Appeal,, filed by Trump Acquisition
LLC, DJT Holdings Managing
Member LLC, Ivanka Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Acquisition, Corp., Eric Trump,
Donald J. Trump, Jr., DJT Holdings
LLC, Trump Organization LLC,
Donald J. Trump. USCA Case
Number 19-1540-cv. The petition for
a writ of certiorari in No. 19-715 is
granted. The application (19A640) for
stay presented to Justice Ginsburg
and by her referred to the Court is
granted, and it is ordered that the
mandate of the United States Court
of Appeals for the Second Circuit,
case No. 19-1540, is hereby stayed
pending further order of the Court.
In addition, the application is treated
as a petition for a writ of certiorari,
and the petition is granted. The cases
are consolidated, and a total of one
hour is allotted for oral argument.
The cases will be set for argument
in the March 2020 argument session.
Catherine O’Hagan Wolfe, Clerk
USCA for the Second Circuit.
Certified: 12/13/2019. (nd) (Entered:
12/16/2019)

75a
Appendix C
RELEVANT DOCKET ENTRIES FROM THE
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT,
NO. 2019-1540
Date Filed

#

Docket Text

05/24/2019

1

I N T ER L O CU T ORY NO T ICE
OF CIVIL APPEAL, with district
court docket, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Manag ing Member LLC, Donald
J. Trump Revocable Trust, Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC
a nd T r u mp O r g a n i z at ion , I nc .,
FILED. [2572546] [19-1540] [Entered:
05/24/2019 04:25 PM]

05/24/2019

2

DISTRICT COURT ORDER, dated
05/22/2019, RECEIVED.[2572571] [191540] [Entered: 05/24/2019 04:42 PM]

05/24/2019

3

ELECTRONIC INDEX, in lieu of
record, FILED.[2572574] [19-1540]
[Entered: 05/24/2019 04:43 PM]

05/24/2019

4

PAYMENT OF DOCKETING FEE, on
behalf of Appellant DJT Holdings LLC,
DJT Holdings Managing Member LLC,

76a
Appendix C
Donald J. Trump Revocable Trust,
Donald J. Trump, Donald J. Trump,
Jr., Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC and
Trump Organization, Inc., district
court receipt # ANYSDC-16950902,
FILED.[2572581] [19-1540] [Entered:
05/24/2019 04:49 PM]
05/25/2019

5

MOTION, to expedite appeal, on behalf
of Appellant DJT Holdings LLC, DJT
Holdings Managing Member LLC,
Donald J. Trump Revocable Trust,
Tr ump Acquisition LLC, Tr ump
Acquisition, Corp., Trump Organization
LLC and Trump Organization, Inc.,
FILED. Service date 05/25/2019 by
CM/ECF, email. [2572636] [19-1540]
[Entered: 05/25/2019 12:47 PM]

05/31/2019

8

MOTION ORDER, granting motion to
expedite appeal, Appellant’s opening
Brief and Appendix will be filed by
June 18, 2019; Appellees’ response
briefs will be filed by July 11, 2019;
and Appellants’ reply brief will be filed
by July 18, 2019, [5] filed by Appellant
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Organization LLC, DJT Holdings
LLC, DJ T Hold i ng s M a n a g i ng

77a
Appendix C
Member LLC, Trump Acquisition
LLC and Trump Acquisition, Corp.,
by RJL, FILED. [2576240][8] [19-1540]
[Entered: 05/31/2019 09:24 AM]
***
06/10/2019

14

CASE CALENDARING, for the week
of 08/19/2019, PROPOSED.[2583054]
[19-1540] [Entered: 06/10/2019 09:53
AM]
***

06/18/2019

27

JOINT APPENDIX, volume 1 of 1, (pp.
1-160), on behalf of Appellant Donald J.
Trump, Donald Trump, Jr., Eric Trump
and Ivanka Trump, FILED. Service
date 06/18/2019 by CM/ECF.[2589810]
[19-1540] [Entered: 06/18/2019 06:13
PM]

06/18/2019

28

BRIEF, on beha l f of App el la nt
Donald J. Trump, Donald Trump,
Jr., Eric Trump and Ivanka Trump,
FILED. Service date 06/18/2019 by
CM/ECF.[2589811] [19-1540] [Entered:
06/18/2019 06:16 PM]

06/28/2019

30

DEFECTIVE DOCUMENT, brief,
joint appendix, [28], [27], on behalf of
Appellant Donald Trump, Jr., Donald

78a
Appendix C
J. Trump, Eric Trump and Ivanka
Trump, FILED.[2596671] [19-1540]
[Entered: 06/28/2019 08:10 AM]
06/28/2019

31

NEW CASE MANAGER, Tynetta
Wilder, ASSIGNED.[2596843] [191540] [Entered: 06/28/2019 10:11 AM]
***

06/28/2019

34

JOINT APPENDIX, volume 1 of 1,
(pp. 1-160), on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Manag ing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Ser v ice date 0 6/18/2 019 by CM /
ECF.[2597202] [19-1540] [Entered:
06/28/2019 01:14 PM]

06/28/2019

35

BRIEF, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric

79a
Appendix C
Trump and Ivanka Trump, FILED.
Service date 06/18/2019 by CM/
ECF.[2597208] [19-1540] [Entered:
06/28/2019 01:17 PM]
07/01/2019

36

DEFECTIVE DOCUMENT, JOINT
APPENDIX, volume 1 of 1, (pp.
1-160), [34], on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump, Ivanka Trump, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC
and Trump Organization, Inc.,
FILED.[2598070] [19-1540] [Entered:
07/01/2019 11:47 AM]

07/01/2019

37

JOINT APPENDIX, volume 1 of 1,
(pp. 1-160), on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 06/18/2019 by CM/
ECF.[2598263] [19-1540] [Entered:
07/01/2019 01:31 PM]

80a
Appendix C
07/02/2019

38

CURED DEFECTIVE :
APPENDIX, BRIEF [37] [2597208],
on behalf of Appellant DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Donald J. Trump,
Donald J. Trump, Jr., Eric Trump,
Ivanka Trump, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC and
Trump Organization, Inc., FILED.
[2599029] [19-1540]--[Edited
07/02/2019 by TW]--[Edited
07/02/2019 by TW] [Entered:
07/02/2019 10:04 AM]

07/02/2019

39

CASE CALENDARING, for
argument on 08/23/2019, SET.
[2599034] [19-1540] [Entered:
07/02/2019 10:07 AM]
***

07/08/2019

54

ARGUMENT NOTICE, to
attorneys/parties, TRANSMITTED.
[2602202] [19-1540] [Entered:
07/08/2019 03:09 PM]

07/09/2019

55

NOTICE OF HEARING DATE
ACKNOWLEDGMENT, on
behalf of Appellant DJT Holdings
LLC, DJT Holdings Managing

81a
Appendix C
Member LLC, Donald J. Trump
Revocable Trust, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 07/09/2019 by CM/
ECF. [2602618] [19-1540] [Entered:
07/09/2019 03:45 AM]
07/09/2019

57

LETTER, dated 07/07/2019, on
behalf of Appellee Committee on
Financial Services of the United
States House of Representatives,
request that the Court waive the
attorney admission requirements
and enter notices of appearances for
Todd B. Tatelman, Josephine Morse,
additionally request that the Court
waive any readmission requirements
for Douglas N. Letter, RECEIVED.
Service date 07/09/2019 by email.
[2603034] [19-1540] [Entered:
07/09/2019 11:33 AM]

07/10/2019

59

NOTICE OF HEARING DATE
ACKNOWLEDGMENT, on
behalf of Appellee Committee on
Financial Services of the United
States House of Representatives
and Permanent Select Committee

82a
Appendix C
on Intelligence of the United States
House of Representatives, FILED.
Service date 07/10/2019 by CM/
ECF. [2604613] [19-1540] [Entered:
07/10/2019 01:09 PM]
***
07/11/2019

64

BRIEF, on behalf of Appellee Capital
One Financial Corporation, FILED.
Service date 07/11/2019 by CM/
ECF. [2606333] [19-1540] [Entered:
07/11/2019 04:21 PM]

07/11/2019

65

BRIEF, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, FILED. Service
date 07/11/2019 by CM/ECF.
[2606510] [19-1540] [Entered:
07/11/2019 07:19 PM]

07/11/2019

66

LETTER, on behalf of Appellee
Deutsche Bank AG, states they take
no position with respect to Plaintiffs’Appellants’ brief, nor on the legal
issues raised by Plaintiffs-Appellants
and Intervenor DefendantsAppellees in connection therewith,

83a
Appendix C
RECEIVED. Service date 07/11/2019
by CM/ECF.[2606511] [19-1540]
[Entered: 07/11/2019 07:28 PM]
07/12/2019

68

DEFECTIVE DOCUMENT,
BRIEF, [64], on behalf of Appellee
Capital One Financial Corporation,
FILED.[2606527] [19-1540]
[Entered: 07/12/2019 07:54 AM]

07/12/2019

71

LETTER, on behalf of Appellee
Capital One Financial Corporation,
takes no position with respect to
the instant appeal , will not file an
appellate brief, does not request
any time to addres the Court at oral
argument, RECEIVED. Service date
07/12/2019 by CM/ECF.[2606672]
[19-1540] [Entered: 07/12/2019 09:53
AM]

07/12/2019

72

CURED DEFECTIVE :
LETTER,[71], on behalf of Appellee
Capital One Financial Corporation,
FILED.[2606714] [19-1540] [Entered:
07/12/2019 10:09 AM]

07/12/2019

73

BRIEF, on behalf of Appellee
Capital One Financial Corporation,
WAIVED. [2606730] [19-1540]
[Entered: 07/12/2019 10:13 AM]

84a
Appendix C
07/17/2019

76

AMICUS BRIEF, on behalf of
Constitutional Accountability Center,
FILED. Service date 07/17/2019
by CM/ECF. [2610643] [19-1540]
[Entered: 07/17/2019 11:53 AM]

07/17/2019

78

ARGUMENT NOTICE, to
attorneys/parties, TRANSMITTED.
[2610872] [19-1540] [Entered:
07/17/2019 02:31 PM]
***

07/17/2019

80

LETTER, to the Solicitor General of
the United States asking whether the
United States would like to submit its
views on the issues raised on appeal,
SENT.[2610920] [19-1540] [Entered:
07/17/2019 02:58 PM]

07/17/2019

81

LETTER, requesting counsel for
Appellee Deutsche Bank AG and
Capital One Financial Corporation
attend oral argument to be available
to respond to questions the panel
may have, SENT.[2610937] [19-1540]
[Entered: 07/17/2019 03:05 PM]

07/18/2019

82

NOTICE OF HEARING DATE
ACKNOWLEDGMENT, on
behalf of Appellant DJT Holdings
LLC, DJT Holdings Managing

85a
Appendix C
Member LLC, Donald J. Trump
Revocable Trust, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 07/18/2019 by CM/
ECF. [2611195] [19-1540] [Entered:
07/18/2019 02:44 AM]
07/18/2019

83

NEW PARTY, Amicus Curiae
Constitutional Accountability
Center, ADDED.[2611198] [19-1540]
[Entered: 07/18/2019 07:53 AM]

07/18/2019

84

DEFECTIVE DOCUMENT,
AMICUS BRIEF, [76], on behalf
of Amicus Curiae Constitutional
Accountability Center, FILED.
[2611199] [19-1540] [Entered:
07/18/2019 07:56 AM]

07/18/2019

85

AMICUS BRIEF, Amicus Curiae
Constitutional Accountability Center,
FILED. Service date 07/18/2019
by CM/ECF. [2611220] [19-1540]
[Entered: 07/18/2019 08:34 AM]

07/18/2019

86

NOTICE OF HEARING DATE
ACKNOWLEDGMENT, on
behalf of Appellee Committee on

86a
Appendix C
Financial Services of the United
States House of Representatives
and Permanent Select Committee
on Intelligence of the United States
House of Representatives, FILED.
Service date 07/18/2019 by CM/
ECF. [2611330] [19-1540] [Entered:
07/18/2019 09:43 AM]
07/18/2019

90

CURED DEFECTIVE : BRIEF,
[85], on behalf of Amicus Curiae
Constitutional Accountability Center,
FILED.[2611610] [19-1540] [Entered:
07/18/2019 11:52 AM]

07/18/2019

93

REPLY BRIEF, on behalf of
Appellant DJT Holdings LLC,
DJT Holdings Managing Member
LLC, Donald J. Trump Revocable
Trust, Trump Acquisition LLC,
Trump Acquisition, Corp., Trump
Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 07/18/2019 by CM/
ECF. [2612268] [19-1540] [Entered:
07/18/2019 05:43 PM]

07/19/2019

95

BRIEF, on behalf of Appellee
Deutsche Bank AG , WAIVED.
[2612514] [19-1540] [Entered:

87a
Appendix C
07/19/2019 10:04 AM]
07/23/2019

102 MOTION ORDER, granting motion
for admission pro hac vice [52] filed
by Appellee Deutsche Bank AG,
FILED. [2615277][102] [19-1540]
[Entered: 07/23/2019 03:14 PM]

07/23/2019

103 MOTION ORDER, granting motion
for admission pro hac vice [50] filed
by Appellee Deutsche Bank AG,
FILED. [2615293][103] [19-1540]
[Entered: 07/23/2019 03:20 PM]

07/23/2019

104 MOTION ORDER, granting motion
for admission pro hac vice [51] filed
by Appellee Deutsche Bank AG,
FILED. [2615343][104] [19-1540]
[Entered: 07/23/2019 03:35 PM]

07/26/2019

105 LETTER, requesting counsel for
Appellee Committee on Financial
Services of the United States House
of Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives promptly file with
the Court, under seal if appropriate,
unredacted copies of the subpoena,
in paper and digital format, that
each Committee served on Deutsche
Bank AG, SENT.[2618090] [19-1540]
[Entered: 07/26/2019 12:52 PM]

88a
Appendix C
07/26/2019

106 FRAP 28(j) LETTER, dated
07/26/2019, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, RECEIVED.
Service date 07/26/2019 by CM/
ECF.[2618467] [19-1540] [Entered:
07/26/2019 04:20 PM]

07/29/2019

109 SEALED, Subpoenas, filed on behalf
of Appellee in response to letter
dated 07/26/2019, FILED.[2619242]
[19-1540] [Entered: 07/29/2019 01:48
PM]

08/01/2019

112 FRAP 28(j) LETTER, dated
08/01/2019, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump and Ivanka Trump,
RECEIVED. Service date 08/01/2019
by CM/ECF.[2622414] [19-1540]
[Entered: 08/01/2019 03:42 PM]

89a
Appendix C
08/09/2019

122 ORAL ARGUMENT STATEMENT
LR 34.1 (a), on behalf of filer
Attorney Patrick Strawbridge,
Esq. for Appellant DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 08/09/2019 by CM/
ECF. [2628450] [19-1540] [Entered:
08/09/2019 10:49 AM]

08/09/2019

124 ORAL ARGUMENT STATEMENT
LR 34.1 (a), on behalf of filer
Attorney Mr. Douglas Neal
Letter for Appellee Committee on
Financial Services of the United
States House of Representatives
and Permanent Select Committee
on Intelligence of the United States
House of Representatives, FILED.
Service date 08/09/2019 by CM/
ECF. [2628695] [19-1540] [Entered:
08/09/2019 12:27 PM]
***

90a
Appendix C
08/14/2019

134 MOTION, for leave to respond, on
behalf of Appellee Committee on
Financial Services of the United
States House of Representatives
and Permanent Select Committee
on Intelligence of the United States
House of Representatives, FILED.
Service date 08/14/2019 by CM/
ECF. [2632240] [19-1540] [Entered:
08/14/2019 02:41 PM]

08/16/2019

137 MOTION ORDER, granting motion
for leave to respond [134] filed by
Appellee Committee on Financial
Services of the United States House
of Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, FILED. [2633924]
[137] [19-1540] [Entered: 08/16/2019
10:07 AM]

08/19/2019

138 MOTION, for leave to respond, on
behalf of Appellant DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.

91a
Appendix C
Service date 08/19/2019 by CM/
ECF. [2635414] [19-1540] [Entered:
08/19/2019 10:07 AM]
***
08/19/2019

142 NEW PARTY, Amicus Curiae
United States of America, ADDED.
[2635765] [19-1540] [Entered:
08/19/2019 12:46 PM]

08/19/2019

143 AMICUS BRIEF, on behalf of
Amicus Curiae United States of
America, FILED. Service date
08/19/2019 by CM/ECF.[2635768]
[19-1540] [Entered: 08/19/2019 12:49
PM]

08/20/2019

145 MOTION ORDER, granting
motion for leave to respond [138]
filed by Appellant Ivanka Trump,
Donald J. Trump, Eric Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Organization LLC, DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Trump Acquisition
LLC, Trump Acquisition, Corp.
and Donald J. Trump, Jr., FILED.
[2636414][145] [19-1540] [Entered:
08/20/2019 08:48 AM]

92a
Appendix C
08/21/2019

148 SUPPLEMENTAL BRIEF, on
behalf of Appellee Committee on
Financial Services of the United
States House of Representatives
and Permanent Select Committee
on Intelligence of the United States
House of Representatives, FILED.
Service date 08/21/2019 by CM/
ECF.[2638525] [19-1540] [Entered:
08/21/2019 04:34 PM]

08/21/2019

149 SUPPLEMENTAL BRIEF, on
behalf of Appellant DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Donald J. Trump
Revocable Trust, Trump Acquisition
LLC, Trump Acquisition, Corp.,
Trump Organization LLC, Trump
Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 08/21/2019 by CM/
ECF.[2638601] [19-1540] [Entered:
08/21/2019 05:35 PM]

08/23/2019

155 CASE, before JON, PWH, DAL,
HEARD.[2640051] [19-1540]
[Entered: 08/23/2019 01:58 PM]

08/26/2019

156 ORDER, dated 08/26/2019,
Superseding all previous instructions
from the Clerk of the Court, it

93a
Appendix C
is hereby ORDERED that the
Defendants–Appellees Deutsche
Bank AG and Capital One Financial
Corporation each inform the Court
by letter, filed by 4 p.m. Tuesday,
August 27, 2019, whether it has in its
possession any tax returns of any of
the individuals or entities named or
referred to (directly or indirectly)
in paragraph 1 of the subpoenas
the bank has received from the
Intervenor Committees., by JON,
PWH, DAL, FILED.[2640786] [191540] [Entered: 08/26/2019 12:41 PM]
08/27/2019

157 ORDER, dated 08/27/2019, An
order issued 08/26/2019 directs that
Defendants-Appellees Deutsche
Bank AG and Capital One Financial
Corporation each file a letter with
the Court by 4 p.m. Tuesday,
08/27/2019. It is further ordered
that if Defendants-Appellees file an
unredacted letter under seal with
the Court, the redacted version of
the letter served on the IntervenorCommittees also be served on
Plaintiffs-Appellants and filed on the
public docket, by JON, PWH, DAL,
FILED.[2641621] [19-1540] [Entered:
08/27/2019 11:15 AM]

94a
Appendix C
08/27/2019

158 LETTER, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, responds to
questions raised by the Court during
the August 23, 2019 oral argument,
RECEIVED. Service date 08/27/2019
by CM/ECF.[2641782] [19-1540]
[Entered: 08/27/2019 01:21 PM]

08/27/2019

160 LETTER, on behalf of Appellee
Deutsche Bank AG, states a nonredacted letter filed under seal
has been submitted to the Court,
RECEIVED. Service date 08/27/2019
by CM/ECF.[2641956] [19-1540]
[Entered: 08/27/2019 03:10 PM]

08/27/2019

161 REDACTED LETTER, on behalf
of Appellee Deutsche Bank AG,
in response to the Court’s order
directing the Bank to inform
the Court “whether it has in its
possession any tax returns of any of
the individuals or entities named or
referred to (directly or indirectly)
in paragraph 1 of the subpoenas”
served on the Bank on April 15,
2019 by the House Committee on

95a
Appendix C
Financial Services and Permanent
Select Committee on Intelligence
(the”Subpoenas”). ECF No. 156 (Aug.
26, 2019). RECEIVED. Service date
08/27/2019 by CM/ECF.[2641969] [191540] [Entered: 08/27/2019 03:19 PM]
08/27/2019

162 LETTER, on behalf of Appellee
Capital One Financial Corporation,
in response to the questions raised
by the Court at oral argument and
its order dated August 26, it does not
posses any tax returns responsive
to the Capital One Subpeona,
RECEIVED. Service date 08/27/2019
by CM/ECF.[2641975] [19-1540]
[Entered: 08/27/2019 03:23 PM]

08/27/2019

165 SEALED LETTER, dated
08/27/2019, on behalf of Appellee
Deutsche Bank AG, RECEIVED.
Service date 08/27/2019 by hand
delivery.[2642764] [19-1540]
[Entered: 08/28/2019 01:03 PM]

08/29/2019

166 LETTER, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.

96a
Appendix C
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, response
to the Committees August 27, 2019
letter, RECEIVED. Service date
08/29/2019 by CM/ECF.[2644218]
[19-1540] [Entered: 08/29/2019 10:06
PM]
09/11/2019

168 MOTION FOR LEAVE TO
INTERVENE, on behalf of Movants
The Associated Press (“AP”), Cable
News Network, Inc., The New
York Times Company, POLITICO
LLC and WP Co. LLC , FILED.
Service date 09/11/2019 by CM/
ECF.[2652598] [19-1540] [Entered:
09/11/2019 11:59 AM]

09/11/2019

170 NEW PARTY, Movants The
Associated Press (“AP”), Cable News
Network, Inc., The New York Times
Company, POLITICO LLC and WP
Co. LLC, ADDED.[2652926] [191540] [Entered: 09/11/2019 03:28 PM]

09/11/2019

171 DEFECTIVE DOCUMENT, motion
to intervene, unseal judicial records,
[168], on behalf of Movant Cable
News Network, Inc., POLITICO
LLC, The Associated Press (“AP”),
The New York Times Company and
WP Co. LLC, FILED.[2652951] [19-

97a
Appendix C
1540] [Entered: 09/11/2019 03:34 PM]
09/11/2019

172 MOTION FOR LEAVE TO
INTERVENE, on behalf of
Movants Cable News Network, Inc.,
POLITICO LLC, The Associated
Press (“AP”), The New York Times
Company and WP Co. LLC, FILED.
Service date09/11/2019 by CM/
ECF.[2653049] [19-1540]--[Edited
09/11/2019 by EM] [Entered:
09/11/2019 03:57 PM]

09/11/2019

173 CURED DEFECTIVE Motion for
Leave to Intervene, [172], on behalf
of Movant Cable News Network, Inc.,
POLITICO LLC, The Associated
Press (“AP”), The New York Times
Company and WP Co. LLC, FILED.
[2653136] [19-1540] [Entered:
09/11/2019 04:32 PM]

09/17/2019

176 MOTION FOR LEAVE TO
INTERVENE, on behalf of Movants
Dow Jones & Company, Inc., and
Reuters News & Media Inc., FILED.
Service date09/17/2019 by CM/
ECF.[2657828] [19-1540]--[Edited
09/18/2019 by EM] [Entered:
09/17/2019 05:02 PM]

98a
Appendix C
09/18/2019

177 NEW PARTY, Movant Dow Jones &
Company, Inc., ADDED.[2658462]
[19-1540] [Entered: 09/18/2019 12:48
PM]

09/18/2019

178 NEW PARTY, Movant Reuters News
& Media Inc., ADDED.[2658465] [191540] [Entered: 09/18/2019 12:50 PM]

09/18/2019

180 ORDER, dated 09/18/2019, directing
parties to respond on or before
09/27/2019, to inform the Court of
their positions, if any, with respect
to the motions for leave to intervene
for purposes of unsealing certain
records which motions have been
filed by proposed intervenors
Media Coalition and by proposed
intervenors Dow Jones and Reuters,
by JON, PWH, DAL, FILED.
[2658476] [19-1540] [Entered:
09/18/2019 01:00 PM]

09/18/2019

181 MOTION FOR LEAVE TO
INTERVENE, on behalf of Movants
Dow Jones & Company, Inc., and
Reuters News & Media Inc., FILED.
Service date 09/18/2019 by CM/
ECF.[2658513] [19-1540] [Entered:
09/18/2019 01:34 PM]

09/27/2019

184 OPPOSITION TO MOTION, [172],
[176], on behalf of Appellee Deutsche

99a
Appendix C
Bank AG, FILED. Service date
09/27/2019 by CM/ECF. [2666850]
[19-1540] [Entered: 09/27/2019 02:43
PM]
09/27/2019

186 OPPOSITION TO MOTION, [172],
[176], on behalf of Appellant DJT
Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 09/27/2019 by CM/
ECF. [2667030] [19-1540] [Entered:
09/27/2019 03:59 PM]

09/27/2019

188 LETTER, on behalf of Appellee
Capital One Financial Corporation,
stating that it takes no position with
respect to the motions for leave to
intervene, RECEIVED. Service date
09/27/2019 by CM/ECF.[2667075]
[19-1540]--[Edited 09/27/2019 by EM]
[Entered: 09/27/2019 04:23 PM]

09/27/2019

190 LETTER, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence

100a
Appendix C
of the United States House of
Representatives, advising the Court
of their position with respect to
the motions for leave to intervene,
RECEIVED. Service date
09/27/2019 by CM/ECF.[2667222]
[19-1540]--[Edited 09/27/2019 by EM]
[Entered: 09/27/2019 05:39 PM]
10/04/2019

193 REPLY TO OPPOSITION [186],
[184], on behalf of Movant Cable
News Network, Inc., Dow Jones &
Company, Inc., POLITICO LLC,
Reuters News & Media Inc., The
Associated Press (“AP”), The New
York Times Company and WP
Co. LLC, FILED. Service date
10/04/2019 by CM/ECF.[2673270]
[193] [19-1540] [Entered: 10/04/2019
04:44 PM]

10/10/2019

197 NON- DISPOSITIVE OPINION,
granting motions to intervene and
denying motions to unseal, by JON,
PWH, DAL, FILED.[2676948] [191540] [Entered: 10/10/2019 10:13 AM]

10/10/2019

199 CERTIFIED NON-DISPOSITIVE
OPINION, dated 10/10/2019, to
SDNY ( NEW YORK CITY),
ISSUED.[2677067] [19-1540]
[Entered: 10/10/2019 11:22 AM]

101a
Appendix C
10/11/2019

201 FRAP 28(j) LETTER, dated
10/11/2019, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, RECEIVED.
Service date 10/11/2019 by CM/
ECF.[2678867] [19-1540] [Entered:
10/11/2019 05:50 PM]

10/14/2019

202 FRAP 28(j) LETTER, dated
10/14/2019, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump and Ivanka Trump,
RECEIVED. Service date 10/14/2019
by CM/ECF.[2678963] [19-1540]
[Entered: 10/14/2019 08:03 PM]

11/14/2019

205 FRAP 28(j) LETTER, dated
11/14/2019, on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence

102a
Appendix C
of the United States House of
Representatives, RECEIVED.
Service date 11/14/2019 by CM/
ECF.[2706259] [19-1540] [Entered:
11/14/2019 12:51 PM]
11/26/2019

207 FRAP 28(j) LETTER, dated
11/26/2019, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump and Ivanka Trump,
RECEIVED. Service date 11/26/2019
by CM/ECF.[2715980] [19-1540]
[Entered: 11/26/2019 09:15 AM]

11/27/2019

210 EMERGENCY MOTION, to
intervene, on behalf of Movant
Duane L. Berry, FILED. Service
date 11/22/2019 by Third party
mail.[2718496] [19-1540] [Entered:
12/02/2019 10:41 AM]

12/02/2019

209 NEW PARTY, Movant Duane L.
Berry, ADDED.[2718435] [19-1540]
[Entered: 12/02/2019 10:15 AM]

12/02/2019

211 DEFECTIVE DOCUMENT,
EMERGENCY MOTION , to

103a
Appendix C
intervene, [210], on behalf of Movant
Duane L. Berry, copy to pro se
movant, FILED.[2718509] [19-1540]
[Entered: 12/02/2019 10:45 AM]
12/03/2019

214 OPINION, affirming in part and
remanding in part the district
court’s order, by JON, PWH, DAL
(concurring and dissenting), FILED.
[2719365] [19-1540] [Entered:
12/03/2019 10:01 AM]

12/03/2019

215 OPINION, Concurring & Dissenting,
by DAL, FILED.[2719370] [19-1540]
[Entered: 12/03/2019 10:04 AM]

12/03/2019

216 CERTIFIED ORDER, dated
12/03/2019, to SDNY, ISSUED.
[2719375] [19-1540] [Entered:
12/03/2019 10:05 AM]

12/03/2019

217 NEW CASE MANAGER, Yenni
Liu, ASSIGNED.[2719378] [19-1540]
[Entered: 12/03/2019 10:06 AM]

12/03/2019

222 JUDGMENT, FILED.[2719473] [191540] [Entered: 12/03/2019 10:50 AM]

12/03/2019

223 JUDGMENT MANDATE, ISSUED.
[2719491] [19-1540] [Entered:
12/03/2019 10:56 AM]

104a
Appendix C
12/04/2019

225 INTERNET CITATION NOTE:
Material from decision with internet
citation, ATTACHED.[2721143] [191540] [Entered: 12/04/2019 02:27 PM]

12/04/2019

226 INTERNET CITATION NOTE:
Material from decision with internet
citation, ATTACHED.[2721145] [191540] [Entered: 12/04/2019 02:27 PM]

12/04/2019

227 INTERNET CITATION NOTE:
Material from decision with internet
citation, ATTACHED.[2721146] [191540] [Entered: 12/04/2019 02:28 PM]

12/04/2019

228 INTERNET CITATION NOTE:
Material from decision with internet
citation, ATTACHED.[2721148] [191540] [Entered: 12/04/2019 02:28 PM]

12/04/2019

229 MOTION, to recall mandate, to stay
mandate, on behalf of Appellant
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald J.
Trump, Donald J. Trump, Jr., Eric
Trump and Ivanka Trump, FILED.
Service date 12/04/2019 by CM/
ECF. [2721594] [19-1540] [Entered:
12/04/2019 07:42 PM]

105a
Appendix C
12/05/2019

232 LETTER, on behalf of Appellants
DJT Holdings LLC, DJT Holdings
Managing Member LLC, Donald
J. Trump Revocable Trust, Trump
Acquisition LLC, Trump Acquisition,
Corp., Trump Organization LLC,
Trump Organization, Inc., Donald
J. Trump, Donald J. Trump, Jr.,
Eric Trump and Ivanka Trump, on
update regarding motion to recall
and stay the mandate, RECEIVED.
Service date 12/05/2019 by CM/
ECF.[2722737] [19-1540]--[Edited
12/06/2019 by YL] [Entered:
12/05/2019 05:46 PM]

12/06/2019

234 OPPOSITION TO MOTION,
[229], [229], on behalf of Appellee
Committee on Financial Services
of the United States House of
Representatives and Permanent
Select Committee on Intelligence
of the United States House of
Representatives, FILED. Service
date 12/06/2019 by CM/ECF.
[2723389] [19-1540] [Entered:
12/06/2019 01:12 PM]

12/09/2019

237 U.S. SUPREME COURT ORDER,
that the mandate of the United
States Court of Appeals for the
Second Circuit, case No. 19-1540,

106a
Appendix C
issued December 3, 2019, is hereby
recalled and stayed until 5 p.m. on
December 13, 2019, RECEIVED.
[2724006] [19-1540] [Entered:
12/09/2019 09:50 AM]
12/13/2019

239 U.S. SUPREME COURT ORDER,
dated 12/13/2019, granting the
petition for a writ of certiorari and
staying the mandate of the United
States Court of Appeals for the
Second Circuit. The case will be
set for argument in the March 2020
argument session, RECEIVED.
[2729482] [19-1540] [Entered:
12/13/2019 04:51 PM]

12/13/2019

240 MOTION ORDER, denying as
moot motion to recall mandate
and stay the mandate [229] [229]
filed by Appellant Ivanka Trump,
Donald J. Trump, Eric Trump,
Donald J. Trump Revocable Trust,
Trump Organization, Inc., Trump
Organization LLC, DJT Holdings
LLC, DJT Holdings Managing
Member LLC, Trump Acquisition
LLC, Trump Acquisition, Corp. and
Donald J. Trump, Jr., in light of the
Supreme Court’s order granting the
same relief, by JON, PWH, DAL,
FILED. [2729500][240] [19-1540]
[Entered: 12/13/2019 04:58 PM]

107a
Appendix C
12/13/2019

242 CERTIFIED ORDER of the
Supreme Court, dated 12/13/2019,
to SDNY (NEW YORK CITY),
ISSUED.[2729517] [19-1540]
[Entered: 12/13/2019 05:05 PM]

12/13/2019

243 ORDER, dated 12/13/2019, denying
as moot Appellant’s motion to recall
and stay of our mandate in light of
the Supreme Court’s order entered
today, by JON, PWH, DAL, FILED.
[2729549] [19-1540] [Entered:
12/13/2019 05:29 PM]

12/17/2019

244 U.S. SUPREME COURT NOTICE,
dated 12/13/2019, U.S. Supreme
Court docket # 19-760, stating the
petition for writ of certiorari is
granted, RECEIVED.[2730999] [191540] [Entered: 12/17/2019 08:59 AM]

12/17/2019

246 U.S. SUPREME COURT NOTICE
of writ of certiorari filing, dated
12/13/2019, U.S. Supreme Court
docket # 19-760, RECEIVED.
[2731128] [19-1540] [Entered:
12/17/2019 09:52 AM]

12/23/2019

247 MOTION, to intervene, on behalf of
Movant Duane L. Berry, FILED.
Service date 12/13/2019 by US
mail.[2739015] [19-1540] [Entered:
12/27/2019 10:56 AM]

108a
Appendix C
01/02/2020

251 MOTION ORDER, denying motion
to intervene for lack of jurisdiction.
[247] filed by Movant Duane L.
Berry, by JON, PWH, DAL, copy
sent to pro se, FILED. [2741467][251]
[19-1540] [Entered: 01/02/2020 12:53
PM]

01/07/2020

252 PAPERS, application for writ of
assistance, filed by Movant Duane L.
Berry, RECEIVED.[2748195] [191540] [Entered: 01/09/2020 02:05 PM]

01/09/2020

253 NOTICE, Case Status, SENT.
[2748199] [19-1540] [Entered:
01/09/2020 02:07 PM]

109a
Appendix D OF THE UNITED
APPENDIX D — COMPLAINT
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, FILED APRIL 29, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
Docket No. _______________
DONALD J. TRUMP, DONALD J. TRUMP JR.,
ERIC TRUMP, IVANKA TRUMP,
and
THE DONALD J. TRUMP REVOCABLE TRUST,
THE TRUMP ORGANIZATION, INC., TRUMP
ORGANZATION LLC, DJT HOLDINGS LLC, DJT
HOLDINGS MANAGING MEMBER LLC, TRUMP
ACQUISITION LLC, and TRUMP
ACQUISITION, CORP.,
Plaintiffs,
- against DEUTSCHE BANK AG and CAPITAL
ONE FINANCIAL CORP.,
Defendants.

110a
Appendix D
COMPLAINT
Plaintiffs, by their attorneys Consovoy McCarthy
Park PLLC and Mukasey Frenchman & Sklaroff LLP,
bring this complaint against Defendants and allege as
follows:
A. INTRODUCTION
1. This case involves Congressional subpoenas that
have no legitimate or lawful purpose. The subpoenas were
issued to harass President Donald J. Trump, to rummage
through every aspect of his personal finances, his
businesses, and the private information of the President
and his family, and to ferret about for any material that
might be used to cause him political damage. No grounds
exist to establish any purpose other than a political one.
2. The House Permanent Select Committee on
Intelligence and the House Financial Services Committee
issued the subpoenas to Defendants Deutsche Bank AG
and Capital One Financial Corp. These two financial
institutions have long provided business and personal
banking services to Plaintiffs.
3. The Chairpersons of the Intelligence and Financial
Services Committees (Adam B. Schiff and Maxine M.
Waters) have confirmed the issuance of the subpoenas,
making public statements to the media that emphasize
their intention to probe every aspect of the private lives
of the Trump family, their businesses, and even those with
only the most tangential connection to Trump entities,

111a
Appendix D
regardless whether any evidence (credible or otherwise)
exists to support such intrusive probes. The Committees
have refused to provide copies of the subpoenas to
Plaintiffs—preventing them from even knowing, let alone
negotiating, the subpoenas’ scope or breadth.
4. Nonetheless, Defendants’ descriptions of the
subpoenas confirm their remarkable overbreadth.
According to Defendants, the Committees are seeking
all banking and financial records not just concerning the
individual Plaintiffs, but also their own family members.
This means the subpoenas request documents about
accounts of the Plaintiffs’ children (and in some cases,
grandchildren).
5. The subpoenas to the entities are equally intrusive
and overbroad. They seek not only the Plaintiffs’
documents, but also the financial records of their parents,
subsidiaries, affiliates, branches, divisions, partnerships,
properties, groups, special purpose entities, joint
ventures, predecessors and successors. As if that were not
broad enough, the subpoenas extend further to documents
concerning each of the entities’ current or former
employees, officers, directors, shareholders, partners,
members, consultants, managers, senior associates, staff
employees, independent contractors, agents, attorneys, or
other representatives.
6. For most of the documents, the Committees demand
records from the last ten years. For others, the request
is unbounded—meaning the Committees seek records
dating back decades, to the individual Plaintiffs’ own
childhoods.

112a
Appendix D
7. The intrusiveness and impropriety of these requests
are obvious. The House of Representatives is demanding,
among other things, records of every single checking
withdrawal, credit-card swipe, or debit-card purchase—
no matter how trivial or small—made by each and every
member of the Trump family. But the dates and times
when these individuals purchased books, groceries and
other personal items is not the business of the House of
Representatives or anyone else. It is an abuse of power
to claim otherwise (particularly since the Committees
declined to ask Plaintiffs themselves for the records, or
even to discuss the scope of their requests).
8. In an effort to justify their demands, the chairs
of the Committees have claimed that the subpoenas are
intended to investigate “potential foreign influence on the
U.S. political process” or the use of the financial system
for “illicit purposes.” But the information they seek long
predates the President’s election to office, reaches well
beyond transactions associated with foreign parties,
and encompasses reams of account records for entities,
individuals, children, and spouses who have never even
been implicated in any probe.
9. The Committees have ignored the constitutional
limits on Congress’ power to investigate. Article I of the
Constitution does not contain an “Investigations Clause”
or an “Oversight Clause.” It gives Congress the power to
enact certain legislation. Accordingly, investigations are
legitimate only insofar as they further some legitimate
legislative purpose. No investigation can be an end in
itself. And Congress cannot use investigations to exercise

113a
Appendix D
powers that the Constitution assigns to the executive or
judicial branch.
10. The subpoenas to Deutsche Bank and Capital
One lack any legitimate legislative purpose. There is
no possible legislation at the end of this tunnel; indeed,
the Committee Chairs have not claimed otherwise. With
these subpoenas, the Committees are instead assuming
the powers of the Department of Justice, investigating
(dubious and partisan) rumors of illegal conduct by private
individuals, many of whom are outside of government.
Their goal is to rummage around Plaintiffs’ private
financial information in the hope that they will stumble
upon something they can expose publicly and use as a
political tool against the President.
11. Moreover, the Committees’ attempts to obtain
Plaintiffs’ account records v iolate the statutor y
requirements that apply to the federal government
under the Right to Financial Privacy Act (“RFPA”).
Under the RFPA, federal authorities are required to
follow certain steps—including the provision of notice
and an opportunity to object—before obtaining private
financial records. The Committees have ignored these
requirements, and any production of account records by
Deutsche Bank or Capital One would violate the law.
12. This Court has the power to declare the subpoenas
invalid and enjoin Defendants from complying with them
for at least two reasons. First, because the Committees’
subpoenas threaten to expose Plaintiffs’ confidential
account information and lack “a legitimate legislative

114a
Appendix D
purpose,” and second, because they violate the protections
of the RFPA. See Eastland v. U.S. Servicemen’s Fund,
421 U.S. 491, 501 n.14 (1975) (endorsing U.S. Servicemen’s
Fund v. Eastland, 488 F.2d 1252, 1259-60 (D.C. Cir. 1973),
which authorized a private right of action for declaratory
and injunctive relief); 12 U.S.C. §3418 (authorizing
injunctive relief to prevent violations of the RFPA).
Plaintiffs are entitled to that relief.
B. PARTIES
13. Plaintiff Donald J. Trump is the 45th President of
the United States. President Trump brings this suit solely
in his capacity as a private citizen.
14. Plaintiff Donald J. Trump Jr. is the son of President
Trump.
15. Plaintiff Eric Trump is the son of President Trump.
16. Plaintiff Ivanka Trump is the daughter of
President Trump.
17. Plaintiff The Trump Organization, Inc. is a New
York corporation with its principal place of business at
725 Fifth Avenue, New York, NY 10022.
18. Plaintiff Trump Organization LLC is a New
York limited liability company with its principal place of
business at 725 Fifth Avenue, New York, NY 10022.

115a
Appendix D
19. Plaintiff DJT Holdings LLC is a Delaware limited
liability company with its principal place of business at
725 Fifth Avenue, New York, NY 10022.
20. Plaintiff DJT Holdings Managing Member LLC
is a Delaware limited liability company with its principal
place of business at 725 Fifth Avenue, New York, NY
10022.
21. Plaintiff Trump Acquisition, LLC is a Delaware
limited liability company with its principal place of
business at 725 Fifth Avenue, New York, NY 10022.
22. Plaintiff Trump Acquisition Corp. is a Delaware
corporation with its principal place of business at 725 Fifth
Avenue, New York, NY 10022.
23. Plaintiff The Donald J. Trump Revocable Trust is
a trust created and operating under the laws of New York.
24. Defendant Deutsche Bank AG is a bank organized
under the laws of the Federal Republic of Germany
with a branch at 60 Wall Street, New York, NY 10005.
Deutsche Bank received one or more subpoenas from the
Committees seeking account records and other documents
concerning one or more of Plaintiffs.
25. Defendant Capital One Financial Corp. is a bank
holding company headquartered in McLean, VA, with
numerous branch offices in New York City. Capital One
received one or more subpoenas from the Committees
seeking account records and other documents concerning
one or more of Plaintiffs.

116a
Appendix D
C. JURISDICTION & VENUE
26. This Court has subject-matter jurisdiction because
this case arises under the Constitution and laws of the
United States, 28 U.S.C. §§1331, 2201, and because it is
brought to enforce the provisions of the RFPA, 12 U.S.C.
§3416.
27. Venue is proper because a substantial part of
the events or omissions giving rise to Plaintiffs’ claims
occurred in this district and a substantial part of the
property that is the subject of Plaintiffs’ action is situated
in this district. 28 U.S.C. §1391(b)(2).
D. BACKGROUND
1.

Challenges to Congressional Subpoenas

28. Not infrequently, federal courts adjudicate the
legality of congressional subpoenas. Most such cases follow
a familiar pattern: Congress issues a subpoena, the target
does not comply, Congress tries to force compliance in
federal court, and the target raises the illegality of the
subpoena as a defense.
29. But this defensive posture is not the only way
to challenge a congressional subpoena. When Congress
“seeks information directly from a party,” that party
“can resist and thereby test the subpoena.” Eastland,
421 U.S. at 501 n.14. But when Congress “seeks that
same information from a third person,” this option is not
available; the third party might not have an interest in

117a
Appendix D
protecting the information or resisting the subpoena,
and its “compliance” with the subpoena “could frustrate
any judicial inquiry.” Id. For that reason, the law allows
the person whose information will be exposed to sue in
federal court for an injunction or declaratory judgment
to block the third party from complying. Eastland, 488
F.2d at 1259, 1255. The third party cannot comply with
the subpoena unless “a legitimate legislative purpose is
present.” Eastland, 421 U.S. at 501.
30. The “legitimate legislative purpose” requirement
stems directly from the Constitution. “The powers of
Congress … are dependent solely on the Constitution,” and
“no express power in that instrument” allows Congress
to investigate individuals or to issue compulsory process.
Kilbourn v. Thompson, 103 U.S. 168, 182-89 (1880). The
Constitution instead permits Congress to enact certain
kinds of legislation. See, e.g., Art. I, §8. Thus, Congress’
power to investigate “is justified solely as an adjunct to the
legislative process.” Watkins, 354 U.S. at 197. “Congress is
not invested with a general power to inquire into private
affairs. The subject of any inquiry always must be one
on which legislation could be had.” Eastland, 421 U.S. at
504 n.15 (cleaned up); see also Quinn v. United States, 349
U.S. 155, 161 (1955) (“[T]he power to investigate” does
not “extend to an area in which Congress is forbidden to
legislate.”).
31. “Oversight” and “transparency,” in a vacuum,
are not legitimate legislative purposes that can justify
subpoenaing a private citizen. For more than a century, in
fact, the Supreme Court has been quite “sure” that neither

118a
Appendix D
the House nor Senate “possesses the general power of
making inquiry into the private affairs of the citizen.”
Kilbourn, 103 U.S. at 190. “[T]here is no congressional
power to expose for the sake of exposure.” Watkins, 354
U.S. at 200. “No inquiry is an end in itself; it must be
related to, and in furtherance of, a legitimate task of the
Congress.” Id. at 187.
32. Additionally, because Congress must have a
legitimate legislative purpose, it cannot use subpoenas to
exercise “any of the powers of law enforcement.” Quinn,
349 U.S. at 161. Those powers “are assigned under our
Constitution to the Executive and the Judiciary.” Id.
Put simply, Congress is not “a law enforcement or trial
agency,” and congressional investigations conducted “for
the personal aggrandizement of the investigators” or “to
‘punish’ those investigated” are “indefensible.” Watkins,
354 U.S. at 187. Our tripartite system of separated powers
requires that “any one of the[] branches shall not be
permitted to encroach upon the powers confided to the
others, but that each shall by the law of its creation be
limited to the exercise of the powers appropriate to its own
department and no other.” Kilbourn, 103 U.S. at 190-91.
33. Finally, when a subpoena is issued by a committee,
any legislative purpose is not legitimate unless it falls
within that committee’s jurisdiction. “The theory of a
committee inquiry is that the committee members are
serving as the representatives of the parent assembly
in collecting information for a legislative purpose.”
Watkins, 354 U.S. at 200. Congress therefore must “spell
out that group’s jurisdiction and purpose with sufficient

119a
Appendix D
particularity … in the authorizing resolution,” which
“is the committee’s charter.” Id. at 201. The committee
“must conform strictly to the resolution.” Exxon Corp.
v. FTC, 589 F.2d 582, 592 (D.C. Cir. 1978). And when
an investigation is “novel” or “expansive,” courts will
construe the committee’s jurisdiction “narrowly.” Tobin
v. United States, 306 F.2d 270, 275 (D.C. Cir. 1962).
2.

The Campaign of Abusive Investigations and
Harassment of Plaintiffs

34. After the 2018 midterm elections, Democrats won
a majority of seats in the House. Every House committee
in the current Congress is thus chaired by a Democrat.
35. On the night of the election, soon-to-be House
Speaker Nancy Pelosi announced that “tomorrow will be
a new day in America” because the new majority would
enact “checks and balances to the Trump administration.”
And “subpoena power,” she explained a few days later,
is “a great arrow to have in your quiver.” “Congress is
going to force transparency on this president,” another
congressional aide repeated. “Once there is transparency,
I am sure there are going to be a lot of questions that flow
from that.”
36. The statements about “checks and balances” and
“transparency” were not referring to legislation. Instead,
according to news outlets that interviewed party leaders
and aides shortly after the election, the statements meant
that they were going to spend the next two years launching
a “fusillade” of subpoenas in order to “drown Trump with

120a
Appendix D
investigations,” “turn Trump’s life upside down,” and
“make Trump’s life a living hell.”
37. Prominent Representatives were quite candid
about their mission. Representative John Yarmuth, now
chair of the House Budget Committee, stated that the new
House majority would be “brutal” for President Trump:
“We’re going to have to build an air traffic control tower
to keep track of all the subpoenas flying from here to the
White House.” Another senior official revealed that, from
November 2018 to January 2019, Representatives were
busy preparing a “subpoena cannon” to fire at President
Trump based on a “wish-list” of nearly 100 investigatory
topics. Representative Nita Lowey, now chair of the House
Appropriations Committee, confirmed a long list of topics
that the House planned to investigate and stated, “We
have our boxing gloves on. I’m ready.” Just last month,
Chairwoman Waters declared that “I haven’t forgotten
about 45”—meaning President Trump. “I have the gavel—
and subpoena power—and I am not afraid to use it.”
38. The “focus,” according to then–Minority Whip
Steny Hoyer, would be examining “the President in terms
of what [business] interests he has” from his time as a
private citizen. Chairwoman Waters declared that “[w]e’re
going to find out where your money has come from.” The
Committees want this personal information in the hopes
they will find something to score political points against
the President leading up to the 2020 election.
39. The Committee Chairpersons are executing their
plan in earnest. Recently, several House committees

121a
Appendix D
issued a flurry of subpoenas and requests for information
about the President’s family, personal finances, and
businesses. Just one request by Chairman Jerrold Nadler
of the House Judiciary Committee, for example, asked 81
different individuals and entities for information about
President Trump.
40. A few weeks ago, Chairpersons Schiff, Waters,
and Elijah Cummings of the House Oversight Committee
agreed to coordinate their subpoenas in order to inflict
maximum political damage on President Trump by
targeting his business and financial records.
41. Last Monday, Chairman Cummings sent one such
subpoena to Mazars USA LLP—Plaintiffs’ longtime
accountant.
42. The subpoenas at issue in this lawsuit were sent
shortly thereafter.
3.

The Subpoenas to Deutsche Bank and Capital
One.

43. Chairman Schiff and Chairwoman Waters issued
statements to the press confirming the existence of the
subpoenas to Defendants shortly after they were sent.
Chairman Schiff confirmed that Deutsche Bank had
received a “friendly” subpoena. Chairman Waters told the
press that the subpoenas were sent as part of an alleged
inquiry into the “potential use of the U.S. financial system
for illicit purposes.”

122a
Appendix D
44. Plaintiffs, through counsel, contacted the
Committees and requested copies of the subpoenas to help
determine their scope. Notwithstanding their willingness
to discuss the subpoenas with the press, the Committees
declined to provide copies of the subpoenas (or any
information about their contents) to Plaintiffs.
45. On April 17, 2019, counsel for Deutsche Bank
confirmed in writing to Plaintiffs that it had received the
subpoenas. According to Deutsche Bank, the subpoenas
seek “records and/or information related to banking
activities, including information regarding accounts,
financings, and related financial information” for all of
the named Plaintiffs.
46. Moreover, the subpoenas to Deutsche Bank
seek production of account records and other financial
information for Plaintiffs’ “parents, subsidiaries, affiliates,
branches, divisions, partnerships, properties, groups,
special purpose entities, joint ventures, predecessors,
successors or any other entity in which they have or
had a controlling interest.” The subpoenas further
extend to all “current or former employees, officers,
directors, shareholders, partners, members, consultants,
managers, senior associates, staff employees, independent
contractors, agents, attorneys or other representatives”
of the Plaintiff entities.
47. For the individual Plaintiffs, Deutsche Bank has
advised that the subpoenas seek banking and financial
records for all “members of their immediate families,”
including any accounts for which they are beneficiaries,

123a
Appendix D
trustees, beneficial owners, or over which they have
control. This sweeps in the complete banking and account
records of numerous children—including minors—and
spouses of the named individuals.
48. Deutsche Bank subsequently confirmed that, in
general, the subpoenas call for it to produce responsive
documents from January 1, 2010 through the present—
although for some documents (including account
applications and opening documents), the subpoena
requires production without any time limitation.
49. Deutsche Bank informed Plaintiffs that, absent a
court order, they intend to begin production of documents
in response to the subpoena on May 6.
50. Plaintiffs subsequently contacted Capital One,
which confirmed receipt of a subpoena that, upon
information and belief, seeks similar documents from the
same Plaintiffs. Capital One has informed Plaintiffs that it
feels obligated to comply with the subpoena absent court
intervention before May 6.
51. Plaintiffs have numerous accounts, including
personal, family, and business accounts, at Deutsche Bank
and Capital One.
52. The records at issue are protected from disclosure
by the federal Right to Financial Privacy Act, 12
U.S.C. §3501 et seq., which imposes strict procedural
requirements on federal attempts to obtain account
records. The Committees did not follow those procedures

124a
Appendix D
here and, as a result, the Act prohibits Deutsche Bank and
Capital One from producing the account records.
53. Plaintiffs bring this suit to challenge the validity
and enforceability of the subpoenas. Now that the
subpoenas have issued, Deutsche Bank and Capital One
face a difficult choice: ignore the subpoenas and risk
contempt of Congress, or comply with the subpoenas
and risk liability to Plaintiffs under the RFPA and other
laws. To resolve these conflicting commands, courts
instruct third-party custodians like Defendants to hold
onto the subpoenaed materials until the dispute over
the subpoenas’ validity is finally resolved in court. See
United States v. AT&T Co., 567 F.2d 121, 129 (D.C. Cir.
1977); United States v. Deloitte LLP, 610 F.3d 129, 142
(D.C. Cir. 2010). Thus, Congress cannot take any action
against Deutsche Bank or Capital One until this litigation
is finally resolved.
E. CLAIMS FOR RELIEF
1.

The Subpoenas Exceed the Committees’
Constitutional Authority

54. Plaintiffs incorporate all their prior allegations.
55. The subpoenas are invalid and unenforceable
because they have no legitimate legislative purpose.
56. The subpoenas seek to investigate events that
occurred while President Trump was a private citizen,
years before he was even a candidate for public office.

125a
Appendix D
57. The subpoenas seek to investigate events that could
not possibly lead to legislation within the Intelligence or
Financial Services Committees’ statutory jurisdiction and
constitutional authority.
58. The subpoenas are an attempt to investigate and
adjudicate possible violations of federal law by private
individuals—law-enforcement powers that only the
executive and judicial branches can exercise.
2.

The Subpoenas Violate the Right to Financial
Privacy Act

59. Plaintiffs incorporate all their prior allegations.
60. The RFPA prohibits Deutsche Bank and Capital
One from g iving a customer’s protected account
information to the federal government. 12 U.S.C. §3403(a).
61. Financial institutions can turn over a customer’s
information only if the government certifies that it has
complied with the RFPA’s procedures. §3403(b). For
a subpoena, those procedures include (1) “reason to
believe” that the records are ”relevant to a legitimate law
enforcement inquiry”; (2) giving a copy of the subpoena
to the customer; and (3) waiting at least 10 days so the
customer has a chance to object. §3405; see also §3408
(similar procedures for “written requests”).
62. The Committees have not complied with the
RFPA’s provisions or issued the required certifications.

126a
Appendix D
63. The RFPA authorizes injunctive relief “to require
that the procedures of this chapter are complied with.”
§3418.
WHEREFORE, Plaintiffs ask this Court to enter
judgment in their favor and to provide the following relief:
a. A declaratory judgment that the subpoenas are
invalid and unenforceable;
b. A permanent injunction quashing the subpoenas;
c. A permanent injunction prohibiting Deutsche Bank
and Capital One from disclosing, revealing, delivering,
or producing the requested information, or otherwise
complying with the subpoenas;
d. A temporary restraining order and preliminary
injunction prohibiting Deutsche Bank and Capital One
from disclosing, revealing, delivering, or producing the
requested information, or otherwise complying with the
subpoenas, until the subpoena’s validity has been finally
adjudicated on the merits;
e. Plaintiffs’ reasonable costs and expenses, including
attorneys’ fees; and
f. All other preliminary and permanent relief to which
Plaintiffs are entitled.

127a
Appendix D
Dated: April 29, 2019

Respectfully submitted,

Marc L. Mukasey
Mukasey Frenchman
& Sklaroff LLP
250 Park Avenue, 7th Floor
New York, NY 10177
347-527-3940
marc.mukasey@mukaseylaw.com
Counsel for The Trump
Organization, Inc., Trump
Organization LLC, The
Trump Corporation,
DJT Holdings LLC, DJT
Holdings Managing Member
LLC, The Donald J. Trump
Revocable Trust, Trump
Acquisition LLC, and
Trump Acquisition, Corp.

s/ Patrick Strawbridge
Patrick Strawbridge
(pro hac vice pending)
Consovoy McCarthy Park
PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
William S. Consovoy
Cameron T. Norris
Consovoy McCarthy Park
PLLC
3033 Wilson Blvd., Ste. 700
Arlington, VA 22201
(703) 243-9423
will@consovoymccarthy.com
cam@consovoymccarthy.com
Counsel for President Donald
J. Trump, Donald J. Trump
Jr., Eric Trump, and Ivanka
Trump

128a
E DOC. 51-2
APPENDIXAppendix
E — SDNY
(DEUTSCHE BANK SUBPOENA),
FILED MAY 10, 2019
SCHEDULE A
Custodian of Records
Deutsche Bank AG
The time period applicable to this subpoena is January 1,
2010 through the present, except for Items 1(i) and 6(i),
for which there is no time limitation.
Please provide complete and unredacted copies of the
following documents by May 6, 2019:
1. With respect to:
•
•
•
•
•
•
•
•
•
•
•
•
•
•

[Redacted]
Donald J. Trump
Donald Trump, Jr.
Eric Trump
Ivanka Trump
[Redacted]
The Donald J. Trump Revocable Trust
Trump Organization Inc.
Trump Organization LLC
DJT Holdings LLC
DJT Holdings Managing Member LLC
Trump Acquisition LLC
Trump Acquisition Corp.
any other name, alias, code name, code number,
or entity used in lieu of any of the individuals

129a
Appendix E
or entities named above or members of their
immediate family
or any account (including, but not limited to, any money
market, securities, or trading account or any loan account
or structure) in the name of any of the above-named
individuals or entities (or any other name, alias, code name,
code number, or entity used in lieu of any of the named
individuals or entities) or members of their immediate
family, individually or with other parties, as well as any
account in which any of the above-named individuals or
entities are or were, or have been identified as being, a
trustee, settlor or grantor, beneficiary, or beneficial owner,
or in which any of the individuals or entities have or have
had in any way control over, individually or with others:
i. any document related to account applications,
opening documents, KYC, due diligence, and closing
documents, including, but not limited to, any document
identifying:
a. any financial relationship, transactions, or ties
between the above-named individuals or entities
and any foreign individual, entity, or government;
b. any interest held by any foreign individual,
entity, or government in the above-named accounts;
c. any trustee, settlor, grantor, administrator,
controlling party, protector, beneficiary, beneficial
owner, or signatory; and
d. any relationship manager or account manager;

130a
Appendix E
ii. any monthly or other periodic account statement,
including, but not limited to, any such document
showing any incoming or outgoing funds transfers
involving the above-named individuals, entities,
and accounts and any foreign individual, entity, or
government;
iii. any document related to any domestic or international
transfer of funds in the amount of $10,000 or more,
including, but not limited to, any wire transfer, check,
cash letter, cashier’s check, book entry transfer,
or other such documents showing the originator,
beneficiary, source of funds, and destination of such
transfer, including whether any party to such transfer
was a foreign individual, entity, or government;
iv. any summary or analysis of domestic or international
account deposits, w ithdrawals, and transfers,
including, but not limited to, sources of deposits and
the destination of withdrawals/transfers, including any
wire transfer, check, cash letter, cashier’s check, or
other monetary instrument, including, but not limited
to, any summary or analysis of financial relationships,
transactions, or ties between the above-named
individuals, entities, and accounts and any foreign
individual, entity, or government;
v. any document related to monitoring for, identifying,
or evaluating possible suspicious activity, including
suspicious activity identified by Deutsche Bank AG’s
surveillance/monitoring program or referred by any
employee or third-party, including, but not limited

131a
Appendix E
to, suspicious activity relating to relationships,
transactions, or ties between the above-named
individuals, entities, and accounts and any foreign
individual, entity, or government;
vi. any document related to any investment, bond
offering, line of credit, loan, mortgage, syndication,
credit or loan restructuring, or any other credit
arrangement or arrangement to raise or provide
funding, including, but not limited to, those involving
any foreign individual, entity, or government, or any
other third party, including, but not limited to:
a. application and account opening documents,
including, but not limited to, any such document
showing any financial relationship, transactions,
or ties between the above-named individuals
or entities and any foreign individual, entity, or
government;
b. KYC and due diligence, including, but not limited
to, any such materials showing any financial
relationship, transaction, or ties between the
above-named individuals or entities and any foreign
individual, entity, or government;
c. personal or third-party guarantees, including,
but not limited to, any guarantee provided by a
foreign individual, entity, or government;
d. collateral and appraisals for any underlying
assets, including any asset in which a foreign

132a
Appendix E
individual, entity, or government has any interest
and any asset located in a foreign country or
jurisdiction;
e. any financial information provided by the
borrower (or prospective borrower) or otherwise
obtained by Deutsche Bank AG, including, but not
limited to:
1. financial statements (including those showing
any revenue, interest, or other income generated
from, or payments made to, any foreign
individuals, entities, or governments);
2. statements of net worth (including those
showing any foreign assets and liabilities);
3. debt schedules (including those showing any
debts owed to any foreign individuals, entities,
or governments);
4. business operating statements (including,
but not limited to, those showing any revenue,
interest, or other income generated from, or
payments made to, any foreign individuals,
entities, or governments);
5. cash flow statements (including, but not
limited to, those showing any revenue, interest,
or other income generated from, or payments
made to, any foreign individuals, entities, or
governments);

133a
Appendix E
6. bank and brokerage account records
(including those relating to any such accounts
held at foreign banks or other foreign financial
institutions);
7. tax returns and schedules (including, but not
limited to, those showing all foreign sources of
income, all foreign debt payments, all interests
held by the taxpayer in any foreign business
entity or bank/brokerage account, and all
interests held by any foreign individual, entity,
or government in any of the taxpayer’s business
entities); and
8. records of any bankruptcies;
f. offering memoranda, including, but not limited
to, any such document that shows any financial
relationships, transactions, or ties between the
above-named individuals, entities, or accounts and
any foreign individual, entity, or government;
g. communications involving the underwriting or
credit risk management units, credit risk committee,
reputational risk committee, management and
supervisory boards, or similar units or bodies,
including any such communication relating to
any financial relationships, transactions, or ties
between the above-named individuals, entities,
or accounts and any foreign individual, entity, or
government; and

134a
Appendix E
h. term sheets, including those showing the
involvement of any foreign individual, entity, or
government in the transaction;
i. risk assessments, risk ratings, and risk upgrades
or downgrades, including those relating to any
financial relationships, transactions, or ties
between the above-named individuals, entities,
or accounts and any foreign individual, entity, or
government;
j. credit assessment memoranda and credit reports,
including, but not limited to, those assessing
any financial relationships, transactions, or ties
between the above-named individuals, entities,
or accounts and any foreign individual, entity, or
government;
k. closing documents and loan documentation,
including, but not limited to, any such document
showing any role that any foreign individual, entity,
or government had in the transaction; and
L. periodic loan statements, loan monitoring
records, and records relating to any refinancing,
r e st r uc t u r i n g, mo d i f ic at ion , r ep ay me nt ,
forgiveness, foreclosure, or default, including
any such document showing any role that any
foreign individual, entity, or government had
in the refinancing, restructuring, modification,
repayment, forgiveness, foreclosure, or default;

135a
Appendix E
vii. any document related to any request for information
issued or received by Deutsche Bank AG pursuant to
Sections 314(a) or 314(b) of the USA PATRIOT Act,
Pub. L. 107-56, including, but not limited to, any such
document relating to any financial relationships,
transactions, or ties between the above-named
individuals, entities, or accounts and any foreign
individual, entity, or government;
viii. any document possessed or generated by, or
communications involving, [Selected Deutsche Bank
Employees] relating to any of the above-named
individuals, entities, accounts, or transactions,
particularly, but not limited to, any such document or
communication relating to any financial relationships,
transactions, or ties between the above-named
individuals, entities, or accounts and any foreign
individual, entity, or government;
ix. any document not otherwise kept in customary
record-keeping systems (including, but not limited
to, any document in any personal file or desk file),
related to any of the above-named individuals,
entities, or accounts and/or any issue or document
identified in items i through viii above, including, but
not limited to, any such document relating to any
financial relationships, transactions, or ties between
the above-named individuals, entities, or accounts and
any foreign individual, entity, or government; and
x. any document provided to, discussed w ith,
or generated by any member of Deutsche Bank

136a
Appendix E
AG’s Management Board, Supervisory Board, or
Reputational Risk Committee related to any of the
above-named individuals, entities, or accounts and/or
any issue or document identified in items i through ix
above, including, but not limited to, any such document
relating to any financial relationships, transactions,
or ties between the above-named individuals, entities,
and accounts and any foreign individual, entity, or
government.
2. A ny document related to Deutsche Bank AG’s
[Redacted] program, including, but not limited to, any
report or analysis related to the decision to identify an
individual or entity as a [Redacted]; any tracking list
of [Redacted]; any document related to any charges
in the [Redacted] tracking lists; any periodic review
of [Redacted]; any internal correspondence, meeting
minutes, or notes relating to [Redacted]; any memoranda
relating to [Redacted] prepared for Deutsche Bank AG’s
internal credit and risk committees or management
and supervisory boards; and any such document or
communication relating to any financial relationship,
transaction, or tie between any [Redacted] (or any account
held by a [Redacted]) and any foreign individual, entity,
or government.
3. Any document related to any review or analysis
performed by Deutsche Bank AG entitled [Redacted] or
any similar study, review, or analysis, including, but not
limited to, any such document relating to any financial
relationship, transaction, or tie between the relevant
account holders or customers and any foreign individual,
entity, or government.

137a
Appendix E
4. With respect to the following events or activities:
[Redacted]
i. any document related to any review or analysis of
those events or activities conducted by or possessed
by Deutsche Bank AG or its agents or representatives,
including, but not limited to, any document related
to any Deutsche Bank AG personnel facilitating or
involved in any of those events or activities, the identity
of any third-party individual or entity, or the beneficial
owner of any third-party entity, involved in any of those
events or activities;
ii. any record of any transaction involved in, or related
to, any of those events or activities;
iii. any document related to any request for information
issued or received pursuant to Sections 314(a) or 314(b)
of the USA PATRIOT Act, Pub. L. 107-56; and
iv. any document provided to, discussed with, or
generated by any member of Deutsche Bank AG’s
management board or supervisory board related to
any event or activity identified above and/or any issue
or document identified in items i through iii above.
5. Any document related to any review, study, analysis, or
communication to or from any U.S. federal, state, or local
agency regarding any [Redacted] or immediate family
member, including, but not limited to, any government
official or entity in which such an individual has been

138a
Appendix E
identified as a trustee, settlor, or grantor, beneficiary,
beneficial owner, or has or had in any way control over,
individually or with others.
6. With respect to:
[Redacted]
or any account (including, but not limited to, any money
market, securities, or trading account or any loan account
or structure) in the name of any of the above-named
entities, as well as any account in which any of the entities
have or have had in any way control over, individually or
with others:
i. any document related to account applications,
opening documents, KYC, due diligence, and closing
documents, including any document identifying:
a. any trustee, settlor, grantor, administrator,
controlling party, protector, beneficiary, beneficial
owner, or signatory; or
b. any relationship manager or account manager;
ii. any monthly or other periodic account statement;
iii. any document related to any domestic or international
transfer of funds in the amount of $10,000 or more,
including, but not limited to, any wire transfer, check,
cash letter, cashier’s check, book entry transfer, or other
document indicating the originator, beneficiary, source
of funds, or destination of such transfer;

139a
Appendix E
iv. any summar y or analysis of domestic and
international account deposits, withdrawals, and
transfers, including, but not limited to, sources of
deposits and the destination of withdrawals/transfers,
including any wire transfer, check, cash letter, cashier’s
check, or other monetary instrument;
v. any document related to monitoring for, identifying,
or evaluating possible suspicious activity, including
suspicious activity identified by Deutsche Bank AG’s
surveillance/monitoring program or referred by any
employee or third-party, including, but not limited
to, possible suspicious activity relating to foreign
individuals and entities and international funds
transfers;
vi. any document related to any agreement, business
relationship, or business venture (including, but not
limited to, joint underwritings, loans, financings or
securitizations such as CDOs) between Deutsche Bank
AG and any of the above-named entities;
vii. any document related to any request for information
issued or received by Deutsche Bank AG pursuant to
Sections 314(a) or 314(b) of the USA PATRIOT Act,
Pub. L. 107-56;
viii. any document not otherwise kept in customary
record-keeping systems (including, but not limited
to, any document in any personal file or desk file),
related to any entity identified above and/or any issue
or document identified in items i through vii above; and

140a
Appendix E
ix. any document provided to, discussed with, or
generated by any member of Deutsche Bank’s
Management Board, Supervisory Board, or Group
Reputational Risk Committee related to any entity
identified above and/or any issue or document identified
in items i through viii above.
7. Any document related to any periodic, special, or
other review conducted by or for Deutsche Bank AG of
any of the individuals, entities, accounts, or transactions
identified in items 1 and 6 above, including, but not limited
to, any relationship or account history, exposure reports,
particular transactions, management and servicing, or any
other review associated with Deutsche Bank AG’s policies
and procedures for loan/credit risk analysis or accounts
related to correspondent banking, private banking, public
figures, politically prominent persons, or their family
members, including, but not limited to, any such document
relating to any financial relationships, transactions, or
ties between the above-named individuals, entities, and
accounts and any foreign individual, entity, or government.
8. Any document related to any communication sent
or received by [Selected Deutsche Bank Employees]
concerning any individual, entity, or any issue or document
identified in items 1 through 7 above, including, but not
limited to, any entity in which such an individual has been
identified as a trustee, settlor, or grantor, beneficiary,
beneficial owner, or has or had in any way control over,
individually or with others, or any government official.

141a
Appendix E
RESPONDING TO COMMITTEE SUBPOENAS
In responding to the document request, please apply the
instructions and definitions set forth below:
INSTRUCTIONS
1. In complying with this request, you should produce
all responsive documents in unredacted form that are
in the possession, custody, or control or otherwise
available to Deutsche Bank AG or its agents, employees,
or representatives, regardless of whether the documents
are possessed directly by you.
2. Documents responsive to the request should not be
destroyed, modified, removed, transferred, or otherwise
made inaccessible to the Committee.
3. In the event that any entity, organization, or individual
named in the request has been, or is currently, known by
any other name, the request should be read also to include
such other names under that alternative identification.
4. Each document should be produced in a form that may
be copied by standard copying machines.
5. When you produce documents, you should identify the
paragraph(s) and/or clause(s) in the Committee’s request
to which the document responds.
6. Documents produced pursuant to this request should be
produced in the order in which they appear in your files

142a
Appendix E
and should not be rearranged. Any documents that are
stapled, clipped, or otherwise fastened together should
not be separated. Documents produced in response to this
request should be produced together with copies of file
labels, dividers, or identifying markers with which they
were associated when this request was issued. Indicate
the office or division and person from whose files each
document was produced. Documents produced on paper
(those from paper files that you choose to produce as such)
shall not contain any permanent fasteners (i.e., staples),
but shall be separated based on the divisions between
documents as it is maintained in the custodian’s files by
non-permanent fasteners (e.g., paper clips, binder clips,
rubber bands) or a non-white slip sheet.
7. Each folder and box should be numbered, and a
description of the contents of each folder and box, including
the paragraph(s) and/or clause(s) of the request to which
the documents are responsive, should be provided in an
accompanying index.
8. Responsive documents must be produced regardless of
whether any other person or entity possesses non-identical
or identical copies of the same document.
9. The Committee requests electronic documents in
addition to paper productions. If any of the requested
information is available in machine-readable or electronic
form (such as on a computer server, hard drive, CD,
DVD, back up tape, or removable computer media such as
thumb drives, flash drives, memory cards, and external
hard drives), you should immediately consult with

143a
Appendix E
Committee staff to determine the appropriate format in
which to produce the information. Documents produced
in electronic format should be organized, identified, and
indexed electronically in a manner comparable to the
organizational structure called for in (6) and (7) above.
10. Documents shall be produced in accordance with
the attached Data Delivery Standards. Alternatively,
all documents derived from word processing programs,
email applications, instant message logs, spreadsheets,
and wherever else practicable, shall be produced in
text searchable PDF format. Spreadsheets shall also be
provided in their native form. Audio and video files shall
be produced in their native format, although picture files
associated with email or word processing programs shall
be produced in PDF format along with the document it is
contained in or to which it is attached.
11. Other than native files produced along with TIFF
images in accordance with the attached Data Delivery
Standards, every page of material produced to the
Committee, whether from paper files or as a text
searchable PDF, must contain a unique Bates number. All
files produced in PDF format shall be named according to
the Bates range that the file contains (e.g. YourCo-00001
- YourCo-00035.pdf).
12. With respect to the requested wire transfer records,
please provide such records in Excel (.xls) format that is
enabled (not “read only” format), with separate columns
that show each wire transfer field, including, but not
limited to, the following fields: “Payment Date,” “Amount,”

144a
Appendix E
“Ordering Customer” #1 through #4, “Ordering Bank”
#1 through #5, “Debiting ID,” “Debiting Address” #1
through #4, “Credit ID,” “Credit Address” #1 through #4,
Account Party” #1 through #5, “Ultimate Beneficiary” #1
through #5, “Det_Payment” #1 through #4, and “Bank
to Bank” #1 through #6.
13. If any document responsive to this request was, but
no longer is, in your possession, custody, or control, or
has been placed into the possession, custody, or control
of any third party and cannot be provided in response to
this request, you should identify the document (stating
its date, author, subject and recipients) and explain the
circumstances under which the document ceased to be in
your possession, custody, or control, or was placed in the
possession, custody, or control of a third party.
14. If any document responsive to this request was, but
no longer is, in your possession, custody or control, state:
a.
b.
c.
d.

how the document was disposed of;
the name, current address, and telephone number
of the person who currently has possession,
custody or control over the document;
the date of disposition;
the name, current address, and telephone number
of each person who authorized said disposition or
who had or has knowledge of said disposition.

15. If any document responsive to this request cannot
be located, describe with particularity the efforts made
to locate the document and the specific reason for its
disappearance, destruction or unavailability.

145a
Appendix E
16. If a date or other descriptive detail set forth in this
request referring to a document, communication, meeting,
or other event is inaccurate, but the actual date or other
descriptive detail is known to you or is otherwise apparent
from the context of the request, you should produce all
documents which would be responsive as if the date or
other descriptive detail were correct.
17. The request is continuing in nature and applies to any
newly discovered document, regardless of the date of
its creation. Any document not produced because it has
not been located or discovered by the return date should
be produced immediately upon location or discovery
subsequent thereto.
18. You should consult with Committee majority staff
regarding the method of delivery prior to sending any
materials.
19. In the event that a responsive document is withheld on
any basis, including a claim of privilege, you should provide
a log containing the following information concerning
every such document: (i) the reason the document is not
being produced; (ii) the type of document; (iii) the general
subject matter; (iv) the date, author and addressee; (v) the
relationship of the author and addressee to each other;
and (vi) any other description necessary to identify the
document and to explain the basis for not producing the
document. If a claimed privilege applies to only a portion
of any document, that portion only should be withheld
and the remainder of the document should be produced.
As used herein, “claim of privilege” includes, but is not

146a
Appendix E
limited to, any claim that a document either may or must
be withheld from production pursuant to any statute, rule,
or regulation.
(a) Any objections or claims of privilege are waived
if you fail to provide an explanation of why full
compliance is not possible and a log identifying
with specificity the ground(s) for withholding
each withheld document prior to the request
compliance date.
(b) Any assertion by a request recipient of any such
non-constitutional legal bases for withholding
documents or other materials, for refusing to
answer any deposition question, or for refusing
to provide hearing testimony, shall be of no
legal force and effect and shall not provide a
justification for such withholding or refusal,
unless and only to the extent that the Committee
(or the chair of the Committee, if authorized) has
consented to recognize the assertion as valid.
20. If the request cannot be complied with in full, it
should be complied with to the extent possible, which
should include an explanation of why full compliance is
not possible.
21. Upon completion of the document production, you
must submit a written certification, signed by you or
your counsel, stating that: (1) a diligent search has been
completed of all documents in your possession, custody,
or control which reasonably could contain responsive

147a
Appendix E
documents; (2) documents responsive to the request have
not been destroyed, modified, removed, transferred, or
otherwise made inaccessible to the Committee since the
date of receiving the Committee’s request or in anticipation
of receiving the Committee’s request; and (3) all documents
identified during the search that are responsive have been
produced to the Committee, identified in a log provided
to the Committee, as described in (18) above, or identified
as provided in (12), (13) or (14) above.
22. When representing a witness or entity before the
Committee in response to a document request or request
for transcribed interview, counsel for the witness or
entity must promptly submit to the Committee a notice
of appearance specifying the following: (a) counsel’s
name, firm or organization, and contact information; and
(b) each client represented by the counsel in connection
with the proceeding. Submission of a notice of appearance
constitutes acknowledgement that counsel is authorized
to accept service of process by the Committee on behalf
of such client(s), and that counsel is bound by and agrees
to comply with all applicable House and Committee rules
and regulations.

148a
Appendix E
DEFINITIONS
1. The term “Deutsche Bank AG” includes, but is not limited
to each of its, subsidiaries, affiliates, branches, divisions,
partnerships, properties, groups, special purpose entities,
joint ventures, predecessors, successors, or any other
entity in which they have or had a controlling interest,
and any current or former employee, officer, director,
shareholder, partner, member, consultant, senior manager,
manager, senior associate, staff employee, independent
contractor, agent, attorney or other representative of any
of those entities.
2. Each entities listed in items 1 and 6 above includes, but
is not limited to, each of its parents, subsidiaries, affiliates,
branches, divisions, partnerships, properties, groups,
special purpose entities, joint ventures, predecessors,
successors, or any other entity in which they have or
had a controlling interest, and any current or former
employee, officer, director, shareholder, partner, member,
consultant, senior manager, manager, senior associate,
staff employee, independent contractor, agent, attorney
or other representative of any of those entities.
3. The term “documents in your possession, custody or
control” means (a) documents that are in your possession,
custody, or control, whether held by you or your past or
present agents, employees, or representatives acting on
your behalf; (b) documents that you have a legal right to
obtain, that you have a right to copy, or to which you have
access; and (c) documents that have been placed in the
possession, custody, or control of any third party.

149a
Appendix E
4. The term “document” means any written, recorded,
or graphic matter of any nature whatsoever, regardless
of how recorded, and whether original or copy, including,
but not limited to, the following: agreements; papers;
memoranda; correspondence; reports; studies; reviews;
analyses; graphs; diagrams; photographs; charts;
tabulations; presentations; marketing materials; working
papers; records; records of interviews; desk files;
notes; letters; notices; confirmations; telegrams; faxes,
telexes, receipts; appraisals; interoffice and intra office
communications; electronic mail (e-mail) and attachments;
electronic messages; text messages; contracts; cables;
recordings, notations or logs of any type of conversation,
telephone call, meeting or other communication; bulletins;
printed matter; computer printouts; teletype; invoices;
transcripts; audio or video recordings; statistical or
informational accumulations; data processing cards or
worksheets; computer stored and/or generated documents;
computer databases; computer disks and formats; machine
readable electronic files, data or records maintained on
a computer; instant messages; diaries; questionnaires
and responses; data sheets; summaries; minutes; bills;
accounts; estimates; projections; comparisons; messages;
correspondence; electronically stored information and
similar or related materials. A document bearing any
notation not a part of the original text is to be considered
a separate document. A draft or non-identical copy is a
separate document within the meaning of this term.
5. The term “immediate family” means any parent,
spouse, child, step child, daughter-in-law, or son-in-law.

150a
Appendix E
6. The term “administrator or controlling party” means
any individual, organization, or entity that established,
managed, administered, represented, served as signatory
for, or engaged in any transaction on behalf of, or in any
way had control over any of, or any account or assets of,
the entities identified in or responsive to any of the items
above.
7. The term “entity” means a corporation, partnership,
limited partnership, limited liability company, joint
venture, business trust, or any other form or organization
by which business or financial transactions are carried out.
8. The term “communication” means each manner or
means of disclosure or exchange of information, regardless
of means utilized, whether oral, electronic, by document
or otherwise, and whether face to face, in meetings, by
telephone, mail, telex, facsimile, computer, discussions,
releases, delivery, or otherwise.
9. The terms “and” and “or” shall be construed broadly
and either conjunctively or disjunctively to bring within
the scope of this subpoena any information which might
otherwise be construed to be outside its scope. The
singular includes plural number, and vice versa. The
masculine includes the feminine and neuter genders.
10. The terms “person” or “persons” mean natural
persons, firms, partnerships, associations, limited liability
corporations and companies, limited liability partnerships,
corporations, subsidiaries, divisions, departments,
joint ventures, proprietorships, syndicates, other legal,

151a
Appendix E
business or government entities, or any other organization
or group of persons, and all subsidiaries, affiliates,
divisions, departments, branches, and other units thereof.
11. The terms “referring” “related” “relating” or
“concerning,” with respect to any given subject, mean
anything that constitutes, contains, embodies, reflects,
identifies, states, refers to, deals with, or is in any manner
whatsoever pertinent to that subject.
12. The term “employee” means agent, borrowed
employee, casual employee, consultant, de facto employee,
joint adventurer, loaned employee, part-time employee,
permanent employee, provisional employee, contract
employee, contractor, or any other type of service provider.

152a
F DOC. 51-3
APPENDIXAppendix
F — SDNY
(CAPITAL ONE SUBPOENA),
FILED MAY 10, 2019
SUBPOENA
BY AUTHORITY OF THE HOUSE OF
REPRESENTATIVES OF THE CONGRESS OF
THE UNITED STATES OF AMERICA
Capital One Financial Corporation
To
You are hereby commanded to be and appear before the
Committee on Financial Services
of the House of Representatives of the United States at
the place, date, and time specified below.
 to produce the things identified on the attached
schedule touching matters of inquiry committed
to said committee or subcommittee; and you are
not to depart without leave of said committee or
subcommittee.
Place of production: Committee on Financial Services,
Rayburn House Office Building, Room 2129		
Date: May 6, 2019

Time: 12:00 PM

153a
Appendix F
 to testify at a deposition touching matters
of inquiry committed to said committee or
subcommittee; and you are not to depart without
leave of said committee or subcommittee.
Place of testimony:
Date:

Time:

		

 to testify at a hearing touching matters
of inquiry committed to said committee or
subcommittee; and you are not to depart without
leave of said committee or subcommittee.
Place of testimony:
Date:

Time:

To

		

to serve and make return.

Witness my hand and the seal of the House of
Representatives of the United States, at the city of
Washington, D.C. this
day of April , 2019.
		

/s/

					
Chairman or Authorized Member

Attest:
				
Clerk

154a
Appendix F
PROOF OF SERVICE
Subpoena for Capital One Financial Corporation
Address

Capital One Financial Corporation, 1680
Capital One Drive, McLean, VA 22102-3491

before the

Committee on Financial Services

U.S. House of Representatives
116th Congress
Served by (print name) David Abramowitz		
Title

General Counsel and Parliamentarian,
House Financial Services Committee

Manner of service
Date April

Electronic Mail		

, 2019						

Signature of Server /s/ 					
Address Rayburn House Office Building, Room 2129,
Washington, D.C. 20515		

155a
Appendix F
SCHEDULE A
Custodian of Records
Capital One
The time period applicable to this subpoena is July 19,
2016 through the present, except for Item “i.” and “ii.”,
for which there is no time limitation.
Please provide complete and unredacted copies of the
following documents by May 6, 2019:
1.

With respect to:
The Donald J. Trump Revocable Trust;
The Trump Organization Inc.;
Trump Organization LLC;
The Trump Corporation;
Trump Old Post Office LLC;
Trump Old Post Office Member Corp.;
DJT Holdings LLC;
DJT Holdings Managing Member LLC;
OPO Hotel Manager LLC;
OPO Hotel Manager Member Corp.;
THC DC Restaurant Hospitality LLC;
Trump Acquisition LLC;
Trump Acquisition Corp.;
Trump International Hotels Management LLC;
Trump International Hotels Management Member
Corp.;
Any parent, subsidiary, affiliate, joint venture,
predecessor, or successor of the foregoing;
or

156a
Appendix F
Any principal, including directors, shareholders, or
officers, or any other representatives of the foregoing;
or any account (including, but not limited to, any securities
or trading account) in the name of any of the above-named
entities, as well as any account in which such entities are
or were a beneficiary, or beneficial owner, or in which
such entities have or have had in any way control over,
individually or with others:
i.

any document related to account opening, due
diligence, or closing;

ii.

any document that identifies, addresses or is
related to the identification of any trustee,
guarantor, settlor or grantor, administrator
or controlling party, protector, beneficiary,
beneficial owner or signatory;

iii. any document that identifies any relationship
manager or account manager;
iv. any monthly or periodic statement showing line
item detail for all account activity, including, but
not limited to, intrabank transfers between any of
the accounts, and images of all cancelled checks
in excess of $5,000;
v.

any summary record or analysis of account
deposits and transfers, including, but not limited
to, the sources of the deposits into those accounts
and the destination of the transfers from those

157a
Appendix F
accounts, including any wire transfer (showing
all wire field information and originator-tobeneficiary and bank-to-bank information),
check, cash letter or other monetary instrument
involving those accounts;
vi. any document related to any transfer of funds in
excess of $10,000, including, but not limited to, any
wire transfer, check, cash letter, or any document
indicating the originator, beneficiary, intermediary,
source of funds or destination of such transfer;
vii. any document related to any possible suspicious activity
identified by Capital One Financial Corporation’s
surveillance or monitoring system or program or
referred by any employee or third-party;
viii. any document relating to any annual, special, or
other reviews of the accounts pursuant to Capital
One Financial Corporation’s policies and procedures
related to the Bank Secrecy Act, anti-moneylaundering, and compliance w ith guidance on
Politically Exposed Persons and domestic or foreign
public figures or their families;
ix. any document, including, but not limited to, any
personal file not otherwise kept in customary recordkeeping systems, related to any loan or extension of
credit requested by or provided to any of the abovenamed entities;
x.

any document related to any real estate transaction;
and

158a
Appendix F
xi. any document related to, or provided in response to:
a.

any request, subpoena, inquiry or investigation,
by any U.S. federal or state agency;

b.

any notice of administrative, civil, or criminal
legal action;

c.

any subpoena, search warrant, seizure warrant,
summons, or other legal writ, notice, or order or
request for information, property, or material,
including, but not limited to, those issued
pursuant to the USA PATRlOT Act, Pub. L. 10756; Sections 314(a) or 314(b) of that Act, or any
other tax, anti-money laundering or bank statute;
and

d.

any request for information made to or by a
third party, including, but not limited to any
government agency or financial institution.

RESPONDING TO COMMITTEE SUBPOENAS
In responding to the document request, please apply the
instructions and definitions set forth below:
INSTRUCTIONS
1.
In complying with this request, you should produce
all responsive documents in unredacted form that are in
the possession, custody, or control or otherwise available
to Capital One Financial Corporation or its agents,

159a
Appendix F
employees, or representatives, regardless of whether the
documents are possessed directly by you.
2.
Documents responsive to the request should not be
destroyed, modified, removed, transferred, or otherwise
made inaccessible to the Committee.
3.
In the event that any entity, organization, or
individual named in the request has been, or is currently,
known by any other name, the request should be read
also to include such other names under that alternative
identification.
4.
Each document should be produced in a form that
may be copied by standard copying machines.
5.
When you produce documents, you should identify
the paragraph(s) and/or clause(s) in the Committee’s
request to which the document responds.
6.
Documents produced pursuant to this request
should be produced in the order in which they appear in
your files and should not be rearranged. Any documents
that are stapled, clipped, or otherwise fastened together
should not be separated. Documents produced in response
to this request should be produced together with copies of
file labels, dividers, or identifying markers with which they
were associated when this request was issued. Indicate
the office or division and person from whose files each
document was produced. Documents produced on paper
(those from paper files that you choose to produce as such)
shall not contain any permanent fasteners (i.e., staples),

160a
Appendix F
but shall be separated based on the divisions between
documents as it is maintained in the custodian’s files by
non­-permanent fasteners (e.g., paper clips, binder clips,
rubber bands) or a non-white slip sheet.
7.
Each folder and box should be numbered, and a
description of the contents of each folder and box, including
the paragraph(s) and/or clause(s) of the request to which
the documents are responsive, should be provided in an
accompanying index.
8.
Responsive documents must be produced regardless
of whether any other person or entity possesses nonidentical or identical copies of the same document.
9.
The Committee requests electronic documents in
addition to paper productions. If any of the requested
information is available in machine-readable or electronic
form (such as on a computer server, hard drive, CD,
DVD, back up tape, or removable computer media such as
thumb drives, flash drives, memory cards, and external
hard drives), you should immediately consult with
Committee staff to determine the appropriate format in
which to produce the information. Documents produced
in electronic format should be organized, identified, and
indexed electronically in a manner comparable to the
organizational structure called for in (6) and (7) above.
10.
Documents produced in electronic format should be
produced as delimited text with images and native files in
accordance with the attached Data Delivery Standards.
Alternatively, all documents derived from word processing

161a
Appendix F
programs, email applications, instant message logs,
spreadsheets, and wherever else practicable, shall be
produced in text searchable PDF format. Spreadsheets
shall also be provided in their native form. Audio and video
files shall be produced in their native format, although
picture files associated with email or word processing
programs shall be produced in PDF format along with the
document it is contained in or to which it is attached. The
requested wire transfer records should be produced in
Excel (.xls) format that is enabled (not “read only’’ format),
with separate columns that show each wire transfer field,
including, but not limited to, the following fields: “Payment
Date,” “Amount,” “Ordering Customer” #1 through #4,
“Ordering Bank” #1 through #5, “Debiting ID,””Debiting
Address” #1 through #4, “Credit ID,” “Credit Address”
#1 through #4, Account Party” #1 through #5, “Ultimate
Beneficiary’’ #1 through #5, “Det_Payrnent” #1 through
#4, and “Bank to Bank” #1 through #6.
11.
Other than native files produced along with
TIFF images in accordance with the attached Data
Delivery Standards, every page of material produced
to the Committee, whether from paper files or as a text
searchable PDF, must contain a unique Bates number. All
files produced in PDF format shall be named according to
the Bates range that the file contains (e.g. YourCo-00001
- YourCo- 00035.pdf).
12.
If any document responsive to this request was,
but no longer is, in your possession, custody, or control,
or has been placed into the possession, custody, or control
of any third party and cannot be provided in response to
this request, you should identify the document (stating

162a
Appendix F
its date, author, subject and recipients) and explain the
circumstances under which the document ceased to be in
your possession, custody, or control, or was placed in the
possession, custody, orcontrol of a third party.
13.
If any document responsive to this request was, but
no longer is, in your possession, custody or control, state:
a.

how the document was disposed of;

b.

the name, current address, and telephone number
of the person who currently has possession,
custody or control over the document;

c.

the date of disposition;

d.

the name, current address, and telephone number
of each person who authorized said disposition or
who had or has knowledge of said disposition.

14.
If any document responsive to this request cannot
be located, describe with particularity the efforts made
to locate the document and the specific reason for its
disappearance, destruction or unavailability.
15.
If a date or other descriptive detail set forth in this
request referring to a document, communication, meeting,
or other event is inaccurate, but the actual date or other
descriptive detail is known to you or is otherwise apparent
from the context of the request, you should produce all
documents which would be responsive as if the date or
other descriptive detail were correct.

163a
Appendix F
16.
The request is continuing in nature and applies to
any newly discovered document, regardless ofthe date of
its creation. Any document not produced because it has
not been located or discovered by the return date should
be produced immediately upon location or discovery
subsequent thereto.
17.
You should consult with Committee majority staff
regarding the method of delivery prior to sending any
materials.
18.
In the event that a responsive document is withheld
on any basis, including a claim of privilege, you should
provide a log containing the following information
concerning every such document: (i) the reason the
document is not being produced; (ii) the type of document;
(iii) the general subject matter; (iv) the date, author and
addressee; (v) the relationship of the author and addressee
to each other; and (vi) any other description necessary
to identify the document and to explain the basis for not
producing the document. If a claimed privilege applies to
only a portion of any document, that portion only should
be withheld and the remainder of the document should be
produced. As used herein, “claim of privilege” includes,
but is not limited to, any claim that a document either
may or must be withheld from production pursuant to any
statute, rule, or regulation.
(a) Any objections or claims of privilege are waived
if you fail to provide an explanation of why full
compliance is not possible and a log identifying
with specificity the ground(s) for withholding

164a
Appendix F
each withheld document prior to the request
compliance date.
(b) Any assertion by a request recipient of any such
non-constitutional legal bases for withholding
documents or other materials, for refusing to
answer any deposition question, or for refusing
to provide hearing testimony, shall be of no
legal force and effect and shall not provide a
justification for such withholding or refusal,
unless and only to the extent that the Committee
(or the chair of the Committee, if authorized) has
consented to recognize the assertion as valid.
19.
If the request cannot be complied with in full, it
should be complied with to the extent possible, which
should include an explanation of why full compliance is
not possible.
20.
Upon completion of the document production, you
must submit a written certification, signed by you or
your counsel, stating that: (1) a diligent search has been
completed of all documents in your possession, custody,
or control which reasonably could contain responsive
documents; (2) documents responsive to the request have
not been destroyed, modified, removed, transferred,
or other wise made inaccessible to the Committee
since the date of receiving the Committee’s request or
in anticipation of receiving the Committee’s request;
and (3) all documents identified during the search that
are responsive have been produced to the Committee,
identified in a log provided to the Committee, as described

165a
Appendix F
in (18) above, or identified as provided in (12), (13) or (14)
above.
21.
When representing a witness or entity before the
Committee in response to a document request or request
for transcribed interview, counsel for the witness or
entity must promptly submit to the Committee a notice
of appearance specifying the following: (a) counsel’s
name, firm or organization, and contact information; and
(b) each client represented by the counsel in connection
with the proceeding. Submission of a notice of appearance
constitutes acknowledgement that counsel is authorized
to accept service of process by the Committee on behalf
of such client(s), and that counsel is bound by and agrees
to comply with all applicable House and Committee rules
and regulations.

166a
Appendix F
DEFINITIONS
1.
The term “Capital One Financial Corporation”
includes, but is not limited to Capital One Financial
Corporation and each of its subsidiaries, affiliates,
branches, divisions, partnerships, properties, groups,
special purpose entities, joint ventures, predecessors,
successors, or any other entity in which they have or
had a controlling interest, and any current or former
employee, officer, director, shareholder, partner, member,
consultant, senior manager, manager, senior associate,
staff employee, independent contractor, agent, attorney
or other representative of any of those entities.
2.
Each entities listed in items 1 and 6 above
includes, but is not limited to, each of its parents,
subsidiaries, affiliates, branches, divisions, partnerships,
properties, groups, special purpose entities, joint
ventures, predecessors, successors, or any other entity
in which they have or had a controlling interest, and any
current or former employee, officer, director, shareholder,
partner, member, consultant, senior manager, manager,
senior associate, staff employee, independent contractor,
agent, attorney or other representative of any of those
entities.
3.
The term “documents in your possession, custody or
control” means (a) documents that are in your possession,
custody, or control, whether held by you or your past or
present agents, employees, or representatives acting on
your behalf; (b) documents that you have a legal right to
obtain, that you have a right to copy, or to which you have

167a
Appendix F
access; and (c) documents that have been placed in the
possession, custody, or control of any third party.
4.
The ter m “document” means any w r itten,
recorded, or graphic matter of any nature whatsoever,
regardless of how recorded, and whether original or copy,
including, but not limited to, the following: agreements;
papers; memoranda; correspondence; reports; studies;
reviews; analyses; graphs; diagrams; photographs;
charts; tabulations; presentations; marketing materials;
working papers; records; records of interviews; desk files;
notes; letters; notices; confirmations; telegrams; faxes,
telexes, receipts; appraisals; interoffice and intra office
communications; electronic mail (e-mail) and attachments;
electronic messages; text messages; contracts; cables;
recordings, notations or logs of any type of conversation,
telephone call, meeting or other communication; bulletins;
printed matter; computer printouts; teletype; invoices;
transcripts; audio or video recordings; statistical or
informational accumulations; data processing cards or
worksheets; computer stored and/or generated documents;
computer databases; computer disks and formats; machine
readable electronic files, data or records maintained on
a computer; instant messages; diaries; questionnaires
and responses; data sheets; summaries; minutes; bills;
accounts; estimates; projections; comparisons; messages;
correspondence; electronically stored information and
similar or related materials. A document bearing any
notation not a part of the original text is to be considered
a separate document. A draft or non-identical copy is a
separate document within the meaning of this term.

168a
Appendix F
5.
The term “immediate family’’ means any parent,
spouse, child, step child, daughter-in-law, or son-in-law.
6.
The term “administrator or controlling party’’
means any individual, organization, or entity that
established, managed, administered, represented, served
as signatory for, or engaged in any transaction on behalf
of, or in any way had control over any of, or any account
or assets of, the entities identified in or responsive to any
of the items above.
7.
The term “entity’’ means a corporation, partnership,
limited partnership, limited liability company, joint
venture, business trust, or any other form or organization
by which business or financial transactions are carried
out.
8.
The term “communication” means each manner or
means of disclosure or exchange of information, regardless
of means utilized, whether oral, electronic, by document
or otherwise, and whether face to face, in meetings, by
telephone, mail, telex, facsimile, computer, discussions,
releases, delivery, or otherwise.
9.
The terms “and” and “or” shall be construed
broadly and either conjunctively or disjunctively to bring
within the scope of this subpoena any information which
might otherwise be construed to be outside its scope.
The singular includes plural number, and vice versa. The
masculine includes the feminine and neuter genders.
10.
The terms “person” or “persons” mean natural
persons, firms, partnerships, associations, limited liability

169a
Appendix F
corporations and companies, limited liability partnerships,
corporations, subsidiaries, divisions, departments,
joint ventures, proprietorships, syndicates, other legal,
business or government entities, or any other organization
or group of persons, and all subsidiaries, affiliates,
divisions, departments, branches, and other units thereof.
11.
The terms or “relating” “concerning” with respect
to any given subject, mean anything that constitutes,
contains, embodies, reflects, identifies, states, refers to,
deals with, or is in any manner whatsoever pertinent to
that subject.
12.
The term “employee” means agent, borrowed
employee, casual employee, consultant, de facto employee,
joint adventurer, loaned employee, part-time employee,
permanent employee, provisional employee, contract
employee, contractor, or any other type of service provider.
In responding to the subpoena, please apply the
instructions and definitions set forth below:
Instructions
The documents subpoenaed include all those that are in
the custody, control or possession, or within the right of
custody, control or possession, of Capital One or its agents,
employees, or representatives.
If the subpoena cannot be complied with in full, it shall be
complied with to the extent possible, with an explanation
of why full compliance is not possible. Any document

170a
Appendix F
withheld on the basis of privilege shall be identified
on a privilege log submitted with the responses to this
subpoena. The log shall state the date of the document, its
author, his or her occupation and employer, all recipients,
the occupation and employer of each recipient, the subject
matter, the privilege claimed and a brief explanation of the
basis of the claim of privilege. If any document responsive
to this subpoena was, but no longer is, in your possession,
custody, or control, identify the document and explain the
circumstances by which it ceased to be in your possession,
custody, or control.
Documents shall be produced as delimited text with
images and native files in accordance with the attached
Data Delivery Standards.
Alternatively, all documents derived from word processing
programs, email applications, instant message logs,
spreadsheets, and wherever else practicable, shall be
produced in text searchable PDF format. Spreadsheets
shall also be provided in their native form. Audio and video
files shall be produced in their native format, although
picture files associated with email or word processing
programs shall be produced in PDF format along with
the document it is contained in or to which it is attached.
Other than native files produced along with TIFF images
in accordance with the attached Data Delivery Standards,
every page of material produced to the Committee,
whether from paper files or as a text searchable PDF, must
contain a unique Bates number. All files produced in PDF
format shall be named according to the Bates range that
the file contains (e.g. YourCo-00001-YourCo-00035.pdf).

171a
Appendix F
Documents produced on paper (those from paper files
that you choose to produce as such) shall not contain
any permanent fasteners (i.e., staples), but shall be
separated based on the divisions between documents as
it is maintained in the custodian’s files by non-permanent
fasteners (e.g., paper clips, binder clips, rubber bands) or
a non-white slip sheet.

172a
Appendix F
DATA DELIVERY STANDARDS
Record productions shall be prepared according to,
and strictly adhere to, the following standards:
1.

Records produced shall be organized, identified,
and indexed electronically.

2.

Only alphanumeric characters and the underscore
(“_”) character are permitted in file and folder
names. Special characters are not permitted.

3.

Two sets of records shall be delivered, one set
to the Majority Staff and one set to the Minority
Staff. To the extent the Minority Staff does
not have an electronic record review platform,
records shall be produced to the Minority Staff
in searchable PDF format and shall be produced
consistent with the instructions specified in this
schedule to the maximum extent practicable.

4.

Production media and produced records shall not
be encrypted, contain any password protections,
or have any limitations that restrict access and
use.

5.

Records shall be produced to the Committee on
one or more CDs, memory sticks, thumb drives,
or USB hard drives. Production media shall be
labeled with the following information: Case
Number, Production Date, Producing Party,
Bates Range.

173a
Appendix F
6.

Records produced to the Committee shall
include an index describing the contents of the
production. To the extent that more than one CD,
hard drive, memory stick, thumb drive, box, or
folder is produced, each CD, hard drive, memory
stick, thumb drive, box, or folder shall contain an
index describing its contents.

7.

All records shall be Bates-stamped sequentially
and produced sequentially.

8.

When you produce records, you shall identify
the paragraph or number in the Committee’s
Request to which the records respond and add a
metadata tag listing that paragraph or number
in accordance with Appendix A.

9.
a. All submissions must be organized by
custodian unless otherwise instructed.
b. Productions shall include:
1. A Concordance Data (.DAT) Load File
in accordance with metadata fields as
defmed in Appendix A.
2. A Standard Format Opticon Image CrossReference File (.OPT) to link produced
images to the records contained in the
.DAT file.

174a
Appendix F
3. A file (can be Microsoft Word, Microsoft
Excel, or Adobe PDF) defining the fields
and character lengths of the load file.
c. The production format shall include
images, text, and native electronic files.
Electronic files must be produced in their
native format, i.e., the format in which
they are ordinarily used and maintained
during the normal course of business.
For example, a Microsoft Excel file must
be produced as a Microsoft Excel file
rather than an image of a spreadsheet.
NOTE: An Adobe PDF file representing
a printed copy of another file format
(such as Word Document or Webpage) is
NOT considered a native file unless the
record was initially created as a PDF.
1. Image Guidelines:
1. Single or multi page TIFF files.
2. All TIFF images must have a unique file
name, i.e., Bates Number
3. Images must be endorsed with sequential
Bates numbers in the lower right comer
of each image.

175a
Appendix F
2. Text Guidelines:
1. All text shall be produced as separate
text files, not inline within the .DAT file.
2. Relative paths shall be used to link
the associat ed t ex t f i le (FIELD:
TEXTPATH) to the record contained
in the load file.
3. Associated text files shall be named as
the BEGBATES field of each record.
3. Native File Guidelines:
1. Copies of original email and native file
records/attachments must be included
for all electronic productions.
2. Native file records must be named per
the BEGBATES field.
3. Relative paths shall be used to link
the associated native file (FIELD:
NATNEFILELINK) to the record
contained in the load file.
4. Associated native files shall be named
as the BEGBATES field of each record.
d. A ll record family g roups, i .e., email
attachments, embedded files, etc., should be

176a
Appendix F
produced together and children files should
follow parent files sequentially in the Bates
numbering.
e. Only 1 load file and one Opticon image
reference f ile shall be produced per
production volume.
f. All extracted text shall be produced as
separate text files.
g. Record numbers in the load file should match
record Bates numbers and TIFF file names.
h. A ll electronic record produced to the
Committee should include the fields of
metadata listed in Appendix A.
Appendix A
Production Load File Formatting and Delimiters:
• The first line shall be a header row containing field
names.
• Load file delimiters shall be in accordance with the
following:
° Field Separator: ¶(20) Text Qualifier: þ (254)
Muiti-Value Separator: ; (59)
° Newline: \n (10)
Nested
Value
Separator:
\ (92)
°
• All Date / Time Data shall be split into two separate
fields (see below).
° Date Format: mm/ddlyyyy—i.e., 05/18/2015
° Time Format: hh:mm:ss A-i.e., 08:39:12 AM

177a
Appendix F
Required Metadata Fields
Field Name
FIRSTBATES

Sample Data
EDC000000l

LASTBATES

EDC000000l

ATTACHRANGE EDC0000001EDC0000015

BEGATTACH

EDC000000l

ENDATTACH

EDC0000015

Description
First Bates
number of native
file record/email
Last Bates number
of native file
record/email
**The
LASTBATES
field should be
populated for
single page
records/emails.
Bates number of
the first page of the
parent record to
the Bates number
of the last page of
the last attachment
“child” record
First Bates
number of
attachment range
Last Bates number
of attaclunent
range

178a
Appendix F
Field Name
Sample Data
CUSTODIAN Smith, John

FROM

John Smith

TO

Coffman, Janice;
LeeW
[mailto:LeeW@
MSN.com]

CC

Frank Thompson
[mailto: frank_
Thompson@
cdt.com]

BCC

John Cain

SUBJECT

Board Meeting
Minutes

Description
Email: mailbox
where the email
resided Attachment:
Individual from whom
the record originated
Email: Sender
Native: Author(s) of
record
**semi-colon should
be used to separate
multiple entries
Recipient(s)
**semi-colon should
be used to separate
multiple entries
Carbon copy
recipient(s)
**semi-colon should
be used to separate
multiple entries
Blind carbon copy
recipient(s)
**semi-colon should
be used to separate
multiple entries
Email: Subject line
of the email Native:
Title of record (if
available)

179a
Appendix F
Field Name
Sample Data
DATE_SENT 10/12/2010

TIME_SENT/ 07:05PM GMT
TIME_ZONE

TIME_ZONE GMT

Description
Email: Date the email
was sent
Native: (empty)
Email: Time the
email was sent/
Time zone in which
the emails were
standardized during
conversion.
Native: (empty)
**This data must be
a separate field and
cannot be combined
with the DATE_
SENT field
The time zone in
which the emails
were standardized
during conversion.
Email: Time zone
Native: (empty)

NATIVEFILE D:\001\
Hyperlink to the
LINK
EDC0000001.msg email or native file
record
**The linked file
must be named per
the FIRSTBATES
number

180a
Appendix F
Field Name
Sample Data
MIME_TYPE MSG

FILE_
EXTEN

MSG

AUTHOR

John Smith

DATE_
CREATED

10/10/2010

TIME_
CREATED

10:25 AM

DATE_MOD

10/12/2010

Description
The content type of
an Email or native file
record as identified/
extracted from the
header
The file type
extension
representing the
Email or native file
record; will vary
depending on the
email format
Email: (empty)
Native: Author of the
record
Email: (empty)
Native: Date the
record was created
Email: (empty)
Native: Time the
record was created
**This data must be
a separate field and
cannot be combined
with the DATE_
CREATED field
Email: (empty)
Native: Date the
record was last
modified

181a
Appendix F
Field Name
TIME_MOD

Sample Data
07:00PM

DATE_
ACCESSD

10/12/2010

TIME_
ACCESSD

07:00PM

PRINTED_
DATE

10/12/2010

NATIVE
FILESIZ E

5,952

Description
Email: (empty)
Native: Time the
record was last
modified
**This data must be
a separate field and
cannot be combined
with the DATE_MOD
field
Email: (empty)
Native: Date the
record was last
accessed
Email: (empty)
Native: Time the
record was last
accessed
**This data must be
a separate field and
cannot be combined
with the DATE_
ACCESSD field
Email: (empty)
Native: Date the
record was last
printed
Size of native file
record/email in KB
**Use only whole
numbers

182a
Appendix F
Field Name
PGCOUNT

PATH

INTFILE
PATH

INTMSGID

MD5HASH

TEXTPATH

Sample Data
1

Description
Number of pages in
native file record/
email
J:\Shared\
Email: (empty)
Smith J\October Native: Path where
Agenda.doc
native file record
was stored including
original file name
Personal Folders\ Email: original
Deleted Items\
location of email
Board Meeting
including original file
Minutes.msg
name
Native: (empty)
<000805c2c71b$ Email: Unique
75977050$cb8306 Message ID Native:
d1@MSN>
(empty)
d131dd02c5e6eec MD5 Hash value of
4693d9a0698aff95 the record
c2fcab58712467eab
4004583eb8fb7f89
\TEXT\AAA0001. Path to the record’s
txt
text file that contains
extracted text to be
used for processing.
Every record has a
relative path to its text
file in this field. Note:
These paths may also
be fully qualified; and
thus do not have to be
relative.

183a
Appendix F
Field Name
NATIVE
FILEPATH

Sample Data
\NATIVES\
MESSAGE1.msg;
\NATIVES\ATT
ACHMENT1.doc

HAND
WRITTEN

YES

REDACTED

YES

Description
Path to the record’s
native file. Every
record has a relative
path to its native file
in this field. Note:
These paths may also
be fully qualified; and
thus do not have to be
relative.
Field should be
marked “YES” if
the record has any
handwritten notes or
other text that is not
contained in the text
file
Field should be
marked “YES” if the
record contains any
redactions, “NO”
otherwise

184a
Appendix F
Metadata Fields Required Upon Specific Request
Field Name
TAGS

Sample Data
FirstPass\
Responsive;
FirstPass\ForQC

FOLDERS

JohnDoeDocs\
FirstPass

Description
If requested—a list of
tags assigned to the
record. Multiple tags
are separated by the
multi-value separator,
for example: “A; B; C”,
and nested tags are
denoted using the nested
value separator, for
example: “X\Y\Z”. Tags
for attachments will
appear under the custom
field “ATTACHMENT
TAGS”.
If requested—a list
of folders of which the
record is a part. Multiple
folders are separated
by the multi-value
separator, for example:
“A; B; C”, and nested
folders are denoted
using the nested value
separator, for example:
“X\Y\Z”. Folders for
attachments will appear
under the custom field
“ATTACHMENT
FOLDERS”.

185a
APPENDIX G —Appendix
ORDER, G
UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, DATED MAY 22, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 3826 (ER)
DONALD J. TRUMP; DONALD J. TRUMP,
JR.; ERIC TRUMP; IVANKA TRUMP; THE
DONALD J. TRUMP REVOCABLE TRUST;
THE TRUMP ORGANIZATION, INC.; TRUMP
ORGANIZATION LLC; DJT HOLDINGS LLC; DJT
HOLDINGS MANAGING MEMBER LLC; TRUMP
ACQUISITION LLC; AND TRUMP
ACQUISITION, CORP.,
Plaintiffs,
— against —
DEUTSCHE BANK AG AND
CAPITAL ONE FINANCIAL CORP.,
Defendants,
— and —
COMMITTEE ON FINANCIAL SERVICES OF
THE U.S. HOUSE OF REPRESENTATIVES
AND PERMANENT SELECT COMMITTEE
ON INTELLIGENCE OF THE U.S. HOUSE OF
REPRESENTATIVES,
Intervenor-Defendants.

186a
Appendix G
May 22, 2019, Decided
May 22, 2019, Filed
ORDER
Ramos, D.J.:
For the reasons set forth on the record in today’s
hearing, Plaintiffs’ motion for a preliminary injunction
is DENIED, Plaintiffs’ motion for a stay pending
appeal is DENIED, and the Committees’ application
for consolidation is DENIED. The Clerk of Court is
respectfully directed to terminate the motion, Doc. 26.
It is SO ORDERED.
Dated: May 22, 2019
New York, New York
/s/ Edgardo Ramos
Edgardo Ramos, U.S.D.J.

187a
H
APPENDIX H —Appendix
ORAL OPINION,
UNITED
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, EXCERPTED FROM
THE MAY 22, 2019 HEARING, DATED MAY 22, 2019
***
[50]Again, I think his argument is because it’s so broad,
that shows it’s illegitimate.
THE COURT: He said, I think no less than twice, that
he was willing to sit down and have a reasonable discussion
about limiting the subpoenas.
MR. LETTER: Fine. If you are going to order that,
your Honor, I hope you’ll order that that be done extremely
fast because I’m fairly sure it will be evident immediately
that it is not a serious endeavor. Thank you.
THE COURT: Thank you. So we’re going to take ten
minutes, and then I’ll come out and give you my decision.
(Recess)
THE COURT: Everyone, please be seated. Now,
I’m going to read this. It’s approximately 25 pages, and
if history is any guide, it’s going to take me about 40, 45
minutes to read or so. I won’t chain you to your chairs,
but if any of you wish to leave before I finish reading, I
would just ask that you do so as unobtrusively as possible.
On April 15, 2019, two subcommittees of the United
States House of Representatives issued subpoenas to
Deutsche Bank and Capital One Financial Corporation.

188a
Appendix H
The subpoenas seek financial and account information
concerning President Donald J. Trump, his children,
members of their immediate family, and several entities
associated with his family.
Two weeks later, plaintiffs filed the above-captioned
[51]suit, claiming that the subpoenas violate the United
States Constitution and the Right to Financial Privacy
Act, the “RFPA”. Plaintiffs also moved for a preliminary
injunction that would prohibit the Committees from
enforcing the subpoenas and prohibit the banks from
complying with the subpoenas until the resolution of this
lawsuit. This bench ruling addresses that motion.
The question presented in plaintiffs’ motion is
straightforward: Does the Committees’ subpoenas violate
the Constitution or the RFPA? After reviewing the
parties’ briefs and hearing from them today, the Court
is convinced that the answer is no. Accordingly, I will not
enjoin enforcement of the subpoenas.
The Court begins by addressing two preliminary
matters: the applicable standard for a preliminary
injunction, and the Committees’ request for consolidation.
The Court begins with the applicable standard of
review. “A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits, that
he is likely to suffer irreparable harm in the absence of
preliminary relief, that the balance of equities tips in his
favor, and that an injunction is in the public interest.”
Winter v. National Resources Defense Council, Inc., 555
U.S. 7.

189a
Appendix H
In this circuit, if a plaintiff does not establish a
[52]likelihood of success on the merits, a preliminary
injunction, nonetheless, may issue if the plaintiff shows
that there exists sufficiently serious questions going
to the merits to make them a fair ground for litigation
and a balance of hardships tipping decidedly toward the
plaintiff. Citing Citigroup Glob. Mkts., Inc. v. VCG Special
Opportunities Master Fund Ltd., 598 F.3d 30. It is not
enough that the question be substantial, however.
Regardless of whether the plaintiff opts to show
likelihood of success on the merits or sufficiently serious
question going to the merits, the plaintiff always must
demonstrate that irreparable harm is likely, absent the
injunction. At all times, the Court remains mindful that
preliminary injunction is an extraordinary and drastic
remedy, and it is never awarded as of right. Munaf v.
Geren, 553 U.S. 674.
Next, the Court denies committees’ request for
consolidation. In their opposing papers, the committees
asked the Court to consolidate this hearing with a trial
on the merits, pursuant to Rule 65(a)(2) of the Federal
Rules of Civil Procedure. Plaintiffs opposed consolidation
on the ground that consolidation would violate their
rights to due process. Ultimately, the Court concludes
that any decision to consolidate is of little consequence
here. The Committees are not prejudiced by the denial
of a consolidation, given that the [53]Court will not enjoin
them from enforcing their subpoenas.

190a
Appendix H
Conversely, if the Court chooses to consolidate the
preliminary injunction hearing with a trial on the merits,
there is a slight risk that plaintiffs will be prejudiced,
notwithstanding that Plaintiffs have yet to adequately
explain what further discovery, briefing, witnesses, and
time is needed before they will be ready for a trial on the
merits.
In any event, to ensure that plaintiffs are not
prejudiced, the Court will deny the committees’ application
for consolidation. Should this matter ultimately proceed
to the merits, however, the Court appreciates the urgency
with which matters concerning two coordinate branches
of government should proceed, and the limited universe
of facts that may be subject to discovery.
Turning to the merits of plaintiffs’ motion. The Court
finds that while plaintiffs have shown that they will suffer
irreparable harm, absent a preliminary injunction, they
are unlikely to succeed on the merits of their claims,
that the questions presented in their motion are not
sufficiently serious in light of Supreme Court precedent
and the plain text of the Right to Financial Privacy Act,
the balance of hardships and equities, in conjunction
with consideration of the public interest, do not weigh
in their favor. Consequently, the Court concludes that a
preliminary injunction is inappropriate.
The Court begins with whether Plaintiffs have
[54]demonstrated a likelihood of irreparable harm absent
an injunction, because if there is not a likelihood of
irreparable harm, then the Court need not grapple with
the constitutional and statutory issues in this case.

191a
Appendix H
Plaintiffs allege that if this Court does not intervene
to preserve the status quo, there will be no way to unring
the bell once the banks give Congress the requested
information.
The Court agrees. In this circuit, it is well settled
that individuals whose financial records are subpoenaed
possess a privacy interest in their personal financial
affairs that gives them standing to move to quash a
subpoena served on a non-party financial institution,
which is why all parties appear to agree that plaintiffs
have standing to challenge subpoenas that were issued
to them directly. Citing Arias-Zeballos v. Tan, reported
at 2007 WL 210112.
In this case, the inevitable impingement of the
same privacy interests that suffice to confer standing
to plaintiffs also suffice to demonstrate a likelihood of
irreparable harm. Courts in this circuit have recognized
that the disclosure of private, confidential information is
the quintessential type of irreparable harm that cannot
be compensated or undone by money damages. Citing,
Airbnb, Inc. v. City of New York, report at 2019 WL 91990.
It is true that some courts outside of this circuit
[55]have questioned whether the mere disclosure of
information, absent evidence of misuse or unauthorized
disclosure by the receiving party automatically constitutes
irreparable injury. See, e.g., Baker DC v. National Labor
Relations Bd., 102 F. Supp. 3d 194, from the District of
D.C. The Court is of the opinion, however, that plaintiffs
possess strong privacy interests in their financial

192a
Appendix H
information such that unwanted disclosure may properly
constitute irreparable injury, without an additional
showing of likelihood of misuse or unauthorized disclosure
by the recipient.
The committees disagree and proffer two arguments
why the Court should find that plaintiffs have failed to
show a likelihood of irreparable harm. Neither argument
is persuasive, and in fact, in oral argument, I understood
them to concede that the Trump organization and Trump
family members would suffer irreparable harm.
First, the committees contended that plaintiffs have
provided no actual evidence of their potential injury,
but the very act of disclosure to Congress is itself the
injury that is both inevitable, absent an injunction, and
irreparable.
The Committees attempt to differentiate between
disclosure to Congress and disclosure to the public,
arguing that the former is somehow not a cognizable
injury. The Court is unpersuaded. Here, plaintiffs
have an interest in keeping their records private from
everyone, including congresspersons, [56]and that interest
necessarily will be impinged by the records’ disclosure
to the committees. In any event, the committees have
not committed one way or the other to keeping plaintiffs’
records confidential from the public once received.
Accordingly, the Court finds that plaintiffs have shown
a likelihood of irreparable harm absent an injunction.

193a
Appendix H
The Court begins with the statutory claim, because
there is no need to address plaintiffs’ constitutional claim
if the committees are bound by the RFPA and have, in
fact, violated it.
Plaintiffs contend that the committees issued the
challenged subpoenas in violation of the requirements
of the RFPA. The RFPA provides that no government
authority may have access to or obtain copies of information
containing the financial records of any customer from
a financial institution unless certain notification and
certification requirements are met.
Plaintiffs argue that Congress is a government
authority for purposes of the RFPA and that, as
government authorities, the committees failed to act in
accordance with the RFPA before issuing the challenged
subpoenas.
The Court disagrees. The Committees have provided
sound arguments why the RFPA does not apply to
Congress.
First, as mentioned above, the RFPA applies to
government authorities. While plaintiffs urge the Court
to [57]resort to Black Law’s Dictionary to define this
statutory term, it is unnecessary. Congress expressly
defined the term “government authority” in RFPA.
Pursuant to that statute, “government authority” means
any agency or department of the United States, or any
officer or agent thereof.

194a
Appendix H
Thus, if Congress is not an agency or department
of the United States, then the statute does not apply to
Congress. The Court finds the Supreme Court’s reasoning
in Hubbard v. United States, reported at 514 U.S. 695
controlling here. There, the Court explored the reach of
18 U.S.C. 1001, a statute criminalizing knowingly false
representations made in any matter within the jurisdiction
of any department or agency of the United States.
The question presented was whether 1001 applies to
false statements in judicial proceedings. The Court held
that it didn’t and instead generally only refers to the
Executive Branch. The Court held that it didn’t unless the
context of the statute strongly suggests that the phrase
was intended to describe more than just the Executive
Branch. In so holding, the Court expressly overruled its
prior decision in United States v. Bramblett, which held
that the phrase “department,” as used in 1001, referred
to the executive, judicial, and legislative branches of
government.
Of course, the RFPA arises in a different title
of the United States Code, but the Supreme Court’s
interpretation in Hubbard wasn’t limited to any particular
statutory provision. Rather, the Court found that a
straightforward interpretation of the phrase “department
or agency” leads inexorably to the conclusion that the
phrase only covers the Executive Branch.
Moreover, as detailed in the Committees’ papers,
the structure and context of the RFPA makes clear that
Congress did not believe it was binding itself to the RFPA.

195a
Appendix H
More on this point need not be said. Congress is not bound
by the RFPA.
Plaintiffs are also unlikely to succeed on the merits
of their constitutional claim. Turning to plaintiffs’ claim
that the committees’ subpoenas violate the Constitution,
the Court concludes that plaintiffs are unlikely to succeed
on the merits.
As today’s argument and the parties’ moving papers
make clear, plaintiffs challenge the committees’ subpoenas
on four principal grounds: the committees’ subpoenas are
not supported by a legitimate legislative purpose; the
committees’ subpoenas are really an unlawful exercise
of law-enforcement power; the committees’ subpoenas
are overly broad; and finally, the committees’ motives in
issuing the subpoenas render the subpoenas unlawful, as
they seek exposure for the sake of exposure.
The Court addresses and rejects, each argument
in turn, and begins by setting forth the legal principles
guiding its analysis.
[59]A review of the relevant case law makes clear
that the Committees’ investigative power is broad, yet
not unlimited. Article 1 of the United States Constitution
vests Congress with all legislative powers. While Article 1
does not expressly refer to Congress’ investigative powers,
Congress’ authority to investigate matters related to
contemplated legislation is beyond debate.

196a
Appendix H
As the Supreme Court has explained, there can be no
doubt as to the power of Congress, by itself or through
its committees, to investigate matters and conditions
relating to contemplated legislation. This power, deeply
rooted in American and English institutions, is indeed coextensive with the power to legislate. Without the power
to investigate, including of course the authority to compel
testimony, either through its own processes or through
judicial trial, Congress could be seriously handicapped in
its efforts to exercise its constitutional function wisely and
effectively. Citing Quinn v. United States, 349 U.S. 155.
So too is the committees’ general authority to issue
subpoenas well settled, given that committee members
serve as the representatives of the parent assembly in
collecting information for a legislative purpose and their
function is to act as the eyes and ears of the Congress in
obtaining facts upon which the full legislature can act.
Watkins v. United States, 354 U.S. 178.
[60]As alluded to in the quotes recited, congressional
investigations must be in furtherance of a legislative
purpose. As the Supreme Court has explained, an
essential premise in this situation is that the House or
Senate shall have instructed the committee members
on what they are to do with the power delegated to
them. It is the responsibility of the Congress, in the first
instance, to ensure that compulsory process is used only
in furtherance of a legislative purpose. That requires
that the instructions of an investigating committee spell
out that group’s jurisdiction and purpose with sufficient
particularity. Those instructions are embodied in the

197a
Appendix H
authorizing resolution. That document is the committee’s
charter. Citing Watkins again.
However, that Cong ress must investigate in
furtherance of a legislative purpose does not mean that the
Congress is constrained to investigations in furtherance
of contemplated legislation in the form of a bill or statute.
Congress performs may different functions attendant to
its legislative function under the Constitution.
Congress’ power also includes a more general
informing function, that is, the power of the Congress to
inquire into and publicize corruption, maladministration
or inefficiency in agencies of the Government. Again citing
Watkins.
Put simply, the power of the Congress to conduct
investigations is inherent in the legislative process. That
[61]power is broad. It encompasses inquiries concerning
the administration of existing laws, as well as proposed
or possibly needed statutes. It includes surveys of defects
in our social, economic or political system for the purpose
of enabling Congress to remedy them. It comprehends
probes into departments of the Federal Government to
expose corruption, inefficiency or waste. Citing Watkins.
While broad, Congress’ investigative powers are
not unlimited. Rather, its powers are subject to several
limitations, five of which will be mentioned now.
First, the subject of any inquiry must be one on which
legislation could be had. Citing Eastland, 421 U.S. at 504.

198a
Appendix H
This means that, in determining the constitutionality of
requests for information, pursuant to a congressional
investigation, a court must first determine whether an
investigation is related to a valid legislative purpose, for
Congress may not constitutionally require an individual to
disclose his political relationships or other private affairs
except in relation to such a purpose. Citing Barenblatt v.
United States, 360 U.S. 109.
Second, the Bill of Rights is applicable to congressional
investigations as to all forms of governmental action, and
serves to limit Congress’ investigative powers.
Third, while the public is entitled to be informed
[62]concerning the workings of its government, the
Supreme Court has made clear that this entitlement
cannot be inflated into a general power to expose, where
the predominant result can only be an invasion of the
private rights of individuals.
Fourth, since Congress may only investigate into
those areas in which it may potentially legislate or
appropriate, it cannot inquire into matters which are
within the exclusive province of one of the other branches
of the Government. Lacking the judicial power given to
the Judiciary, it cannot inquire into matters that are
exclusively the concern of the Judiciary. Neither can it
supplant the Executive in what exclusively belongs to the
Executive. Citing Barenblatt.
Fifth, and finally, when analyzing the investigative
boundaries of congressional subcommittees, such as

199a
Appendix H
the committees here, the committees’ investigative
boundaries are defined by its source. Citing Eastland.
Thus, with respect to the committees, their powers are
further restricted to the missions delegated to them,
i.e., to acquire certain data to be used by the House or
the Senate in coping with a problem that falls within its
legislative sphere and, consequently, no witness can be
compelled to make disclosures on matters outside that
area.
Among other sources to consider in ascertaining a
subcommittee’s boundaries in a given investigation, courts
may consider the congressional resolutions authorizing
the [63]investigation, the committee’s jurisdictional
statements, and statements of the members of the
committee. Shelton v. United States, 404 F.2d 1292.
The committees’ subpoenas have a legitimate
legislative purpose. Plaintiffs argue that the committees’
subpoenas lack a legitimate legislative purpose. The Court
disagrees.
The Committee of Financial Ser vices and the
Permanent Select Committee on Intelligence issued
substantively identical subpoenas for records to Deutsche
Bank on April 15. That same day, the Committee of
Financial Services issued a similar subpoena to Capital
One Financial Corporation. The committees, through
their subpoenas, seek financial records and account
information related to Plaintiffs that mostly date back
to 2010. However, with respect to some records, such as,
for example, documents related to account applications,

200a
Appendix H
opening documents, know your customer, due diligence, et
cetera, revealing financial relationships between plaintiffs
and any foreign individuals, entities, or governments,
there is no time limitation.
In analyzing whether the committees acted within
their constitutional boundaries, the Court first looks to
each committee’s respective jurisdiction. With respect to
the Committee on Financial Services, according to Rule
X of the Rules of the House of Representatives for the
[64]116th Congress, the Committee on Financial Services
enjoys jurisdiction over matters relating to, among other
subjects, banks and banking, including deposit insurance
and federal monetary policy, insurance generally,
international finance, and international financial and
monetary organizations.
According to Rule X, as a standing committee, the
Committee on Financial Services is also charged with
general oversight responsibilities to assist the House of
Representatives in its analysis, appraisal, and evaluation
of, among other subjects, the application, administration,
execution, and effectiveness of federal laws; and,
importantly, conditions and circumstances that may
indicate the necessity or desirability of enacting new or
additional legislation.
The Committee on Financial Services contends that
it is investigating whether existing policies and programs
at financial institutions are adequate to ensure the safety
and soundness of lending practices, and the prevention of
loan fraud.

201a
Appendix H
It points the Court to news sources reporting that
financial institutions have issued more than $1 trillion in
large corporate loans, called leveraged loans, to heavily
indebted companies that may be unable to repay those
loans. It contends that it’s investigating the lending
practices of financial institutions, including Deutsche
Bank, for loans issued to the Trump family and companies
controlled [65]by President Trump.
Citing news sources reporting that over the years,
Deutsche Bank has provided more than $2 billion in loans
to President Trump, despite concerns raised by senior
bank officials regarding some of the loans. It contends
that it’s investigating industry-wide compliance with
banking statutes and regulations, particularly anti-money
laundering policies.
Importantly, it points to House Resolutions originating
in the committee and predating the subpoenas, that
support its representations to the Court. For example,
House Resolution 206, introduced by Chairwoman
Maxine Waters on March 8, 2019, and passed by a floor
vote on March 13, 2019, the House expressed that money
laundering and other financial crimes are serious threats
to our national and economic security, and resolved to
acknowledge that the lack of sunlight and transparency
in financial transactions poses a threat to our country;
to support efforts to close money laundering loopholes;
to encourage transparency; to detect and deter financial
crimes; and to urge financial institutions to comply with
various anti-money laundering laws and regulations.

202a
Appendix H
The Committee on Financial Services believes that
the challenged subpoenas further its investigations
bearing upon the integrity of the U.S. financial system
and the national security, including bank fraud, money
laundering, foreign influence in the U.S. political process,
and the [66]counterintelligence risks posed by foreign
powers’ use of financial leverage.
It maintains that the banks’ lending practices,
including loans made to plaintiffs, are an important
piece to that investigation, as the subpoenas seek records
relating to individuals and entities, including plaintiffs,
that may have served as conduits for illicit funds or may
not have been properly underwritten, and the public record
establishes that they serve as a useful case study for the
broader problems being examined by the committee.
Based on the aforementioned, the Court concludes that
this committee’s investigation and attendant subpoenas
are in furtherance of a legitimate legislative purpose,
plainly related to the subjects on which legislation can
be had.
With respect to the Permanent Select Committee on
Intelligence, according to Rule X, this committee enjoys
jurisdiction over matters relating to, among other subjects,
intelligence and intelligence-related activities of all other
departments and agencies of the government, and the
organization or reorganization of a department or agency
of the government, to the extent that the organization or
reorganization relates to a function or activity involving
intelligence or intelligence-related activities.

203a
Appendix H
The Permanent Select Committee is also charged with
special oversight functions. Specifically, the Committee is
[67]charged with, among other responsibilities, reviewing
and studying on a continuing basis laws, programs, and
activities of the intelligence community.
The Intelligence Committee contends that it is
currently investigating efforts by Russia and other foreign
powers to influence the U.S. political process during and
since the 2016 election, including financial leverage that
foreign actors may have over President Trump, his family,
and his business, and the related counterintelligence,
national security, and legislative implications.
Moreover, the Committee contends that it is evaluating
whether the structure, legal authorities, policies,
and resources of the U.S. Government’s intelligence,
counterintelligence, and law enforcement elements are
adequate to combat such threats to national security.
The Intelligence Committee justifies its subpoena on the
ground that its investigation requires an understanding
of Mr. Trump’s complex financial arrangements, including
how those arrangements intersect with Russia and other
foreign governments and entities.
The Committee further argues that this inquiry is, by
definition, not limited to Mr. Trump’s time in office and,
given the closely held nature of the Trump Organization,
must include his close family members. Among other
items, the Intelligence Committee points to a press
release by its [68]Chairman, dated February 6, 2019,
in which Chairman Schiff stated that the Intelligence

204a
Appendix H
Committee would conduct a rigorous investigation into
efforts by Russia and other foreign entities to influence
the U.S. political process during and since the 2016 U.S.
election; and that the Committee would work to fulfill
its responsibility to provide the American people with a
comprehensive accounting of what happened, and what
the United States must do to protect itself from future
interference and malign influence operations.
In this press release, Chairman Schiff further stated
that the committee also plans to develop legislation and
policy reforms to ensure the U.S. government is better
positioned to counter future efforts to undermine our
political process and national security.
Based on the aforementioned, the Court concludes that
this Committee’s investigation and attendant subpoena is
in furtherance of a legitimate legislative purpose, plainly
related to subjects on which legislation can be had.
Plaintiffs contend that the committees’ purported
agendas are solely focused on oversight and transparency,
which, in a vacuum, are not legitimate legislative purposes
that can justify subpoenaing a private citizen. But
Congress’ investigative power is not judged in a vacuum.
As explained in Barenblatt, the congressional power of
inquiry, its range and scope, and an individual’s duty in
relation to it, must be [69]viewed in proper perspective.
The power and the right of resistance to it are to be judged
in the concrete, not on the basis of abstractions.

205a
Appendix H
And here, the Committees seek financial information
pertinent to specific areas of investigation on which
legislation could be had. As the D.C. Circuit recognized
in Shelton, in deciding whether the purpose is within
the legislative function, the mere assertion of a need to
consider remedial legislation may not alone justify an
investigation accompanied with compulsory process, but
when the purpose asserted is supported by references to
specific problems which in the past have been or which in
the future could be the subjects of appropriate legislation,
then a court cannot say that a committee of the Congress
exceeds its broad power when it seeks information in such
areas.
Simply put, the committees’ subpoenas all are in
furtherance of facially legitimate legislative purposes.
Next, and relatedly, plaintiffs contend that the
committees’ subpoenas as “outrageously broad,” given
the information the committees seek long predates
the President’s election to office, reaches well beyond
the transactions associated with foreign parties, and
encompasses reams of account records for entities,
individuals, children, and spouses, who have never even
been implicated in any probe.
Plaintiffs contend that the financial conduct of
[70]private citizens years before they were anywhere near
public office, has nothing to do with government oversight.
The Court finds Plaintiffs’ contention unpersuasive.
Based on the cases cited by the parties in their papers,

206a
Appendix H
they seem to agree that so long as the requested
information in the subpoenas are pertinent to legitimate
legislative purposes of the committees, the subpoenas are
not overly broad, and the Court need not conduct a lineby-line review of the information requested.
The Supreme Court has previously concluded that
where the records called for by a subpoena were not
plainly incompetent or irrelevant to any lawful purpose of
a subcommittee in the discharge of its duties, but, on the
contrary, were reasonably relevant to the inquiry, then
such records are, in fact, pertinent. Citing McPhaul v.
United States, reported at 364 U.S. 372.
As noted by Judge Mehta in his opinion earlier this
week, the standard adopted by the Supreme Court is a
forgiving one. Here, as mentioned earlier, the committees’
subpoenas seek plaintiffs’ financial information mostly
dating back to 2010. The committees contend that this
information is necessary to investigate serious and urgent
questions concerning the safety of banking practices,
money laundering in the financial sector, foreign influence
in the U.S. political process, and the threat of foreign
financial leverage, [71]including over the President, his
family, and his business.
In light of the scope of the committees’ investigations,
the Court finds the committees’ requests for information,
while undeniably broad, is clearly pertinent to the
committees’ legitimate legislative purposes. Consequently,
the Court will not engage in a line-by-line review of the
subpoenas’ requests, merely because some requests may
be more pertinent than others.

207a
Appendix H
As the Supreme Court has made clear, the wisdom
of congressional approach or methodology is not open
to judicial veto, nor is the legitimacy of a congressional
inquiry to be defined by what it produces. The very
nature of the investigative function, like any research,
is that it takes the searchers up some blind alleys and
into nonproductive enterprises. To be a valid legislative
inquiry, there need be no predictable end result. Citing
Eastland.
Next, the plaintiffs challenge the subpoenas on the
ground that the committees have never identified a single
piece of legislation within their respective jurisdictions
that they are considering. While that argument may
be true as far as it goes, it is also irrelevant. Congress
need not issue proposed legislation prior to the start of
an investigation; it need not pass a bill; and it need not
have particular legislation in mind when conducting a
legitimate, lawful investigation in aid of its legislative
function.
[72]As the Supreme Court noted in Watkins, most
of instances of use of compulsory process by the first
Congress concerned matters affecting the qualification
or integrity of their members or came about in inquiries
dealing with suspected corruption or mismanagement
of government officials. There was very little use of the
power of compulsory process in early years to enable the
Congress to obtain facts pertinent to the enactment of
new statutes or the administration of existing laws.

208a
Appendix H
As explained by the Second Circuit, it is immaterial
that in the past a particular committee has proposed but
little legislation. Information gained by a committee might
well aid Congress in performing its legislative duties, in
deciding that the public welfare required the passage of
new statutes or changes in existing ones, or that it did
not. United States v. Josephson, 165 F.2d 82.
Again, as stated earlier, and quoting the Supreme
Court in Eastland, the subject of the congressional inquiry
simply must be one “on which legislation could be had.”
Accordingly, plaintiffs’ argument on this point fails.
Next, the Committees contend that, at best, the
Committees seek these documents so they can conduct
law-enforcement activities that the Supreme Court has
held are reserved to the other branches. The Court
disagrees. The Supreme Court has made clear that the
power to investigate [73]should not be confused with
any of the powers of law enforcement. Those powers are
assigned under our Constitution to the Executive and the
Judiciary. Quinn v. United States, 349 U.S. 155.
However, the Supreme Court has also made clear
that a congressional investigation is not transformed into
the invalid exercise of law enforcement authority merely
because the investigation might possibly disclose crime
or wrongdoing. Citing McGrain.
Similarly, the Supreme Court has recognized that
while it may be conceded that Congress is without

209a
Appendix H
authority to compel disclosures for the purpose of
aiding the prosecution of pending suits, the authority of
Congress, directly or through its committees, to require
pertinent disclosures in aid of its own constitutional power
is not abridged because the information sought to be
elicited may also be of use in such suits. Citing Sinclair,
279 U.S. at 295.
The Supreme Court has clearly acknowledged that
many powers of government overlap. Thus, in determining
whether a congressional investigation has morphed into an
impermissible law enforcement investigation, the critical
inquiry is whether Congress has exercised an exclusive
power of the Judiciary or Executive.
For example, in Barenblatt v. United States, the
Supreme Court affirmed an individual’s conviction for
contempt [74]of Congress arising from his refusal to
answer questions posited to him by a subcommittee of
the House of Representatives. In so holding, the Supreme
Court noted that whereas “Congress may only investigate
into those areas in which it may potentially legislate or
appropriate, it cannot inquire into matters which are
within the exclusive province of one of the other branches
of the Government.”
Similarly, in Kilbourn, the Supreme Court limited
congressional investigative power to situations where
“[1] the investigation which the committee was directed
to make was judicial in character; and [2] could only be
properly and successfully made by a court of justice; and
[3] related to a matter wherein relief or redress could be
had only by a judicial proceeding.”

210a
Appendix H
Likewise, in Tenney v. Brandhove, the Supreme
Court stated that in order “to find that a committee’s
investigation has exceeded the bounds of legislative power
it must be obvious that there was a usurpation of functions
exclusively vested in the Judiciary or the Executive.”
Here, however, it is not obvious that the committees
usurped any powers exclusively vested in the Judiciary or
the Executive when it issued the challenged subpoenas.
There is nothing here to suggest that the sole function of
the challenged subpoenas is to amass evidence either to
prosecute plaintiffs, civilly or criminally. On the contrary,
the [75]committees have provided ample justification
establishing clear, legitimate legislative purposes for the
information requested in the subpoenas.
Accordingly, contrary to plaintiffs’ protestations,
the Court finds that the committees’ investigations and
attendant subpoenas do not constitute impermissible law
enforcement activities.
Finally, plaintiffs contend that regardless of whether
the challenged subpoenas further legitimate legislative
purposes, this Court should, nonetheless, enjoin the banks
from complying with them because the committees really
want to collect and expose the financial documents of the
President and his children and grandchildren for the sake
of exposure.
In response, the committees contend that plaintiffs’
contention is unsupported by anything other than
political rhetoric and press statements, and note that
even if plaintiffs had provided some basis to question the

211a
Appendix H
committees’ motives, the Court should not look behind
the legitimate legislative purpose of the investigations.
The Cour t ag rees w ith the committees. The
committees’ alleged ulterior motives, even if such exist,
are insufficient to vitiate their subpoena powers. In their
papers, plaintiffs quote Watkins for the notion that there is
no congressional power to expose for the sake of exposure.
That much is true.
Had plaintiffs read further, however, they would
[76]realize that the propriety of legislative motives is
not a question left to the courts. As the Supreme Court
explained in the same paragraph relied upon by plaintiffs:
We have no doubt that there is no congressional power to
expose for the sake of exposure. The public is, of course,
entitled to be informed concerning the workings of its
government. That cannot be inflated into a general power
to expose, where the predominant result can only be an
invasion of the private rights of individuals.
But a solution to our problem is not to be found
in testing the motives of committee members for this
purpose. Such is not our function. Their motives alone
would not vitiate any investigation which had been
instituted by a House of Congress if that assembly’s
legislative purpose is being served.
Put simply, even in the face of investigations in which
the predominant result is exposure of an individual’s
privacy, courts generally lack authority to halt an
investigation otherwise supported by a facially legitimate
legislative purpose.

212a
Appendix H
The Supreme Court has repeated this over and over
again. See, e.g., Eastland, at 508 (“Our cases make clear
that in determining the legitimacy of a congressional act,
we do not look to the motives alleged to have prompted
it.”); Sonzinsky v. United States, 300 U.S. 506 (“Inquiry
into the hidden [77]motives which may move Congress
to exercise a power constitutionally conferred upon it is
beyond the competency of courts.”); Smith v. Kansas City
Title & Tr. Co., 255 U.S. 180, (“Nothing is better settled
by the decisions of this court than that, when Congress
acts within the limits of its constitutional authority, it is
not the province of the judicial branch of the government
to question its motives.”); and United States v. O’Brien,
391 U.S. 367, (“It is a familiar principle of constitutional
law that this Court will not strike down an otherwise
constitutional statute on the basis of an alleged illicit
legislative motive.”).
Of course, it is true that abuses of the investigative
process may imperceptibly lead to abridgment of protected
freedoms. Citing Watkins. But this danger, too, has been
addressed thoroughly by the Supreme Court in prior
decisions. The Supreme Court has detailed the remedy
for all left uncomfortable with the idea of a congressional
committee probing through the financial history of an
individual on grounds, pretextual, even if technically legal.
In Barenblatt, the Supreme Court said: “It is, of
course, true that if there be no authority in the judiciary to
restrain a lawful exercise of power by another department
of the government, where a wrong motive or purpose
has impelled to the exertion of the power, that abuses
of a power conferred may be temporarily effectual. The

213a
Appendix H
remedy for this, however, [78]lies not in the abuse by the
judicial authority of its functions, but in the people upon
whom, after all, under our institutions, reliance must
be placed for the correction of abuses committed in the
exercise of a lawful power.”
In other words, the correction of abuses committed in
the exercise of a lawful power is a matter left to voters,
not judges. Moreover, the propriety of making plaintiffs’
finances a subject of the committees’ investigation is a
subject on which the scope of the Court’s inquiry is narrow.
Citing Eastland.
The wisdom of this approach is beyond reproach.
As explained by the Supreme Court, inquiries into
congressional motives or purposes are a hazardous matter.
Citing O’Brien, 391 U.S. at 383. And in times of political
passion, dishonest or vindictive motives are readily
attributed to legislative conduct and as readily believed.
Thus, as the Court stated in Barenblatt, so long as
Congress acts in pursuance of its constitutional power,
the Judiciary lacks authority to intervene on the basis
of the motives which spurred the exercise of that power.
Accordingly, the Court finds that the committees’ alleged
ulterior motives, assuming they exist, do not vitiate the
legitimate legislative purposes supporting the challenged
subpoenas.
At bottom, the committees’ power to issue and enforce
the subpoenas at issue is well settled. What’s more, it is
[79]appropriate to observe that just as the Constitution

214a
Appendix H
forbids the Congress to enter fields reserved to the
Executive and Judiciary, it imposes on the Judiciary the
reciprocal duty of not lightly interfering with Congress’s
exercise of its legitimate powers. Citing Hutcheson, 369
U.S. at 622.
Having been satisfied that the committees have
exercised their legitimate powers in issuing the challenged
subpoenas, the Court concludes that plaintiffs are highly
unlikely to succeed on the merits of their constitutional
claim, a conclusion that weighs against preliminary
injunctive relief.
The Court now turns to whether they have, nonetheless,
shown sufficiently serious questions going to the merits
of their claim, along with a balance of hardships tipped
decidedly in their favor.
To begin, the Court notes that, based on the facts of
this particular case, it is uncertain whether plaintiffs may
show entitlement to injunctive relief merely by showing
serious questions going to the merits.
The Second Circuit has explained that where the
moving party seeks to stay government action taken in
the public interest pursuant to a statutory or regulatory
scheme, the district court should not apply the less
rigorous “serious questions” standard and should not
grant the injunction unless the moving party establishes,
along with irreparable injury, a [80]likelihood that he will
succeed on the merits of his claim. Citing Citigroup, 598
F.3d at 35.

215a
Appendix H
This exception reflects the idea that governmental
policies implemented through legislation or regulations
developed through presumptively reasoned democratic
processes are entitled to a higher degree of deference and
should not be enjoined lightly.
Here, of course -- let me read ahead – plaintiffs
contend that they have identified several serious questions
warranting preservation of the status quo because if
the Court accepts the committees’ view of the law, then
Congress can issue a subpoena on any matter, at any
time, for any reason, to any person, and there is basically
nothing a federal court can do about it.
But, as previously explained, that is not the case.
There are several limits to the Committees’ power to
investigate in aid of its legislative functions.
Plaintiffs similarly point out that the question whether
the RFPA applies to Congress is one that this Court will
be the first in the country to decide. But, while that may be
true, plaintiffs’ statutory argument fails to rise to the level
of “serious,” as the plain text and structure of the RFPA,
along with binding Supreme Court precedent interpreting
substantively identical language, strongly undercut their
proposed interpretation of the statute.
[81]Finally, plaintiffs urge the Court to go the way
of the Court of Appeals in Eastland by staying this
case pending a decision on the merits. In Eastland, the
Court of Appeals stayed enforcement of a congressional
subpoena directing a bank to produce the financial records

216a
Appendix H
of an organization. While the ultimate question decided
in Eastland is the same presented here, that is, whether
a congressional subpoena issued to a third party was a
product of legitimate legislative activity, a question, by
the way, answered in the affirmative by the Supreme
Court, the procedural postures differ greatly, warranting
a different result here.
Central to the Court of Appeals’ decision to grant a stay
in Eastland, aside from its determination that irreparable
harm was likely to befall plaintiffs absent intervention,
was its determination that serious constitutional questions
were presented by this litigation, which require more time
than is presently available for proper consideration. Citing
488 F.2d at 1256.
The challenged subpoena in that case was issued on
May 28, 1970, with a return date of June 4. The organization
sued to enjoin compliance with the subpoena on June 1.
The district court denied the injunction on June 1. Thus,
while the record is unclear as to when the organization
noted an appeal, at most, the Court of Appeals had two
days to review the merits of plaintiff’s arguments before
the return date was [82]to take effect.
Indeed, the Court of Appeals noted that the decisive
element in their decision to stay the case was that, absent
a stay, the case would be mooted on the same morning that
their decision issued. Consequently, with only, at most, two
days to have reviewed plaintiff’s application, a stay was a
prudent move by the Court of Appeals.

217a
Appendix H
Here, plaintiffs first filed suit on April 29, 2019. So the
Court had the case before it for roughly three weeks, as
compared with, at most, two days in Eastland; and, while
the instant motion remains pending, the committees have
agreed not to enforce the subpoenas. So the Court had
the benefit of the time necessary to thoroughly consider
the merits of plaintiffs’ motion. As well, I should note,
the thorough opinion of Judge Mehta of the D.C. District
Court. Consequently, the Court of Appeals’ actions in
Eastland has little bearing here.
Moreover, the biggest difference between the
circumstances before this Court and the Court of appeals
in Eastland is clear. The Court of Appeals in Eastland
did not have the benefit of the Supreme Court’s opinion
in Eastland, which reversed the Court of Appeals in an
eight-to-one decision, laying out the same framework the
Court uses today to resolve this case.
So, while the question at the heart of this case
[83]concerning the extent congressional power may have
been an open and serious one before, it is not nearly so
serious today. Of course, use of congressional subpoena
power to receive from a third party a sitting President’s
financial records will always be serious in that the outcome
will have serious political ramifications.
In the context of judicial interpretation, however,
the word “serious” relates to a question that is both
serious and open to reasonable debate. Otherwise,
every complaint challenging the power of one of the
three coordinate branches of government would result

218a
Appendix H
in preliminary relief, regardless of whether established
law renders the complaint unmeritorious. Indeed, every
litigant that comes before the Court seeks relief that is
she considers serious. That cannot be the law.
Whereas, here, a subdivision of Congress acts
plainly within its constitutional authority, preliminary
injunctive relief will not issue simply because the plaintiff
challenges that authority. More is required to demonstrate
entitlement to extraordinary and drastic relief in the form
of a preliminary injunction.
The Court concludes that plaintiffs have not raised any
serious questions going to the merits. As the above analysis
makes clear, the Supreme Court has likely foreclosed the
path plaintiffs ask this Court to travel. It is well settled
that the committees possessed the power to issue [84]and
enforce subpoenas of the type challenged by Plaintiffs,
and it is also plain, based on standard constructions of
statutory interpretation and prior Supreme Court cases,
that the RFPA is no hurdle to the committees’ efforts to
obtain the financial information sought.
Accordingly, the Court finds that the statutory
questions in this case are not sufficiently serious in light
of the governing law. In any event, as explained below,
plaintiffs have failed to demonstrate that the balance of
the hardships weighs in their favor. Accordingly, even if
the questions were sufficiently serious, injunctive relief
remains unwarranted.

219a
Appendix H
The Court finds that Plaintiffs have also failed to
establish that the balance of equities and hardships, along
with the public interest, favor a preliminary injunction.
These factors merge when the Government is the opposing
party. Citing Nken, 556 U.S. at 435.
The Court has found that the committees’ subpoenas
are likely lawful. Thus, delaying what is likely lawful
legislative activity is inequitable. With respect to the
balance of hardships, plaintiffs compare the irreparable
harm that they are likely to suffer with what they maintain
is the committees’ sole potential hardship, namely, some
delay before receiving the documents if the committees
activities are deemed lawful.
[85]Plaintiffs maintain that courts have consistently
held that such harm is given little weight. But here,
the committees have alleged a pressing need for the
subpoenaed documents to further their investigation, and
it is not the role of the Court or plaintiffs to second guess
that need, especially in light of the Court’s conclusions that
the requested documents are pertinent to what is likely a
lawful congressional investigation.
What’s more, because the House of Representatives
is not a “continuing body,” see Eastland, 421 U.S. at 512,
any delay in the proceedings may result in irreparable
harm to the committees. Thus, the Court finds that the
balance of hardships and equities do not tip in plaintiffs’
favor, much less decidedly in their favor, as the standard
in this circuit requires.

220a
Appendix H
Turning to the public interest, plaintiffs contend that
this factor weighs strongly in favor of preserving the
status quo because applying the law in a way that violates
the Constitution is never in the public’s interest and no
public interest in advanced by allowing the committees
to enforce illegal subpoenas. These rationales, of course,
presupposes the subpoenas’ illegality.
Here, the Court has already determined that there is
a strong likelihood that the committees actions are lawful,
and courts have long recognized a clear public interest
in [86]maximizing the effectiveness of the investigatory
powers of Congress. See e.g. Exxon Corp. v. F.T.C., 589
F.2d 582.
And, in the committees’ words, “Plaintiffs’ contrary
argument ignores the clear and compelling public
interest in expeditious and unimpeded Congressional
investigations into core aspects of the financial and
election systems that touch every member of the public.”
The Court agrees and, therefore, finds that the public
interest weighs strongly against a preliminary injunction.
As the Supreme Court noted in Watkins, “it is
unquestionably the duty of all citizens to cooperate with
the Congress in its efforts to obtain the facts needed
for legislative action. It is their unremitting obligation
to respond to subpoenas, to respect the dignity of
the Congress and its committees, and to testify fully
with respect to matters within the province of proper
investigation.”

221a
Appendix H
Here, the Court finds that the challenged subpoenas fall
within the province of proper congressional investigation.
Accordingly, the Court will not enjoin the committees’
efforts to enforce the subpoenas.
Finally, Plaintiffs contend that the Court should issue
an injunction to preserve the status quo because refusing
to do so may otherwise moot their right to appeal, a classic
form of irreparable harm.
The Court is unpersuaded. Plaintiffs will have ample
[87]time to appeal the Court’s decision before it takes
effect. The committees have already agreed to suspend
enforcement of the subpoenas until seven days following
resolution of plaintiffs’ motion for preliminary injunction.
Once the Court’s decision is entered on the docket,
plaintiffs may immediately appeal the decision to the
Court of Appeals, pursuant to 28 U.S.C. Section 1292(a)
(1). Moreover, plaintiffs are free to ask the Court of
Appeals for a stay pending review of this Court’s decision,
which the Court of Appeals will have discretion to grant,
if warranted. Plaintiffs need not reinvent the wheel in
applying for a stay, given the substantial overlap between
factors justifying a stay and preliminary injunction. See
e.g. Nken v. Holder, 556 U.S. 418.
Plaintiffs simply can, likely will, and almost certainly
must, proffer the same arguments raised here. Indeed,
the Court takes judicial notice that plaintiffs filed a notice
of appeal the following morning after the D.C. district
court ruled against them in that case earlier this week.

222a
Appendix H
Thus, contrary to plaintiffs’ arguments, refusal to issue
an injunction here would not moot plaintiffs’ right to an
appeal.
For the reasons set forth above, plaintiffs’ motion for
a preliminary injunction is denied. That constitutes the
opinion of the Court.
And with that, Mr. Strawbridge, is there anything else
****

223a
Appendix IUNITED STATES
APPENDIX I — OPINION,
COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED DECEMBER 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-1540 cv
DONALD J. TRUMP, DONALD J. TRUMP, JR., ERIC
TRUMP, IVANKA TRUMP, DONALD J. TRUMP
REVOCABLE TRUST, TRUMP ORGANIZATION,
INC., TRUMP ORGANIZATION LLC, DJT
HOLDINGS LLC, DJT HOLDINGS MANAGING
MEMBER LLC, TRUMP ACQUISITION LLC,
TRUMP ACQUISITION, CORP.,
Plaintiffs - Appellants,
v.
DEUTSCHE BANK AG, CAPITAL ONE
FINANCIAL CORPORATION,
Defendants - Appellees,
COMMITTEE ON FINANCIAL SERVICES
OF THE UNITED STATES HOUSE OF
REPRESENTATIVES, PERMANENT
SELECT COMMITTEE ON INTELLIGENCE
OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,
Intervenor Defendants - Appellees.

224a
Appendix I
August 23, 2019, Argued
December 3, 2019, Decided
Before: NEWMAN, HALL, and LIVINGSTON, Circuit
Judges.
Expedited interlocutory appeal from the May 22,
2019, order of the District Court for the Southern District
of New York (Edgardo Ramos, District Judge) denying
Plaintiffs-Appellants’ motion for a preliminary injunction
to prevent the Defendants-Appellees’ compliance with
subpoenas issued to them by the Intervenor Defendants
Appellees and denying Plaintiffs-Appellants’ motion for
a stay pending appeal.
Affirmed in substantial part and remanded in part.
Judge Livingston concurs in part and dissents in part
with a separate opinion.
JON O. NEWMAN, Circuit Judge:
This appeal raises an important issue concerning the
investigative authority of two committees of the United
States House of Representatives and the protection of
privacy due the President of the United States suing in his
individual, not official, capacity with respect to financial
records. The specific issue is the lawfulness of three
subpoenas issued by the House Committee on Financial
Services and the House Permanent Select Committee on
Intelligence (collectively, “Committees” or “Intervenors”)
to two banks, Deutsche Bank AG and Capital One Financial
Corporation (“Capital One”) (collectively, “Banks”). The
subpoenas issued by each of the Committees to Deutsche

225a
Appendix I
Bank (“Deutsche Bank Subpoenas”) seek identical records
of President Donald J. Trump (“Lead Plaintiff”), members
of his family, The Trump Organization, Inc. (“Trump
Organization”), and several affiliated entities (collectively,
“Plaintiffs” or “Appellants”). The subpoena issued by the
Committee on Financial Services to Capital One (“Capital
One Subpoena”) seeks records of the Trump Organization
and several affiliated entities. The Capital One Subpoena
does not list the Lead Plaintiff or members of his family
by name, but might seek their records in the event they
are a principal, director, shareholder, or officer of any of
the listed entities.
The issue of the lawfulness of the three subpoenas
arises on an expedited interlocutory appeal from the May
22, 2019, Order of the District Court for the Southern
District of New York (Edgardo Ramos, District Judge)
(“Order”) denying Plaintiffs’ motion for a preliminary
injunction to prevent the Banks’ compliance with the
subpoenas and denying Plaintiffs’ motion for a stay
pending appeal.
We affirm the Order in substantial part to the extent
that it denied a preliminary injunction and order prompt
compliance with the subpoenas, except that the case
is remanded to a limited extent for implementation of
the procedure set forth in this opinion concerning the
nondisclosure of sensitive personal information and a
limited opportunity for Appellants to object to disclosure
of other specific documents within the coverage of those
paragraphs of the Deutsche Bank Subpoenas listed in this
opinion. We dismiss as moot the appeal from the Order to
the extent that it denied a stay pending appeal because

226a
Appendix I
the Committees agreed not to require compliance with
the subpoenas pending the appeal, once the appeal was
expedited.
In her partial dissent, Judge Livingston prefers a
total remand of the case for “creation of a record that is
sufficient more closely to examine the serious questions
that the Plaintiffs have raised,” Part Diss. Op. at 10-11, and
to “afford the parties an opportunity to negotiate,” id. at
11. We discuss at pages 69-72 of this opinion not only why
such a remand is not warranted but why it would also run
counter to the instruction the Supreme Court has given to
courts considering attempts to have the Judicial Branch
interfere with a lawful exercise of the congressional
authority of the Legislative Branch.
Background
The subpoenas. The case concerns three subpoenas
issued by committees of the United States House of
Representatives. On April 11 of this year, the Committee
on Financial Ser vices and the Permanent Select
Committee on Intelligence each issued identical subpoenas
to Deutsche Bank, seeking a broad range of financial
records of Donald J. Trump, members of his family, and
affiliated entities. On the same date, the Committee on
Financial Services issued a subpoena of narrower scope
to Capital One Financial Corporation.1 We detail the scope
of the subpoenas in Part II(C).
1. The subpoenas issued by the Committee on Financial
Services are not dated, but we were informed at oral argument that
they were issued on April 11.

227a
Appendix I
Litigation procedure. On April 29, Donald J. Trump,
his three oldest children, the Trump Organization, and
six entities affiliated with either the Lead Plaintiff or
the Trump Organization 2 filed a complaint in the District
Court seeking a declaratory judgment that the subpoenas
are invalid and an injunction “quashing” the subpoenas
and enjoining compliance with them. 3 On May 3, the
Plaintiffs filed a motion for a preliminary injunction,4 and
the District Court granted the Committees’ joint motion
to intervene. 5 The Plaintiffs and the Committees then
agreed to an expedited briefing schedule for the motion
for a preliminary injunction.6 Deutsche Bank notified the
District Court that it took no position on the Plaintiffs’
request for limited expedited discovery,7 and Capital One
notified the District Court that it took no position on the
Plaintiffs’ request for an order requiring the Committees
to provide Plaintiffs with copies of the subpoenas. 8

2. They are Donald J. Trump Revocable Trust, Trump
Organization LLC, DJT Holdings LLC, DJT Holdings Managing
Member LLC, Trump Acquisition LLC, and Trump Acquisition,
Corp.
3. Trump v. Deutsche Bank, No. 19-cv-3826 (S.D.N.Y. 2019),
Dkt. No. 1 (Apr. 29, 2019).
4. Id., Dkt. No. 26 (May 3, 2019).
5. Id., Dkt. No. 31 (May 3, 2019).
6. Id., Dkt. No. 21 (May 1, 2019).
7. Id., Dkt. No. 38 (May 7, 2019).
8. Id., Dkt. No. 40 (May 7, 2019).

228a
Appendix I
On May 22, the District Court held a hearing on the
Plaintiffs’ motion for a preliminary injunction and denied
it, reading into the record an extensive opinion.9 On May
24, the Plaintiffs filed a notice of an interlocutory appeal.
On May 25, the parties submitted a joint motion to stay
proceedings in the District Court pending the appeal,10
which the District Court granted on May 28.11
On May 25, the parties jointly moved in this Court
for an expedited appeal,12 which was granted on May
31.13 Thereafter, the Banks informed us that they take
no position with respect to the appeal.14 Nevertheless,
we requested counsel for the Banks to attend the oral
argument to be available to respond to any questions

9. Id., Dkt. No. 59 (May 22, 2019).
10. Id., Dkt. No. 61 (May 25, 2019).
11. Id., Dkt. No. 62 (May 28, 2019).
12. Trump v. Deutsche Bank, No. 19-1540 (2d Cir. 2019), Dkt.
No. 5 (May 25, 2019).
13. Id., Dkt. No. 8 (May 31, 2019). In the parties’ joint motion to
expedite the appeal, the Committees agreed that if the appeal were
expedited, they would suspend compliance with the subpoenas during
the pendency of the appeal “except to the extent the subpoenas call
for the production of documents unrelated to any person or entity
affiliated with Plaintiff-Appellants.” J. Mot. to Expedite at 2, id., Dkt.
No. 5 (May 25, 2019). Granting the motion to expedite the appeal has
therefore rendered moot the appeal from the District Court’s order
to the extent that it denied a stay pending appeal.
14. Id., Dkt. Nos. 66 (July 11, 2019), 71 (July 12, 2019).

229a
Appendix I
the panel might have.15 We requested the Committees
to provide unredacted copies of the Deutsche Bank
subpoenas, which we have received under seal. We also
inquired of the United States Solicitor General whether
the United States would like to submit its view on the
issues raised on this appeal.16 On August 19, the United
States submitted a brief as amicus curiae, urging reversal
of the District Court’s order denying a preliminary
injunction,17 to which the Committees and Appellants
responded on August 21.18 On August 23, we heard oral
argument.
The oral argument precipitated letters from the
parties to this Court concerning tax returns sought
pursuant to the subpoenas. These letters and subsequent
procedural developments are discussed in Part II(B).
Discussion
We emphasize at the outset that the issues raised
by this litigation do not concern a dispute between the
Legislative and Executive Branches. As to such a dispute,
as occurs where the Justice Department, suing on behalf
of the United States, seeks an injunction to prevent a third
party from responding to a congressional committee’s
subpoena seeking documents of a department or agency
15. Id., Dkt. No. 81 (July 17, 2019).
16. Id., Dkt. No. 80 (July 17, 2019).
17. Id., Dkt. No. 143 (Aug. 19, 2019).
18. Id., Dkt. Nos. 148, 149 (Aug. 21, 2019).

230a
Appendix I
of the Executive Branch, see, e.g., United States v. AT & T,
567 F.2d 121, 122, 185 U.S. App. D.C. 254 (D.C. Cir. 1977)
(“AT&T II”), the Judicial Branch proceeds with caution,
see id. at 123 (seeking to “avoid a resolution that might
disturb the balance of power between the two branches”),
sometimes encountering issues of justiciability in advance
of the merits, see United States v. AT&T, 551 F.2d 384,
390, 179 U.S. App. D.C. 198 (D.C. Cir. 1976) (“AT&T I”).
Although the challenged subpoenas seek financial records
of the person who is the President, no documents are
sought reflecting any actions taken by Donald J. Trump
acting in his official capacity as President. Indeed, the
Complaint explicitly states that “President Trump
brings this suit solely in his capacity as a private citizen.”
Complaint ¶ 13. Appellants underscore this point by
declining in this Court to assert as barriers to compliance
with the subpoenas any privilege that might be available
to the President in his official capacity, such as executive
privilege. See Franchise Tax Board v. Hyatt, 139 S. Ct.
1485, 1499, 203 L. Ed. 2d 768 (2019) (citing United States
v. Nixon, 418 U.S. 683, 705-06, 94 S. Ct. 3090, 41 L. Ed.
2d 1039 (1974)). The protection sought is the protection
from compelled disclosure alleged to be beyond the
constitutional authority of the Committees, a protection
that, if validly asserted, would be available to any private
individual. See Barenblatt v. United States, 360 U.S.
109, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959); Watkins v.
United States, 354 U.S. 178, 77 S. Ct. 1173, 1 L. Ed. 2d
1273, 76 Ohio Law Abs. 225 (1957). For this reason, in the
remainder of this opinion we will refer to President Trump
as the “Lead Plaintiff”; the formal title “President Trump”
might mislead some to think that his official records are

231a
Appendix I
sought, and the locution “Mr. Trump,” sometimes used in
this litigation, might seem to some disrespectful.
Also at the outset, we note that there is no dispute
that Plaintiffs had standing in the District Court to
challenge the lawfulness of the Committees’ subpoenas by
seeking injunctive relief against the Banks as custodians
of the documents. See United States Servicemen’s Fund
v. Eastland, 488 F.2d 1252, 1260, 159 U.S. App. D.C. 352
(D.C. Cir. 1973) (“[T]he plaintiffs have no alternative
means to vindicate their rights.”) (italics omitted), rev’d on
other grounds without questioning plaintiffs’ standing,
421 U.S. 491, 95 S. Ct. 1813, 44 L. Ed. 2d 324 (1975).
We review denial of a preliminary injunction for abuse
of discretion, see, e.g., Ragbir v. Homan, 923 F.3d 53,
62 (2d Cir. 2019), but our review is appropriately more
exacting where the action sought to be enjoined concerns
the President, even though he is suing in his individual,
not official, capacity, in view of “‘[t]he high respect that is
owed to the office of the Chief Executive’” that “‘should
inform the conduct of [an] entire proceeding,’” Cheney v.
United States District Court, 542 U.S. 367, 385, 124 S. Ct.
2576, 159 L. Ed. 2d 459 (2004) (first brackets in original)
(quoting Clinton v. Jones, 520 U.S. 681, 707, 117 S. Ct.
1636, 137 L. Ed. 2d 945 (1997)).
I.

Preliminary Injunction Standard

In this Circuit, we have repeatedly said that district
courts may grant a preliminary injunction where a
plaintiff demonstrates irreparable harm and meets either

232a
Appendix I
of two standards: “(a) a likelihood of success on the merits,
or (b) sufficiently serious questions going to the merits to
make them a fair ground for litigation, and a balance of
hardships tipping decidedly in the movant’s favor.”19 Kelly
19. The first component of the “serious-questions” standard has
sometimes been phrased as requiring a party seeking a preliminary
injunction to show “sufficiently serious questions going to the
merits of its claims to make them fair ground for litigation.” OtoeMissouria Tribe of Indians v. New York State Dep’t of Financial
Services, 769 F.3d 105, 110 (2d Cir. 2014). That formulation raises
the question whether the referent of “them” is “claims” or “serious
questions.” Normally, the referent of a pronoun is the word or phrase
immediately preceding it. That would mean that a plaintiff’s “claims”
must be sufficiently serious to make them a fair ground for litigation.
But the Otoe-Missouria Tribe formulation could also be read to mean
that the “serious questions” must be sufficiently serious to make
them a fair ground for litigation.
The origin and evolution of the serious questions standard
indicate that what must be sufficiently serious to be a fair ground
of litigation are the questions that the plaintiff’s claims raise, not
the claims themselves (although the distinction probably makes
little, if any, difference in practice). The first version of what has
become the first component of the serious-questions standard
appears in Hamilton Watch Co. v. Benrus Watch Co., 206 F.2d 738
(2d Cir. 1953), where we referred to “questions going to the merits
so serious, substantial, difficult and doubtful, as to make them a fair
ground for litigation,” id. at 740 (emphasis added). This formulation
was repeated verbatim later the same year in Unicon Management
Corp. v. Koppers Co., 366 F.2d 199, 205 (2d Cir. 1966), and Dino
Delaurentiis Cinematografica, S. P. A. v. D-150, Inc., 366 F.2d 373,
376 (2d Cir. 1966). This formulation was substantially repeated three
years later in Checker Motors Corp. v. Chrysler Corp., 405 F.2d 319
(2d Cir. 1969), but with omission of the word “doubtful,” id. at 323.
Three years later, in Stark v. New York Stock Exchange, 466 F.2d 743
(2d Cir. 1972), we shortened the formulation to just “serious questions

233a
Appendix I

going to the merits.” Id. at 744. The following year, in Gulf & Western
Industries, Inc. v. Great Atlantic & Pacific Tea Co., 476 F.2d 687 (2d
Cir. 1973), we expanded that short version to “serious questions going
to the merits which warrant further investigation for trial.” Id. at 692.
Later that year, in Sonesta International Hotels Corp. v. Wellington
Associates, 483 F.2d 247 (2d Cir. 1973), there first appeared the
current version of the formulation, “sufficiently serious questions
going to the merits to make them a fair ground for litigation.” Id. at
250 (emphasis added). This formulation was repeated verbatim in a
series of cases. See Triebwasser & Katz v. American Telephone &
Telegraph Co., 535 F.2d 1356, 1358 (2d Cir. 1976); New York v. Nuclear
Regulatory Commission, 550 F.2d 745, 750 (2d Cir. 1977);Selchow &
Righter Co. v. McGraw-Hill Book Co., 580 F.2d 25, 27 (2d Cir. 1978);
Caulfield v. Board of Education, 583 F.2d 605, 610 (2d Cir. 1978);
Jackson Dairy, Inc. v. H.P. Hood & Sons, Inc., 596 F.2d 70, 72 (2d
Cir. 1979); see also William H. Mulligan, Foreword—Preliminary
Injunction in the Second Circuit, 43 Brook. L. Rev. 831 (primarily
considering requirement of irreparable injury).
Thereafter, this Court and district courts in this Circuit cited
Jackson Dairy and its formulation of the serious questions standard
innumerable times, as the citing references collected by Westlaw
indicate, until in Plaza Health Laboratories, Inc. v. Perales, 878
F.2d 577 (2d Cir. 1989), the formulation was rephrased to “sufficiently
serious questions going to the merits of its claims to make them fair
ground for litigation.” Id. at 580. Plaza Health Laboratories added
the phrase “of its claims,” thereby creating the grammatical query
considered in this footnote. Plaza Health Laboratories cited only
Sperry International Trade, Inc. v. Government of Israel, 670 F.2d
8 (2d Cir. 1982), and Jackson Dairy, but both of those opinions had
used the traditional formulation without the phrase “of its claims.”
See Sperry International Trade, 670 F. 2d at 10; Jackson Dairy,
596 F.2d at 71. A Westlaw search reveals that the Plaza Health
Laboratories formulation has been used by this Court just fifteen
times, and the Jackson Dairy formulation has been used 226 times.

234a
Appendix I
v. Honeywell International, Inc., 933 F.3d 173, 184 (2d
Cir. 2019) (quotation marks deleted); Jackson Dairy, Inc.
v. H.P. Hood & Sons, Inc., 596 F.2d 70, 72 (2d Cir. 1979).
The Committees contend that the likelihood-of-success
standard applies; Appellants contend that the seriousquestions standard applies. 20
In view of the evolution of, and this Court’s clear preference
for, the Jackson Dairy formulation, we will use it in this opinion,
thereby avoiding the grammatical query posed by the Plaza Health
Laboratories formulation. We will also use the article “a” before “fair
ground for litigation,” which Plaza Health Laboratories and some
of the opinions citing it omitted, but which is always included in the
opinions using the Jackson Dairy formulation.

20. In their reply brief, Appellants contend that “ the
Committees conceded [in the District Court] that the seriousquestions standard applies.” Reply Br. for Appellants at 2. They cite
footnote 28 of the Committees’ memorandum in opposition to the
motion for a preliminary injunction. We normally do not consider an
issue raised for the first time in a reply brief. See McBride v. BIC
Consumer Products Manufacturing Co., 583 F.3d 92, 96 (2d Cir.
2009). In any event, Appellants’ claim is without merit.
The Committees’ footnote states, “To the extent there is any
meaningful distinction between the Winter [v. Natural Resources
Defense Council, Inc., 555 U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed. 2d
249 (2008)] standard and the ‘serious questions’ formulation, that
has also been used by the Second Circuit in post-Winter cases,
see Citigroup Global Markets, Inc. v. VCG Special Opportunities
Master Fund Ltd., 598 F.3d 30, 36-38 (2d Cir. 2010), this Court
need not consider that nuance here because Mr. Trump has failed
to meet the heavy burden required under either standard.” Dist.
Ct. Dkt. No. 51, at 10 n.28 (citation omitted) (May 10, 2019). Stating
that the Lead Plaintiff had not met either the likelihood-of-success
standard or the serious questions standard is not a concession that
the lesser standard applies. Moreover, in the sentence of text to
which the footnote is appended, the Committees explicitly contend

235a
Appendix I
With respect to irreparable harm, a factor required
under either standard, Appellants contend that compliance
with the subpoenas will cause them such harm. In the
District Court, the Committees took the position that
whether compliance would cause Appellants irreparable
harm would depend on whether the Committees would
make public the documents obtained. 21 The District Court
ruled that compliance would cause irreparable harm
because “plaintiffs have an interest in keeping their records
private from everyone, including congresspersons,” and
“the committees have not committed one way or the other
to keeping plaintiffs’ records confidential from the public
once received.” J. App’x 122-23. We agree.
The issue therefore becomes whether Appellants
seeking a preliminary injunction had to meet (1) the more
rigorous standard of a likelihood of success on the merits
or (2) the less rigorous standard of sufficiently serious
questions going to the merits to make them a fair ground
for litigation plus a balance of hardships tipping decidedly
in their favor. 22
that the higher standard applies, stating that to obtain a preliminary
injunction “a plaintiff ‘must establish that he is likely to succeed on
the merits.’” Id. at 10 (quoting New York Progress & Protection PAC
v. Walsh, 733 F.3d 483, 486 (2d Cir. 2003)).

21. Counsel for the Committees said to the District Court,
“[J]ust because documents are turned over to Congress, that itself
is not irreparable injury. The question is if Congress was going to
disclose them. So just turning it over to Congress is not irreparable
injury.” J. App’x 111.
22. One opinion of this Court noted that “[b]ecause the moving
party must not only show that there are ‘serious questions’ going
to the merits, but must additionally establish that ‘the balance of

236a
Appendix I
With slightly different formulations, we have
repeatedly stated that the serious-questions standard
cannot be used to preliminarily enjoin governmental
action. See Plaza Health Laboratories, Inc. v. Perales,
878 F.2d 577, 580 (2d Cir. 1989) (applying more rigorous
likelihood-of-success standard in affirming denial of
preliminary injunction against “governmental action
taken in the public interest pursuant to a statutory
or regulatory scheme”); Union Carbide Agricultural
Products Co. v. Costle, 632 F.2d 1014, 1018 (2d Cir. 1980)
(same, with respect to “governmental action that is in
the public interest”); Medical Society of State of New
York v. Toia, 560 F.2d 535, 538 (2d Cir. 1977) (same,
where “interim relief [enjoining governmental action]
may adversely affect the public interest”); see also Able v.
United States, 44 F.3d 128, 131 (2d Cir. 1995) (“As long as
the action to be enjoined is taken pursuant to a statutory or
regulatory scheme, even government action with respect
to one litigant requires application of the ‘likelihood of
success’ standard.”).
hardships tips decidedly’ in its favor, its overall burden is no lighter
than the one it bears under the ‘likelihood of success’ standard.”
Citigroup Global Markets, Inc. v. VCG Special Opportunities Master
Fund Ltd., 598 F.3d 30, 35 (2d Cir. 2010) (citation omitted) (emphasis
in original). Although that might have been the situation on the facts
of that case, there can be no doubt, as we have repeatedly said, that
the likelihood-of-success standard is more rigorous than the seriousquestions standard. See, e.g., Central Rabbinical Congress of U.S.
& Canada v. New York City Dep’t of Health & Mental Hygiene, 763
F.3d 183, 192 (2d Cir. 2014) (likelihood-of-success standard “more
rigorous”); Red Earth LLC v. United States, 657 F.3d 138, 143 (2d
Cir. 2011) (same); Metropolitan Taxicab Board of Trade v. City of
New York, 615 F.3d 152, 156 (2d Cir. 2010) (same); County of Nassau
v. Leavitt, 524 F.3d 408, 414 (2d Cir. 2008) (same).

237a
Appendix I
Nevertheless, in two decisions, we have affirmed
preliminary injunctions against government action issued
using the less rigorous serious-questions standard. See
Haitian Centers Council, Inc. v. McNary, 969 F.2d 1326,
1342 (2d Cir. 1992) (officials of the Immigration and
Naturalization Service enjoined), judgment vacated as
moot sub nom. Sale v. Haitian Centers Council, Inc., 509
U.S. 918, 113 S. Ct. 3028, 125 L. Ed. 2d 716 (1993); Mitchell
v. Cuomo, 748 F.2d 804, 806-08 (2d Cir. 1984) (state prison
officials enjoined). We have sometimes affirmed decisions
that issued or denied preliminary injunctions against
government action using both standards. See Hudson
River Sloop Clearwater, Inc. v. Dep’t of Navy, 836 F.2d
760, 763 (2d Cir. 1988) (preliminary injunction denied
under both standards); Patton v. Dole, 806 F.2d 24, 28-30
(2d Cir. 1986) (preliminary injunction granted under both
standards); Patchogue Nursing Center v. Bowen, 797 F.2d
1137, 1141-42 (2d Cir. 1986) (preliminary injunction denied
under both standards).
Haitian Centers noted that “the ‘likelihood of success’
prong need not always be followed merely because a
movant seeks to enjoin government action.” 969 F.2d at
1339 (emphasis added). Then, building on the statement in
Plaza Health Laboratories that the less rigorous standard
may not be used to enjoin “governmental action taken in
the public interest pursuant to a statutory or regulatory
scheme,” 878 F.2d at 580 (emphasis added), Haitian
Centers noted that “no party has an exclusive claim on the
public interest,” 969 F.2d at 1339. That point influenced
our later decision in Time Warner Cable of New York
City L.P. v. Bloomberg L.P., 118 F.3d 917 (2d Cir. 1997),

238a
Appendix I
where, noting that “there are public interest concerns on
both sides” of the litigation, id. at 923, we said that the
serious questions standard “would be applicable,” id. at
924, even though we ultimately decided the case under
the likelihood of success standard, see id.
In Able, we noted that the government action
exception to the use of the serious-questions standard
“reflects the idea that governmental policies implemented
through legislation or regulations developed through
presumptively reasoned democratic processes are
entitled to a higher degree of deference and should not be
enjoined lightly,” 44 F.3d at 131, and that the likelihoodof-success standard was appropriate in that case “where
the full play of the democratic process involving both the
legislative and executive branches has produced a policy
in the name of the public interest embodied in a statute
and implementing regulations,” id. We also pointed out
that Haitian Centers had approved use of the seriousquestions standard to challenge action taken pursuant
to a “policy formulated solely by the executive branch.”
Id. Based on these statements, Appellants contend that
only the serious-questions standard applies to challenge
any action “taken pursuant to a policy formulated by one
branch.” Reply Br. for Appellants at 3 (quotation marks
and brackets omitted).
We think that argument fails by endeavoring to make
a requirement out of the sentences we have quoted from
Able. The fact that legislation developed by both branches
of the federal government is entitled to a higher degree of
deference does not mean that only such action is entitled

239a
Appendix I
to the deference reflected in the likelihood of success
standard. The Supreme Court has said that a high degree
of deference should be accorded to actions taken solely by
Congress, see United States v. Rumely, 345 U.S. 41, 46,
73 S. Ct. 543, 97 L. Ed. 770 (1953) (admonishing courts
to “tread warily” “[w]henever constitutional limits upon
the investigative power of Congress have to be drawn”),
and we have often approved application of the more
rigorous likelihood-of-success standard to enjoin action
taken by units of government with far less authority
than the combined force of the national Legislative and
Executive Branches. For example, we have ruled that
the more rigorous likelihood-of-success standard was
applicable when a preliminary injunction was sought to
prohibit a municipal agency from enforcing a regulation,
see Central Rabbinical Congress of U.S. and Canada v.
New York City Dep’t of Health & Mental Hygiene, 763
F.3d 183, 192 (2d Cir. 2014); to prohibit New York City’s
Taxi & Limousine Commission from enforcing changes to
lease rates, Metropolitan Taxicab Board of Trade v. City
of New York, 615 F.3d 152, 156 (2d Cir. 2010); to require
one branch of a state legislature to undo its expulsion of
a state senator, see Monserrate v. New York State Senate,
599 F.3d 148, 154 (2d Cir. 2010); to prohibit a town from
hiring police officers and firefighters, see NAACP v. Town
of East Haven, 70 F.3d 219, 223 (2d Cir. 1995); to prohibit
the Metropolitan Transit Authority from implementing
a staff reduction plan, see Molloy v. Metropolitan
Transportation Authority, 94 F.3d 808, 811 (2d Cir. 1996);
to prohibit the New York City Transit Authority from
increasing subway and bus fares, see New York Urban
League, Inc. v. State of New York, 71 F.3d 1031, 1036 n.7

240a
Appendix I
(2d Cir. 1995); to prohibit New York State’s Department
of Social Services from suspending a health-care services
provider from participating in the State’s medical
assistance program, see Plaza Health Laboratories, 878
F.2d at 580, and to prohibit two commissioners of New
York state agencies from enforcing provisions of state
law, see Medical Society, 560 F.2d at 538.
In dissent, Judge Livingston questions the significance
of decisions such as these on two grounds. First, she
suggests that some of them lacked sufficient analysis.
See Part. Diss. Op. at 44. However, with exceptions not
relevant here, panels of this Court are bound by the
holdings of prior panels, see, e.g., Lotes Co. v. Hon Hai
Precision Industry Co., 753 F.3d 395, 405 (2d Cir. 2014);
Gelman v. Ashcroft, 372 F.3d 495, 499 (2d Cir. 2004), and
those holdings are not to be disregarded by any claimed
insufficiency of an opinion’s analysis. Second, she suggests
that we might have used the more rigorous likelihoodof-success standard in these cases because of federalism
concerns. See Part. Diss. Op. at 45, n.28. However, none
of the eight decisions even hints that federalism concerns
influenced the use of the likelihood-of-success standard.
We have not previously had occasion to consider
whether enforcement of a congressional committee’s
subpoena qualifies as, or is sufficiently analogous to,
“governmental action taken in the public interest
pursuant to a statutory or regulatory scheme,” Plaza
Health Laboratories, 878 F.2d at 580, so as to preclude
application of the less rigorous serious questions standard.
Facing that issue, we conclude that those seeking to
preliminarily enjoin compliance with subpoenas issued by

241a
Appendix I
congressional committees exercising, as we conclude in
Part II(C), their constitutional and duly authorized power
to subpoena documents in aid of both regulatory oversight
and consideration of potential legislation must satisfy the
more rigorous likelihood-of-success standard. Surely such
committees should not be enjoined from accomplishing
their tasks under a less rigorous standard than we applied
to plaintiffs seeking to preliminarily enjoin state and local
units of government in Central Rabbinical Congress,
Metropolitan Taxicab Board of Trade, Monserrate,
Town of East Haven, Molloy, New York Urban League,
Plaza Health Medical Society, discussed above. None of
those cases involved implementation of a policy developed
through presumptively reasoned democratic processes
and resulting from the full play of the democratic process
involving both the legislative and executive branches,
which were the elements present in Able, 44 F.3d at 131.
Yet in all eight cases, we applied the likelihood of success
standard. Indeed, in Monserrate we applied the more
rigorous standard to a plaintiff seeking to preliminarily
enjoin action taken by just one body of a state legislature.
We will therefore apply the likelihood-of-success standard
to Appellants’ motion for a preliminary injunction in this
case.
Before leaving the issue of the applicable preliminary
injunction standard, we should reckon with the preliminary
injunction standard formulated in 2008 by the Supreme
Court in Winter v. Natural Resources Defense Council,
Inc., 555 U.S. 7, 20, 129 S. Ct. 365, 172 L. Ed. 2d 249 (2008):
“A plaintiff seeking a preliminary injunction must establish
that he is likely to succeed on the merits, that he is likely
to suffer irreparable harm in the absence of preliminary

242a
Appendix I
relief, that the balance of equities tips in his favor, and
that an injunction is in the public interest.” Id. at 20. This
formulation incorporates both the irreparable injury
requirement and the likelihood-of-success requirement
from the more rigorous standard we have been using,
includes from our less rigorous serious-questions
standard a balance of equities (similar to hardships) that
tips in favor of the plaintiff (although not including the
requirement of sufficiently serious questions going to the
merits to make them a fair ground for litigation nor the
requirement that the balance of hardships tips decidedly
in the plaintiff’s favor), and adds as a fourth requirement
that the injunction is in the public interest.
It is not clear whether the Supreme Court intended
courts to require these four components of the Winter
standard in all preliminary injunction cases. Winter
concerned military operations affecting the national
security, testing for submarine detection, and two of
the three cases cited to support the Winter formulation
also concerned national security issues, Munaf v. Geren,
553 U.S. 674, 128 S. Ct. 2207, 171 L. Ed. 2d 1 (2008)
(transferring U.S. military prisoners in a foreign country
to that country’s government), and Weinberger v. Romero
Barcelo, 456 U.S. 305, 102 S. Ct. 1798, 72 L. Ed. 2d 91
(1982) (training the Navy’s bomber pilots). The third case,
Amoco Production Co. v. Village of Gambell, 480 U.S.
531, 107 S. Ct. 1396, 94 L. Ed. 2d 542 (1987), concerned
a matter unrelated to national security—drilling for oil
and natural gas. 23
23. Uncertainty as to use of the Winter formulation for all
preliminary injunctions remained after the Supreme Court’s decision

243a
Appendix I
In any event, two years after the Supreme Court’s
decision in Winter, our Court explained why we did not
believe that the Supreme Court had precluded our use
of the two preliminary injunction standards that we had
used for five decades. See Citigroup Global Markets, Inc.
v. VCG Special Opportunities Master Fund Ltd., 598
F.3d 30, 35-38 (2d Cir. 2010). However, Citigroup shed
no light on which of those standards was applicable to
plaintiffs seeking to preliminarily enjoin governmental
action. That case involved a motion by a brokerage firm
to preliminarily enjoin a hedge fund from pursuing an
arbitration. See id. at 32.
the next year in Nken v. Holder, 556 U.S. 418, 129 S. Ct. 1749, 173
L. Ed. 2d 550 (2009). In language similar to that used in Winter,
the Court identified the four factors applicable to the grant of a stay
pending appeal—“(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2) whether the
applicant will be irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure the other parties
interested in the proceeding; and (4) where the public interest lies.”
Id. at 434 (quotation marks omitted). The Court then stated that
“[t]here is substantial overlap between these [four factors] and the
factors governing preliminary injunctions,” although the two are
not “one and the same.” Id.
In Winter, the first factor did not include the words “strong
showing,” 555 U.S. at 20; the second factor used the word “likely”
to modify “suffer irreparable harm, id.; the third factor was
“the balance of equities tips in [the plaintiff’s] favor,” id.; and the
fourth factor was that an injunction “is in the public interest,” id.
Unlike Winter, which had set out four factors that an applicant for
a preliminary injunction “must establish,” id., Nken said that the
applicable legal principles “have been distilled into consideration
of four factors.” 556 U.S. at 434 (emphasis added).

244a
Appendix I
Although we have concluded that the likelihood-ofsuccess standard applies in this case and have determined
that Appellants have established irreparable injury, a
requirement common to both of our preliminary injunction
standards and the Supreme Court’s Winter formulation,
we will proceed to consider not only whether Appellants
have met the governing likelihood-of-success standard but
also whether they have satisfied the other requirements in
one or more of these three standards: sufficiently serious
questions going to the merits of their claims to make them
fair ground for litigation, a balance of hardships tipping
decidedly in their favor, and the public interest favoring
an injunction. We turn first to the merits of their statutory
and constitutional claims in order to determine what we
regard as the critical issue: likelihood of success.
II. Likelihood of Success
A.

Statutory Claim—RFPA

Appellants contend that the subpoenas are invalid
for failure of the Committees to comply with the Right
to Financial Privacy Act (“RFPA” or “Act”), 12 U.S.C.
§§ 3401-3423. RFPA prohibits a financial institution’s
disclosure of a customer’s financial records to “any
Government authority” except in accordance with the
Act’s procedural requirements. § 3403(a). The Committees
acknowledge noncompliance with those requirements, but
contend that RFPA does not apply to them because they
are not a “Government authority” within the meaning of
section 3403(a). Because the Act defines “Government
authority” to mean “any agency or department of the

245a
Appendix I
United States, or any officer, employee, or agent thereof,”
§ 3401(3), the precise statutory issue is whether Congress
or one of its committees is an “agency or department of
the United States.”
We begin with the plain meaning of “agency or
department” at the time RFPA was enacted in 1978.
Appellants do not argue that “agency” could possibly
refer to Congress; the sole dispute is over the word
“department.” Appellants contend that “department”
is used in RFPA to mean any of the three branches of
government. The Committees, on the other hand, contend
that the word is used to mean some component of the
Executive Branch.
Contemporary dictionaries support the Committees’
interpretation. See Webster’s Third New International
Dictionar y (1971) (def ining “department” as “an
administrative division or branch of a national or
municipal government”) (emphasis added); Black’s Law
Dictionary (5th ed. 1979) (defining “department” as
“[o]ne of the major administrative divisions of the
executive branch of the government usually headed by
an officer of cabinet rank; e.g., Department of State”)
(emphasis added).
Moreover, other contextual clues in RFPA indicate
that neither Congress nor its committees are an “agency
or department of the United States” within the meaning
of RFPA, and therefore Congress did not subject itself
or its committees to the Act. Section 3408 permits a
“Government authority” to request financial records

246a
Appendix I
“pursuant to a formal written request only if . . . the
request is authorized by regulations promulgated by the
head of the agency or department.” § 3408(2). Congress
does not promulgate regulations, and its leadership and
that of its committees are not considered the “head” of an
“agency or department.” The Supreme Court has stated
that “[t]he term ‘head of a Department’ means . . . the
Secretary in charge of a great division of the [E]xecutive
[B]ranch of the government, like the State, Treasury, and
War, who is a member of the Cabinet.” Burnap v. United
States, 252 U.S. 512, 515, 40 S. Ct. 374, 64 L. Ed. 692, 55
Ct. Cl. 516 (1920); accord Freytag v. Commissioner of
Internal Revenue, 501 U.S. 868, 886, 111 S. Ct. 2631, 115
L. Ed. 2d 764 (1991).
The several mechanisms for obtaining financial
records all require that the records sought are “relevant
to a legitimate law enforcement inquiry,” 24 § 3405(1)
(administrative summons or subpoena), § 3407(1) (judicial
subpoena), § 3408(3) (formal written request), but, as
Appellants correctly point out and the Committees agree,
Congress cannot exercise “any of the powers of law
enforcement” because “those powers are assigned under
our Constitution to the Executive and the Judiciary,”
Quinn v. United States, 349 U.S. 155, 161, 75 S. Ct. 668,
99 L. Ed. 964 (1955).

24. RFPA defines “law enforcement inquiry” as “a lawful
investigation or official proceeding inquiring into a violation of, or
failure to comply with, any criminal or civil statute or any regulation,
rule, or order issued pursuant thereto.” 12 U.S.C. § 3401(8).

247a
Appendix I
RFPA directs the Office of Personnel Management
(“OPM”) to determine whether “disciplinary action is
warranted against [an] agent or employee” of “any agency
or department” found to have willfully violated the Act.
§ 3417(b). However, OPM is “the lead personnel agency for
civilian employees in the [E]xecutive [B]ranch.” United
States Dep’t of Air Force v. Federal Labor Relations
Authority, 952 F.2d 446, 448, 293 U.S. App. D.C. 90
(D.C. Cir. 1991). It is highly unlikely that Congress would
have directed OPM to take disciplinary action against
congressional staff.
RFPA provides civil penalties, including punitive
damages, for any “agency or department” that violates the
Act’s requirements. § 3417(a). It is also highly unlikely that
Congress would have subjected itself to such penalties,
especially in the absence of a clear indication of an intent
to do so.
Although no one of these provisions alone conclusively
establishes that RFPA does not apply to Congress, in the
aggregate they provide persuasive textual support for that
reading of the Act. This conclusion is strongly reinforced
by the Act’s legislative history. A draft bill submitted
by the Departments of Justice and the Treasury would
have explicitly covered access to financial records by
Congress, and distinguished Congress from “any agency
or department of the United States.” 25
25. Electronic Funds Transfer & Financial Privacy: Hearings
on S. 2096, S. 2293, & S. 1460 Before the Subcomm. on Financial
Institutions of the S. Comm. on Banking, Housing, & Urban Affairs,
95th Cong. 397 (1978) (hereinafter “Hearings”).

248a
Appendix I
Hearings includes a draft bill, dated May 17, 1978, and referred
to as “Title XI—Right to Financial Privacy,” which is identified
by a note stating, “This Draft represents the combined views of
the Departments of Justice and the Treasury, subject to further
revision.” Hearings at 397 n.*. The definition section of that bill
provides:

“‘[G]overnment authority’ means the Congress of the
United States, or any agency or department of the
United States or of a State or political subdivision, or
any officer, employee or agent of any of the foregoing.”
Hearings at 397 (emphasis added) (explaining definitional
provision, § 1101(3)). This provision not only explicitly made the bill
applicable to Congress, but it also reflected the view of Justice and
the Treasury that “agency or department of the United States”
did not include Congress.
Hearings also contains a section by section analysis of
the Justice Treasury draft bill submitted on May 17, 1978. See
Hearings at 365 & n.*. That analysis includes the following
explanation of the coverage of the draft bill:
“The ‘government authorities’ whose actions are
restricted by the bill include any agency or department
of the United States or any State or political
subdivision, or any of their officers, employees, or
agents. The Congress is also covered, since it may
use financial records in its investigations to which the
same privacy rights should adhere.”
Hearings at 366 (emphasis added) (explaining definitional
provision).
As explained by then Deputy Attorney General Benjamin R.
Civiletti, “[O]ur proposal would extend these important procedures
and privacy rights to cover investigations by the Legislative as
well as the Executive Branch.” Hearings at 189, 194.

249a
Appendix I
The rejection of this provision of the Justice Treasury
proposal by omitting Congress from the enacted definition
of “government authority” is strong evidence of a
deliberate decision by Congress not to apply the Act to
itself. Although the failure of Congress to enact is often an
unreliable indication of congressional intent, see Brecht v.
Abrahamson, 507 U.S. 619, 632, 113 S. Ct. 1710, 123 L. Ed.
2d 353 (1993) (“As a general matter, we are reluctant to
draw inferences from Congress’ failure to act.”) (quotation
marks omitted), the omission of pertinent language from a
bill being considered by Congress is far more probative of
such intent, especially when the omission is from a draft
bill submitted by the Department of Justice, a principal
source of proposed legislation.
Appellants present two arguments that Congress
and its committees are covered by RFPA’s definitional
Hear ings also includes an analysis prepared by the
Congressional Research Service of the Library of Congress,
comparing what is called “Draft Proposed by Justice Dept.” with
S. 14 and S. 2096. Hearings at 161. That analysis points out that the
scope of the Justice Department draft protects financial records
from unauthorized access “by Congress, Federal or State agents
and agencies,” whereas S. 14 and S. 2096 protect such records
from unauthorized access “by Federal agents or agencies.” Id.
The draft Justice-Treasury bill, along with its section-bysection analysis, are also in the record of a hearing held by a
House of Representatives subcommittee the following week, where
Civiletti gave similar testimony. See Right to Privacy Proposals
of the Privacy Protection Study Commission: Hearings on H.R.
10076 Before the Subcomm. on Government Information &
Individual Rights of the H. Comm. on Government Operations,
95th Cong. 256, 274 (1978).

250a
Appendix I
phrase “agency or department.” First, they point out
that in 1955 the Supreme Court ruled a false statement
made by a former member of Congress to the Disbursing
Office of the House of Representatives was a violation of
18 U.S.C. § 1001 because “department,” as used in section
1001, “was meant to describe the executive, legislative
and judicial branches of the Government.” United States
v. Bramblett, 348 U.S. 503, 509, 75 S. Ct. 504, 99 L. Ed.
594 (1955) (emphasis added).
The Committees respond that an interpretation of
“department” in section 1001 is not an authoritative basis
for interpreting “department” in RFPA and that the
Supreme Court overruled Bramblett in Hubbard v. United
States, 514 U.S. 695, 715, 115 S. Ct. 1754, 131 L. Ed. 2d 779
(1995), after characterizing its reading of “department”
as “seriously flawed,” id. at 702. To this latter point,
Appellants point out that courts “assume that Congress
is aware of existing law when it passes legislation,” Miles
v. Apex Marine Corp., 498 U.S. 19, 32, 111 S. Ct. 317, 112
L. Ed. 2d 275 (1990), and “was aware of . . . the judicial
background against which it was legislating,” DeKalb
County Pension Fund v. Transocean Ltd., 817 F.3d 393,
409-10 (2d Cir. 2016) (“DeKalb”) (brackets and quotation
marks omitted), and that the Congress that enacted RFPA
in 1978 is assumed to be aware of Bramblett and obviously
did not legislate in light of Hubbard, decided in 1995.
We acknowledge the assumption that Congress
legislates with awareness of “existing law,” Miles, 498
U.S. at 32, and the relevant “judicial background,”DeKalb,
817 F.3d at 409. The validity of that assumption, however,

251a
Appendix I
depends in large part on the context in which it is invoked.
Miles applied the assumption interpreting the damages
provision of the Jones Act, 46 U.S.C. app. § 688. Noting
that the Jones Act incorporated the recovery provisions
of the older Federal Employers’ Liability Act (“FELA”),
the Supreme Court was willing to assume that Congress
likely intended to adopt for the Jones Act the judicial gloss
that the Court had placed on the damages provision of
FELA, limiting it to pecuniary loss. See Miles, 498 U.S.
at 32. “When Congress passed the Jones Act, the [Court’s]
gloss on FELA, and the hoary tradition behind it, were
well established. Incorporating FELA unaltered into the
Jones Act, Congress must have intended to incorporate
the pecuniary limitation on damages as well.” Id.
DeKalb applied the assumption more elaborately in
determining which statute of repose applied to a suit under
section 14(a) of the Securities Exchange Act of 1934, 15
U.S.C. § 78n(a). We had previously applied a three year
limitations period in Ceres Partners v. GEL Associates,
918 F.2d 349 (2d Cir. 1990). Thereafter, Congress enacted
the Sarbanes Oxley Act of 2002, extending to five years
the limitations period for some implied private causes of
action, but not the sort of action implied by section 14(a).
See DeKalb, 817 F.3d at 398. We concluded:
Congress must have known that, by extending
only the statute of repose applicable to private
rights of action that involve a claim of fraud,
deceit, manipulation, or contrivance, the
statutes of repose applicable to Section 14(a)
would remain intact. And from this knowledge,

252a
Appendix I
we conclude that Congress affirmatively
intended to preserve them. We therefore hold
that the same three-year statutes of repose that
we applied to Section 14 in Ceres . . . still apply
to Section 14(a) today.
Id. at 409-10 (quotation marks, brackets, and footnotes
omitted).
We encounter no circumstances comparable to Miles
or DeKalb in the pending appeal. Whatever force might
be given to the assumption that Congress enacted RFPA
with awareness of Bramblett is thoroughly undermined
by the clear indicators to the contrary from the text and
legislative history we have recounted. 26
The second argument of Appellants reminds us that
in an earlier time, the word “department” was famously
used to refer to what is now called a “branch” of the
federal government. “It is emphatically the province and
duty of the judicial department to say what the law is.”
Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177, 2 L. Ed.
60 (1803) (Little, Brown & Co. 1855);27 see also James
26. Even if Congress had Bramblett in mind, that decision
based its interpretation of “department” on the “development,
scope and purpose of” the statute at issue in that case. 348 U.S. at
509. RFPA does not share any of the same historical development
as section 1001, and because the Court’s decision was not based on
the text of that section, there is no reason to think that Congress,
when enacting RFPA, believed that Bramblett’s interpretation would
extend to other uses of the word “department.”
27. I include the publisher in citations to decisions in the
nominative reports because of slight variations among the versions

253a
Appendix I
Madison, Speech in the First Congress (June 17, 1789),
in 5 The Writings of James Madison 395, 398 (Gaillard
Hunt ed., 1904) (referring to the “three great departments
of Government”). Hubbard, although not known to the
Congress enacting RFPA, provides important guidance
for us when the Supreme Court states that “while we
have occasionally spoken of the three branches of our
Government, including the Judiciary, as ‘departments,’”
Hubbard, 514 U.S. at 699 (brackets omitted) (citing
Mississippi v. Johnson, 71 U.S. (4 Wall.) 475, 500, 18 L.
Ed. 437 (1867)), “that locution is not an ordinary one.
Far more common is the use of ‘department’ to refer to a
component of the Executive Branch,” id.
Considering all of the parties’ arguments, 28 we
conclude that RFPA does not apply to Congress.
of 19th century publishers. See Jon O. Newman, Citators Beware:
Stylistic Variations in Different Publishers’ Versions of Early
Supreme Court Opinions, 26 J. Sup. Ct. Hist. 1 (2001).

28. Each side makes opposing arguments based on section
3412(d) of RFPA, which provides: “Nothing in this chapter shall
authorize the withholding of information by any officer or employee
of a supervisory agency [defined at section 3401(7)] from a duly
authorized committee or subcommittee of the Congress.” Appellants
contend that “[i]f congressional subpoenas were never intended to
come within the statute’s scope, there would be no reason to include
this provision.” Br. for Appellants at 42. The Committees respond
that this provision concerns transfers of documents pursuant to
section 3412(a), that it makes clear that the requirements applicable
when an agency or department obtains documents from a financial
institution also apply to transfers to another agency or department,
and that “Congress emphasized, however, that these transfer
provisions—like RFPA’s other requirements—did not apply to
Congress.” Br. for Committees at 53.

254a
Appendix I
B. Statutory Claim—26 U.S.C. § 6103
The request for tax returns of named individuals
and entities in the Deutsche Bank Subpoenas encounters
a possible statutory claim under 26 U.S.C. § 6103. See
Deutsche Bank Subpoenas ¶ 1(vi)(e)(7), J. App’x 39.
Because of that request and because the parties had
not said anything about tax returns in their briefs, we
asked the Banks at oral argument whether they had in
their possession tax returns within the coverage of the
subpoenas. The Banks offered reasons why they could not
then respond to the question.
On August 26, we ordered the Banks to inform the
Court whether either one has in its possession any tax
returns of the individuals or entities named in paragraph
Each side also makes opposing arguments based on section
3413(j) of RFPA, which provides: “This chapter shall not apply when
financial records are sought by the Government Accountability
Office [‘GAO’] pursuant to an authorized proceeding, investigation,
examination or audit directed at a government authority.”
Appellants contend that, because GAO is within the Legislative
Branch, “if . . . RFPA is limited to the [E]xecutive [B]ranch,
then there was no need to provide any exemption for the GAO.”
Br. for Appellants at 43. The Committees respond that this
provision “differentiates GAO from ‘a government authority’ and
thus supports the opposite conclusion: GAO may obtain financial
records in its proceedings or investigations that are ‘directed at a
government authority.’” Br. for Committees at 53 n.24 (emphasis
in original).
We deem none of these arguments persuasive, especially
in light of the textual and legislative history support for our
conclusion, explained above, that RFPA does not apply to Congress.

255a
Appendix I
1 of the subpoenas received from the Committees. 29 On
August 27, Deutsche Bank submitted a redacted letter
stating that it has in its possession some tax returns
responsive to the subpoenas, with the names of the
taxpayers redacted, 30 and submitted under seal an
unredacted letter identifying the taxpayers.31 On the same
day, Capital One submitted a letter stating that it did not
possess any tax returns responsive to the subpoena it
received. 32
Deutsche Bank’s filing of an unredacted letter under
seal precipitated motions by various news organizations
for leave to intervene and to seek unsealing of the
unredacted letter. 33 On Sept. 18, we ordered the parties to
respond to those motions. 34 On Sept. 27, the parties filed
29. No. 19-1540, Dkt. No. 156 (Aug. 26, 2019). On August 27,
we entered an Order informing the Banks that if they filed an
unredacted letter under seal, a redacted version of the letter served
on the Committees should be served on Appellants and filed on the
public docket. Id., Dkt. No. 157 (Aug. 27, 2019).
30. Id., Dkt. No. 161 (Aug. 27, 2019).
31. See Letter from Raphael A. Prober, counsel for Deutsche
Bank, to Clerk of Court, Second Circuit Court of Appeals, No. 191540, Dkt. No. 160 (Aug. 27, 2019).
32. See Letter from James A. Murphy, counsel for Capital One,
to Clerk of Court, Second Circuit Court of Appeals, No. 19-1540,
Dkt. No. 165 (Aug. 27, 2019).
33. No. 19-1540, Dkt. Nos. 168 (Sept. 11, 2019), 181 (Sept. 18,
2019).
34. Id., Dkt. No. 180 (Sept. 18, 2019).

256a
Appendix I
their responses. 35 On Oct. 4, the Media Coalition filed a
reply memorandum. 36 On Oct. 10, we granted the motions
to intervene and denied the motions to unseal. See Trump
v. Deutsche Bank, 940 F.3d 146, 2019 WL 5075948 (2d
Cir. 2019).
Also at oral argument, we asked the Committees
whether their subpoenas were in compliance with 26
U.S.C. § 6103(f), which imposes some limits on disclosure
of tax returns. The Committees partially responded
and offered to submit a fuller explanation by letter. On
August 27, the Committees submitted a letter stating
that the application of section 6103 depends on how the
Banks obtained the returns. 37 On August 29, Appellants
submitted a letter stating, among other things, that the
Committees have no authority to request the tax returns. 38
Section 6103(a) of the Internal Revenue Code provides:
“(a) General rule.—Returns and return information shall
be confidential . . . .” Sections 6103(c)-(o) provide several
exceptions to the general requirement of confidentiality.
Subsection 6103(f)(3) makes a specific exception for
committees of Congress. It provides:
35. Id., Dkt. Nos. 184, 186, 188, 190 (Sept. 27, 2019).
36. Id., Dkt. No. 193 (Oct. 4, 2019).
37. See Letter from Douglas N. Letter, General Counsel, U.S.
House of Representatives, to Clerk of Court, Second Circuit Court
of Appeals, No. 19-1540, Dkt. No. 158 (Aug. 27, 2019).
38. See Letter from Patrick Strawbridge, counsel for President
Donald J. Trump, to Clerk of Court, Second Circuit Court of Appeals,
No. 19-1540, Dkt. No. 166 (Aug. 29, 2019).

257a
Appendix I
“(3) Other committees.—Pursuant to an action
by, and upon written request by the chairman
of, a committee of the Senate or the House
of Representatives (other than a committee
specified in paragraph (1)) specially authorized
to inspect any return or return information
by a resolution of the Senate or the House
of Representatives . . . the Secretary shall
furnish such committee, or a duly authorized
and designated subcommittee thereof, sitting
in closed executive session, with any return
or return information which such resolution
authorizes the committee or subcommittee
to inspect. Any resolution described in this
paragraph shall specify the purpose for which
the return or return information is to be
furnished and that such information cannot
reasonably be obtained from any other source.”
26 U.S.C. § 6103(f)(3). 39
Thus, Congress has protected the confidentiality
of income tax returns, subject to several exceptions,
and specified how such returns may be obtained by a
committee of Congress.

39. The committees specified in paragraph (1) of section 6103(f)
are the House Committee on Ways and Means, the Senate Committee
on Finance, and the Joint Committee on Taxation. § 6103(f)(1). The
Code defines “Secretary” as “the Secretary of the Treasury or his
delegate.” § 7701(a)(11)(B).

258a
Appendix I
Appellants contend that disclosure is prohibited (or, as
they phrase it, that the Committees “have no jurisdiction
to request tax returns”40) because the requirements of
the subsection have not been met. They point out that the
House has not passed a resolution specifically authorizing
the Committees to inspect tax returns, specifying the
purpose for which the returns are sought, or specifying
that the information cannot reasonably be obtained from
other sources. They also suggest that we need not resolve
the issue now, but should leave it for resolution on remand.
Because the Deutsche Bank Subpoenas require
production of tax returns and the motion for a preliminary
injunction to prohibit compliance has been denied by the
District Court, the absence of a ruling on production of
the returns risks their disclosure to the Committees. We
therefore believe that some ruling must be made.
The Committees do not dispute that they have not
met the requirements of section 6103(f), but they contend
that the provision does not apply to any tax returns in the
possession of Deutsche Bank unless the bank obtained
them from the IRS.
The text of section 6103 does not unambiguously
resolve the dispute. In addition to citing the requirements
of section 6103(f), Appellants rely on section 6103(a). It
states that tax returns “shall be confidential,” and that
“except as authorized by [the Internal Revenue Code]”
40. See Letter from Patrick Strawbridge, counsel for President
Donald J. Trump, to Clerk of Court, Second Circuit Court of Appeals
at 2, No. 19-1540, Dkt. No. 166 (Aug. 29, 2019).

259a
Appendix I
no person within three specified categories “shall disclose
any return . . . obtained by him . . . in connection with his
service” within any of the three categories. These include
employees of the United States, employees of a state or
various local agencies, and those who obtained access to a
return pursuant to various subsections of section 6103(a).
§ 6103(a)(1)-(3).
If the introductory clause of section 6103(a) is a
blanket protection of the confidentiality of tax returns,
then it prohibits disclosure of the returns in the possession
of Deutsche Bank. But if that clause is to be read in
conjunction with the rest of section 6103(a), then the
clause means only that the returns are protected from
disclosure by anyone within the three categories, and it
does not prohibit disclosure in the pending appeal because
Deutsche Bank is not within any of those categories.
Arguably limiting the coverage of section 6103(a) is section
6103(b). It defines “return” “[f]or purposes of this section”
as a return “which is filed with the Secretary.” § 6103(b)
(1). That provision could mean either the document or
digital file in the possession of the Secretary (including
the IRS), which Deutsche Bank does not have, or a copy
of a paper or digitized return that has been submitted to
the Secretary, which Deutsche Bank does have.
Another provision of section 6103 also creates
ambiguity as to its meaning. Section 6103(f) states that a
congressional committee may obtain a tax return “from
the Secretary” pursuant to a House resolution meeting
specified requirements, as set forth above. This provision
could mean either that the only way a committee may

260a
Appendix I
obtain a tax return is to seek it from the Secretary and
comply with the requirements of section 6103(f), or it
could mean that those requirements apply only when a
committee seeks a return from the Secretary and do not
apply when a committee seeks a return from anyone else,
such as Deutsche Bank.
Case law on these possible interpretations has evoked
various rulings and statements. The Seventh Circuit has
ruled that the introductory clause of section 6103(a) is not
a blanket protection of confidentiality, but protects only
against disclosure by those described in subsections 6103(a)
(1)-(3). Hrubec v. National Railroad Passenger Corp., 49
F.3d 1269 (7th Cir. 1995). “The ban on disclosure appears
in the last, dangling, unnumbered portion of § 6103(a), not
in the introductory phrase, and the ban is linked to the
scope of identified subsections.” Id. at 1270-71. Hrubec
found no violation of section 6103 by Amtrak employees
who obtained copies of other employees’ tax returns
from the IRS, but not as a result of a request covered by
any of the categories identified in section 6103(a).41 The
Ninth Circuit has also given a narrow interpretation to
section 6103. In Stokwitz v. United States, 831 F.2d 893
(9th Cir. 1987), it ruled that “Section 6103 establishes a
comprehensive scheme for controlling the release by the
IRS of information received from taxpayers to discrete
identified parties.” Id. at 895 (emphasis in original); accord
Lomont v. O’Neill, 285 F.3d 9, 14-15, 350 U.S. App. D.C.
357 (D.C. Cir. 2002); Baskin v. United States, 135 F.3d
41. The returns had been obtained by someone’s forgery of an
application for them. See Hrubec v. National Railroad Passenger
Corp., 778 F. Supp. 1431, 1433 (N.D. Ill. 1991).

261a
Appendix I
338, 342 (5th Cir. 1998); Ryan v. United States, 74 F.3d
1161, 1163 (11th Cir. 1996). Stokwitz found no violation of
section 6103 where employees of the United States Navy
seized from a taxpayer’s files copies of tax returns, even
though the employees were covered by subsection 6103(a)
(1). The Court relied on the definition of “tax return”
in section 6103(b),see id. at 895-96 (“[T]he statutory
definitions of ‘return’ and ‘return information’ to which
the entire statute relates, confine the statute’s coverage
to information that is passed through the IRS.”), and
noted that implementing “Treasury regulations . . . are
exclusively concerned with disclosure by the IRS,” id. at
896 (citing Treas. Regs. §§ 301.6103(a)-1 to (p)(7)-1 (1986)).
Other courts have expressed different views. In
National Treasury Employees Union v. Federal Labor
Relations Authority, 791 F.2d 183, 253 U.S. App. D.C.
12 (D.C. Cir. 1986), the D.C. Circuit referred to section
6103(a) as a “general rule that ‘returns and return
information shall be confidential.’” Id. at 183 (brackets
omitted) (quoting § 6103(a)). The Court’s main point,
however, was that the disclosure, which had been made
by IRS employees, had not been made in compliance
with subsection 6103(l)(4)(A), and even that point, as well
as the “general rule” statement, were dicta because the
Court’s holding was that the employees should not have
been disciplined.
A district court in our Circuit has stated that a board
licensing plumbers violated section 6103 by making
disclosure of a license applicant’s tax forms a condition
of obtaining a license. See Russell v. Board of Plumbing

262a
Appendix I
Examiners, 74 F. Supp. 2d 339 (S.D.N.Y. 1999) (“The
Board being unable to get the copies directly from the
Treasury should not be permitted to do so indirectly by
coercion . . . .”), aff’d, 1 F. App’x 38 (2d Cir. 2001). The
District Court’s view, however, was at most an alternate
holding on an issue that the Court acknowledged had not
been briefed, see id. at 348, and our affirmance in a nonprecedential summary order made no reference to the
issue, which had not been asserted as a ground for review,
see Br. & Reply Br. for Appellants, Russell v. Board of
Plumbing Examiners, 1 F. App’x 38 (2d Cir. 2001) (No.
99-9532).
We agree with the Seventh Circuit that section 6103(a)
limits its prohibition against disclosure of tax returns to
returns requested from the three categories of persons
identified in subsections 6103(a)(1)-(3). There remains the
possibility, however, that subsection 6103(f)(3), applicable
to requests for tax returns by congressional committees
other than those concerned explicitly with taxes, provides
the exclusive means for such committees to obtain returns.
The text of subsection 6103(f)(3) refers to committee
requests “to the Secretary.” We agree with the Ninth
Circuit that the plain language of the provision reflects
Congress’s purpose in enacting section 6103, which “was
to curtail loose disclosure practices by the IRS.” Stokwitz,
831 F.2d at 894. Because there is no claim by Appellants
that Deutsche Bank obtained from the IRS any returns
requested by the Committees, neither subsection 6103(f)
(3), nor section 6103 as a whole, precludes their production
to the Committees.

263a
Appendix I
Appellants also contend that production of tax returns
is prohibited by the RFPA and the Gramm Leach Bliley
Act, Pub. L. No. 106-102, 113 Stat. 1338 (1999). As we
have ruled, however, RFPA does not apply to Congress.
Gramm-Leach-Bliley is also no bar to production of tax
returns because it explicitly permits disclosure of personal
information “to comply with a . . . subpoena . . . by Federal
. . . authorities.” 15 U.S.C. § 6802(e)(8).
With respect to tax returns, the oral argument of this
appeal precipitated further procedural developments,
detailed in Trump v. Deutsche Bank, 940 F.3d 146,
2019 WL 5075948 (2d Cir. 2019) (order granting news
organizations’ motions to intervene and denying their
motions to unseal). Ultimately, Deutsche Bank informed
us in an August 27, 2019, letter42 that it had two tax returns
within the coverage of the Committees’ subpoenas and
submitted the names of the two taxpayers under seal.
If any tax returns in the possession of Deutsche
Bank were those of the Lead Plaintiff, we would have
to consider whether their production to the Committees
might encounter the objection that it would distract the
Chief Executive in the performance of official duties. That
issue need not be resolved, however, because Deutsche
Bank informed us, in its response to the motions of news
organizations to unseal Deutsche Bank’s letter of August
27, that the only tax returns in its possession within the
42. See Letter from Letter from Raphael A. Prober to Clerk
of Court, Second Circuit Court of Appeals, No. 19-1540, Dkt. No.
161 (redacted version) (Aug. 27, 2019); id., Dkt. No. 165 (unredacted
version filed under seal) (Aug. 27, 2019).

264a
Appendix I
coverage of the subpoenas are not those of the Lead
Plaintiff.
Disclosure of tax returns in the possession of Deutsche
Bank in response to the Committees’ subpoenas will not
violate section 6103, and the fact that, when requested
by news organizations, we did not unseal the names of
the taxpayers whose returns are in the possession of
Deutsche Bank is not a reason to exclude those returns
from Deutsche Bank’s compliance with the subpoenas.
C.

Constitutional Claim

Appellants’ constitutional claim does not assert any
constitutionally based privilege that might protect their
financial records from production by the Banks to the
Committees, such as the privileges secured in the Bill
of Rights. See Watkins, 354 U.S. at 198 (recognizing
“the restraints of the Bill of Rights upon congressional
investigations”). Instead, Appellants contend that the
Constitution places limits on the power of Congress to
investigate, that the Committees’ subpoenas to the Banks
exceed those limits, and that they have a right to prevent
disclosure of documents in response to subpoenas beyond
Congress’s power of investigation.
The subpoenas are surely broad in scope. Illustrating
the scope, Appellants specifically call our attention to
the following requests in the Committees’ subpoenas to
Deutsche Bank for the following:

265a
Appendix I
“any document related to account applications,
opening documents, KYC [know your customer],
due diligence, and closing documents”;
“any monthly or other per iodic account
statement”;
“any document related to any domestic or
international transfer of funds in the amount
of $10,000 or more”;
“any summary or analysis of domestic or
international account deposits, withdrawals,
and transfers”;
“any document related to monitoring for,
identifying, or evaluating possible suspicious
activity”;
“any document related to any investment,
bond offering, line of credit, loan, mortgage,
syndication, credit or loan restructuring, or any
other credit arrangement.”
Deutsche Bank Subpoenas ¶¶ 1(i)-(vi), J. App’x 37-38.
The documents sought are those of the Lead Plaintiff
and his three oldest children, and “members of their
immediate family,” defined to include child, daughterin-law, and son-in-law, among others, and a number of
entities affiliated with the Lead Plaintiff and the Trump
Organization. Id. at 37 ¶ 1, 47 ¶ 5. The documents concern

266a
Appendix I
financial transactions of the named individuals and their
affiliated entities. The time frame for which most of the
documents are sought is July 19, 2016, to the present for
the Capital One subpoena and January 1, 2010, to the
present for the Deutsche Bank subpoenas, but there is
no time limit for two categories of documents sought by
all three subpoenas. See id. at 37, intro., 52, intro. These
categories include documents related to account openings,
the names of those with interests in identified accounts,
and financial ties between the named individuals and
entities and any foreign individual, entity, or government.
See id. at 37 ¶ 1(i), 41-42 ¶ 6(i), 52 ¶¶ 1(i), (ii).
Constitutional investigative authority of Congress.
An important line of Supreme Court decisions, usually
tracing back to McGrain v. Daugherty, 273 U.S. 135, 47 S.
Ct. 319, 71 L. Ed. 580 (1927), has recognized a broad power
of Congress and its committees to obtain information
in aid of its legislative authority under Article I of the
Constitution. See Eastland v. United States Servicemen’s
Fund, 421 U.S. 491, 504, 95 S. Ct. 1813, 44 L. Ed. 2d 324
(1975); Barenblatt, 360 U.S. at 111; Watkins, 354 U.S. at
187; Quinn, 349 U.S. at 160; Sinclair v. United States,
279 U.S. 263, 297, 49 S. Ct. 268, 73 L. Ed. 692 (1929),
overruled on other grounds by United States v. Gaudin,
515 U.S. 506, 519, 115 S. Ct. 2310, 132 L. Ed. 2d 444 (1995).
“[T]he power of inquiry—with process to enforce it—is
an essential and appropriate auxiliary to the legislative
function.” McGrain, 273 U.S. at 174. “The scope of the
power of inquiry, in short, is as penetrating and farreaching as the potential power to enact and appropriate
under the Constitution.” Barenblatt, 360 U.S. at 111. “[T]

267a
Appendix I
he power to investigate is inherent in the power to make
laws because ‘a legislative body cannot legislate wisely or
effectively in the absence of information respecting the
conditions which the legislation is intended to affect or
change.’” Eastland, 421 U.S. at 504 (brackets omitted)
(quoting McGrain, 273 U.S. at 175). “The power of the
Congress to conduct investigations . . . encompasses
inquiries concerning the administration of existing laws
as well as proposed or possibly needed statutes.” Watkins,
354 U.S. at 187.43
As the Committees recognize, however, Congress’s
constitutional power to investigate is not unlimited.
The Supreme Court has identified several limitations.
One concerns intrusion into the authority of the other
branches of the government. In Kilbourn v. Thompson,
103 U.S. 168, 26 L. Ed. 377 (1880), which the Supreme
43. Courts have recognized an additional, though less
clearly delineated, source of Congress’s investigative authority,
namely, Congress’s “informing function.” The Supreme Court
has explained that although Congress cannot “expose for the
sake of exposure,” it has the power “to inquire into and publicize
corruption, maladministration or inefficiency in agencies of the
Government” in order to inform the public “concerning the workings
of its government.” Watkins, 354 U.S. at 200 & n.33; see Rumely,
345 U.S. at 43 (“‘It is the proper duty of a representative body to
look diligently into every affair of government and to talk much
about what it sees. . . . The informing function of Congress should
be preferred even to its legislative function.’”) (quoting Woodrow
Wilson, Congressional Government: A Study in American Politics
303 (1913)). We need not consider this potential source of investigative
authority because we conclude that the Committees issued the
subpoenas to advance valid legislative purposes.

268a
Appendix I
Court has identified as the first case in which the Court
considered a challenge to “the use of compulsory process
as a legislative device,” Watkins, 354 U.S. at 193, the
Court ruled that Congress’s power to compel testimony
was unconstitutionally used because the House of
Representatives had “assumed a power which could
only be properly exercised by another branch of the
government,” in that case, the Judicial Branch, Kilbourn,
103 U.S. at 192.44
In Quinn, the Supreme Court identified other limits.
The power to investigate “must not be confused with any
of the powers of law enforcement.” 349 U.S. at 161. “Nor
does it extend to an area in which Congress is forbidden
to legislate.” Id. “Still further limitations on the power to
investigate are found in the specific individual guarantees
of the Bill of Rights . . . .” Id. And, most pertinent to the
pending appeal, the power to investigate “cannot be
used to inquire into private affairs unrelated to a valid
legislative purpose.” Id.
The principal arg ument of Appellants is that
compliance with the Committees’ subpoenas should
44. Kilbourn had been imprisoned by the sergeant-at-arms of
the House of Representatives for contempt by refusing to respond
to a House committee’s inquiries concerning matters that were then
pending in a federal bankruptcy court. As the Supreme Court later
explained in McGrain, the bankruptcy was a matter “in respect to
which no valid legislation could be had” because the case was “still
pending in the bankruptcy court” and “the United States and other
creditors were free to press their claims in that proceeding.” 273
U.S. at 171.

269a
Appendix I
be preliminarily enjoined because the subpoenas
seek information concerning their private affairs.
Unquestionably, disclosure of the financial records sought
by the Committees will subject Appellants’ private
business affairs to the Committees’ scrutiny. However,
inquiry into private affairs is not always beyond the
investigative power of Congress. In Quinn, the Court was
careful to state that the power to investigate “cannot be
used to inquire into private affairs unrelated to a valid
legislative purpose.” Id. (emphasis added). In Barenblatt,
the Court stated a similar qualification: “Congress may
not constitutionally require an individual to disclose
. . . private affairs except in relation to [a valid legislative]
purpose.” 360 U.S. at 127.
So, although the Court had made clear before
Barenblatt that there is “no congressional power to expose
for the sake of exposure,” Watkins, 354 U.S. at 200, it has
also stated that inquiry into private affairs is permitted
as long as the inquiry is related “to a valid legislative
purpose,” Quinn, 349 U.S. at 161; see Barenblatt, 360
U.S. at 127. This potential tension between a permissible
legislative purpose and an impermissible inquiry for
the sake of exposure requires consideration of the role
of motive and purpose in assessing the validity of a
congressional inquiry.
The Supreme Court has spoken clearly as to motive
with respect to a congressional inquiry. Referring to
congressional committee members questioning a witness,
the Court said, “[T]heir motives alone would not vitiate
an investigation which had been instituted by a House of

270a
Appendix I
Congress if that assembly’s legislative purpose is being
served.” Watkins, 354 U.S. at 200 (emphasis added).45
More than 50 years ago, the Supreme Court candidly
recognized the difficulty a court faces in considering how
a legislative purpose is to be assessed when a privacy
interest is asserted to prevent a legislative inquiry:
“Accommodation of the congressional need
for particular information with the individual
and personal interest in privacy is an arduous
and delicate task for any court. We do not
underestimate the difficulties that would attend
such an undertaking.”
45. Watkins cites, 354 U.S. at 200 n.34, among other cases,
Eisler v. United States, 170 F.2d 273, 83 U.S. App. D.C. 315 (D.C. Cir.
1948), in which the D.C. Circuit stated, “[D]efense counsel sought
to introduce evidence to show that the Committee’s real purpose in
summoning appellant was to harass and punish him for his political
beliefs and that the Committee acted for ulterior motives not within
the scope of its or Congress’ powers. The lower court properly
refused to admit such evidence, on the ground that the court had
no authority to scrutinize the motives of Congress or one of its
committees.” Id. at 278-79 (quotation marks and ellipsis omitted).
In Tenney v. Brandhove, 341 U.S. 367, 71 S. Ct. 783, 95 L.
Ed. 1019 (1951), the Supreme Court provided this caution to courts
asked to consider legislators’ motives: “In times of political passion,
dishonest or vindictive motives are readily attributed to legislative
conduct and as readily believed. Courts are not the place for such
controversies. Self discipline and the voters must be the ultimate
reliance for discouraging or correcting such abuses. The courts
should not go beyond the narrow confines of determining that a
committee’s inquiry may fairly be deemed within its province.” Id.
at 378 (footnote omitted).

271a
Appendix I
Id. at 198.
Requirement of identifying legislative purpose. The
first task for courts undertaking this “accommodation”
is identification of the legislative purpose to which a
congressional investigation is asserted to be related.
“It is manifest that despite the adverse effects
which follow upon compelled disclosure of
private matters, not all such inquiries are
barred. Kilbourn v. Thompson teaches that
such an investigation into individual affairs is
invalid if unrelated to any legislative purpose.”
Id. Watkins provided further guidance as to how that
inquiry as to legislative purpose should at least begin:
“An essential premise in this situation is that
the House or Senate shall have instructed the
committee members on what they are to do
with the power delegated to them. It is the
responsibility of the Congress, in the first
instance, to insure that compulsory process
is used only in furtherance of a legislative
purpose. That requires that the instructions
to an investigating committee spell out that
group’s jurisdiction and purpose with sufficient
particularity. Those instructions are embodied
in the authorizing resolution. That document is
the committee’s charter.”
Id. at 201.

272a
Appendix I
It is not clear whether this passage can be satisfied
only by the instruction that the House gives to a committee
pursuant to a House rule defining a standing committee’s
continuing jurisdiction, or whether a specific “authorizing
resolution” is required for a committee to undertake an
investigation on a particular subject within its jurisdiction.
During an argument on July 12 of this year in the Court
of Appeals for the District of Columbia Circuit in Trump
v. Mazars USA, LLP, 940 F.3d 710 (D.C. Cir.), reh’g en
banc denied, 941 F.3d (D.C. Cir.), mandate stayed, No.
19A545, 2019 U.S. LEXIS 7240, 2019 WL 6328115 (U.S.
Nov. 25, 2019) (“Trump v. Mazars”), a challenge to a
subpoena issued by the House Committee on Oversight
and Reform, 46 the Mazars appellants, many of whom
are Appellants here, contended that a clear statement
from the House authorizing a standing committee to
investigate not just a particular subject but the particular
subpoena being challenged was required, at least where
the subpoena seeks papers of the President. See Oral Arg.
46. The subpoena challenged in Mazars seeks four categories of
documents somewhat different from those sought by the subpoenas
challenged on this appeal, and seeks the documents for purposes
significantly different from the Committees’ purposes, as we point
out infra. The categories are: various financial statements and
reports compiled by Mazars USA, LLP, engagement agreements for
preparation of such statements and reports, supporting documents
used in the preparation of such statements and reports, and
memoranda, notes, and communication related to the compilation
and auditing of such statements and reports. See Decl. of William S.
Consovoy, Ex. A at 3, Trump v. Committee on Oversight and Reform
of the United States House of Representatives, 380 F. Supp. 3d 76
(D.D.C. 2019) (No.-19-cv-01136 (APM)), ECF No. 9-2, aff’d, Trump
v. Mazars USA, LLP, 940 F.3d 710 (D.C. Cir. 2019).

273a
Appendix I
at 8:35, 1:32:15, 2:03:15, Trump v. Mazars USA, LLP, No.
19-5142 (D.C. Cir. July 12, 2019).47
Apparently responding to that contention, the House
of Representatives on July 24 adopted a resolution that
includes the following language:
“Resolved, That the House of Representatives
ratifies and affirms all current and future
investigations, as well as all subpoenas
previously issued or to be issued in the future,
by any standing or permanent select committee
of the House, pursuant to its jurisdiction as
established by the Constitution of the United
States and rules X and XI of the Rules of the
House of Representatives, concerning or issued
directly or indirectly to—
(1) the President in his personal or
official capacity;
(2) his immediate family, business
entities, or organizations;
...
(9) any third party seeking information
involving, referring, or related to any
individual or entity described in
paragraphs (1) through (7).”
47. Appellants have not made that “clear statement” argument
in their briefs in this case.

274a
Appendix I
H.R. Res. 507, 116th Cong. (2019); see H.R. Res. 509,
116th Cong. § 3 (2019) (“House Resolution 507 is hereby
adopted.”).48 On July 26, the Committees informed us of
this resolution.49
On July 31, counsel for the Mazars appellants made
two related arguments to the D.C. Circuit rejecting the
significance of Resolution 507.50 First, he read the passage
48. H.R. Res. 507 disclaims the need for its adoption, stating:
“Whereas the validity of some of [the pending]
investigations and subpoenas [relating to the
President] has been incorrectly challenged in Federal
court on the grounds that the investigations and
subpoenas were not authorized by the full House
and lacked a ‘clear statement’ of intent to include the
President, which the President’s personal attorneys
have argued in Federal court is necessary before
the committees may seek information related to the
President; and
“Whereas while these arguments are plainly incorrect
as a matter of law, it is nevertheless in the interest
of the institution of the House of Representatives to
avoid any doubt on this matter and to unequivocally
reject these challenges presented in ongoing or future
litigation.”
H.R. Res. 507.
49. See Letter from Douglas N. Letter, General Counsel, U.S.
House of Representatives, to Clerk of Court, Second Circuit Court
of Appeals, No. 19-1540, Dkt. No. 106 (July 26, 2019).
50. See Letter from William S. Consovoy, counsel for President
Donald J. Trump, to Mark Langer, Clerk of Court, D.C. Circuit

275a
Appendix I
from Watkins, quoted above, to mean that only the
House Rules initially outlining a committee’s jurisdiction
can provide a valid source of authority for a legislative
investigation. Second, he contended that two decisions,
United States v. Rumely, 345 U.S. 41, 73 S. Ct. 543, 97
L. Ed. 770 (1953), and Shelton v. United States, 327 F.2d
601, 117 U.S. App. D.C. 155 (D.C. Cir. 1963), establish that
Resolution 507 came “too late.” On August 1, counsel for
Appellants in our appeal made the same arguments to
our Court. 51
Although we agree that there must be sufficient
evidence of legislative authorization and purposes to
enable meaningful judicial review, Appellants’ arguments
that seek to limit evidence we may consider are not
persuasive. Although Watkins examined the authorizing
resolutions of the committee whose authority to compel
answers to its inquiry was being challenged, see 354
U.S. at 201-02 & nn. 35-36, the Supreme Court’s opinion
reveals that these resolutions are not the only sources
Court of Appeals, Trump v. Mazars USA, LLP, No. 19-5142, Doc.
No. 1799866 (D.C. Cir. July 31, 2019).

51. See Letter from Patrick Strawbridge, counsel for President
Donald J. Trump, to Clerk of Court, Second Circuit Court of Appeals,
No. 19-1540, Dkt. No. 112 (Aug. 1, 2019).
On August 6, the United States filed in the Mazars appeal an
amicus curiae brief, making additional arguments concerning the
alleged deficiency of Resolution 507. We need not set forth those
arguments because on August 19 the United States filed an amicus
curiae brief in the pending appeal, making additional arguments
concerning Resolution 507 as it relates to the subpoenas in the
pending litigation. We consider those arguments infra.

276a
Appendix I
to be considered in determining whether a committee’s
investigation has been validly authorized. As the Court
noted, “There are several sources that can outline the
‘question under inquiry.’” Id. at 209. Among these,
the Court mentioned “the remarks of the [committee]
chairman or members of the committee, or even the
nature of the proceedings themselves.” Id. Indeed, the
Court considered the opening statement of the chairman
of the committee before whom the defendant in a criminal
contempt proceeding had refused to answer, see id. at
209-10, although finding the statement impermissibly
vague, see id. at 210; see also Shelton v. United States,
404 F.2d 1292, 1297, 131 U.S. App. D.C. 315 (D.C. Cir.
1968) (statements of committee members relevant to
identification of purposes of congressional investigations).
Rumely does not confine the search for authorization
of a valid legislative purpose to a committee’s jurisdictional
resolution. The Court concluded that the witness’s “duty
to answer must be judged as of the time of his refusal.”
Rumely, 345 U.S. at 48. Because we regard the time of the
Banks’ compliance with the subpoenas challenged in this
case as the equivalent of the time of the witness’s refusal
in Rumely, that decision is no bar to examining legislative
materials existing before such compliance.
Furthermore, the Court’s point in Rumely was that
the scope of the resolution authorizing the committee’s
investigation could not “be enlarged by subsequent action
of Congress.” 345 U.S. at 48. In the pending case, the
issue with respect to House Resolution 507 is whether
this Court, in ascertaining House authorization of the

277a
Appendix I
Committees’ investigations, can consider evidence that
comes after the issuance of the subpoenas. Including
House Resolution 507 in our consideration results in no
unfairness to the Banks, which have not refused to produce
the information requested. Moreover, House Resolution
507 does not suffer from the same “infirmity of post litem
motam, self-serving declarations” that tainted the post hoc
debate in Rumely, 345 U.S. at 48, because the resolution
does not purport to alter either the interpretation of the
Committees’ jurisdiction or the stated purposes of the
Committees’ investigations that existed at the time the
subpoenas were issued. Rather, the resolution was passed
to eliminate any doubt regarding the support of the House
for the Committees’ investigations.
The D.C. Circuit’s decision in Shelton states that the
time a contempt witness is entitled to know the purpose
of a challenged legislative inquiry is “before the subpoena
issued.” 327 F.2d at 607. Preliminarily, we note that this
assertion is dictum; the holding is that the committee’s
subpoena was invalid because of procedural irregularity
in its issuance. 52 See id. More important, that dictum
conflicts with what the Supreme Court said in Watkins.
The Court there made clear that to satisfy the due process
objection arising from a contempt imposed for refusing to
answer a committee’s question insufficiently shown to be
related to a valid legislative purpose, the purpose could be
52. The D.C. Circuit explained that the relevant Senate
resolution “imposes on the Subcommittee itself” the “function of
calling witnesses,” and that “the whole function of determining who
the witnesses would be was de facto delegated to the Subcommittee
counsel.” Shelton, 327 F.2d at 606.

278a
Appendix I
identified as late as immediately before the witness was
required to answer. “Unless the subject matter has been
made to appear with undisputable clarity, it is the duty
of the investigative body, upon objection of the witness on
grounds of pertinency, to state for the record the subject
under inquiry at that time and the manner in which the
propounded questions are pertinent thereto.” Watkins,
354 U.S. at 214-15.
We therefore do not confine our search for the
Committees’ purposes to the House Rules alone, nor do
we exclude Resolution 507 from our inquiry.
Identifying the Committees’ legislative purpose.
We next consider the “legislative purpose” to which the
Committees assert their investigations are “related” and
“the weight to be ascribed to[] the interest of the Congress
in demanding disclosures” in order to determine whether
“a public need” for such investigation “overbalances any
private rights affected.” Id. at 198.
Our consideration begins with the Constitution,
which assigns to each house of Congress authority to
“determine the Rules of its Proceedings.” U.S. Const.
art. I, § 5, cl. 2. In 2019, Congress adopted the Rules of
the House of Representatives. See H.R. Res. 6, 116th
Cong. (2019); Rules of the House of Representatives, 116th
Cong. (prepared by Karen L. Haas, Clerk of the House of
Representatives, Jan. 11, 2019) (hereinafter “H. Rules”).
House Rule X establishes the standing committees of the
House, including the Financial Services Committee and
the Permanent Select Committee on Intelligence. See

279a
Appendix I
H. Rules X(2)(h), X(11). Rule X assigns to the Financial
Services Committee jurisdiction over bills concerning,
among other things, banks and banking, international
finance, and money and credit, see H. Rule X (1)(h)(1),
(h)(5), (h)(7), and assigns to the Intelligence Committee
jurisdiction over bills concerning, among other things,
the Nation’s intelligence agencies and their intelligence
and intelligence-related activities, see H. Rule X(11)(b)
(1)(A), (B).
Rule X also assigns to all of the standing committees
“general oversight responsibilities . . . to assist the
House in its analysis, appraisal, and evaluation of (A) the
application, administration, execution, and effectiveness of
Federal laws; and (B) conditions and circumstances that
may indicate the necessity or desirability of enacting new
or additional legislation.” H. Rule X(2)(a)(1). In addition,
Rule X assigns to the Intelligence Committee “[s]pecial
oversight functions” to “review and study on a continuing
basis laws, programs, and activities of the intelligence
community.” H. Rule X(3)(m).
House Rule XI provides: “Each committee may
conduct at any time such investigations and studies as it
considers necessary or appropriate in the exercise of its
responsibilities under [R]ule X.” H. Rule XI(1)(b)(1). Rule
XI also provides:
“For the purpose of carrying out any of its
functions and duties under this rule and
[R]ule X . . . a committee or subcommittee is
authorized . . . to require, by subpoena . . . the

280a
Appendix I
production of such . . . records . . . as it considers
necessary.”
H. Rule XI(2)(m)(1)(B).
On March 13, 2019, the House of Representatives
adopted a resolution stating, among other things, that
the House “supports efforts to close loopholes that allow
corruption, terrorism, and money laundering to infiltrate
our country’s financial system.” H.R. Res. 206, 116th Cong.
(Mar. 13, 2019).
On April 12, 2019, the House Committee on Oversight
and Reform issued a report summarizing the subjects
that several committees planned to investigate during
the 116th Congress. See H.R. Rep. No. 116-40 (2019).
Because the date of this report is one day after issuance
of the subpoenas challenged in this case, we note that the
text of the report makes clear that the plans submitted
by the committees had been received prior to the date the
report was issued. 53

53. The report explains that under House Rule X, the Oversight
Committee “is to review the various plans and, in consultation with
the Speaker, the Majority Leader, and the Minority Leader, report to
the House the oversight plans along with any recommendations that
the House leadership and the Committee may have to ensure effective
coordination. Pursuant to this rule, the Committee on Oversight and
Reform has reviewed and consulted with House leadership about
the oversight plans of the standing House committees for the 116th
Congress.” H.R. Rep. No. 116-40 at 2.

281a
Appendix I
The plan submitted by the Financial Ser vices
Committee includes as its purposes: “examining financial
regulators’ supervision of the banking, thrift and credit
union industries for safety and soundness and compliance
with laws and regulations,” id. at 78; “the implementation,
effectiveness, and enforcement of anti-money laundering/
counter-financing of terrorism laws and regulations,”
id. at 84 (abbreviation omitted); and “the risks of money
laundering and terrorist financing in the real estate
market,” id. at 85.
The Chair of the Financial Services Committee,
Representative Maxine Waters, has identified a principal
purpose of that committee’s investigation. “The movement
of illicit funds throughout the global financial system
raises numerous questions regarding the actors who are
involved in these money laundering schemes and where
the money is going.” 165 Cong. Rec. H2697, H2698 (daily
ed. Mar. 13, 2019) (statement of Rep. Waters in support
of H.R. Res. 206). Linking the Committee’s inquiries to
Appellants, she explained that her concerns are “precisely
why the Financial Services Committee is investigating the
questionable financing provided to President Trump and
[t]he Trump Organization by banks like Deutsche Bank
to finance its real estate properties.” Id. In her statement,
Rep. Waters noted that Deutsche Bank was fined for its
role in a $10 billion money-laundering scheme, 165 Cong.
Rec. at H2698, and the Committees note in their brief,
Br. for Intervenors at 11, that Capital One agreed to pay a
fine of $100 million for failing to correct deficiencies in its
Bank Secrecy Act and anti-money-laundering programs,
see Capital One, N.A., Enforcement Action No. 2018-080,
2018 WL 5384428, at *1-2 (O.C.C. Oct. 23, 2018).

282a
Appendix I
The Financial Services Committee has held hearings
on these matters,54 and considered bills to combat financial
crimes, such as money laundering. 55
The Chair of the Intelligence Committee has identified
several purposes of that committee’s investigation. The
committee is investigating “[t]he scope and scale of
the Russian government’s operations to influence the
U.S. political process”; “[t]he extent of any links and/or
coordination between the Russian government, or related
foreign actors, and individuals associated with Donald
Trump’s campaign, transition, administration, or business
interests, in furtherance of the Russian government’s
interests”; “[w]hether any foreign actor has sought to
compromise or holds leverage, financial or otherwise,
over Donald Trump, his family, his business, or his
associates”; and “[w]hether President Trump, his family,
or his associates are or were at any time at heightened
54. Implementation of FinCEN’s Customer Due Diligence
Rule—Regulator Perspective: Hearing Before the Subcomm.
on Terrorism & Illicit Finance of the H. Comm. on Financial
Services, 115th Cong. (2018); Examining the BSA/AML Regulatory
Compliance Regime: Hearing Before the Subcomm. on Financial
Institutions & Consumer Credit of the H. Comm. on Financial
Services, 115th Cong. (2017).
55. See Corporate Transparency Act of 2019, H.R. 2513, 116th
Cong. (bill to reform corporate beneficial ownership disclosures and
increase transparency); COUNTER Act of 2019, H.R. 2514, 116th
Cong. (bill to strengthen the Bank Secrecy Act and anti-moneylaundering laws); Vladimir Putin Transparency Act, H.R. 1404,
116th Cong. (as passed by House, Mar. 12, 2019) (bill to require
Executive Branch agencies to submit assessment to Congress
regarding financial holdings of Russian President Vladimir Putin
and top Kremlin-connected oligarchs).

283a
Appendix I
risk of, or vulnerable to, foreign exploitation, inducement,
manipulation, pressure, or coercion.” Press Release,
House Permanent Select Committee on Intelligence,
Chairman Schiff Statement on House Intelligence
Committee Investigation (Feb. 6, 2019). 56
Linking these investigations to Appellants, the
Committees cite public reports indicating that Deutsche
Bank has extended loans to the Lead Plaintiff totaling
more than $2 billion57 and that his 2017 financial disclosure
report showed a liability of at least $130 million to Deutsche
Bank. 58 At oral argument, counsel for the Committees
represented, without contradiction by Appellants, that
Deutsche Bank is the only bank willing to lend to the Lead
Plaintiff. See Oral Arg. Tr. at p. 36, ll. 5-18.
On this appeal, the Committees contend that the
Intelligence Committee’s investigations “will inform
numerous legislative proposals to protect the U.S.
political process from the threat of foreign influence and
strengthen national security.” Br. for Committees at 18. 59
56. https://intelligence.house.gov/news/documentsingle.aspxDocumentID=447.
57. David Enrich, Deutsche Bank and Trump: $2 Billion in
Loans and a Wary Board, N.Y. Times, Mar. 18, 2019, https://www.
nytimes.com/2019/03/18/business/deutsche-bank-donaldtrump/
html.
58. Donald J. Trump, President, Executive Branch Personnel
Public Financial Disclosure Report for 2017 (Office of Government
Ethics Form 278e) at 45 (May 15, 2018).
59. The Committees cite as examples the following bills:
Duty to Report Act, H.R. 2424, 116th Cong. (2019) (bill to require

284a
Appendix I
All of the foregoing fully identifies “the interest[s]
of the Congress in demanding disclosures,” as Watkins
requires. 354 U.S. at 198. The Committees’ interests
concern national security and the integrity of elections,
and, more specifically, enforcement of anti-moneylaundering/counter-financing of terrorism laws, terrorist
financing, the movement of illicit funds through the global
financial system including the real estate market, the
scope of the Russian government’s operations to influence
the U.S. political process, and whether the Lead Plaintiff
was vulnerable to foreign exploitation. Watkins also
requires that a legislative inquiry must in fact be related
to a legislative purpose.60 See id. The Committees have
fully satisfied the requirements of Watkins.
We conclude our consideration of the Committees’
identification of valid legislative purposes by noting the
significantly different purposes that were identified by the
campaign officials to notify law enforcement if offered assistance by
foreign nationals and to report all meetings with foreign agents);
KREMLIN Act, H.R. 1617, 116th Cong. (as passed by House,
Mar. 12, 2019) (bill to require Director of National Intelligence to
submit to Congress intelligence assessments of Russian intentions
relating to North Atlantic Treaty Organization and Western allies);
Strengthening Elections Through Intelligence Act, H.R. 1474, 116th
Cong. (2019) (bill to require an intelligence threat assessment prior
to every federal general election); For the People Act of 2019, H.R.
1, 116th Cong. (as passed by House, Mar. 8, 2019) (bill to improve
election security and oversight and provide for national strategy and
enforcement to combat foreign interference).

60. The Court had previously said in Quinn that the power to
investigate “cannot be used to inquire into private affairs unrelated
to a valid legislative purpose.” 349 U.S. at 161 (emphasis added).

285a
Appendix I
House Committee on Oversight and Reform in the Trump
v. Mazars case in the District of Columbia,61 to which
we previously alluded.62 The four subject matters being
investigated by that committee, set out in the margin,63
61. After the D.C. Circuit’s decision in Mazars, Appellants and
the Committees sent letters to this Court, reporting and commenting
on that decision. See Letter from Patrick Strawbridge, counsel for
President Donald J. Trump, to Clerk of Court, Second Circuit Court
of Appeals, No. 19-1540, Dkt. No. 202 (Oct. 14, 2019); Letter from
Douglas N. Letter, General Counsel, U.S. House of Representatives,
to Clerk of Court, Second Circuit Court of Appeals, No. 19-1540, Dkt.
No. 201 (Oct. 11, 2019). In view of the D.C. Circuit’s ruling affirming
the denial of an injunction to prohibit compliance with the subpoena
there challenged, Appellants’ letter stating that “the Mazars
majority agreed that the subpoenas here are unconstitutional”
presses the limits of advocacy. The Committees’ letter states, “This
Court should join the D.C. Circuit in upholding the validity of the
subpoenas at issue here.”
62. See footnote 46, p. 52.
63. As stated by Chairman Cummings:
“The Committee has full authority to investigate [1]
whether the President may have engaged in illegal
conduct before and during his tenure in office, [2] to
determine whether he has undisclosed conflicts of
interest that may impair his ability to make impartial
policy decisions, [3] to assess whether he is complying
with the Emoluments Clauses of the Constitution,
and [4] to review whether he has accurately reported
his finances to the Office of Government Ethics and
other federal entities. The Committee’s interest in
these matters informs its review of multiple laws and
legislative proposals under our jurisdiction, and to
suggest otherwise is both inaccurate and contrary

286a
Appendix I
all explicitly concerned whether the President was in
compliance with legal requirements. Nevertheless, Judge
Tatel’s opinion for the Mazars majority concluded that the
Oversight Committee, in issuing the challenged subpoena,
“was engaged in a ‘legitimate legislative investigation,’
rather than an impermissible law-enforcement inquiry.”
Mazars, 940 F.3d at 732 (quoting Hutcheson v. United
States, 369 U.S. 599, 618, 82 S. Ct. 1005, 8 L. Ed. 2d 137
(1962)) (citation omitted). On the other hand, Judge Rao’s
dissent contended that because the Oversight Committee
was investigating whether the President violated various
laws, its “investigations may be pursued exclusively
through impeachment.”64 Id. at 751.
In the pending appeal, the Committees are not
investigating whether the Lead Plaintiff has violated any
law. To the extent that the Committees are looking into
unlawful activity such as money laundering, their focus is
not on any alleged misconduct of the Lead Plaintiff (they
have made no allegation of his misconduct); instead, it is
on the existence of such activity in the banking industry,
the adequacy of regulation by relevant agencies, and the
need for legislation.

to the core mission of the Committee to serve as an
independent check on the Executive Branch.”
Memorandum from Elijah E. Cummings, Chairman, House Comm.
on Oversight & Reform, to Members of the Comm. on Oversight
& Reform 4 (Apr. 12, 2019).
64. We note that neither the principal nor the reply brief of
Appellants mentions the word “impeachment.”

287a
Appendix I
Whether legislative purpose “overbalances” private
rights. The Supreme Court can be understood in Watkins
to have set out a second requirement for courts considering
challenges to legislative inquiries.
“The critical element is the existence of, and
the weight to be ascribed to, the interest of the
Congress in demanding disclosures from an
unwilling witness. We cannot simply assume,
however, that every congressional investigation
is justified by a public need that overbalances
any private rights affected. To do so would be
to abdicate the responsibility placed by the
Constitution upon the judiciary to insure that
the Congress does not unjustifiably encroach
upon an individual’s right to privacy . . . .”
354 U.S. at 198-99 (emphasis added).
When the Court said that it “cannot simply assume,
however, that every congressional investigation is justified
by a public need that overbalances any private rights
affected,” id. at 198, the inference is available that courts
are to determine whether the importance of the legislative
interest outweighs an individual’s privacy interests.
Three considerations diminish the force of this
possible inference. First, we should be hesitant to conclude
that the Supreme Court, always sensitive to separationof-powers concerns, would want courts to make this sort
of balancing determination, the outcome of which might
impede the Legislative Branch in pursuing its valid

288a
Appendix I
legislative purposes. Second, the Court might simply have
meant that courts should not “assume” the existence of
a legislative purpose, but that the judicial task is at an
end once courts find in congressional materials sufficient
identification of the valid legislative purposes that
Congress or a committee is pursuing. Third, the Court
later cautioned that “courts should not go beyond the
narrow confines of determining that a committee’s inquiry
may fairly be deemed within its province.” Eastland, 421
U.S. at 506 (quotation marks omitted). On the other hand,
it is not likely that the Court would have described such
a minimalist approach as “an arduous and delicate task.”
Watkins, 354 U.S. at 198.
Encountering this uncertainty as to the task that
Watkins has required courts to undertake, we will
assume, for the argument, that we should make at least
some inquiry as to whether the “public need” to investigate
for the valid legislative purposes we have identified
“overbalances any private rights affected.” That balancing
is similar to the comparison of hardships we make in Part
IV, one of the factors relevant to two of the preliminary
injunction standards.
We conclude that, even if Watkins requires balancing
after valid legislative purposes have been identified, the
interests of Congress in pursuing the investigations for
which the challenged subpoenas were issued substantially
“overbalance” the privacy interests invaded by disclosure
of financial documents, including the non-official
documents of the Lead Plaintiff. “[T]he weight to be
ascribed to” the public need for the investigations the

289a
Appendix I
Committees are pursuing is of the highest order. The
legislative purposes of the investigations concern national
security and the integrity of elections, as detailed above.
By contrast, the privacy interests concern private financial
documents related to businesses, possibly enhanced by
the risk that disclosure might distract the President in
the performance of his official duties.
Whether the subpoenas seek information related
to legislative purposes. The remaining issue is whether
the information sought by the subpoenas is sufficiently
related to the identified legislative purposes supporting
the Committees’ investigations, or whether the subpoenas
are overbroad, as Appellants contend. Their challenge
proceeds along three lines: (1) a procedural objection
concerning the District Court, (2) several general
substantive objections to the entire scope of the subpoenas,
and (3) a more focused substantive objection to several
specific categories of information sought by the subpoenas.
Procedural objection—District Court’s not requiring
negotiation. Appellants contend that the District Court
erred procedurally by not “send[ing] the parties back to
the negotiating table” to attempt to narrow the scope of
the subpoenas. Br. for Appellants at 29. Judge Livingston
favors that disposition. Part. Diss. Op. at 11, 56. Indeed,
that is an additional point of her partial dissent, which
takes no position on the merits of any of Appellants’
claims, deferring decision until such negotiation occurs.
Judge Livingston also favors a total remand for further
development of the record.

290a
Appendix I
Appellants cite two instances where courts have had
at least partial success in encouraging such negotiation.
See AT&T II, 567 F.2d at 124-25; Bean LLC v. John Doe
Bank, 291 F. Supp. 3d 34, 39-40 (D.D.C. 2018). Both
cases arose in significantly different circumstances, and
neither one requires a total remand here. The AT&T
litigation involved what the D.C. Circuit characterized
as “a portentous clash between the [E]xecutive and
[L]egislative [B]ranches,” AT&T I, 551 F.2d at 385. In
the pending appeal, as we have noted, the Lead Plaintiff
is suing only in his individual capacity, not as President,
and no official documents are sought. The only Executive
Branch interest implicated is the possible distraction of
the President in the performance of his duties, which we
consider at pages 90-91. Furthermore, AT&T I concerned
national security wiretaps, Executive Branch official
documents of obvious sensitivity. Finally, the D.C. Circuit’s
advice in AT&T I was offered after the parties had already
“negotiated extensively and came close to agreement.” Id.
at 394. The Court simply urged the parties to continue the
process they had successfully begun and “requested” the
parties “to attempt to negotiate a settlement,” id. at 395,
because the “precise details of the [earlier] negotiations
. . . demonstrate[d] the proximity of the parties to a
workable compromise,” id. at 386. The Bean litigation
concerned a subpoena challenged as violative of the First
Amendment. See 291 F. Supp. 3d at 37.
To the extent that the request for judicial assistance in
narrowing the scope of the subpoenas is analogous to the
role of district court judges managing pretrial discovery,
they have broad discretion to determine the extent to

291a
Appendix I
which they should intervene, see, e.g., In re Fitch, Inc.,
330 F.3d 104, 108 (2d Cir. 2003), and Judge Ramos did
not exceed such discretion in this case by leaving any
negotiation in the hands of experienced counsel prior to his
ruling. In favoring a total remand, Judge Livingston does
not consider our limited standard of review of the District
Court’s decision not to require the parties to negotiate, nor
does she suggest that the District Court’s discretion was
exceeded. Moreover, Appellants have not identified a single
category of documents sought or even a single document
within a category that they might be willing to have the
Banks produce if a negotiation had been required. Finally,
we note the likely futility of ordering a total remand for
negotiation, as Judge Livingston prefers,65 in view of
65. Judge Livingston reports that at oral argument the
Committees “affirmed a willingness to negotiate on an expedited
basis, if requested by this Court.” Part. Diss. Op. at 11. The colloquy
to which Judge Livingston refers arose in response to a hypothetical
inquiry from the Court as to whether certain sensitive documents
such as a check for medical services should be excluded from
disclosure. Counsel for the Committees responded that as to any
documents “that have nothing to do with Mr. Trump and his family
and these other businesses, his various businesses, have nothing
to do with their real financial activities, we will direct Deutsche
Bank not to produce those.” Oral Arg. Tr. at p. 41, ll. 11-15. When
the Court inquired further about the Committees’ position if the
Court were to insist on exclusion of such documents, counsel for the
Committees responded, “[I]f this Court orders ‘these subpoenas
are enforceable but’ —and drew this exception, consistent with the
hypothetical your Honor has raised, we would have no problem with
that.” Id. at p. 41, ll. 22-25. Obviously, the Committees’ willingness
to comply with an order from this Court concerning exclusion of
sensitive documents like a check for payment of medical expenses
does not affirm the Committees’ willingness to engage in negotiation.

292a
Appendix I
the fact that the White House has prohibited members
of the Administration from even appearing in response
to congressional subpoenas and has informed Congress
that “President Trump and his Administration cannot
participate” in congressional inquiries.66
Judge Livingston suggests that a total remand would
be useful to afford the parties an opportunity for further
development of the record. However, Appellants have
given no indication of what additional materials they would
seek to add to the record, and the existing record fully
suffices for disposition of this appeal.
A total remand would simply further delay production
of documents in response to subpoenas that were issued
seven months ago and would run directly counter to
Later, the Committees said that “[i]f this court thinks there should
be negotiation, . . . make it really, really fast,” id at p. 46, ll. 8-10,
and added, “Mr. Trump and the various other people have given no
indication whatsoever that they actually would be willing to negotiate
over-in any way that is serious.” Id. at p. 46, ll. 17-19. Again, there is
no expression of a willingness to negotiate.

In any event, the limited remand we order provides an
opportunity for exemption from disclosure of more documents
than even those we have labeled “sensitive.”
66. See Letter from Pat A. Cippolone, Counsel to the President,
the Speaker of the House of Representatives, and three House
committee chairmen (Oct. 8, 2019), https://www.nytimes.com/
interactive/2019/10/08/us/politics/white-house-letter-impeachment.
html. One recipient of this letter, Congressman Adam Schiff, is the
chairman of one of the committees that issued subpoenas in this
litigation.

293a
Appendix I
the Supreme Court’s instruction that motions to enjoin
a congressional subpoena should “be given the most
expeditious treatment by district courts because one
branch of Government is being asked to halt the functions
of a coordinate branch.” Eastland, 421 U.S. at 511 n.17.
General substantive objections to scope of subpoenas.
One broad substantive challenge to the scope of the
subpoenas is that they focus on the Lead Plaintiff. 67
67. In the District Court, the Committees stated, “Because of
his prominence, much is already known about Mr. Trump, his family,
and his business, and this public record establishes that they serve
as a useful case study for the broader problems being examined by
the Committee.” Opposition of Intervenors to Plaintiffs’ Motion for
a Preliminary Injunction at 16, Dist. Ct. Dkt. No. 51 (May 10, 2019).
Appellants repeatedly point to the phrase “case study” to argue
that the Committees are not only focusing on the Lead Plaintiff but
also doing so for law enforcement purposes. Br. for Appellants at
5, 11, 15, 31, 33, 50. However, as long as valid legislative purposes
are duly authorized and being pursued by use of the challenged
subpoenas, the fact that relevant information obtained also serves
as a useful “case study” does not detract from the lawfulness of the
subpoenas. Furthermore, congressional examination of whether
regulatory agencies are properly monitoring a bank’s practices
does not convert an inquiry into impermissible law enforcement, and
neither committee has made any allegation that the Lead Plaintiff
or any of the Appellants has violated the law.
Moreover, when a borrower can obtain loans from only one bank,
that bank has already lent the borrower $130 million, and that bank
has been fined in connection with a $10 billion money laundering
scheme, that situation is appropriate for a case study of such
circumstances by a congressional committee authorized to monitor
how well banking regulators are discharging their responsibilities
and whether new legislation is needed.

294a
Appendix I
This point is made in support of the broader argument
that the subpoenas were issued with the expectation
that some of the documents sought would embarrass the
President, rather than advance a legitimate legislative
purpose. One answer to the complaint about targeting
the Lead Plaintiff and his family is that the Committees
have represented that the three subpoenas at issue in
this litigation are among a group of subpoenas “to seven
other financial institutions, the majority of which do not
request documents specific to” the Lead Plaintiff. Br. for
Committees at 9.68 In fact, the Deutsche Bank Subpoenas
themselves seek documents from entities not related to
Appellants. See Deutsche Bank Subpoenas ¶¶ 2-6, J. App’x
40-42. Another answer to the targeting objection is the
significant relationship between Deutsche Bank and the
Lead Plaintiff. The Committees have relied on information
(not disputed by Appellants) indicating that when no other
bank would extend credit to the Lead Plaintiff, Deutsche
Bank loaned him or his affiliated entities at least $130
million dollars. That unusual circumstance adequately
68. Replying to this assertion by the Committees, the amicus
brief of the United States says, “The bare fact that a ‘majority’ of
other subpoenas may not be confined to the President’s information
hardly suggests that the present subpoenas are part of a general
inquiry into reforms of the financial system, in which the President
and his family have been caught up merely by chance . . . .” Br. for
Amicus United States at 21 (emphases in original). The Committees
make no claim that the subpoenas seek financial records of the
Lead Plaintiff, his family, and his business entities “by chance.”
As we have recounted, the Committees have explicitly set out the
circumstances that make the financial records of the Lead Plaintiff
and affiliated persons and business entities appropriate subjects for
legislative inquiry.

295a
Appendix I
supports requests for information to determine whether
proper banking procedures have been followed.
To whatever extent the targeting objection is really
a claim that part of the motive of some members of the
Committees for issuing the three subpoenas was to
embarrass the Lead Plaintiff, the Supreme Court has
made it clear that in determining the lawfulness of a
congressional inquiry, courts “do not look to the motives
alleged to have prompted it.” Eastland, 421 U.S. at 508.
The Court had earlier said, “So long as Congress acts in
pursuance of its constitutional power, the Judiciary lacks
authority to intervene on the basis of the motives which
spurred the exercise of that power.” Barenblatt, 360 U.S.
at 132 (citations omitted).
In this respect, the guiding principle is the same as
that applicable when an arrest supported by probable
cause is ruled valid despite the arresting officer’s motive
to retaliate against a suspect for exercising a First
Amendment right. See Nieves v. Bartlett, 139 S. Ct. 1715,
1725, 204 L. Ed. 2d 1 (2019); see also Hartman v. Moore,
547 U.S. 250, 265-66, 126 S. Ct. 1695, 164 L. Ed. 2d 441
(2006) (absence of probable cause required for valid claim
of initiating prosecution to retaliate against a defendant
for exercising a First Amendment right).
But Appellants disclaim any objection based on
inquiry into motive. “No aspect of this inquiry involves
a search for Congress’s hidden ‘motives.’” Br. for
Appellants at 26. Their point is that various statements
of some members of Congress reveal that the purpose

296a
Appendix I
of the investigations is to embarrass the President, not
merely that such embarrassment was the motive for the
investigations. In this context (as in some others69), the
distinction between motive, i.e., the reason for acting,
and purpose, i.e., the result sought, becomes somewhat
blurred. We do not doubt that some members of the
Committees, even as they pursued investigations for
valid legislative purposes, hoped that the results of their
inquiries would embarrass the President.70 But as long as
the valid legislative purposes that the Committees have
identified are being pursued and are not artificial pretexts
for ill-motivated maneuvers, the Committees have not
exceeded their constitutional authority. The Supreme
69. See, e.g., Mobile v. Bolden, 446 U.S. 55, 62, 100 S. Ct. 1490,
64 L. Ed. 2d 47 (1980) (“Our decisions, moreover, have made clear
that action by a State that is racially neutral on its face violates
the Fifteenth Amendment only if motivated by a discriminatory
purpose.”); see generally Andrew Verstein, The Jurisprudence of
Mixed Motives, 127 Yale L.J. 1106 (2018).
70. The Complaint in this case alleges the following remarks
of some members of Congress. Rep. Waters, Chair of the Financial
Services Committee, said, “I have the gavel—and subpoena power—
and I am not afraid to use it.” Complaint ¶ 37. Another member of
Congress “stated that the new House majority would be ‘brutal’
for President Trump” and that “[w]e’re going to have to build an
air traffic control tower to keep track of all the subpoenas flying
from here to the White House.” Id. Others “were busy preparing a
‘subpoena cannon’ to fire at President Trump.” Id. Others, “according
to news outlets that interviewed party leaders,” issued statements
that “meant that they were going to spend the next two years
launching a ‘fusillade’ of subpoenas in order to ‘drown Trump with
investigations,’ ‘turn Trump’s life upside down,’ and ‘make Trump’s
life a living hell.’” Id. ¶ 36.

297a
Appendix I
Court has stated that there is a “presumption” that the
stated legislative purposes are the “real object” of the
Committees’ investigation. McGrain, 273 U.S. at 178. We
need not rely on that presumption where we have evidence
that valid legislative purposes are being pursued and
“the purpose[s] asserted [are] supported by references to
specific problems which in the past have been or which in
the future could be the subjects of appropriate legislation.”
Shelton, 404 F.2d at 1297.
Appellants object to the extensive time frame covered
by the subpoenas, especially the absence of any time
limitations on requests relating to account applications
and the identity of those holding interests in accounts.
Appellants also object to disclosure of financial records
in the names of family members, including the Lead
Plaintiff’s grandchildren. However, such information,
including documents dating back to when accounts were
opened, is reasonably related to an investigation about
money laundering.
Appellants contend that the subpoenas exceed
any valid legislative purpose because, in their view,
the subpoenas are intended to discover evidence of
crimes, thereby indicating that the Committees are
pursuing a law enforcement objective, which is beyond
the power of Congress. See Quinn, 349 U.S. at 161. But,
as Appellants themselves recognize, “a permissible
legislative investigation does not become impermissible
because it might reveal evidence of a crime.” Br. for
Appellants at 22. Any investigation into the effectiveness
of the relevant agencies’ existing efforts to combat money

298a
Appendix I
laundering or the need for new legislation to render such
efforts more effective can be expected to discover evidence
of crimes, and such discovery would not detract from
the legitimacy of the legislative purpose in undertaking
the investigation. The Supreme Court long ago rejected
Appellants’ argument: “Nor do we think it a valid objection
to the investigation that it might possibly disclose crime
or wrongdoing on [an executive branch official’s] part.”
McGrain, 273 U.S. at 179-80. See Sinclair, 279 U.S. at
295 (“[T]he authority of [Congress], directly or through
its committees, to require pertinent disclosures in aid of
its own constitutional power is not abridged because the
information sought to be elicited may also be of use in
[criminal prosecutions].”).
Appellants fault Judge Ramos, who, they contend,
“asserted that Congress has an independent ‘informing
function’ that allows it to . . . ‘publicize corruption . . . in
agencies of the Government,’ even absent a connection to
‘contemplated legislation in the form of a bill or statute.’”
Br. for Appellants at 23 (quoting District Court opinion,
J. App’x 127). Although the phrases quoted from the
Court’s opinion are accurate, the brief’s addition of
the words “independent” and “absent a connection” is
a mischaracterization of what Judge Ramos said. He
was not asserting an independent informing function or
investigative power absent a connection to a legislative
purpose. He was careful to state that Congress’s legislative
authority “includes a more general informing function.” J.
App’x 127 (emphasis added). This reflected the Supreme
Court’s statement in Hutchinson v. Proxmire, 443 U.S.
111, 132-33, 99 S. Ct. 2675, 61 L. Ed. 2d 411 (1979), that

299a
Appendix I
“congressional efforts to inform itself through committee
hearings are part of the legislative function.” 71
However, some of the Cou r t’s statements in
Watkins create uncertainty as to whether, and in what
circumstances, an informing function permits public
disclosure of information obtained as part of a valid
legislative inquiry. On the one hand, the Court said, “We
have no doubt that there is no congressional power to
expose for the sake of exposure.” 354 U.S. at 200. On the
other hand, the Court also said, “The public is, of course,
entitled to be informed concerning the workings of its
government.”72 Id. And, in cautioning that the public’s right
to be informed about its government “cannot be inflated
into a general power to expose,” id., the Court added in
the same sentence, “where the predominant result can
only be an invasion of the private rights of individuals,” id.
(emphases added). The Court also noted that it was “not
concerned with the power of the Congress to inquire into
and publicize corruption, maladministration or inefficiency
71. To whatever extent Judge Ramos might be understood as
treating the informing function as an additional source of Congress’s
power, he did not rely on that source of authority, mentioning it only
as part of a general overview of Congress’s powers.
72. In Hutchinson, the Supreme Court arguably contradicted
this statement when it said, “[T]he transmittal of . . . information
by individual Members in order to inform the public [about their
activities in Congress] is not a part of the legislative function or the
deliberations that make up the legislative process.” 443 U.S. at 133.
However, the Court’s next sentence makes the limited context clear:
“As a result, transmittal of such information by press releases and
newsletters is not protected by the Speech or Debate Clause.” Id.

300a
Appendix I
in agencies of the Government.” Id. at 200 n.33. These
latter statements make clear that Congress can obtain
information in an investigation as long as the information
is collected in furtherance of valid legislative purposes.
In the pending appeal, the high significance of the valid
legislative purposes demonstrates that the “predominant
purpose” of the Committees’ inquiries cannot be said to
be “only” to invade private rights.
Specific substantive objections to scope of subpoenas.
We next consider Appellants’ specific challenges to the
scope of the subpoenas. Of the three subpoenas, the two
identical subpoenas to Deutsche Bank have the broadest
scope. These subpoenas fill six single-spaced pages
describing eight categories of documents, subdivided
into 52 paragraphs, many of which request several types
of items. If such extensive document requests were
made during discovery in ordinary civil litigation, an
initial response would likely be that the requests are
too burdensome. In this case, however, the Banks have
made no claim that compiling the requested documents
imposes an excessive burden on them. It is Appellants
whose privacy is claimed to be unlawfully impaired by
the Banks’ compliance with the subpoenas who challenge
the breadth of the requests. To consider that challenge
we examine the subpoenas in detail.
We note that of the eight categories of documents sought
by the two Deutsche Bank Subpoenas, only categories 1,
7, and 8 request documents belonging to, or likely to
reveal information concerning, Appellants or entities they
control or in which they are alleged to have interests. The

301a
Appendix I
Committees confirmed this fact during oral argument,
without dispute from Appellants. The first category
of documents includes, with respect to the individuals
(including members of their immediate families) and
entities named: documents reflecting applications to open
accounts, due diligence, and related items, ¶ 1(i); account
statements, ¶ 1(ii); transfers of amounts in excess of
$10,000, ¶ 1(iii); summaries or analyses of account activity
including the destination of checks (without limitation as
to amount), ¶ 1(iv); suspicious activity, ¶ 1(v); investment,
mortgage, and credit arrangements and related items,
¶ 1(vi), including appraisals of assets, ¶ 1(vi)(d), and
financial information provided by borrowers, ¶ 1(vi)(e),
such as tax returns, ¶ 1(vi)(e)(7), and bankruptcy records,
¶ 1(vi)(e)(8); information supplied pursuant to §§ 314(a) or
314(b) of the PATRIOT Act, Pub. L. No. 107-56, ¶ 1(vii);
records generated by named bank employees, ¶ 1(viii);
documents not kept in customary record-keeping systems
related to the named individuals and entities, ¶ 1(ix); and
matters discussed with Deutsche Bank’s boards, ¶ 1(x).
The seventh category covers documents reflecting
periodic reviews of the identified individuals and entities.
¶ 7. The eighth category covers any communications by
named employees of the Banks concerning the identified
individuals and entities. ¶ 8. Many of the paragraphs in
categories 1, 7, and 8 seek documents “including, but not
limited to, those involving any foreign individual, entity,
or government” or similar language. E.g., ¶ 1(vi), ¶ 1(vi)(k).
The subpoena from the Financial Services Committee
to Capital One is less extensive, filling one and one-half

302a
Appendix I
single-spaced pages describing one category of documents,
subdivided into fifteen paragraphs, two of which request
several items. This category includes, with respect to
accounts held by the entities named and their principals,
directors, etc.: documents related to applications to open
accounts and due diligence, ¶ 1(i); documents identifying
those with interests in the accounts, ¶ 1(ii); documents
identifying any account manager, ¶ 1(iii); monthly
statements and cancelled checks in excess of $5,000,
¶ 1(iv); summaries or analyses of account activity including
the destination of checks (without limitation as to amount),
¶ 1(v); transfers in excess of $10,000, ¶ 1(vi); documents
concerning suspicious activity, ¶ 1(vii); reviews of accounts
pursuant to Capital One’s procedures related to Bank
Secrecy Act, anti-money-laundering, and compliance
with guidance on “Politically Exposed Persons,” ¶ 1(viii);
documents not kept in customary record-keeping systems
related to any loan provided to the named entities,
¶ 1(ix); documents related to real estate transactions,
¶ 1(x); documents provided in response to any subpoena
or request from any U.S. Federal or state agency,
¶ 1(xi)(a); notices of administrative, civil, or criminal
actions, ¶ 1(xi)(b); requests pursuant to §§ 314(a) or
314(b) of the PATRIOT Act, ¶ 1(xi)(c); and requests for
information to or from a third party, ¶ 1(xi)(d).
Sensitive personal information. A specific item in
the subpoenas that raises serious concerns as to whether
even valid legislative purposes permit exposure of
matters entitled to privacy protection is the request for
“analyses of . . . transfers, including . . . the destination of
the transfers . . ., including any . . . check . . . .” Deutsche

303a
Appendix I
Bank Subpoenas, ¶ 1(iv); Capital One Subpoena, ¶ 1(v)
(emphasis added). These items have no dollar limitations,
even though other provisions limit transfer information
to checks above specified amounts. Deutsche Bank
Subpoenas, ¶ 1(iii) ($10,000); Capital One Subpoena,
¶ 1(iv) ($5,000). In addition to “analyses” of all checks,
the Deutsche Bank Subpoenas seek “monthly or other
periodic account statements” including “outgoing funds
transfers,” ¶ 1(ii), which might reveal the recipients of at
least some checks.
These provisions create a risk that some of the checks
sought might reveal sensitive personal details having no
relationship to the Committees’ legislative purposes.
For example, if one of the entities decided to pay for
medical services rendered to an employee, the check,
and any similar document disclosing sensitive personal
information unrelated to business transactions, should
not be disclosed. The same would be true of any check
reflecting payment for anyone’s medical services. The
Committees have advanced no reason why the legislative
purposes they are pursuing require disclosure of such
sensitive personal information. Indeed, counsel for the
Committees at oral argument appeared to recognize that
such sensitive personal information need not be disclosed.
Oral Arg. Tr. at p. 41, ll. 8-18. We have not located any
decision that has considered whether Congress is entitled
to require disclosure of sensitive personal information
that might be swept up in a collection of business-related
financial documents legitimately sought in aid of legislative
purposes. At least in the absence of a compelling reason
for such disclosure, we decline to permit it in this case.

304a
Appendix I
Other possibly excludable documents. In addition
to what we have described as “sensitive documents,” we
recognize that there might be a few documents within the
coverage of the subpoenas that have such an attenuated
relationship to the Committees’ legislative purposes that
they need not be disclosed.
We have concluded that the coverage of the following
paragraphs of the Deutsche Bank Subpoenas might include
some documents warranting exclusion: paragraphs 1(ii),
1(iv), 1(vi)(e), 1(viii), and 8. We reach the same conclusion as
to the following paragraphs of the Capital One subpoena:
paragraphs 1(iv), 1(v), 1(x), and 1(xi)(d). We have no such
concerns with the coverage of any of the other paragraphs
of the subpoenas. All the documents within the coverage of
these other paragraphs are sufficiently likely to be relevant
to legislative purposes.73 Even if within the coverage of
these other paragraphs are some documents that turn
out not to advance the Committees’ investigations, that
would not be a valid reason for excluding such documents
from production. As the Supreme Court has observed
with reference to another challenge to a congressional
subpoena seeking private banking records, “The very
nature of the investigative function—like any research—is
that it takes the searchers up some ‘blind alleys’ and into
73. For example, paragraph 1(v) of the Deutsche Bank
subpoenas calls for production of “any document related to
monitoring for . . . possible suspicious activity,” and paragraph
1(vii) calls for production of “any document related to any request
for information issued or received by Deutsche Bank AG pursuant
to Sections 314(a) or 314(b) of the USA PATRIOT Act,” provisions
that concern money laundering.

305a
Appendix I
nonproductive enterprises. To be a valid legislative inquiry
there need be no predictable end result.” Eastland, 421
U.S. at 509.
Any attempt to identify for exclusion from disclosure
documents within the listed paragraphs must be done
with awareness that a principal legislative purpose of the
Committees is to seek information about the adequacy of
banking regulators’ steps to prevent money laundering,
a practice that typically disguises illegal transactions
to appear lawful. Many documents facially appearing to
reflect normal business dealings will therefore warrant
disclosure for examination and analysis by skilled
investigators assisting the Committees to determine the
effectiveness of current regulation and the possible need
for improved legislation.
Procedure for exclusion of specific documents. To
facilitate exclusion of sensitive documents and those few
documents that should be excluded from the coverage of
the listed paragraphs, we instruct the District Court on
remand to implement the following procedure:74 (1) after
each of the Banks has promptly, and in no event beyond
30 days, assembled all documents within the coverage of
paragraphs 1(ii), 1(iv), 1(vi)(e), 1(viii), and 8 of the Deutsche
Bank Subpoenas and paragraphs 1(iv), 1(v), 1(x), and 1(xi)
(d) of the Capital One Subpoena, counsel for Appellants
shall have 14 days to identify to the District Court all
sensitive documents and any documents (or portions of
74. See 28 U.S.C. § 2106 (appellate court “may remand the cause
and . . . require such further proceedings to be had as may be just
under the circumstances.”).

306a
Appendix I
documents) within the coverage of the listed paragraphs
that they contend should be withheld from disclosure,
under the limited standard discussed above; (2) counsel
for the Committees shall have seven days to object to the
nondisclosure of such documents; (3) the District Court
shall rule promptly on the Committees’ objections; (4)
Appellants and the Committees shall have seven days to
seek review in this Court of the District Court’s ruling
with respect to disclosure or nondisclosure of documents
pursuant to this procedure.75 Any appeal of such a ruling
will be referred to this panel.
The abbreviated timetable of this procedure is set
in recognition of the Supreme Court’s instruction that
motions to enjoin a congressional subpoena should “be
given the most expeditious treatment by district courts
because one branch of Government is being asked to halt
the functions of a coordinate branch.” Eastland, 421 U.S.
at 511 n.17.
All other documents. All documents within the
coverage of the paragraphs not listed and those documents
not excluded pursuant to the procedure outlined above
shall be promptly transmitted to the Committees in daily
batches as they are assembled, beginning seven days from
the date of this opinion.
Except as provided above, all three subpoenas seek
documents that the Committees are entitled to believe
75. Review may be initiated by a letter to the Clerk of this
Court, referencing the existing docket number, without the need to
file a notice of appeal.

307a
Appendix I
will disclose information pertinent to legitimate topics
within the Committees’ authorized investigative authority,
especially money laundering, inappropriate foreign
financial relationships with the named individuals and
entities, and Russian operations to influence the U.S.
political process. As the Supreme Court has observed,
documents subpoenaed by a congressional committee
need only be “not plainly incompetent or irrelevant to
any lawful purpose [of a committee] in the discharge of
its duties.” McPhaul v. United States, 364 U.S. 372, 381,
81 S. Ct. 138, 5 L. Ed. 2d 136 (1960) (quotation marks
and brackets omitted). The documents sought by the
three subpoenas easily pass that test. The subpoenas are
reasonably framed to aid the Committees in fulfilling their
responsibilities to conduct oversight as to the effectiveness
of agencies administering statutes within the Committees’
jurisdiction and to obtain information appropriate for
consideration of the need for new legislation.
Objections of the United States as amicus curiae.
The United States makes several additional arguments
in its amicus curiae brief. The amicus brief contends
that “the possibility that a subpoena might transgress
separation-of-powers limits . . . mandates that the House
clearly authorize a subpoena directed at [the President’s]
records.” Br. for Amicus United States at 10 (citing
Franklin v. Massachusetts, 505 U.S. 788, 800-01, 112 S.
Ct. 2767, 120 L. Ed. 2d 636 (1992), and Armstrong v. Bush,
924 F.2d 282, 289, 288 U.S. App. D.C. 38 (D.C. Cir. 1991)).
First, this case does not concern separation of powers.
The Lead Plaintiff is not suing in his official capacity, no
action is sought against him in his official capacity, no

308a
Appendix I
official documents of the Executive Branch are at issue,
Congress has not arrogated to itself any authority of the
Executive Branch, and Congress has not sought to limit
any authority of the Executive Branch.
Second, the cited cases, Franklin and Armstrong,
do not concern congressional requests for information.
Both require a clear statement from Congress when a
statute is claimed to limit presidential power. In all of the
numerous decisions concerning congressional subpoenas
for information from Executive Branch officials, including
the President, there is not even a hint, much less a ruling,
that the House (or Senate) is required to authorize a
specific subpoena issued by one of its committees. In
any event, the materials cited above provide sufficient
clarity, in light of Supreme Court decisions concerning
congressional investigations, to authorize subpoenas for
the Lead Plaintiff’s unofficial business records in aid of
valid legislative purposes.
The amicus brief argues that a President is “entitled
to special solicitude in discovery,” Br. for Amicus United
States at 6 (citing Cheney, 542 U.S. at 385, and In re
Trump, 928 F.3d 360, 371-72 (4th Cir. 2019)), “even in suits
solely related to his private conduct,” id. (citing Jones,
520 U.S. at 707). As a general proposition, we agree and
have endeavored to recognize that point in the special
procedure we have directed the District Court to follow
on a limited remand. We note, however, that in Cheney
the Supreme Court was careful to point out that “special
considerations control when the Executive Branch’s
interests in maintaining the autonomy of its office and

309a
Appendix I
safeguarding the confidentiality of its communications
are implicated.” Cheney, 542 U.S. at 385. In the pending
appeal, the Lead Plaintiff is suing in his individual capacity,
no confidentiality of any official documents is asserted,
and any concern arising from the risk of distraction in
the performance of the Lead Plaintiff’s official duties
is minimal in light of the Supreme Court’s decision in
Clinton v. Jones, and, in any event, far less substantial
than the importance of achieving the legislative purposes
identified by Congress. In Jones, the claimed distraction
was that attending a deposition and being subjected to a
civil trial would divert some of the President’s time from
performance of his official duties; in the pending case,
there is no claim of any diversion of any time from official
duties. Jones, although expressing concern with “the high
respect that is owed to the office of the Chief Executive,”
not only permitted discovery directed to the President
but also obliged him to be subjected to a civil trial. 520
U.S. at 707.76In re Trump, 928 F.3d at 379-80, concerned
76. Judge Livingston seeks to minimize the significance of
Clinton v. Jones on several grounds. First, she attempts to refute our
point that this case does not involve separation-of-powers concerns,
Part. Diss. Op. at 15-16, but in doing so, she accords little significance
to the major reason for that point: the Lead Plaintiff is suing in his
individual, not his official, capacity. She then seeks to relegate Jones
to near insignificance by referring to “longstanding interbranch
practice,” id. at 17, again ignoring the fact that this litigation is not
a conflict between branches of the Government. The fact that the
United States filed only an amicus curiae brief, rather than intervene
to assert the interests of the United States or those of the office of
the President, underscores the absence of a true interbranch conflict.
The point that compliance with the subpoenas will not have an impact
on the Lead Plaintiff’s time sufficient to bar compliance arises from

310a
Appendix I
a petition for mandamus directing a District Court to
dismiss for lack of standing a complaint alleging violation
of the Foreign and Domestic Emoluments Clauses, U.S.
Const. art I, § 9, cl. 8, art II, § 1, cl. 7.
The amicus brief not only repeats Appellants’ argument
that the House must identify a legitimate legislative
purpose for seeking the President’s information, but
adds that it must do so “with sufficient particularity that
courts can concretely review the validity of any potential
legislation and determine whether the information
requested is pertinent and necessary to Congress’s
consideration of such legislation.” Br. for Amicus United
States at 11. The meaning of this sentence is not clear.
If it means that legislative purpose must be sufficiently
identified to enable a court now to consider the validity
of any legislation that might be enacted in the future, it
would encounter the prohibition on advisory opinions.
See Flast v. Cohen, 392 U.S. 83, 96, 88 S. Ct. 1942, 20 L.
Ed. 2d 947 (1968) (“[T]he rule against advisory opinions
implements the separation of powers prescribed by
the Constitution and confines federal courts to the role
assigned them by Article III.”). On the other hand, if
the sentence means that legislative purpose must be
a comparison with Clinton v. Jones, in which the Supreme Court
required a President to be available for a deposition and be subject
to a civil trial. The so-called distraction of the Lead Plaintiff is of
far less significance than what the Supreme Court permitted with
respect to President Clinton. In sum, Judge Livingston offers no
reason to think that compliance with the subpoenas will distract the
Lead Plaintiff from the performance of official duties to a greater
extent than the Supreme Court permitted in Clinton v. Jones.

311a
Appendix I
sufficiently identified so that it will serve as an aid in
interpreting legislation that might be enacted in the
future, there is no requirement that legislative purpose
sufficient to support a congressional subpoena must also
suffice to aid a court in interpreting some statute yet to
be enacted. In any event, the legislative purposes of the
Committees’ subpoenas have been sufficiently identified.
Refining Appellants’ argument that the Committees’
valid legislative purposes have not been adequately
identified, the amicus brief argues that “courts must
assess ‘the connective reasoning whereby the precise
questions asked relate to’ the legitimate legislative
purpose.” Br. for Amicus United States at 14 (quoting
Watkins, 354 U.S. at 215). This quotation from Watkins
is difficult to square with the Supreme Court’s later
statement in McPhaul that subpoenaed documents need
only be “not plainly incompetent or irrelevant to any
lawful purpose [of a committee] in the discharge of its
duties.” McPhaul, 364 U.S. at 381 (quotation marks and
brackets omitted). It would appear that the “connective
reasoning” phrase of Watkins, if still valid at all, is limited
to the context in which it was said-a committee witness’s
objection to a specific question-and not to a subpoena for
adequately described categories of documents that are
relevant to adequately identified valid legislative purposes
of investigation.
The amicus brief argues that subpoenaed information
“not ‘demonstrably critical’ should be deemed insufficiently
pertinent when directed at the President’s records.” Br.
for Amicus United States at 15 (quoting Senate Select

312a
Appendix I
Committee on Presidential Campaign Activities v.
Nixon, 498 F.2d 725, 731, 162 U.S. App. D.C. 183 (D.C.
Cir. 1974) (in banc)). The D.C. Circuit used the phrase
“demonstrably critical” as a standard for overcoming
a claim of executive privilege. See Nixon, 498 F.2d at
727. President Nixon had asserted that tape recordings
of his conversations with senior staff “cannot be made
public consistent with the confidentiality essential to the
functioning of the Office of the President.” Id. (internal
quotation marks omitted). In the pending appeal, no claim
of executive privilege has been made, much less a claim
that withholding the subpoenaed documents is “essential
to the functioning of the Office of the President.” Id.
The amicus brief asserts that “[c]ourts may require
the Committees first ‘to narrow the scope of the subpoenas’
to first seek critical information in light of the President’s
constitutional interests,” Br. for Amicus United States at
17 (ellipsis omitted) (quoting Cheney, 542 U.S. at 390), and
that “[c]ourts may require Congress first to determine
whether records relevant to a legitimate legislative
purpose are not, in fact, available from other sources
that would not impinge on constitutional interests,” id.
(citing Watkins, 354 U.S. at 206). That argument has no
application to the many documents that were generated by
the Banks. Moreover, the District Court was not required
to do what it “may” do,77 and the President’s “constitutional
77. The amicus brief asserts that the District Court “assumed
that it had no authority to deal with the overbroad character of the
congressional subpoenas here.” Br. for Amicus United States at 25
(citing J. App’x 138). We see no indication that the District Court
made such an assumption, either at the cited reference to the District
Court’s opinion or elsewhere in that opinion.

313a
Appendix I
interests” are implicated when official documents are
sought, as in Cheney, precipitating “a conflict between
the [L]egislative and [E]xecutive [B]ranches,” AT&T I,
551 F.2d at 390.
The amicus brief contends that H.R. 507 is insufficient
authorization for the subpoenas to the extent that it
authorizes not only current subpoenas to the named
persons and entities but also future subpoenas to them.
Br. for Amicus United States at 18. Because the pending
appeal concerns denial of a preliminary injunction to
prevent compliance with issued subpoenas, we make no
determination with respect to future subpoenas.
In an overarching argument endeavoring to strengthen
and make decisive many of the arguments just considered,
the amicus brief urges the principle of constitutional
avoidance. Confronting a constitutional challenge to
a statute of uncertain meaning, courts sometimes
interpret the statute so that it clearly comports with the
Constitution. See, e.g., Crowell v. Benson, 285 U.S. 22, 62,
52 S. Ct. 285, 76 L. Ed. 598 (1932). Enlisting the principle
of constitutional avoidance in the pending appeal, the
amicus brief contends that the principle should persuade
this Court to require the Committees to “‘explore other
avenues’” for obtaining the information, Br. for Amicus
United States at 3 (quoting Cheney, 542 U.S. at 390);
to require the District Court “to proceed in a more
tailored manner,” id. at 5; to approach “with the utmost
caution” the task of “balanc[ing] Congress’s interest in
the information against any constitutional interests of the
party withholding it,” id. at 16; and to require the District

314a
Appendix I
Court “to attempt to avoid a conflict between constitutional
interests before it can ‘intervene responsibly,’” id. at 17-18
(quoting AT&T II, 567 F.2d at 131). The amicus brief also
reminds us of the Supreme Court’s statement in Rumely
suggesting “abstention from adjudication unless no choice
is left.” 345 U.S. at 46.
In the circumstances of this case, we do not believe
that constitutional avoidance adds persuasive force to the
arguments in the amicus brief. First, we question whether
constitutional avoidance applies beyond the context of
interpreting ambiguous statutes that are challenged as
unconstitutional. The Supreme Court considered that
question in an analogous situation in FCC v. Fox Television
Stations, Inc., 556 U.S. 502, 129 S. Ct. 1800, 173 L. Ed. 2d
738 (2009). Broadcasters urged the Court to apply to the
FCC a more stringent arbitrary-and-capricious standard
of review of agency actions that implicate constitutional
liberties. See id. at 516. In declining to do so, the Court
said, “We know of no precedent for applying [the principle
of constitutional avoidance] to limit the scope of authorized
executive action.” Id. Similarly, it is at least doubtful
whether the principle should be enlisted to limit the scope
of authorized congressional action.
Second, to the extent that decisions like Cheney
and Rumely advised courts to proceed with caution,
they did so in contexts quite different from the pending
appeal. Cheney involved a real confrontation between the
Legislative and Executive Branches; Rumely involved a
“limitation imposed by the First Amendment,” 345 U.S.
at 44. By contrast, the pending appeal involves solely

315a
Appendix I
private financial documents, and the Lead Plaintiff sues
only in his individual capacity. The only defense even
implicating the office of the presidency is the possibility
that document disclosure might distract the Lead Plaintiff
in the performance of his official duties, a risk we have
concluded, in light of Supreme Court precedent, Clinton
v. Jones, is minimal at best. Appellants make no claim
that Congress or its committees are purporting to curb
in any way the powers of the Executive Branch.
For all of these reasons, we see no reason to permit
constitutional avoidance to provide added strength to the
arguments of the amicus or Appellants themselves.
Having considered Appellants’ statutor y and
constitutional claims, we conclude that they have not
shown a likelihood of success on any of them. In reaching
this conclusion, we recognize that we are essentially
ruling on the ultimate merits of Appellants’ claims. But,
as the Supreme Court has pointed out, “Adjudication of
the merits is most appropriate if the injunction rests on
a question of law and it is plain that the plaintiff cannot
prevail.” Munaf v. Geren, 553 U.S. 674, 691, 128 S. Ct.
2207, 171 L. Ed. 2d 1 (2008). That is the situation here.
III. Sufficiently Serious Questions to Make Them a Fair
Ground for Litigation
In considering the less rigorous serious-questions
standard for a preliminary injunction, it is important
to recognize that the first component of this standard,
in addition to a balance of hardships tipping decidedly

316a
Appendix I
in favor of the moving party, is “sufficiently serious
questions going to the merits to make them a fair ground
for litigation.” Kelly, 933 F.3d at 184 (emphasis added);
Jackson Dairy, 596 F.2d at 72. The meaning of this
emphasized phrase rarely receives explicit consideration.
Two interpretations are possible.
The phrase could mean that the questions raised have
sufficiently serious legal merit to be open to reasonable
debate. That view of the phrase would be especially
appropriate in those cases where the need for preliminary
relief precipitously arose just prior to some impending
event and the party seeking temporary relief has not
had an adequate opportunity to fully develop its legal
arguments. Alternatively, or in addition, the phrase could
mean that the questions raised have sufficiently serious
factual merit to warrant further investigation in discovery
and, if summary judgment is not warranted, at trial.
In the pending appeal, the District Court stated,
“The word ‘serious’ relates to a question that is both
serious and open to reasonable debate.” J. App’x 150. But
Judge Ramos declined to accept Appellants’ claim that
just raising a constitutional objection to the subpoenas
sufficed to render the claim serious. As he observed, if that
sufficed, “every complaint challenging the power of one of
the three coordinate branches of government would result
in preliminary relief, regardless of whether established
law renders the complaint unmeritorious.” Id.
Our case law indicates that the phrase “make them fair
ground for litigation” often refers to those factual disputes

317a
Appendix I
that can be resolved at trial only after investigation
of the facts. We have stated that the questions raised
by a plaintiff’s claims must be “so serious, substantial,
difficult and doubtful as to make them a fair ground for
litigation and thus for more deliberate investigation.”
Hamilton Watch Co. v. Benrus Watch Co., 206 F.2d 738,
740 (2d Cir. 1953) (emphasis added). The emphasized
words appear to have originated in Hamilton Watch, but
have been frequently repeated by this Court. See Gulf &
Western Industries, Inc. v. Great Atlantic & Pacific Tea
Co., 476 F.2d 687, 692, 693 (2d Cir. 1973); Checker Motors
Corp. v. Chrysler Corp., 405 F.2d 319, 323 (2d Cir. 1969);
Unicon Management Corp. v. Koppers Co., 366 F.2d
199, 205 (2d Cir. 1966). More recently, we pointed out in
Citigroup Global Markets that a virtue of the seriousquestions standard is “that it permits the entry of an
injunction in cases where a factual dispute renders a
fully reliable assessment of the merits impossible.” 598
F.3d at 36 (emphasis added). For example, in Jacobson
& Co. v. Armstrong Cork Co., 548 F.2d 438 (2d Cir.
1977), we affirmed a preliminary injunction under the
serious-questions standard because the plaintiff had
presented affidavits, depositions, and exhibits sufficient
to contest the factual issue of the reason for an employee’s
termination, see id. at 444.
We need not choose between these meanings of
“fair ground for litigation.” Appellants are not entitled
to a preliminary injunction under the serious-questions
standard because (1) that standard, as we have discussed,
see Part I, does not apply to preliminary injunctive relief
sought to prevent governmental action, and (2) even if

318a
Appendix I
applicable, the standard requires a balance of hardships
that tips decidedly to the plaintiff, a requirement not
met in this case, see Point IV. We also point out that, to
the extent that the serious-questions standard furnishes
an opportunity to develop legal arguments concerning
a reasonably debatable question, Appellants have fully
developed their positions in the 95 pages of briefs they
have submitted. To the extent that the serious-questions
standard is available for factual development of an issue,
Appellants have not identified a single factual issue that
might warrant a trial or a single witness or document that
might add substance to their claims at a trial.
Furthermore, both their statutory and constitutional
claims, though serious in at least some sense, lack merit,
and, because they both involve solely issues of law, are
properly rejected at this stage of the litigation, see Munaf,
553 U.S. at 691-92, except for the limited remand we have
ordered.
IV. Balance of Hardships/Equities
The hardship for Appellants if a preliminary injunction
is denied would result from the loss of privacy for their
financial documents. We have recognized that this loss of
privacy is irreparable. In assessing the seriousness of that
loss for purposes of determining the balance of hardships,
we note that the loss will be somewhat mitigated to the
extent that sensitive personal information and some
documents will not be disclosed pursuant to the procedure
we have ordered upon remand. The seriousness of the
hardship arising from disclosure of the information called

319a
Appendix I
for by the subpoenas should be assessed in light of the
fact that the Lead Plaintiff is already required to expose
for public scrutiny a considerable amount of personal
financial information pursuant to the financial disclosure
requirement of the Ethics in Government Act, 5 U.S.C.
app. §§ 101-111, although considerably more financial
information is required to be disclosed by the subpoenas.
The hardship for the Committees if a preliminary
injunction is granted would result from the loss of time to
consider and act upon the material disclosed pursuant to
their subpoenas, which will expire at the end of the 116th
Congress. This loss is also irreparable. In assessing the
seriousness of that loss for purposes of determining the
balance of hardships, we note that the Committees have
already been delayed in the receipt of the subpoenaed
material since April 11 when the subpoenas were issued.
They need the remaining time to analyze the material,
hold hearings, and draft bills for possible enactment.
Even if the balance of these hardships/equities tips
in favor of Appellants, which is debatable, it does not do
so “decidedly,” Kelly, 933 F.3d at 184; Jackson Dairy, 596
F.2d at 72, as our serious-questions standard requires.
V. Public Interest
The public interest in vindicating the Committees’
constitutional authority is clear and substantial. It is the
interest of two congressional committees, functioning
under the authority of a resolution of the House of
Representatives authorizing the subpoenas at issue,

320a
Appendix I
to obtain information on enforcement of anti-moneylaundering/counter-financing of terrorism laws, terrorist
financing, the movement of illicit funds through the
global financial system including the real estate market,
the scope of the Russian government’s operations to
influence the U.S. political process, and whether the
Lead Plaintiff was vulnerable to foreign exploitation.
The opposing interests of Appellants, suing only in their
private capacity, are primarily their private interests in
nondisclosure of financial documents concerning their
businesses, rather than intimate details of someone’s
personal life or information the disclosure of which might,
as in Watkins, 354 U.S. at 197-99, chill someone’s freedom
of expression.
We recognize, however, that the privacy interests
supporting nondisclosure of documents reflecting financial
transactions of the Lead Plaintiff should be accorded more
significance than those of an ordinary citizen because the
Lead Plaintiff is the President. Although the documents
are not official records of the Executive Branch, the
Lead Plaintiff is not suing in his official capacity, and
no executive privilege has been asserted, disclosure of
the subpoenaed documents can be expected to risk at
least some distraction of the Nation’s Chief Executive
in the performance of his official duties. See Nixon v.
Fitzgerald, 457 U.S. 731, 753, 102 S. Ct. 2690, 73 L. Ed.
2d 349 (1982) (noting risk of distraction as one reason for
establishing immunity of President from civil liability for
official actions). That concern, we note, did not dissuade
the Supreme Court from requiring President Nixon to
comply with a district court’s subpoena to produce tape

321a
Appendix I
recordings of conversations with senior staff, see United
States v. Nixon, 418 U.S. 683, 94 S. Ct. 3090, 41 L. Ed.
2d 1039 (1974), or requiring President Clinton to submit
to discovery, including a deposition, in civil litigation
involving pre-presidential conduct, see Jones, 520 U.S. at
697-706.78 See also Trump v. Vance, 941 F.3d 631, 641 n. 12
(2d Cir. 2019) (concluding that “the disclosure of personal
financial information, standing alone, is unlikely to impair
the President in performing the duties of his office”),
petition for cert. filed, No. 19-635 (U.S. Nov. 14, 2019).
The Committees’ interests in pursuing their
constitutional legislative function is a far more significant
public interest than whatever public interest inheres
in avoiding the risk of a Chief Executive’s distraction
arising from disclosure of documents reflecting his private
financial transactions.

78. In Jones, the Supreme Court stated, “The fact that a
federal court’s exercise of its traditional Article III jurisdiction may
significantly burden the time and attention of the Chief Executive
is not sufficient to establish a violation of the Constitution.” 520
U.S. at 703. The same can be said as to Congress’s exercise of its
traditional Article I jurisdiction. One court has discounted concern
that compliance with document requests might distract the President
in the performance of official duties by noting that “the President
himself appears to have had little reluctance to pursue personal
litigation despite the supposed distractions it imposes upon his
office.” District of Columbia v. Trump, 344 F. Supp. 3d 828, 843
(D. Md. 2018) (collecting examples), rev’d on other grounds (lack of
standing), In re Trump, 928 F.3d 360 (4th Cir. 2019).

322a
Appendix I
CONCLUSION
For all of these reasons, we conclude that under the
applicable likelihood-of-success standard, Appellants’
motion for a preliminary injunction was properly
denied, except as to disclosure of any documents that
might be determined to be appropriate for withholding
from disclosure pursuant to our limited remand. The
serious-questions standard is inapplicable, the balance of
hardships does not tip decidedly in favor of Appellants,
and the public interest favors denial of a preliminary
injunction.
We affirm the District Court’s order in substantial
part to the extent that it denied a preliminary injunction
and order prompt compliance with the subpoenas,
except that the case is remanded to a limited extent for
implementation of the procedure set forth in this opinion
concerning the nondisclosure of sensitive personal
information and a limited opportunity for Appellants to
object to disclosure of other specific documents within
the coverage of those paragraphs of the subpoenas listed
in this opinion. The mandate shall issue forthwith, but
compliance with the three subpoenas and the procedure
to be implemented on remand is stayed for seven days to
afford Appellants an opportunity to apply to the Supreme
Court or a Justice thereof for an extension of the stay.

323a
Appendix I
Debra A nn Livingston, Circuit Judge, concurring in part
and dissenting in part:
Although not expressly provided for in the Constitution,
Congress’s power to conduct investigations for the purpose
of legislating is substantial, “as penetrating and farreaching as the potential power to enact and appropriate
under the Constitution.” Eastland v. U.S. Servicemen’s
Fund, 421 U.S. 491, 504 n.15, 95 S. Ct. 1813, 44 L. Ed.
2d 324v (1975) (quoting Barenblatt v. United States, 360
U.S. 109, 111, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959)). Yet
this power is not unlimited. When Congress conducts
investigations in aid of legislation, its authority derives
from its responsibility to legislate—to consider the
enactment of new laws or the improvement of existing
ones for the public good.1 Congress has no power to expose
personal information for the sake of exposure, see Watkins
v. United States, 354 U.S. 178, 200, 77 S. Ct. 1173, 1 L.
1. None of these subpoenas issued in connection with an
impeachment proceeding, in which Congress’s investigatory powers
are at their peak, but rather, as stated, “in aid of legislation.” See
Kilbourn v. Thompson, 103 U.S. 168, 190, 26 L. Ed. 377 (1880) (noting
that “[w]here the question of . . . impeachment is before [the House or
the Senate] acting in its appropriate sphere on that subject, we see
no reason to doubt the right to compel the attendance of witnesses,
and their answer to proper questions, in the same manner and by
the use of the same means that courts of justice can in like cases”);
Senate Select Comm. on Presidential Campaign Activities v. Nixon,
498 F.2d 725, 732, 162 U.S. App. D.C. 183 (D.C. Cir. 1974) (citing to
Article I, Section 2 of the Constitution when noting that impeachment
investigations in the House have “an express constitutional source”
which differentiates them from Congress’s general oversight or
legislative power).

324a
Appendix I
Ed. 2d 1273, 76 Ohio Law Abs. 225 (1957) (expressing
“no doubt that there is no congressional power to expose
for the sake of exposure” (emphasis added)), nor may
it seek information to enforce laws or punish for their
infraction—responsibilities which belong to the executive
and judicial branches respectively, and not to it. Id. at 187
(noting that Congress is neither “a law enforcement [n]or
trial agency,” as “[t]hese are functions of the executive and
judicial departments of government”). As the Supreme
Court has put it: “No inquiry is an end in itself; it must be
related to, and in furtherance of, a legitimate task of the
Congress. Investigations conducted solely for the personal
aggrandizement of the investigators or to ‘punish’ those
investigated are indefensible.” Id.
The legislative subpoenas here are deeply troubling.
Targeted at the President of the United States but
issued to third parties, they seek voluminous financial
information not only about the President personally, but
his wife, his children, his grandchildren, his business
organizations, and his business associates. 2 Collectively,
the subpoenas seek personal and business banking records
stretching back nearly a decade (and with regard to
several categories of information, with no time limitation
2. The Plaintiff entities here are defined to include not only
parents, subsidiaries, related joint ventures and the like, but any
“current or former employee, officer, director, shareholder, partner,
member, consultant, senior manager, manager, senior associate,
staff employee, independent contractor, agent, attorney or other
representative of any of those entities,” so that the banking records
of numerous individuals beyond the President’s immediate family
are potentially included in this dragnet. J.A. at 47, 58.

325a
Appendix I
whatsoever) and they make no distinction between business
and personal affairs, nor consistently between large and
small receipts and expenditures. To be sure, breadth may
be necessary in legislative subpoenas so that Congress can
learn about a proposed subject of legislation sufficiently
to enact new laws or improve the old ones: such learning
is “an indispensable ingredient of lawmaking.” 3 Eastland,
421 U.S. at 505. Still, the district court was of the view
that in a routine civil case, it would have sent the parties
into a room with the instruction that “you don’t come out
until you come back with a reasonable subpoena.” J.A. at
94. The majority doesn’t disagree. It, too, characterizes
the subpoenas as “surely broad in scope.” Maj. Op. at
45. It acknowledges that compliance will “subject [the
President’s] private business affairs to the Committees’
scrutiny,” id. at 48, and impose irreparable harm, id. at 13.
It could have added that personal banking records of the
President and his family are not excluded, and that neither
House committee seeking this information will commit to
treating any portion of it as confidential, irrespective of
any public interest in disclosure. J.A. at 122-23.
The majority and I are in agreement on several points.
First, we agree that the Right to Financial Privacy Act
(“RFPA”), 12 U.S.C. §§ 3401-3423, does not apply to
Congress because, as the majority correctly concludes,
Congress is not a “Government authority” within the
3. That said, “legislative judgments normally depend more
on the predicted consequences of proposed legislative actions and
their political acceptability, than on precise reconstruction of past
events,” which appears to be the focus of the present subpoenas.
Nixon, 498 F.2d at 732.

326a
Appendix I
meaning of that statute. Maj. Op. at 24-33. We likewise
agree that 26 U.S.C. § 6103 of the Internal Revenue
Code does not pose an obstacle to Deutsche Bank AG’s
disclosure of tax returns in its possession in response to
the Committees’ subpoenas. Id. at 34-44. Accordingly,
I concur that, as to the statutory arguments presented
by the Plaintiffs, they have raised no serious question
suggesting that the House subpoenas may not be enforced.
The statutory arguments, however, are not the only
arguments presented. The majority and I agree that
this appeal raises an important issue regarding the
investigative authority of two committees of the United
States House of Representatives—the House Committee
on Financial Services and the House Permanent Select
Committee on Intelligence (collectively, “Committees”)—
in the context of their efforts to obtain voluminous
personal and business banking records of the President
of the United States, members of his immediate family,
his primary business organization and affiliated entities,
and his business associates. Maj. Op. at 4. In fact, the
question before us appears not only important (as the
majority acknowledges) but of first impression: the parties
are unaware of any Congress before this one in which a
standing or permanent select committee of the House has
issued a third-party subpoena for documents targeting a
President’s personal information solely on the rationale
that this information is “in aid of legislation.” Trump Br.
at 14; Tr. of Oral Arg. at 34:24-35:3-4. But this House
has now authorized all such House committees to issue
legislative subpoenas of this sort, so long as directed
at information involving this President, his immediate

327a
Appendix I
family, business entities, or organizations. H.R. Res. 507,
116th Cong. (2019); see also H.R. Res. 509, 116th Cong.
§ 3 (2019) (“House Resolution 507 is hereby adopted.”).
In such a context, “experience admonishes us to tread
warily.” United States v. Rumely, 345 U.S. 41, 46, 73 S.
Ct. 543, 97 L. Ed. 770 (1953). I agree with the majority
that our review of the denial of a preliminary injunction is
“appropriately more exacting where the action sought to
be enjoined concerns the President . . . in view of ‘[t]he high
respect that is owed to the office of the Chief Executive,’”
Maj. Op. at 11 (quoting Cheney v. U.S. Dist. Court, 542
U.S. 367, 385, 124 S. Ct. 2576, 159 L. Ed. 2d 459 (2004)).
We disagree, however, as to the preliminary injunction
standard to be applied. In my view, a preliminary
injunction may issue in a case of this sort when a movant
has demonstrated sufficiently serious questions going to
the merits to make them a fair ground for litigation, plus
a balance of hardships tipping decidedly in that party’s
favor, that the public interest favors an injunction, and
that the movant, as here, will otherwise suffer irreparable
harm. See Citigroup Glob. Markets, Inc. v. VCG Special
Opportunities Master Fund Ltd., 598 F.3d 30, 35, 38 (2d
Cir. 2010).
And as to the merits showing, I respectfully disagree
with the majority’s determination that the Plaintiffs’
constitutional arguments and those raised by the
United States as amicus curiae are insubstantial—not
sufficiently serious for closer review.4 Maj. Op. at 89-98.
4. Given my determination herein that the Plaintiffs have made
a showing of “serious questions” as to the merits and that this case

328a
Appendix I
I cannot accept the majority’s conclusions that “this case
does not concern separation of powers,” id. at 89, and
that there is “minimal at best” risk of distraction to this
and future Presidents from legislative subpoenas of this
sort, id. at 97. Instead, I conclude that the Plaintiffs have
raised serious questions on the merits, implicating not
only Congress’s lawmaking powers, but also the ability of
this and future Presidents to discharge the duties of the
Office of the President free of myriad inquiries instigated
“more casually and less responsibly” than contemplated
in our constitutional framework. Rumely, 345 U.S. at 46.
Nor do I agree with the majority’s determination
substantially to affirm the judgment and order compliance
with these subpoenas. The majority itself recognizes that
these broad subpoenas cannot be enforced precisely as
drafted because they call for the production of material
that may either bear “an attenuated relationship” to any
legislative purpose or that “might [even] reveal sensitive
personal details having no relationship to the Committees’
legislative purposes.” Maj. Op. at 84 (emphasis added).
The majority remands for a culling process pursuant to
which information disclosing, for instance, the payment
of medical expenses would be exempt from disclosure.
must be remanded, I need not now address whether the Plaintiffs
have also satisfied the “likelihood of success” standard—and I do
not do so, given the obligation in this context to avoid unnecessary
judicial determinations on constitutional questions implicating
Congress’s investigative powers. See Rumely, 345 U.S. at 46. I note,
however, that I do not concur in the majority’s determination that as
to the present reach of these subpoenas, the Plaintiffs have shown
no likelihood of success.

329a
Appendix I
Id. The majority’s limited culling, however, is tightly
restricted to specified categories of information, leaving
out almost all “business-related financial documents” from
any review by the district court, id., irrespective of any
threatened harm from disclosure, and potentially leaving
out substantial personal information as well. Indeed,
given the tight limitations imposed by the majority on the
district court’s review, even sensitive records reflecting
personal matters unrelated to any conceivable legislative
purpose could potentially be disclosed.
I agree with the majority that remand is necessary.
But we disagree as to the reasons why. I conclude that
the present record is insufficient to support the majority’s
determination that the voluminous records of Plaintiffs
sought from Deutsche Bank AG (“Deutsche Bank”) and
Capital One Financial Corporation (“Capital One”) should
at this time be produced. 5 The majority concludes in
advance—before these records have been assembled—
that only a select “few documents” will implicate privacy
concerns or bear “such an attenuated relationship” to
any legislative purpose that “they need not be disclosed.”
Maj. Op. at 85 (emphasis added). I disagree that the
present record is sufficient to make that determination
or to conclude, more fundamentally, where the balance
of hardships lies with regard to the preliminary relief
5. The Plaintiffs challenge the subpoenas as they relate to
the banking records of President Donald J. Trump, his family, and
his businesses—the Plaintiffs here. Trump Br. at 1. To the extent
the subpoenas seek other information related to parties who are
not Plaintiffs, the subpoenas have not been challenged and are not
part of this appeal.

330a
Appendix I
that the Plaintiffs seek. In this sensitive separation-ofpowers context, serious questions have been raised as
to the historical precedent for these subpoenas; whether
Congress has employed procedures sufficient to “prevent
the separation of power from responsibility,” Watkins,
354 U.S. at 215, in seeking this President’s personal
information; and whether the subpoenas are supported by
valid legislative purposes and seek information reasonably
pertinent to those purposes, see Quinn v. United States,
349 U.S. 155, 161, 75 S. Ct. 668, 99 L. Ed. 964 (1955) (noting
that Congress’s power to investigate “cannot be used to
inquire into private affairs unrelated to a valid legislative
purpose”). These questions, like the balance of hardship
question, also require further review.
As set forth herein, I would remand, directing the
district court promptly to implement a procedure by which
the Plaintiffs may lodge their objections to disclosure with
regard to specific portions of the assembled material and
so that the Committees can clearly articulate, also with
regard to specific categories of information, the legislative
purpose that supports disclosure and the pertinence
of such information to that purpose. The objective of
this remand is the creation of a record that is sufficient
more closely to examine the serious questions that the
Plaintiffs have raised and to determine where the balance
of hardships lies with regard to an injunction in this case,
and concerning particular categories of information.
The district court acknowledged that in a routine civil
case, it would not have ordered the disclosures here. The
majority errs in implicitly concluding that a President
has less protection from the unreasonable disclosure of

331a
Appendix I
his personal and business affairs than would be afforded
any litigant in a civil case.
Only on the basis of this fuller record would I
determine the question whether a preliminary injunction
should have issued, and with regard to what portions of
the records sought. In reaching this conclusion, I am
guided by the Supreme Court’s counsel in Rumely that
in the context of delicate constitutional issues involving
limits on the investigative power of Congress, our duty
is to avoid pronouncement “unless no choice is left.”
Rumely, 345 U.S. at 46; cf. Cheney, 542 U.S. at 389-90
(suggesting that courts should “explore other avenues” to
avoid adjudicating “overly broad discovery requests” and
“unnecessarily broad subpoenas” that present “collision
course” conflicts between coequal branches). Indeed,
Rumely affirms that the duty of constitutional avoidance
is “even more applicable” in the context of congressional
investigations “than to formal legislation.” Rumely, 345
U.S. at 46; see also Tobin v. United States, 306 F.2d 270,
275, 113 U.S. App. D.C. 110 (D.C. Cir. 1962) (recognizing
duty of courts in appropriate circumstances to avoid
“passing on serious constitutional questions” presented by
Congress’s exercise of its investigative power). Decision
here may be required, but is premature on the present
record.
Remand will also afford the parties an opportunity to
negotiate. This is not the essential point of the remand I
propose, but efforts at negotiation in this context are to
be encouraged, since they may narrow the scope of these
subpoenas, and thus avoid judicial pronouncement on

332a
Appendix I
the “broad confrontation now tendered.” United States
v. Am. Tel. & Tel. Co (AT&T I), 551 F.2d 384, 395, 179
U.S. App. D.C. 198 (D.C. Cir. 1976). The Plaintiffs have
repeatedly sought the opportunity to negotiate. Reply Br.
at 6-7; Tr. of Oral Arg. at 17:18-19, 18:3-20, 66:7-67:2. And
the Committees, while preferring the more immediate
disposition that the majority affords them, have expressed
a willingness to attempt negotiation on an expedited basis
if requested by this Court.6 Tr. of Oral Arg. at 46:8-19.

6. Before this Court, counsel for the Committees stated that
“[i]f this court thinks there should be negotiation . . . [p]lease make
it really, really fast, because we think that Mr. Trump’s statements
make clear this is absolutely insincere . . . [b]ut fine, give us a day.” Tr.
of Oral Arg. at 46:8-15. Counsel for the Plaintiffs specifically affirmed
in response that “I don’t think there is any basis to determine that
we are being insincere, and I certainly welcome, I think that we
have made clear, sending this case back down for judicially refereed
negotiations on whatever timeline the court thinks is appropriate is
absolutely something we are willing to participate in in good faith.”
Tr. of Oral Arg. at 66:21-67:2.
Referencing an October 8, 2019 letter from Pat A. Cippolone,
Counsel to the President, to the Speaker of the House of
Representatives and three House committee chairs (a letter that
is not part of the record before us), the majority concludes that a
remand for negotiation is futile because the President has prohibited
certain members of the Administration from appearing in connection
with the ongoing impeachment inquiry. Maj. Op. at 71-72, 72 n.66.
With respect, however, this letter references only the “impeachment
inquiry” and not the legislative investigations at issue here. This
letter thus provides no basis for this Court to disregard the express
representations of the Plaintiffs’ attorney that the Plaintiffs,
including the President, seek to negotiate in good faith.

333a
Appendix I
To be clear, and as set forth herein, the Plaintiffs
have raised serious questions on the merits as to these
subpoenas, which implicate profound separation-of-powers
concerns.7 But pending the full remand that I outline
herein, I defer for now the question whether they have also
7. The majority suggests that these subpoenas do not implicate
separation of powers because, inter alia, President Trump is not
suing in his official capacity. Maj. Op. at 70. I disagree. As in Rumely,
“we would have to be that ‘blind’ Court . . . that does not see what
‘(a)ll others can see and understand,’” not to recognize that these
subpoenas target the President in seeking personal and business
financial records of not only the President himself, but his three
oldest children and members of their immediate family, plus the
records of the Trump Organization and a litany of organizations with
which the President is affiliated. Rumely, 345 U.S. at 44 (quoting
Child Labor Tax Case, 259 U.S. 20, 37, 42 S. Ct. 449, 66 L. Ed.
817, 1922-2 C.B. 337, T.D. 3346 (1922)); see also id. (acknowledging
“wide concern, both in and out of Congress, over some aspects of the
exercise of the congressional power of investigation”); cf. Dep’t of
Commerce v. New York, 139 S. Ct. 2551, 2575, 204 L. Ed. 2d 978 (2019)
(noting that courts are “‘not required to exhibit a naiveté from which
ordinary citizens are free’’’(quoting United States v. Stanchich, 550
F.2d 1294, 1300 (2d Cir. 1977) (Friendly, J.))). Indeed, the Committees
themselves acknowledge that “President Trump and the Trump
Organization” are the focus of their investigations, see 165 Cong.
Rec. H2698 (daily ed. Mar. 13, 2019) (statement of Rep. Waters),
and that “given the closely held nature of the Trump Organization,”
investigation must “include [the President’s] close family members,”
District Court Doc. No. 51 at 25-26. To be sure, Presidents are not
immune from legislative subpoenas. But as I explain below, this
dragnet around the President implicates separation-of-powers
concerns for this and future Presidents, supporting a remand as to
all the Plaintiffs here. To the extent that certain of the requested
records may ultimately be found not to implicate separation-ofpowers concerns, such a determination can only properly be made
following a remand for development of the record.

334a
Appendix I
shown a balance of hardships tipping decidedly in their
favor. The remainder of this opinion sets out the reasons
for my conclusions: (1) that the Plaintiffs have raised
serious constitutional questions as to these legislative
subpoenas; and (2) that the serious question formulation of
the preliminary injunction standard is applicable, contrary
to the majority’s position.
I
A
To reiterate, the subpoenas here are very troubling.
Congress “cannot legislate wisely or effectively in the
absence of information respecting the conditions which the
legislation is intended to affect or change.” Eastland, 421
U.S. at 504. At the same time, ill-conceived inquiries by
congressional committees “can lead to ruthless exposure of
private lives in order to gather data” that is unrelated and
unhelpful to the performance of legislative tasks. Watkins,
354 U.S. at 205. And the “arduous and delicate task” of
courts seeking to accommodate “the congressional need
for particular information” with the individual’s “personal
interest in privacy,” id. at 198, does not grow easier
when Congress seeks a President’s personal information.
Indeed, given the “unique constitutional position of the
President” in our scheme of government, see Franklin v.
Massachusetts, 505 U.S. 788, 800, 112 S. Ct. 2767, 120 L.
Ed. 2d 636 (1992), and the grave importance of diligent
and fearless discharge of the President’s public duties,
our task grows more difficult. See Nixon v. Fitzgerald,
457 U.S. 731, 753, 102 S. Ct. 2690, 73 L. Ed. 2d 349 (1982)

335a
Appendix I
(recognizing that distraction from public duties is “to the
detriment of not only the President and his office but also
the Nation that the Presidency was designed to serve”).
The majority disagrees. It concludes that this case
“does not concern separation of powers” because the
sought-after records are personal, not official, and because
Congress “has not arrogated to itself any authority of the
Executive Branch,” nor “sought to limit any authority of the
Executive Branch.” Maj. Op. at 89. With respect, however,
this conclusion gives too short shrift to the Supreme
Court’s analysis in Clinton v. Jones, 520 U.S. 681, 117 S.
Ct. 1636, 137 L. Ed. 2d 945 (1997), on which the majority
principally relies. There, the Supreme Court concluded that
permitting a civil case to go forward “relat[ing] entirely
to the unofficial conduct of the individual who happens to
be the President” did not represent a per se impermissible
intrusion by the federal judiciary on executive power and
that the doctrine of separation of powers did not impose
a categorical rule that all such private actions must be
stayed against the President while in office. Id. at 701,
705-06. At the same time, however, the Court recognized
that it is insufficient that a branch “not arrogate power to
itself”: “the separation-of-powers doctrine [also] requires
that a branch not impair another in the performance of
its constitutional duties.” Id. at 701 (emphasis added)
(quoting Loving v. United States, 517 U.S. 748, 757, 116 S.
Ct. 1737, 135 L. Ed. 2d 36 (1996)); see also Nixon v. Adm’r
of Gen. Servs., 433 U.S. 425, 443-45, 97 S. Ct. 2777, 53 L.
Ed. 2d 867 (1977). And as for the judiciary in the context
of private litigation against a sitting President, “[t]he high
respect that is owed to the office of the Chief Executive,”

336a
Appendix I
the Court recognized, “though not justifying a rule of
categorical immunity, is a matter that should inform the
conduct of the entire proceeding, including the timing
and scope of discovery.” Id. at 707; see also Fitzgerald,
457 U.S. at 751-56 (noting that the “special nature of the
President’s constitutional office and functions,” id. at 756,
and the “singular importance,” id. at 751, of her duties
require particular “deference and restraint,” id. at 753,
in the conduct of litigation involving the President).
The majority concludes that legislative subpoenas to
third parties targeting a President’s personal or financial
information, however broad and tangentially connected
to any legislative purpose, do not seriously implicate
separation of powers on the theory that “any concern
arising from the risk of distraction in the performance of
the [President’s] official duties is minimal,” Maj. Op. at 90,
perhaps less than that, id. at 103-05, at least as compared
to the potential burden of standing trial in a civil case
while President, which Jones held is not categorically
prohibited by separation-of-powers concerns. 8 But this
analysis is flawed in two key respects. 8
8. The majority also relies on the fact that President Trump
seeks a preliminary injunction in his individual capacity, not his
official capacity, and that the United States has filed an amicus
curiae brief rather than a motion to intervene in asserting its view
that this case presents “thorny constitutional questions involving
separation of powers” and that the district court’s order should be
reversed. Brief of United States as Amicus Curiae at 27; see Maj.
Op. at 91 n.76. In Jones itself, however, President Clinton proceeded
in his individual capacity and the United States filed an amicus brief
addressing its separation-of-powers concerns. The Court nonetheless
noted that “[t]he representations made on behalf of the Executive

337a
Appendix I
First, the Jones Court concluded that the burden
in that case—namely, a civil suit against the President
while in office—did not categorically constitute a
“constitutionally forbidden impairment of the Executive’s
ability to perform its constitutionally mandated functions”
in light of the long history of judicial review of executive
action and of presidential amenability to judicial process.
520 U.S. at 702; see also id. at 701-06. In assessing the
separation-of-powers issue, the Court heavily weighed
the pragmatic accommodation between the judiciary and
the executive demonstrated by longstanding interbranch
practice. See id. at 704-05 (discussing historical practice
and the manner in which the judiciary has permissibly
burdened the Executive Branch). It directed inferior
courts that even as it rejected a rule of categorical
immunity, the President’s unique role in the constitutional
framework should inform the entire conduct of any civil
action, id. at 707, and that “the availability of sanctions”
would “provide[] a significant deterrent to litigation
directed at the President in his unofficial capacity for
purposes of political gain or harassment,” id. at 70809. The Jones Court was thus solicitous of separationof-powers concerns in the context of litigation over a
President’s personal conduct; moreover, it continued a long
tradition of placing “great weight” on historical practice in
Branch as to the potential impact” of a rule permitting private
litigation to proceed against a sitting President “merit . . . respectful
and deliberate consideration,” 520 U.S. at 689-90, and concluded,
as already observed, that as to any civil action regarding personal
conduct permitted to proceed, “the conduct of the entire proceeding,
including the timing and scope of discovery,” should be informed by
respect for the Office of Chief Executive, id. at 707.

338a
Appendix I
addressing questions “concern[ing] the allocation of power
between two . . . branches of Government,” NLRB v. Noel
Canning, 573 U.S. 513, 524, 134 S. Ct. 2550, 189 L. Ed. 2d
538 (2014) (quoting The Pocket Veto Case, 279 U.S. 655,
689, 49 S. Ct. 463, 73 L. Ed. 894, 68 Ct. Cl. 786 (1929)).9
Here, the parties have not identified, and my own
search has failed to unearth, any previous example, in
any previous Congress, of a standing or permanent select
committee of the House of Representatives or the Senate
using compulsory process to obtain documents containing
a President’s personal information from a third party
in aid of legislation. Trump Br. at 14; Tr. of Oral Arg. at
34:24-35:4. Historical practice instead suggests that, on
the few past occasions on which a President’s personal
documents have been subpoenaed from third parties, such
requests have emanated either from a special committee
established and authorized to pursue a specific, limited
investigation or from a committee proceeding under
the impeachment power.10 It is possible that a contrary
9. The high value placed on historical practice “is neither new
nor controversial.” Noel Canning, 573 U.S. at 525. James Madison
observed that a “regular course of practice” could “liquidate
& settle” constitutional meaning in the face of “difficulties and
differences of opinion” involved in the practice of government under
the Constitution. James Madison, Letter to Spencer Roane (Sept. 2,
1819), in 8 Writings of James Madison 450 (Gaillard Hunt ed., 1908));
see also Noel Canning, 573 U.S. at 525 (collecting cases stating the
relevance of past practice to separation-of-powers issues).
10. President Andrew Johnson had his personal bank records
examined as part of his impeachment, but those records appear
to have been relevant because of personal loans made to him by

339a
Appendix I
example exists. But the historical precedent for the
congressional subpoenas here, in contrast to the judicial
processes assessed in Jones, is sparse at best, and perhaps
nonexistent.11 And this paucity of historical practice alone
the Treasury Department. See Stephen W. Stathis, Executive
Cooperation: Presidential Recognition of the Investigative
Authority of Congress and the Courts, 3 J.L. & Pol. 183, 219 (1986);
see also Michael Les Benedict, The Impeachment of President
Andrew Johnson, 1867-68, in 1 Congress Investigates: A Critical and
Documentary History 254, 264-68 (Roger A. Bruns et al. eds., rev.
ed. 2011). President Clinton may have had some financial information,
or at the very least some financial information of then—First Lady
Hillary Clinton, examined by the Whitewater Special Committee,
though it appears to have been turned over voluntarily. See S. Rep.
No. 104-280, at 155-61 (1996). The House and Senate Banking
Committees also appear to have subpoenaed witnesses to testify
regarding Whitewater and the death of Vince Foster; however,
they do not appear to have subpoenaed the President’s personal
financial information. See Stephen Labaton, The Whitewater Affair:
The Hearing; House Committee Told of Contacts Over Whitewater,
N.Y. Times, July 27, 1994, at A1 (describing testimony); Raymond
W. Smock, The Whitewater Investigation and Impeachment of
President Bill Clinton, 1992-98, in 2 Congress Investigates: A
Critical and Documentary History, supra, at 1041, 1044-45.
President Nixon voluntarily disclosed several years of tax returns to
a House Committee; that same Committee used statutory authority
not at issue here to procure additional information from the IRS.
See S. Rep. No. 93-768, at 1-3 (1974); Memorandum from Richard
E. Neal, Chairman, to the Members of the H. Comm. on Ways and
Means 3 (July 25, 2019), https://perma.cc/UYZ2-QTCU. Other
investigations do not appear to have involved either subpoenas of
the President’s personal financial information or subpoenas to third
parties to obtain documents concerning the President in a personal
capacity. See generally Stathis, supra.

11. Notably, the dearth of historical practice here may be
partially attributable to the fact that “[t]he authority to issue a

340a
Appendix I
is reason for courts to pause in assessing this dispute
between a President and two House committees.12

subpoena was once delegated from the full House to its committees
very sparingly because the power appears long to have been deemed
too serious a matter for general delegation.” Todd David Peterson,
Contempt of Congress v. Executive Privilege, 14 U. Pa. J. Const.
L. 77, 106 (2011) (internal quotation marks and citation omitted).
It appears that the House did not authorize standing committees
to issue subpoenas until 1975. Id. at 107. Moreover (and more
generally), it should also be noted that disputes between the two
elected branches over congressional subpoenas have historically been
resolved through a process of direct negotiation and accommodation
between these two branches, undertaken outside the supervision
of the federal courts. See, e.g., Comm. on Judiciary, U.S. House of
Representatives v. Miers, 558 F. Supp. 2d 53, 56-57 (D.D.C. 2008)
(noting that “negotiation and accommodation . . . most often leads to
resolution of disputes between the political branches” and “strongly
encourag[ing] the political branches to resume their discourse and
negotiations in an effort to resolve their differences constructively”).
The majority rejects this approach due to its view that this case does
not involve separation of powers, Maj. Op at 69-73; however, given
the expressed willingness of the parties to negotiate and my view
that separation-of-powers concerns are present here, the traditional
practice of further negotiation is a viable resolution.

12. This Court’s recent decision in Trump v. Vance, 941 F.3d
631 (2d. Cir. 2019), is not to the contrary. The Vance panel explicitly
relied on the “long-settled” amenability of presidents to judicial
process, and in particular to subpoenas issued as part of a criminal
prosecution, to inform its holding that the state grand jury subpoena
to a third-party custodian of the President’s tax returns at issue in
that case was lawful. See id. at 640 (discussing the historical practice
of ordering presidents to comply with grand jury subpoenas). Here,
there is no such longstanding practice, and the subpoenas in question
were not issued by a grand jury as part of a criminal investigation.

341a
Appendix I
The second flaw in the majority’s analysis lies in its
assumption that third-party subpoenas of this sort pose,
at best, “minimal” risk of distraction to this and future
Presidents. Maj. Op. at 90. Contrary to the majority’s
suggestion, it is not at all difficult to conceive how standing
committees exercising the authority to issue third-party
subpoenas in aid of legislation might significantly burden
presidents with myriad inquiries into their business,
personal, and family affairs. See Watkins, 354 U.S.
at 205 (recognizing potential for “ruthless exposure
of private lives” by committees seeking information
“neither desired by the Congress nor useful to it”); cf.
Jones, 520 U.S. at 701-02 (considering the likelihood
that frivolous civil litigation against the President could
overly burden the Executive Branch). Jones relied on the
relative rarity of civil litigation against past presidents
to discount concerns of distraction, see 520 U.S. at 702,
but the subjects on which legislation might be had are
vast.13 And the risk of undue distraction from ill-conceived
13. To be clear, while civil litigation against sitting presidents
is unusual, presidents are routinely the subjects of congressional
investigation while in office—as they must be, and for appropriate
reasons. But there is no substantial historical precedent for the use
of subpoena power to obtain a President’s personal information
from a third party in aid of legislation. And as to such subpoenas,
there is no analogue for the possibility of sanctions in the civil
litigation context, which the Jones Court relied on as “provid[ing]
a significant deterrent to litigation directed at the President in his
unofficial capacity for purposes of political gain or harassment.”
520 U.S. at 708-09. Nor do established rules of procedure provide
a mechanism for narrowing congressional subpoenas so as to avoid
“embarrassment, oppression, or undue burden.” Fed. R. Civ. P.
26(c)(1). Historically, in those few instances in which investigators

342a
Appendix I
inquiries might be particularly acute today, in an era
in which (as the Supreme Court and individual Justices
have repeatedly acknowledged) digital technologies have
lodged an increasingly large fraction of even our most
intimate information in third-party hands. See, e.g., Riley
v. California, 573 U.S. 373, 395, 134 S. Ct. 2473, 189 L.
Ed. 2d 430 (2014) (discussing how “Internet search and
browsing history” can “reveal an individual’s private
interests or concerns”); Carpenter v. United States, 138
S. Ct. 2206, 2261, 201 L. Ed. 2d 507 (2018) (acknowledging
“powerful private companies” collecting “vast quantities
of data about the lives of ordinary Americans”) (Alito,
J., dissenting); United States v. Jones, 565 U.S. 400, 417,
132 S. Ct. 945, 181 L. Ed. 2d 911 (2012) (noting that in
the digital age, “people reveal a great deal of information
about themselves to third parties in the course of carrying
out mundane tasks”) (Sotomayor, J., concurring).
To be clear, this is not to suggest that a President
is immune from legislative subpoenas into personal
matters—not at all. But as the D.C. Circuit recognized
in Trump v. Mazars (while concluding that the House
Committee on Oversight and Reform possessed authority
to issue a legislative subpoena to President Trump’s
accounting firm), “separation-of-powers concerns still
linger in the air” with regard to such subpoenas. Trump v.
Mazars USA, LLP, 940 F.3d 710, 726 (D.C. Cir. 2019). And
in such a circumstance, there is reason to conclude that
have sought a President’s personal documents, Congress has instead
typically proceeded pursuant to the political checks inherent in the
invocation of impeachment authority or the narrow authorization
afforded to a special committee.

343a
Appendix I
courts must not only undertake the “arduous and delicate
task” of “[a]ccommodat[ing] . . . the congressional need for
particular information with the individual and personal
interest in privacy,” Maj. Op. at 51 (quoting Watkins, 354
U.S. at 198). They must also take on the equally sensitive
task of ensuring that Congress, in seeking the President’s
personal information in aid of legislation, has employed
“procedures which prevent the separation of power from
responsibility,” Watkins, 354 U.S. at 215 (discussing such
procedures in the context of a threat to individual rights
from congressional investigations), and which ensure
due consideration to the separation-of-powers concerns
that the Supreme Court identified and deemed essential
for judicial respect in Jones. See Jones, 520 U.S. at 707
(noting that “high respect that is owed to the office of
the Chief Executive,” while not mandating categorical
immunity from suit for private conduct while in office,
should “inform the conduct of the entire proceeding,
including the timing and scope of discovery”); Cheney,
542 U.S. at 385 (noting that President’s “constitutional
responsibilities and status [are] factors counseling judicial
deference and restraint” in conduct of litigation) (quoting
Fitzgerald, 457 U.S. at 753 (alteration in Cheney)).
B
These subpoenas are deeply problematic when
considered against the backdrop of these separationof-powers concerns. In fact, this much is evident from
even cursory consideration of the differences between
the present case and Mazars, the only other precedent
directly addressing a legislative subpoena served on a
third party and seeking a President’s personal financial

344a
Appendix I
information.14 In Mazars, the D.C. Circuit recently
upheld a legislative subpoena directed at the President’s
accounting firm, concluding that it had properly issued
in connection with the consideration of changes to laws
relating to financial disclosures required of Presidents.15
Mazars, 940 F.3d at 748. At the same time, the Mazars
Court pointedly suggested that the articulation of just
any rationale for concluding that a sitting President’s
personal information might inform a committee in
considering potential legislation is not enough to state a
valid legislative purpose:
14. As noted at the outset, see supra page 5, the parties are
unable to cite any Congress before this one in which a standing
committee of the House of Representatives has issued a third-party
subpoena for documents targeting a President’s personal information
solely in aid of legislation. The practice appears to have begun with
the committees of this House of Representatives, which has issued
such subpoenas repeatedly, thus raising the separation-of-powers
concerns discussed herein.
15. Judge Rao dissented, concluding that even assuming the
Committee on Oversight and Reform had a legislative purpose, it had
also asserted an intent to determine “whether the President broke
the law,” an inquiry that “must be pursued through impeachment,”
and not via Congress’s authority to investigate for legislative
purposes. Mazars, 940 F.3d at 748 (Rao, J., dissenting). In the instant
case, given the need for remand here, I need not now determine
whether the House Committees have avowed such an intent, so I
have no occasion to consider the arguments raised in Judge Rao’s
thorough analysis. However, it is worth noting that nowhere in the
Mazars majority or Judge Rao’s extensive discussion of historical
practice, id. at 718-24 (majority opinion), 757-67 (Rao, J., dissenting),
is there any hint of a prior occasion on which a standing or permanent
select committee has used compulsory process to obtain documents
targeting a President’s personal information from a third party
justified solely on the basis of future legislation.

345a
Appendix I
Just as a congressional committee could
not subpoena the President’s high school
transcripts in service of an investigation into
K-12 education, nor subpoena his medical
records as part of an investigation into public
health, it may not subpoena his financial
information except to facilitate an investigation
into presidential finances.
Id. at 733. Key to the result in Mazars, then (and assuming,
arguendo, that it was correctly decided) was the majority’s
conclusion that there was “no inherent constitutional
flaw in laws requiring Presidents to publicly disclose
financial information” and that the subpoena on its face
thus properly sought relevant information “about a subject
on which legislation may be had.” Id. at 737 (quoting
Eastland, 421 U.S. at 508).
This case is significantly different, at least as to the
subpoenas issued by the Committee on Financial Services.
This Committee seeks a universe of financial records
sufficient to reconstruct over a decade of the President’s
business and personal affairs, not in connection with the
consideration of legislation involving the Chief Executive,
but because the President, his family, and his businesses
present a “useful case study,” according to the Committee,
for an inquiry into the lending practices of institutions
such as Deutsche Bank and Capital One.16 District Court
16. The Capital One subpoena, moreover, seeks the President’s
personal and business financial records starting from the exact
date on which he became the Republican nominee for President—
an unusual date, to be sure, for specifying the precise moment at

346a
Appendix I
Doc. No. 51 at 25. More specifically, the Committee is
investigating “whether existing policies and programs at
financial institutions are adequate to ensure the safety and
soundness of lending practices and the prevention of loan
fraud,” id. at 12, as well as “industry-wide compliance with
banking statutes and regulations, particularly anti-money
laundering policies,” id. at 13. The Committee urges that
“[b]ecause of his prominence, much is already known about
Mr. Trump, his family, and his business, and this public
record establishes that they serve as a useful case study
for the broader problems” under its consideration.17 Id.
at 25. The majority endorses this statement of legislative
purpose and intimates (albeit with no evidence in the
record before us) that past transactions between Deutsche
Bank and the President in his pre-presidential business
life may have violated banking regulations and that “no
other bank would extend credit” to President Trump. Maj.
Op. at 73 n.67, 74.
which his banking records became a useful point of inquiry into the
possibility of tightening up the regulation of lending practices with
potentially “broad effects on the national economy.” District Court
Doc. No. 51 at 25.

17. The House Financial Services Committee asserts that the
subpoenas’ objective can be derived in part from House Resolution
206, which affirms that the House “supports efforts to close loopholes
that allow corruption, terrorism, and money laundering to infiltrate
our country’s financial system.” H.R. Res. 206, 116th Cong. (2019).
House Resolution 206, however, does not materially aid in defining
more clearly the reasons for the Committee’s “case study” approach,
as it does not call for a congressional investigation, much less one
by a designated committee, nor does it reference the President and
his family.

347a
Appendix I
To be sure, legislative subpoenas issue not when all is
known, but on the reasonable theory that “[a] legislative
body cannot legislate wisely or effectively” without
obtaining “information respecting the conditions which
the legislation is intended to affect or change.” Eastland,
421 U.S. at 504 (quoting McGrain v. Daugherty, 273 U.S.
135, 175, 47 S. Ct. 319, 71 L. Ed. 580 (1927) (alteration
in Eastland)). But the rationale proffered for these
subpoenas of the House Financial Services Committee
falls far short of demonstrating a clear reason why a
congressional investigation aimed generally at closing
regulatory loopholes in the banking system need focus
on over a decade of financial information regarding this
President, his family, and his business affairs.18 Nor does
the proffered rationale reveal how the broad purposes
pursued by the Committee are consistent with the
granular detail that these subpoenas seek. See Watkins,
354 U.S. at 204 (noting the troubling tendency of some
legislative investigations to “probe for a depth of detail
. . . removed from any basis of legislative action” and to
“turn their attention to the past to collect minutiae on
remote topics”).

18. Thus, the majority references the fact that Deutsche Bank
“has been fined in connection with a $10 billion money laundering
scheme.” Maj. Op. at 73 n.67. But the record is devoid of any claim,
much less any evidence, that this fine had anything at all to do
with the President, his children, his business organizations, or his
business associates, all of whom will be irreparably harmed by the
majority’s endorsement of the “case study” approach of the House
Financial Services Committee.

348a
Appendix I
This is a reason for pause. As suggested by Judge
Katsas in his dissent from the denial of rehearing in banc
in Mazars, the “uncompromising extension of McGrain v.
Daugherty” to this new context raises the serious question
whether future Presidents will be routinely subject to
the distraction of third-party subpoenas emanating from
standing committees in aid of legislation—a practice
for which there is scant historical precedent, as already
discussed. Trump v. Mazars USA, LLP, No. 19-5142, 2019
U.S. App. LEXIS 33932, 2019 WL 5991603, at *1 (D.C.
Cir. Nov. 13, 2019) (Katsas, J., dissenting from the denial
of rehearing en banc). Some case study rationale (in this
instance, to learn whether regulators were adequately
equipped to scrutinize Deutsche Bank’s and Capital One’s
lending practices in relation to the President before he
obtained the Office of Chief Executive) will always be
present. But the regular issuance of third-party legislative
subpoenas by single committees of one House of Congress
targeting a President’s personal information would be
something new, potentially impairing public perceptions
of the legislative branch by fueling perceptions that
standing committees are engaged, not in legislating,
but in opposition research.19 More relevant here, such
investigative practices by Congress, undertaken “more
casually and less responsibly” than is the constitutional
ideal, see Rumely, 345 U.S. at 46, pose a serious threat to
“presidential autonomy and independence,” Mazars, 2019
U.S. App. LEXIS 33932, 2019 WL 5991603, at *1 (Katsas,
J., dissenting from the denial of rehearing en banc). And
19. Such subpoenas, moreover, will inevitably result, as here,
in recourse to the courts, potentially embroiling them, as well, in
political battles between committees of Congress and the President.

349a
Appendix I
this is a substantial concern in our constitutional scheme,
which relies on the proposition that the occupant of the
Office of Chief Executive is positioned to “‘deal fearlessly
and impartially with’ [its] duties,” even as Presidents
may be “easily identifiable target[s]” of legal process,
personally vulnerable by virtue of the “visibility of [the]
office and the effect of [their] actions on countless people.”
Fitzgerald, 457 U.S. at 752-53 (quoting Ferri v. Ackerman,
444 U.S. 193, 203, 100 S. Ct. 402, 62 L. Ed. 2d 355 (1979)).
To be sure, the third subpoena to Deutsche Bank,
which is identical to the Deutsche Bank subpoena issued
by the Committee on Financial Services, emanates from
the Permanent Select Committee on Intelligence and
is more closely linked to the consideration of legislation
related to the Office of the Chief Executive and to this
President’s affairs, as a recent candidate. 20 The majority
20. As the majority states, the Chair of the Intelligence
Committee has publicly affirmed that the Committee is investigating
matters related to interference by the Russian government in the
U.S. political process and that the information sought from Deutsche
Bank will inform legislative proposals to protect this process
from foreign influence. Maj. Op at 62-64. The House Intelligence
Committee, moreover, has an oversight function to which its
subpoena could conceivably relate. At the same time, however, no
House resolution appears specifically to reference this investigation,
at least as it relates to efforts to seek the President’s financial
information, nor is such a legislative purpose easy to square with the
extraordinary breadth of the Deutsche Bank subpoenas. The Chair,
moreover, has also affirmed that the Committee’s investigation is
in furtherance of Congress’s duty to “ensure that U.S. officials—
including the President—are serving the national interest and, if
not, are held accountable.” Press Release, Permanent Select Comm.
on Intelligence, Chairman Schiff Statement on House Intelligence

350a
Appendix I
is correct, moreover, that once presented with adequate
evidence of legislative authorization and purposes, it is not
the province of courts to inquire into legislators’ motives,
see Maj. Op. at 50-51, and that “motives alone would not
vitiate an investigation which had been instituted by a
House of Congress if that assembly’s legislative purpose
is being served.” Watkins, 354 U.S. at 200.
At the same time, as the majority also affirms, the
record must provide “sufficient evidence of legislative
authorization and purposes to enable meaningful judicial
review.” Maj. Op. at 55. And this is particularly the case
when a congressional investigation even potentially
trenches upon constitutional limits on Congress’s
investigative power. See Rumely, 345 U.S. at 46 (noting
that such limits should be identified by courts only after
“Congress has . . . unequivocally authoriz[ed] an inquiry
of dubious limits”). Indeed, in such circumstances, the
Supreme Court has made clear that courts are to look
to the “instructions to an investigating committee,” as
“embodied in the authorizing resolution,” to ascertain
Committee Investigation (Feb. 6, 2019), bit.ly/2UMzwTE. The
Plaintiffs argue that the subpoena is thus not in furtherance of
legislative purposes, but represents an effort by the Committee to
itself conduct intelligence and law enforcement activities. Trump Br.
at 35-36. Indeed, at oral argument, the Committees’ lawyer appeared
explicitly to equate these subpoenas to those issued in connection
with federal criminal investigations. Tr. of Oral Arg. at 59:14-60:2.
While I do not decide whether the Intelligence Committee has
affirmatively avowed an improper purpose, the amorphous nature
of the Committee’s legislative purpose would be clarified by my
proposed remand, as would the connection between this purpose
and the particular disclosures that are sought.

351a
Appendix I
whether the legislative assembly has “assay[ed] the
relative necessity of specific disclosures.” Watkins, 354
U.S. at 201, 206. Considered in light of the separationof-powers concerns that persist with regard to these
subpoenas, the Plaintiffs have raised a serious question
on this front as well.
As to both the House Financial Ser vices and
Intelligence Committee subpoenas, there is an open
question as to whether these subpoenas have been
authorized by the House of Representatives in a manner
permitting this Court to determine whether they are “in
furtherance of . . . a legitimate task of the Congress.”
Watkins, 354 U.S. at 187. A s the Watkins Court
explained, “[t]he theory of a committee inquiry is that the
committee members are serving as the representatives
of the parent assembly in collecting information for a
legislative purpose” and that “the House or Senate shall
have instructed the committee members on what they
are to do with the power delegated to them.” Id. at 20001. The majority acknowledges Watkins’s requirement
that an authorizing resolution “spell out [an investigating
committee’s] jurisdiction and purpose with sufficient
particularity” as to ensure that “compulsory process is
used only in furtherance of a legislative purpose.” Id. at
201; see Maj. Op. at 51, 79-80. Critically, moreover, the
majority itself recognizes that “[i]t is not clear whether
this passage can be satisfied” with regard to these
subpoenas by the principal instruction in place here, at the
time the subpoenas issued: namely, the instruction “that
the House gives to a committee pursuant to a House rule
defining a standing committee’s continuing jurisdiction.”
Maj. Op. at 52-53.

352a
Appendix I
The majority treats House Resolution 507 as the cureall solution to this key uncertainty, rejecting the Plaintiffs’
argument that it is not properly considered on the subject
of legislative authorization and purposes because it issued
after the subpoenas themselves. 21 But House Resolution
507 falls far short of a specific “authorizing resolution”
issued to make clear that a designated committee is
to undertake an investigation on a particular subject
within its domain. To be sure, McGrain found sufficient
a resolution that did not “in terms avow that it [was]
intended to be in aid of legislation,” on the theory that “the
subject-matter was such that [a] presumption should be
indulged” that legislating “was the real object.” 273 U.S.
at 177-78. But in a context like this, presenting serious
constitutional concerns, courts “have adopted the policy
21. The majority’s support for this conclusion derives solely
from cases discussing, in the contempt prosecution context, what
evidence may be considered in evaluating whether a question posed
to a witness before a congressional committee was pertinent to an
investigation’s inquiry. See Watkins, 354 U.S. at 201-02; Rumely,
345 U.S. at 48; Shelton v. United States, 327 F.2d 601, 607, 117 U.S.
App. D.C. 155 (D.C. Cir. 1963); see also Maj. Op. at 54-58. This issue
is distinct from the threshold question of whether a committee is
adequately authorized, so that the majority must necessarily reason
by analogy, and its conclusion is far from inevitable, particularly
in the context of third-party subpoenas aimed at a President’s
personal information, where the President must be able efficiently
(and without undue distraction) to determine what, if any, steps she
should take, either to assist the inquiry or, as here, to litigate. I need
not address this question, however, because, even assuming that
Resolution 507 is properly considered, a serious question remains as
to whether it constitutes what the majority acknowledges is required:
“sufficient evidence of legislative authorization and purposes to
enable meaningful judicial review.” Maj. Op. at 55.

353a
Appendix I
of construing . . . resolutions . . . narrowly, in order to
obviate the necessity of passing on serious constitutional
questions.” Tobin, 306 F.2d at 274-75. And this resolution
on its face discusses none of the subpoenas here, nor
even the work of the committees from which they issued.
Instead, House Resolution 507 authorizes any subpoena,
by any standing or permanent select committee, already
issued or in the future to be issued, so long as it concerns
the President, his family, or his business entities and
organizations:
Resolved, That the House of Representatives
ratifies and affirms all current and future
investigations, as well as all subpoenas
previously issued or to be issued in the future,
by any standing or permanent select committee
of the House, pursuant to its jurisdiction as
established by the Constitution of the United
States and rules X and XI of the Rules of the
House of Representatives, concerning or issued
directly or indirectly to —
(1) the President in his personal or
official capacity;
(2) his immediate family, business
entities, or organizations;
...
(9) any third party seeking information
involving, referring, or related to any

354a
Appendix I
individual or entity described in
paragraphs (1) through (7).
H.R. Res. 507, 116th Cong. (2019); see also H.R. Res. 509,
116th Cong. § 3 (2019) (“House Resolution 507 is hereby
adopted”).
By purporting to authorize third-party subpoenas
for any and all past and future investigations into the
President’s personal and official business, Resolution
507 would appear to run directly into the primary
concern in Watkins that “[b]roadly drafted and loosely
worded” resolutions can “leave tremendous latitude to
the discretion of investigators,” 354 U.S. at 201, and
thus permit committees “in essence, to define [their]
own authority,” id. at 205. As Watkins emphasized,
“[a]n essential premise” underlying the investigatory
powers of a congressional committee to compel the
production of documents or attendance by an individual
“is that the House or Senate shall have instructed the
committee members on what they are to do with the power
delegated to them.” Id. at 201. Absent that instruction,
such subpoenas defy judicial review, the Watkins Court
understood, because “it is impossible . . . to declare that
[a committee] has ranged beyond the area committed to
it by its parent assembly.” Id. at 205.
To be clear, Watkins addressed this problem in the
context of a House proceeding implicating a private
citizen’s constitutional liberties, and not separation of
powers. But its caution is still relevant: that “excessively
broad charter[s]” to investigating committees make

355a
Appendix I
it difficult, if not impossible, for courts “to ascertain
whether any legislative purpose justifies the disclosures
sought and, if so, the importance of that information to
the Congress in furtherance of its legislative function.”
Id. at 205-06. With respect, the majority thus errs in
dismissing the Department of Justice’s concern that the
blank-check approach adopted here to authorizing thirdparty subpoenas seeking personal information about the
President and his family represents “a failure of the House
to exercise ‘preliminary control of the Committee[s],’” see
Brief of United States as Amicus Curiae at 19 (quoting
Watkins, 354 U.S. at 203)—a failure which not only
throws into question the adequacy of authorization in
this case, but which also raises significant issues for the
future regarding interbranch balance and the ability
of this and future Presidents to perform their duties
without undue distraction, id. at 5-7; see Jones, 520 U.S.
at 690 (noting that “representations made on behalf of the
Executive Branch as to the potential impact” of inquiries
on the Office of the President “merit our respectful and
deliberate consideration”). 22 In short, Resolution 507
22. The Department of Justice argues that a clear statement
rule should apply to the authorization of legislative subpoenas
seeking a President’s personal information. Brief of United States as
Amicus Curiae at 10. The majority dismisses this argument, noting
that neither Franklin v. Massachusetts, 505 U.S. 788, 112 S. Ct. 2767,
120 L. Ed. 2d 636, nor Armstrong v. Bush, 924 F.2d 282, 288 U.S.
App. D.C. 38 (D.C. Cir. 1991), on which the Department relies, concern
congressional subpoenas, but statutes “claimed to limit presidential
power.” Maj. Op. at 89. But Rumely makes clear that the duty of
constitutional avoidance (implemented, in part, through mechanisms
such as clear statement rules) “is even more applicable” in the context
of congressional investigations than in the interpretation of statutes.

356a
Appendix I
itself, given its retrospective and prospective nature,
and its purported authorization of any and all thirdparty committee subpoenas seeking not only official, but
personal information about the President, his family, and
his businesses, presents a serious question as to whether
the House has discharged its “responsibility . . . in the
first instance, to insure that compulsory process is used
only in furtherance of a legislative purpose.” Watkins,
354 U.S. at 201.
II
These third-party legislative subpoenas thus raise
serious questions on the merits, implicating substantial
separation-of-powers concerns. In such a context,
Rumely’s caution kicks in, which “counsel[s] abstention
from adjudication unless no choice is left.” 345 U.S. at 46.
The majority disagrees, asserting that even assuming
serious questions regarding the separation of powers
have been raised, affirmance here is still required
because our “serious questions” approach to whether a
345 U.S. at 46. It also affirms that “[w]henever constitutional limits
upon the investigative power of Congress have to be drawn . . . ,
it ought only to be done after Congress has demonstrated its full
awareness of what is at stake by unequivocally authorizing an inquiry
of dubious limits.” Id. In short, while I need not at this time reach the
question, the Department’s clear statement argument merits serious
consideration, as does its assertion that the House’s “blank-check”
approach to use of compulsory process directed at the President, his
family, and his businesses runs afoul of Watkins’s caution that “[a]
measure of added care on the part of the House and the Senate in
authorizing the use of compulsory process” would help “prevent the
separation of power from responsibility.” 354 U.S. at 215.

357a
Appendix I
preliminary injunction should issue is unavailable in the
context of these third-party legislative subpoenas. 23 I have
already outlined my disagreement with the majority’s
determination that “this case does not concern separation
of powers,” Maj. Op. at 89, and that the questions raised,
even if “serious in at least some sense, lack merit,” id. at
101. I also disagree as to the supposed unavailability of
our traditional preliminary injunction approach. Indeed,
I conclude, with respect, that the majority badly errs in
deciding that this approach is unavailable in the sensitive
context of challenges to congressional subpoenas.
As the Supreme Court made clear in Winter v. Natural
Resources Defense Council, Inc., “[a] plaintiff seeking a
23. The majority also argues that any serious questions
presented here “are properly rejected at this stage of the litigation”
because they “involve solely issues of law.” Maj. Op. at 101. I disagree.
As an initial matter, our case law has recognized that, in appropriate
circumstances, purely legal issues can present sufficiently serious
questions to warrant a preliminary injunction. See, e.g., Haitian
Centers Council, Inc. v. McNary, 969 F.2d 1326, 1339-40 (2d Cir.
1993) (finding sufficiently serious questions going to the merits
based on the novel questions of law presented by plaintiffs’ claims),
judgment vacated as moot by Sale v. Haitian Ctrs. Council, Inc., 509
U.S. 918, 113 S. Ct. 3028, 125 L. Ed. 2d 716 (1993); see also, e.g., 11A
Charles Alan Wright, Arthur R. Miller & Mary Kay Kane, Federal
Practice and Procedure § 2948.3 (3d ed.) (Westlaw) (database
updated August 2019) (referring to “the existence of a factual conflict,
or of difficult questions of law,” as components of the merits showing
in the preliminary injunction context (emphasis added)). Moreover,
the majority itself is remanding for some development of the factual
record. As set forth herein, I conclude that the majority’s limited
remand is inadequate, and that the record needs further factual
development before the legal issues here can be adequately assessed.

358a
Appendix I
preliminary injunction must establish that he is likely to
succeed on the merits, that he is likely to suffer irreparable
harm in the absence of preliminary relief, that the balance
of equities tips in his favor, and that an injunction is in
the public interest.” 555 U.S. 7, 20, 129 S. Ct. 365, 172
L. Ed. 2d 249 (2008). The majority acknowledges that,
as to the required merits showing, we have repeatedly
said in this Circuit that “district courts may grant a
preliminary injunction where a plaintiff . . . meets either
of two standards: ‘(a) a likelihood of success on the merits,
or (b) sufficiently serious questions going to the merits to
make them a fair ground for litigation.’” Maj. Op. at 11-12
(quoting Kelly v. Honeywell Int’l, Inc., 933 F.3d 173, 184
(2d Cir. 2019)). When a plaintiff has demonstrated only
“serious questions” as to the merits, however, the plaintiff
has a higher burden as to the third element: he must show
that the balance of hardships tips decidedly in his favor.
See Kelly, 933 F.3d at 184; Maj. Op. at 11-12. The majority
also acknowledges that we have reaffirmed our traditional
approach in the wake of the Supreme Court’s decision in
Winter. See Citigroup, 598 F.3d at 38 (“hold[ing] that our
venerable standard for assessing a movant’s probability
of success on the merits remains valid”). 24 Irreparable
24. Citigroup carefully assessed Winter ’s import and
concluded that our traditional approach is wholly consistent with that
precedent and is properly retained, given “[t]he value of this circuit’s
approach to assessing the merits of a claim at the preliminary
injunction stage,” which “lies in its flexibility in the face of varying
factual scenarios and the greater uncertainties inherent at the
outset of particularly complex litigation.” Citigroup, 598 F.3d at
35. Moreover, Citigroup made clear that, under either the “serious
questions” or the “likelihood of success” formulation, courts in this
Circuit consider all four elements articulated by the Supreme Court
in Winter. See id. at 34, 38 (citing Winter, 555 U.S. at 20).

359a
Appendix I
harm is not in question in this case, moreover, because,
inter alia, the Plaintiffs have an interest in keeping their
banking records private from Congress and neither
House committee will commit to treating any portion of
the voluminous personal and business records that they
seek as confidential. J.A. at 122-23. In such circumstances,
the majority and I are in agreement that compliance
with these subpoenas will cause irreparable harm to the
President, his family, his businesses, and his business
associates. Maj. Op. at 13-14.
The majority asserts that a preliminary injunction is
nonetheless unavailable based on our “serious questions”
formulation of the merits inquiry because of the socalled “government action exception” to this formulation,
as expressed by this Court’s decision in Plaza Health
Laboratories, Inc. v. Perales, 878 F.2d 577, 580 (2d Cir.
1989). I disagree. To be sure, our case law has recognized
three narrowly defined situations in which a movant
cannot obtain a preliminary injunction under the “serious
questions” formulation. See id.; Tom Doherty Assocs., Inc.
v. Saban Entm’t, Inc., 60 F.3d 27, 33-34 (2d Cir. 1995);
Abdul Wali v. Coughlin, 754 F.2d 1015, 1025 (2d Cir.
1985). But Plaza Health, on which the majority relies, is
not applicable.
To explain my conclusion requires a step back from
our traditional formulation, to set forth why this Circuit
was correct to reaffirm our serious question approach—
and, indeed, why we err today in expanding a formulaic
exception to it. While sometimes styled in our case law
as its own “standard,” see, e.g., Otoe-Missouria Tribe of

360a
Appendix I
Indians v. N.Y. State Dep’t of Fin. Servs., 769 F.3d 105,
110 (2d Cir. 2014), the “sufficiently serious questions,
plus a balance of hardships tipping decidedly in favor of
the moving party” approach is not actually a separate
test at all, but rather a way of articulating one point on
a single sliding scale that balances likelihood of success
against hardship in determining whether a preliminary
injunction should issue. See 11A Charles Alan Wright,
Arthur R. Miller & Mary Kay Kane, Federal Practice and
Procedure § 2948.3 (3d ed.) (Westlaw) (database updated
August 2019) (hereinafter “Wright & Miller”) (referring
to the Second Circuit’s “serious questions” formulation as
“[p]robably the most often-quoted statement” of the sliding
scale principle). Likelihood of success, while of “particular
importance” in this inquiry, is not determinative, but must
be considered and balanced with the relative hardship
each side is likely to face from the determination whether
an injunction issues, with the so-called “serious questions”
standard emerging as simply one point on the sliding
scale at which an injunction may be warranted. 25 Id.
This flexible approach is particularly well-suited to the
preliminary injunction context, where courts act pursuant
to equitable principles. 26 See, e.g., Holland v. Florida,
25. As Judge Frank articulated decades ago, when “the
balance of hardships tips decidedly toward plaintiff,” it should
“ordinarily be enough that the plaintiff has raised questions going
to the merits so serious, substantial, difficult and doubtful, as to
make them a fair ground for litigation and thus for more deliberate
investigation.” Hamilton Watch Co. v. Benrus Watch Co., 206 F.2d
738, 740 (2d Cir. 1953).
26. Indeed, confining preliminary injunctions to circumstances
in which a plaintiff has shown there is no difficult question of law

361a
Appendix I
560 U.S. 631, 649-50, 130 S. Ct. 2549, 177 L. Ed. 2d 130
(2010) (“In emphasizing the need for flexibility . . . we
have followed a tradition in which courts of equity have
sought to relieve hardships which, from time to time,
arise from a hard and fast adherence to more absolute
legal rules, which, if strictly applied, threaten the evils of
archaic rigidity.” (internal quotation marks, alterations,
and citations omitted)).
Against this backdrop, our so-called “exceptions” to
the serious questions formulation are best understood not
in prescriptive terms, but as the articulation of principles
guiding the application of the sliding scale calculus in
particular scenarios. As relevant here, the Plaza Health
“exception” thus reflects a considered judgment, drawing
on equitable ideas, that “[w]here the moving party seeks
to stay government action taken in the public interest
pursuant to a statutory or regulatory scheme,” the serious
questions formulation should be generally unavailable
precisely because the balance of hardships is so unlikely to
tip decidedly in that party’s favor. Able v. United States, 44
F.3d 128, 131 (2d Cir. 1995) (quoting Plaza Health, 878 F.2d
at 580). In issuing a preliminary injunction based on the
conclusion that it does, a court impermissibly “substitute[s]
its own determination of the public interest” for the one
reflected in the statutory or regulatory scheme. Id. at 132.

that could ultimately go against him would “deprive the remedy of
much of its utility.” Wright & Miller § 2948.3; see also Citigroup,
598 F.3d at 35 (noting that “[p]reliminary injunctions should not be
mechanically confined to cases that are simple or easy,” as happens
when the likelihood-of-success standard is formulaically employed).

362a
Appendix I
Accordingly, where government action has been
fairly characterized as taken pursuant to a statutory
or regulatory scheme, we have generally applied the
likelihood-of-success standard. See Citigroup, 598 F.3d at
35 n.4 (articulating the exception as limited to situations
in which “a moving party seeks to stay government action
taken in the public interest pursuant to a statutory or
regulatory scheme”). And where movants have sought
preliminarily to enjoin government action pursuant
to a federal statutory or regulatory scheme, we have
explained that in the context of such action, “developed
through presumptively reasoned democratic processes”
and resulting from “the full play of the democratic process
involving both the legislative and executive branches,” it is
difficult to envision any circumstance in which a movant
could demonstrate that the balance of hardships tips
decidedly in his favor. Able, 44 F.3d at 131.
The majority argues that the Plaza Health exception
sweeps more broadly, relying for this proposition on cases
involving action taken by state and local governments. 27
27. See, e.g., Cent. Rabbinical Cong. of U.S. & Canada v. N.Y.C.
Dep’t of Health & Mental Hygiene, 763 F.3d 183, 192 (2d Cir. 2014)
(likelihood-of-success standard applied to preliminary injunction
sought by religious organizations against a city ordinance based on
the court’s conclusion, without further analysis, that the ordinance
constituted “government action taken in the public interest pursuant
to a statutory or regulatory scheme” (citation omitted)); Monserrate
v. N.Y. State Senate, 599 F.3d 148, 154 (2d Cir. 2010) (same, as to a
preliminary injunction seeking to unwind the expulsion of a state
senator); NAACP v. Town of East Haven, 70 F.3d 219, 223 (2d Cir.
1995) (likelihood-of-success standard applied to a preliminary
injunction seeking to enjoin a town from hiring police officers or

363a
Appendix I
See Maj. Op. at 15-16. While certain of these cases did not
analyze why the Plaza Health exception was applicable,
and appear simply to have assumed that the government
action in question was taken pursuant to a statutory or
regulatory scheme, see, e.g., Cent. Rabbinical Cong., 763
F.3d at 192; Monserrate, 599 F.3d at 154, those that did
engage with this analysis explicitly identified a statutory
or regulatory scheme and accordingly concluded that the
presumptive public interest weighed against the movant,
see, e.g., NAACP, 70 F.3d at 223; see also, e.g., OtoeMissouria Tribe of Indians, 769 F.3d at 110 (determining
that New York’s ban on certain loans was “a paradigmatic
example of governmental action taken in the public
interest, one that vindicated proven policies implemented
through legislation or regulations” and therefore applying
the likelihood-of-success standard (internal quotation
marks and citations omitted)). 28
firefighters, based on the court’s conclusion that the town acted
“in the public interest” and “pursuant to established municipal
regulations and state civil service laws”); N.Y. Urban League, Inc.
v. State of New York, 71 F.3d 1031, 1036 n.7 (2d Cir. 1995) (applying
likelihood-of-success standard to a preliminary injunction seeking
to bar transit authority from implementing a proposed fare increase
on the basis that the action in question “was to be implemented in
accordance with the special powers” of the transit authority board as
set forth in a state statute); see also Molloy v. Metro. Transp. Auth.,
94 F.3d 808, 811 (2d Cir. 1996) (relying on New York Urban League
in applying the likelihood-of-success standard to a preliminary
injunction sought against transit authority’s implementation of a
staff reduction plan).

28. Such cases may also exhibit an especial hesitancy on the
part of federal courts to substitute their own view of the public
interest for that reached by local and state governments in light of
principles of comity and federalism.

364a
Appendix I
Where, by contrast, government action has not been
taken pursuant to a specific statutory or regulatory
scheme, the narrow Plaza Health exception has not been
applied, precisely because the public interest has not been
presumed to rest with a single party. This explains why
this Court recently upheld the denial of a preliminary
injunction sought by President Trump to restrain the
enforcement of a grand jury subpoena issued by the New
York County District Attorney without applying the
Plaza Health exception in determining the applicable
preliminary injunction standard. See Trump v. Vance, 941
F.3d 631, 639-40 (2d Cir. 2019). It explains our decision
in Haitian Centers Council, Inc. v. McNary, 969 F.2d
1326 (2d Cir. 1993), judgment vacated as moot by Sale v.
Haitian Ctrs. Council, Inc., 509 U.S. 918, 113 S. Ct. 3028,
125 L. Ed. 2d 716 (1993), in which we applied the serious
questions standard to an injunction sought against the
actions of the Immigration and Naturalization Service
only after rejecting the government’s argument that the
action was taken “pursuant to Congress’[s] broad grant of
authority in the [Immigration and Nationality Act],” and
reasoning that “in litigation such as is presented herein, no
party has an exclusive claim on the public interest,” id; see
also, e.g., Patton v. Dole, 806 F.2d 24, 29-30 (2d Cir. 1986);
Hudson River Sloop Clearwater, Inc. v. Dep’t of Navy,
836 F.2d 760, 763 (2d Cir. 1988); Mitchell v. Cuomo, 748
F.2d 804, 806-07 (2d Cir. 1984); cf. Carey v. Klutznick, 637
F.2d 834, 839 (2d Cir. 1980) (rejecting the Census Bureau’s
argument that “the public interest [rests] solely with it”).
The government action at issue in the instant case
plainly falls outside the current confines of the narrow
Plaza Health exception. Here, far from a situation in

365a
Appendix I
which a movant seeks to enjoin action that is the product
of “the full play of the democratic process,” Able, 44 F.3d
at 131, these legislative subpoenas, with due respect, do
not constitute governmental action pursuant to a statutory
or regulatory scheme and do not reflect the presumptively
public-interested actions of both the legislative and
executive branches. Rather, each subpoena is the product
of a sub-component of a single chamber of one branch
of the federal government and, critically, implicates the
interests of another branch. 29
The majority’s approach, which concludes that,
because the Committees act pursuant to powers under
the Constitution, such action should “[s]urely . . . not”
be evaluated under a “less rigorous standard” than that
“applied to plaintiffs seeking to preliminary enjoin state
and local units of government” in cases such as Central
Rabbinical Congress and Monserrate, Maj. Op. at 2021, is misguided for two reasons. First, by deeming the
“serious questions” standard to be less rigorous, the
majority ignores the fact that the ultimate burden is
equivalent under both standards. 30 More fundamentally,
29. Indeed, precisely because subpoenas of this sort implicate
separation of powers so that neither Congress nor the Plaintiffs
can be taken to represent the public interest with regard to their
enforcement, the D.C. Circuit in Mazars declined to determine, in
an analogous context, what deference it owed to the congressional
subpoena reviewed in that case. Mazars, 940 F.3d at 726.
30. As is the nature of a sliding scale, the variables move in
tandem and the Plaintiffs’ ultimate burden is equivalent either way.
The majority perceives tension between this Court’s observation
in Citigroup that the “overall burden” of the serious questions

366a
Appendix I
the majority errs by categorically extending the Plaza
Health exception to a situation in which “no party has
an exclusive claim on the public interest,” Time Warner
Cable of N.Y.C. v. Bloomberg L.P., 118 F.3d 917, 923 (2d Cir.
1997) (quoting Haitian Centers, 969 F.2d at 1339), when
the so-called “government action exception” is premised
entirely on the assumption that the public interest weighs
decidedly against the movant.
To be clear, preliminary injunctions constitute an
extraordinary form of relief and should not issue lightly.
See, e.g., Mazurek v. Armstrong, 520 U.S. 968, 972, 117
S. Ct. 1865, 138 L. Ed. 2d 162 (1997) (quoting Wright &
Miller § 2948). The majority’s expansion of our so-called
“government action exception” into the delicate arena of
congressional investigations, however, is unwise, precisely
because this is a context in which flexible application
standard is “no lighter than the one it bears under the ‘likelihood of
success’ standard,” Citigroup, 598 F.3d at 35, and language in our
other opinions that refers to the likelihood-of-success standard as
“more rigorous,” see, e.g., Cent. Rabbinical Cong., 763 F.3d at 192.
See Maj. Op. at 14 n.22. I disagree. Because one standard requires
a more demanding showing as to the merits and a correspondingly
less demanding showing as to hardship, while the other standard
requires the reverse, the overall burdens are clearly equivalent.
Deeming the likelihood-of-success standard to be “more rigorous”
refers only to its increased rigor as to the required merits showing.
It was for this reason, among others, that we concluded in Citigroup
that the Supreme Court’s decision in Winter revealed “no command
. . . that would foreclose the application of our established ‘serious
questions’ standard as a means of assessing a movant’s likelihood
of success on the merits” against the other components required to
obtain preliminary relief. 598 F.3d at 38.

367a
Appendix I
of equitable principles is vital. Historically, federal
courts have undertaken some of their most difficult
assignments in the context of reviewing the actions of
congressional committees. The Supreme Court has thus
been required to take on the “arduous and delicate task” of
“[a]ccommodat[ing] . . . the congressional need for
particular information with the individual and personal
interest in privacy.” Watkins, 354 U.S. at 198. It has
been called upon to address the “[g]rave constitutional
questions” presented when “the power of Congress to
investigate” appears to encroach on the limits on that
power imposed by the Bill of Rights and, in particular, the
First Amendment. Rumely, 345 U.S. at 44, 48. Disputes
between congressional committees and Presidents
arising from subpoenas, as here, also not uncommonly
require courts to “search for accommodation between
the two branches”—a task for which this Circuit’s flexible
approach to making the difficult judgment whether a
preliminary injunction should issue is particularly wellsuited. United States v. Am. Tel. & Tel. Co (“AT&T II”),
567 F.2d 121, 131, 185 U.S. App. D.C. 254 (D.C. Cir. 1977).
In short, we should not deprive ourselves of our
traditional approach in such a sensitive context. As
we affirmed in Citigroup, “[r]equiring in every case a
showing that ultimate success on the merits is more likely
than not is ‘unacceptable as a general rule,’” and also
“deprive[s] the remedy of much of its utility.” 598 F.3d
at 35-36 (quoting Wright & Miller § 2948.3). Because
this case is not squarely covered by Plaza Health or any
other previously-articulated “exception,” I conclude we
are bound to (and should) undertake our usual approach:

368a
Appendix I
namely, to consider the Plaintiffs’ showing as to the
merits, balance of hardships (merged here with the public
interest inquiry, see Nken v. Holder, 556 U.S. 418, 435,
129 S. Ct. 1749, 173 L. Ed. 2d 550 (2009)), and irreparable
harm and determine whether an injunction is warranted
under either the likelihood of success or serious questions
standard. As set forth already, moreover, these subpoenas
do, in fact, present serious questions implicating not only
the investigative authority of these two House committees,
but the separation of powers between Congress and the
Presidency.
***
Having determined that Plaintiffs have raised
serious questions as to the merits, in the usual case, the
next step would be to assess the balance of hardships.
But this leads to my final point of departure from the
majority. The majority orders immediate compliance with
these subpoenas save for a “few documents that should
be excluded” pursuant to its call for a restricted culling
of certain records assembled under specific subpoena
categories. Maj. Op. at 86. In contrast, I would not remand
for the limited culling ordered by the majority, but would
instead remand in full, directing that the district court
assist in the development of the record regarding the
legislative purposes, pertinence, privacy, and separationof-powers issues at stake in this case.
I would request the district court on remand promptly
to implement a procedure by which the Plaintiffs identify
on privacy or pertinency grounds specific portions of the

369a
Appendix I
material assembled in response to these subpoenas for
nondisclosure. Like the majority, I would then provide
counsel for the Committees with an opportunity to object,
but I would also require counsel, provided with a general
description of such material, to articulate clearly the
legislative purpose that disclosure serves and to specify
how the material sought is pertinent to that purpose. Even
assuming, arguendo, that the Committees act pursuant
to adequate authorization from the House as a whole,
serious questions persist as to the ends the Committees
are pursuing and whether these ends are adequate to
justify the sought-after disclosures. 31 A fuller record
would permit a more informed calculus regarding balance
of hardships and would further clarify the stakes as to the
serious questions that the Plaintiffs have already raised.
This full remand is superior to the majority’s approach
for at least three reasons.
First and most fundamentally, remand is necessary
here because the present record does not permit a full
assessment of either the serious questions raised by
these novel subpoenas or the balance of hardships with
regard to specific disclosures. The present record is wholly
insufficient to support the conclusion that the voluminous
material sought pursuant to these subpoenas should at
this time be produced. Serious questions arising from
the lack of historical precedent for these subpoenas, their
31. As to the “case study” rationale proffered by the House
Financial Services Committee, for instance, if that Committee is
unable more clearly to articulate the pertinence of its subpoenas to
the legislative purposes it pursues, see Watkins, 354 U.S. at 214-15,
the balance of hardships may well lie with the Plaintiffs, who will
suffer irreparable harm from the disclosure of their private and
business affairs.

370a
Appendix I
questionable authorization, their legislative purposes,
and the pertinence of particular disclosures remain.
The record as to hardship, moreover, is sparse, and does
not reflect either parties’ concerns as to the disclosure
or nondisclosure of particular categories of information
sought by these extraordinarily broad subpoenas. The
majority disagrees on both counts, concluding that while
the questions here may be “serious,” they are without
merit, Maj. Op. at 100-01, and that even if the balance
of hardships tips in Plaintiffs’ favor, it does not do so
“decidedly,” Maj. Op. at 102. For the reasons already
expressed, however, I cannot join in this assessment.
Next (and notably), a broader remand is necessary
here, even taking the majority on its own terms—even
assuming (incorrectly) that the district court’s judgment
could be substantially affirmed on the present record.
This is because the majority’s remand is inadequate to
address the privacy and pertinency concerns that the
majority itself identifies and deems important. As to
sensitive personal information and an unspecified category
of “nonpertinent” material, the majority concludes that
the Plaintiffs should be afforded an opportunity to object
to disclosure on privacy and pertinency grounds. It notes
that “[t]he Committees have advanced no reason why the
legislative purposes they are pursuing require disclosure”
of “payment for anyone’s medical expenses,” for instance,
and the majority thus forbids it. Maj. Op. at 84. But by
providing the Plaintiffs with an opportunity to object only
as to limited, specific categories of information sought
pursuant to these subpoenas, the majority creates the
very potential for unwarranted disclosure of sensitive
information that it purports to disallow. The majority
thus orders compliance with, for instance, the Deutsche

371a
Appendix I
Bank subpoena’s demand for “any document related to
any domestic or international transfer of funds in the
amount of $10,000 or more,” including any “check,” J.A.
at 38, providing no opportunity for Plaintiffs to object
that the sought-after material is sensitive and related to
no legislative purpose at all.
Perhaps there is no material responsive to this
category that would trigger Rule 26(c)(1)’s protections
against “embarrassment, oppression, or undue burden” in
a routine civil case. Fed. R. Civ. P. 26(c)(1). Perhaps such
material does exist. We cannot know until the documents
are assembled and objections are made. The privacy and
pertinency concerns that the majority purports to address
simply cannot be addressed in the abstract. And by
declining a full remand to permit a record to be made, the
majority affords less protection against the unwarranted
disclosure of personal information regarding a sitting
President and his family than would be afforded to any
litigant in a civil case.
Finally, I also disagree with the majority’s implicit
assessment that the Plaintiffs have demonstrated no
stake in the privacy of their business-related information
that merits further review. Indeed, to the extent that
the majority does show a reasonable concern for the
needless disclosure of Plaintiffs’ private and nonpertinent
information, this concern does not generally extend to
private business information at all, even though such
information may implicate the same issues of privacy and
(non)pertinence. To be sure, the majority is correct that
Congress must have the ability to investigate businesses
(even closely-held ones) in aid of legislation. And such
investigations, serving a public good, will sometimes cause

372a
Appendix I
competitive harm. 32 But particularly in light of the very
broad disclosure sought by these subpoenas (which, with
regard to many transactions, could require the production
of information from both this year and from decades ago),
the majority has proffered no clear reason for denying the
Plaintiffs an opportunity to object more generally to the
disclosure of such material.
The majority argues that any hardship from business
disclosures is offset in this case by the fact that Presidents
already “expose for public scrutiny a considerable amount
of personal financial information pursuant to the financial
disclosure requirement of the Ethics in Government Act, 5
U.S.C. app. §§ 101-111.” Maj. Op. at 102. But this is beside
the point—or perhaps makes the point that the majority’s
approach is problematic.
Public disclosures made pursuant to the Ethics in
Government Act are required by law, pursuant to a
statute that has run the gantlet of bicameralism and
presentment. In making disclosures pursuant to this Act,
a President complies with a statute that presumptively
reflects a democratically enacted consensus regarding
32. Federal Rule of Civil Procedure 26(c)(1)(G) permits a
district court to issue protective orders to prevent public disclosure
of “confidential . . . commercial information,” a protection not afforded
or offered to the Plaintiffs by the Committees here. The majority does
not include these competitive harms as “irreparable injuries” in its
analysis, restricting its focus only to “loss of privacy.” See Maj. Op.
at 101-02. The irreversible nature of the competitive harm risked by
immediate and unconditional disclosure, and the lack of safeguards
common to typical discovery procedures in civil litigation, further
buttress my view that these subpoenas, as drafted, raise serious
questions which a remand would aid in resolving.

373a
Appendix I
the financial disclosures that a Chief Executive should be
required to make. These House subpoenas, by contrast,
require “considerably more financial information,” as
the majority concedes, but themselves raise substantial
questions as to whether they are supported by “sufficient
evidence of legislative authorization and purposes to
enable meaningful judicial review.” Maj. Op. at 55, 102.
And as Judge Katsas suggested in dissent from the denial
of rehearing in banc in Mazars, the scope of required
disclosure “is determined . . . by the whim of Congress—
the President’s constitutional rival for political power—or
even, as in this case, by one committee of one House of
Congress.” Mazars, 2019 U.S. App. LEXIS 33932, 2019
WL 5991603, at *1 (Katsas, J., dissenting from the denial
of rehearing en banc). In such circumstances, and taking
the majority’s analysis on its own terms, it is not clear
why the majority limits its remand to the particular
categories of information that it has selected, as opposed to
permitting a more general opportunity to object regarding
nonpertinent business information and the irreparable
injury that will attend its disclosure.
For all the reasons that I have laid out here, this
matter should be returned to the district court. The
remand that I have outlined would clarify the issues at
stake so that a reasoned determination could be made as to
whether serious questions persist, and where the balance
of hardships lies. Indeed, given the lack of historical
precedent for these subpoenas; their extraordinary
breadth; and the persistent questions here regarding
authorization, legislative purposes, and pertinence, a
remand for development of the record with regard to
specific categories of information is far preferable to the
majority’s approach.

374a
Appendix I
Such a procedure would also encourage negotiation
between the parties and potentially narrow the scope of
this dispute. Because I conclude, contrary to the majority,
that this case implicates the Supreme Court’s caution to
“tread warily” in matters pitting the power of Congress
to investigate against other substantial constitutional
concerns, Rumely, 345 U.S. at 46, and because the “serious
questions” delineated above sound in separation of powers,
see Pub. Citizen v. Dep’t of Justice, 491 U.S. 440, 466,
109 S. Ct. 2558, 105 L. Ed. 2d 377 (1989) (noting that the
Supreme Court’s “reluctance to decide constitutional
issues is especially great where . . . they concern the
relative powers of coordinate branches of government”),
this matter falls within a range of cases in which we
should attempt, if possible, to “avoid a resolution that
might disturb the balance of power between the two
branches,” AT&T II, 567 F.2d at 123. Perhaps that is not
possible here. But as the D.C. Circuit has recognized in the
past, congressional committees and the Chief Executive
“have a long history of settlement of disputes that seemed
irreconcilable” and such resolutions, where possible, are
to be preferred, since “[a] court decision selects a victor,
and tends thereafter to tilt the scales.” AT&T I, 551 F.2d
at 394; see also id. at 391 (noting possibility of “better
balance . . . in the constitutional sense” from “political
struggle and compromise,” rather than court decision);
Rumely, 345 U.S. at 45-46 (noting that a “[c]ourt’s duty to
avoid a constitutional issue, if possible, applies not merely
to legislation . . . but also to congressional action by way
of resolution”—indeed, most especially in this context).
Accordingly, I would withhold decision as to balance
of hardships and remand to permit the district court and
the parties the opportunity to provide this Court with

375a
Appendix I
an adequate record regarding the legislative purpose,
pertinence, privacy and separation of powers issues in
this case. Such a procedure, as in AT&T I, 551 F.2d at
394-95, and AT&T II, 567 F.2d at 128-32, could narrow
the scope of the present dispute. But it is required in any
event, because the record simply does not support the
majority’s decision to order immediate compliance with
these subpoenas, but for a “few documents,” Maj. Op. at
85, falling within its preselected categories. To be clear,
I reach this resolution guided by the Supreme Court’s
admonition in Rumely that the outer reaches of Congress’s
investigative power are to be identified reluctantly, and
only after Congress “has demonstrated its full awareness
of what is at stake by unequivocally authorizing an inquiry
of dubious limits.” 345 U.S. at 46. Serious questions persist
with regard to these subpoenas—questions demanding
close review lest such novel subpoenas prove a threat to
presidential autonomy not only now but in the future, and
“to the detriment of not only the President and his office
but also the Nation that the Presidency was designed to
serve.” Fitzgerald, 457 U.S. at 753. Once the parties have
provided this Court with the information that I would seek
on remand, we would at that point have a sufficient record
on which to make a prompt and reasoned determination
as to where the balance of hardships lies and whether the
Plaintiffs, having raised serious questions on the merits,
are entitled to preliminary relief.

376a
Appendix J OF THE UNITED
APPENDIX J — JUDGMENT
STATES COURT OF APPEALS FOR THE SECOND
CIRCUIT, DATED DECEMBER 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
Docket No. 19-1540
DONALD J. TRUMP, DONALD J. TRUMP, JR., ERIC
TRUMP, IVANKA TRUMP, DONALD J. TRUMP
REVOCABLE TRUST, TRUMP ORGANIZATION,
INC., TRUMP ORGANIZATION LLC, DJT
HOLDINGS LLC, DJT HOLDINGS MANAGING
MEMBER LLC, TRUMP ACQUISITION LLC,
TRUMP ACQUISITION, CORP.,
Plaintiffs-Appellants,
v.
DEUTSCHE BANK AG, CAPITAL ONE
FINANCIAL CORPORATION,
Defendants-Appellees,
COMMITTEE ON FINANCIAL SERVICES
OF THE UNITED STATES HOUSE OF
REPRESENTATIVES, PERMANENT
SELECT COMMITTEE ON INTELLIGENCE
OF THE UNITED STATES HOUSE OF
REPRESENTATIVES,
Intervenor Defendants-Appellees.

377a
Appendix J
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York, on the 3rd day of December, two
thousand nineteen.
Before:
Jon O. Newman,
		
Peter W. Hall,
		
Debra Ann Livingston,
			Circuit Judges.
JUDGMENT
The appeal in the above captioned case from an order
of the United States District Court for the Southern
District of New York was argued on the district court’s
record and the parties’ briefs. Upon consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the district court’s order is AFFIRMED
in substantial part and REMANDED in part.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/ Catherine O’Hagan Wolfe

